<html>
<title> - OVERSIGHT HEARINGS ON CLINTON-GORE ADMINISTRATION'S FOREST SERVICE ROADLESS AREA MORATORIUM</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  OVERSIGHT HEARINGS ON CLINTON-GORE ADMINISTRATION'S FOREST SERVICE 
                        ROADLESS AREA MORATORIUM

=======================================================================

                           OVERSIGHT HEARINGS

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

             FEBRUARY 25 AND MARCH 17, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-72

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
47-305 cc                   WASHINGTON : 1998





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearings:
    February 25, 1988............................................     1
    March 17, 1998...............................................    97

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho
        February 25, 1998........................................     1
        March 17, 1998...........................................   197
    Crapo, Hon. Michael D., a Representative in Congress from the 
      State of Idaho.............................................     5
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     5
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................    10
        Prepared statement of....................................    12
    Hinchey, Hon. Maurice D., a Representative in Congress from 
      the State of New York......................................     3
    Hutchinson, Hon. Asa, a Representative in Congress from the 
      State of Arkansas..........................................    16
    Oberstar, Hon. James L., a Representative in Congress from 
      the State of Minnesota.....................................    19
        Prepared statement of....................................    22
    Peterson, Hon. John E., a Representative in Congress from the 
      State of Pennsylvania, prepared statement of [February 25, 
      1998]......................................................    10
        Statement of [March 17, 1998]............................    99
    Schaffer, Hon. Bob, a Representative in Congress from the 
      State of Colorado..........................................     7
    Taylor, Hon. Charles H., a Representative in Congress from 
      the State of North Carolina................................    13
        Prepared statement of....................................    14
    Vento, Hon. Bruce F., a Representative in Congress from the 
      State of Minnesota, prepared statement of..................     9

Statements of witnesses:
    Atkin, Brent, President, Public Lands Council, St. George, 
      Utah.......................................................    86
        Prepared statement of....................................   162
    Amador, Don, Recreationist, Blue Ribbon Coalition............    74
        Prepared statement of....................................   208
    Banzhaf, Bill, Executive Vice President, Society of American 
      Foresters..................................................    72
        Prepared statement of....................................   202
    Coleman, Timothy J., Executive Director, Kettle Range 
      Conservation Group.........................................    90
        Prepared statement of....................................   242
    Davidge, Ric, Anchorage, Alaska..............................   141
        Prepared statement of....................................   291
    Dolezal, Larry, Lincoln County Commissioner, Troy, Montana...    68
        Prepared statement of....................................   189
    Dombeck, Michael, Chief, U.S. Forest Service.................    28
        Continuation of statement of.............................    34
        Prepared statement of....................................   160
        Prepared statement of....................................   163
    Gerhrke, Craig, Regional Director, The Wilderness Society....    83
        Prepared statement of....................................   231
    Hahn, Sharon, Lake County Commissioner, Two Harbors, 
      Minnesota..................................................   139
        Prepared statement of....................................   286
    Hamilton, Jerry, Silviculturist, Retired, Forest Service.....    93
        Prepared statement of....................................   267
    Holmer, Steve, Campaign Coordinator, Western Ancient Forest 
      Campaign, Washington, DC...................................   144
        Prepared statement of....................................   167
    Kiehl, David W., Vice President, North East Hardwoods, Inc., 
      Marienville, Pennsylvania..................................   142
        Prepared statement of....................................   301
    Marlenee, Hon. Ron, Consultant, Government Affairs, Safari 
      Club International.........................................   137
        Prepared statement of....................................   166
    Peterson, Max, Executive Vice President, International 
      Association of Fish and Wildlife Agencies..................    67
        Prepared statement of....................................   178
    Phelps, Jack, Executive Director, Alaska Forestry Association    75
        Prepared statement of....................................   216
    Powers, Bob, Legislative Advocate, United Brotherhood of 
      Carpenters and Joiners of America..........................    87
        Prepared statement of....................................   237
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................    30
        Prepared statement of....................................    31

Additional material supplied:
    American Petroleum Institute.................................   271
    America's Wildlands at Risk: The Need to End Logging in 
      National Forest Roadless Areas.............................   306
    Leaf, Charles, F., P.E., Platt River Hydrologic Research 
      Center, Colorado...........................................   169
    Letters from Mr. Stupak and Mr. Cheney to Mr. Dombeck and Mr. 
      Solomon....................................................   282


   OVERSIGHT HEARING ON CLINTON-GORE ADMINISTRATION'S FOREST SERVICE 
                        ROADLESS AREA MORATORIUM

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth [chairwoman of the Subcommittee] presiding.
    Mrs. Chenoweth. [presiding] The Subcommittee on Forests and 
Forest Health will come to order.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee is meeting today to hear 
testimony on the Clinton-Gore administration's Forest Service 
roadless area moratorium. I'd like to just say that forests 
don't take time out for Washington bureaucrats. So why is the 
Clinton-Gore administration taking a timeout from sound forest 
health management practices? The administration claims that its 
moratorium on roadless area entry is a timeout on timber 
harvesting, but this is much larger than just timber 
harvesting. The ripple effect of the timeout affects the health 
of the national forests, the families and surrounding 
communities, who rely on the forests for their livelihoods.
    This timeout on the national forests is exceedingly 
harmful. While the country awaits the Clinton-Gore 
administration to get its act together and unchain our 
professionals, a wide range of wildlife, hunting, fishing, 
conservation, and recreation groups have expressed their 
concern about the administration's timeout. Under this 
moratorium everyone loses, except maybe some of the most 
extreme environmental groups who care little about people.
    Recreationalists have expressed their concern that they 
will lose access to the lands they hunt on. Conservationists 
have expressed their concern with the damage this poorly 
thought-out policy will have on the land. And the list of 
problems with this moratorium goes on and on.
    Why, then, is the Clinton-Gore administration moving 
forward with a policy that violates current law, has not gone 
through the NEPA process, and will do nothing to improve the 
forest environment? The answer is clear: There is nothing more 
than a political motivation that prompted this decision in 
order to appease the most radical elements of a single interest 
group. In developing their policy, they completely shut out the 
Congress, beyond the ground forest managers, and the American 
people. The broad-brush moratorium overriding the Forest 
Service's land management plans will undermine and make 
meaningless the agency's own procedures for decisionmaking, 
which were developed to comply with the National Forest 
Management Act, the National Environmental Policy Act, and many 
other laws.
    In a second generation of press leaks, the administration 
has tried to re-spin this story to focus on needed road 
repairs, and now they say that the maintenance backlog has 
doubled in the last 5 years to over $10 billion. They recently 
discovered an additional 60,000 miles of ghost roads that they 
didn't even know existed. One administration spokesperson 
likened the maintenance backlog to the crazy aunt in the 
basement that nobody wants to talk about. Well, we're willing 
to talk about it, but it seems like the crazy aunt in the 
administration is too busy giving press briefings.
    More recently, the Clinton-Gore administration announced 
its clean water action plan. They explained their initiative is 
needed in order to deal with the very large backlog of 
maintenance needs on existing forest roads. Under this new 
Clinton-Gore initiative, the Environmental Protection Agency 
will now require a Federal clean water permit before the Forest 
Service can conduct any maintenance on the forest roads.
    It is patently clear to this Member that any money given to 
the Forest Service to improve forest roads will be spent on EPA 
permits. There is no reason for Congress to spend money to 
support another set of conflicting Federal permit requirements. 
The administration must get its act together.
    We will have many, many questions for Chief Dombeck on his 
road maintenance needs. I hope he will have some answers, but 
at this point we are extremely skeptical of his approach. 
Indeed, by starting the debate on road maintenance with a 
surprise moratorium on access and by raising public concerns 
among those who depend upon access to the public lands for 
their economic well-being and recreational opportunities, the 
Forest Service has made it less, rather than more, likely that 
maintenance problems can be addressed.
    Their approach so far is akin to starting an Olympics 
speed-skating event by shooting themselves in both feet. The 
Clinton-Gore moratorium violates the two most important things 
that the Forest Service is charged to do. The first is to 
protect our forest resources and manage them in a sustainable 
manner, in order to pass them on to our next generations. The 
second is to make wise use of taxpayer funding.
    This policy, made in the back rooms of Washington, is 
nothing more than a political payoff to a core constituency. It 
is both bad for the environment and bad for the people. It is 
now time for Congress and the American people to stand up and 
put a stop to the Clinton-Gore administration's continual 
assault on environmental law, resource protection, and public 
participation.
    I now recognize Mr. Hinchey for any statement he may have. 
Mr. Hinchey?

   STATEMENT OF HON. MAURICE D. HINCHEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Hinchey. Well, thank you very much, Madam Chairman. Let 
me say that I'm delighted to have this opportunity to 
participate with you again on these important issues, and I 
thank you for your continued attention to the issues that come 
under the jurisdiction of the Subcommittee that you head.
    Today's hearing concerns the Forest Service's proposal for 
an 18-month moratorium on road construction in some current 
roadless areas of the lands under its jurisdiction. We are not 
here to consider any specific legislation, but rather to hear 
from the Forest Service directly about its proposal and to hear 
comments representing some, though not all, views on that 
proposal.
    We should take note at the outset that the Forest Service 
has requested public comment on the proposal, in accord with 
the regulatory process, and I am sure that the comments the 
Forest Service receives will represent in total an even broader 
range of views than what we may hear today.
    This issue has been debated for years on the House floor, 
usually in the context of the Interior appropriations bill. As 
you know, Madam Chairman, the Democratic members of this 
Subcommittee asked last year that you hold hearings on the 
subject of forest roads policy, so we welcome this opportunity 
and thank you very much for doing so.
    The Forest Service has a responsibility to manage the lands 
under its jurisdiction in keeping with its own best judgment 
and in consideration of the interests of all the different 
categories of users of the forests, in consideration of all 
American taxpayers who are contributing to the Forest Service's 
budget, and ultimately, of all Americans, since we all have an 
ownership interest in the national forests. I know that my 
constituents are acutely aware of their stake in the forests, 
and I'm sure the same is true of all of our colleagues, no 
matter where they may come from across the country.
    Road policy is an important part of that responsibility. 
The Forest Service acknowledges its inability to maintain the 
existing system. Its maintenance backlog comes currently to 
$10.5 billion. Eighty percent of the roads our people use the 
most--anterior and collector roads--are in need of repair. My 
question has always been, why we are spending money to build 
new roads when the Service can't maintain the existing ones.
    We have also had ample evidence that new logging roads 
contribute to environmental problems that harm people who live 
near the forests, as well as the forest themselves; that they 
are a factor in flooding, landslides, and destruction of fish 
and wildlife habitat.
    I'm interested in hearing today's testimony, especially 
from Chief Dombeck. But let me offer my own brief thoughts on 
the proposed moratorium, based on what I have seen thus far. I 
believe it is a sound and a sensible plan. Its primary 
objective is to give the Forest Service time for a thorough 
review of its roads policy. As I have suggested, such a review 
is overdue.
    The lack of a consistent policy based on current science 
and empirical evidence of the consequences of road construction 
is a major problem for the environment, also a major problem 
for the taxpayer, as well as for many forest users, and for all 
of us as owners of the national forests. We need a new road 
policy that will serve the broad public interest. These are 
among the issues that I hope will be addressed thoroughly 
during the Forest Service's review and formulation of a new 
policy.
    I can also appreciate the value of imposing a moratorium 
while the review goes forward. Without a moratorium, there 
would be a strong possibility that construction could take 
place during that period which would undermine, or in fact 
contradict, the goals of the new, emerging policy. A moratorium 
is the only way to prevent such actions. The moratorium should 
also better allow the Service to conduct an up-to-date 
inventory of its roads that would be essential to its 
decommissioning plans.
    Despite my strong support for the goals of the proposal, I 
do want to raise one important concern about its specifics. I 
believe that it would be a serious mistake to exempt specific 
forests and portions of forests from the list of affected 
areas, as the Forest Service has proposed doing. I understand 
the rationale that these areas have been recently reviewed. 
However, they were not reviewed for the specific purpose of 
developing a road construction policy and were not reviewed 
with the specific goals of the still undetermined new roads 
policy in mind.
    Among those exempt areas, I am particularly concerned about 
two. They are the Tongass National Forest and the forest 
included in the Northwest Forest Plan. The Tongass plan would 
allow significant development of new roads in currently 
roadless areas that may not be consistent with the new policy. 
The Northwest Forest Plan was developed for the purpose of 
protecting specific endangered species, not for the much 
broader purpose of the proposed new policy.
    In short, I see a pressing need for a new roads policy and 
agree with the goals enunciated in the proposal. The moratorium 
is an essential instrument in the developing of a consistent 
new policy. But the new policy and the moratorium should be 
genuinely consistent. To achieve that, it is essential that the 
entire system be considered. The moratorium and the policy 
should not exempt forests that represent such a substantial 
share of the Forest Service's acreage and such a substantial 
share of its most critical and unique resources.
    Madam Chairwoman, once again, I thank you for the 
opportunity to comment in the course of this hearing, and 
express again my appreciation for your attention to this issue.
    Mrs. Chenoweth. Thank you, Mr. Hinchey, and I appreciate 
your very sincere interest in this issue, too, and your trip 
out to the West was very impressive. Thank you very much.
    Mr. Hinchey. And most enjoyable, I might add.
    Mrs. Chenoweth. Thank you.
    I've very pleased that my colleague from Idaho has joined 
us, and I'm going to go a little bit out of order and ask him 
if he has an opening statement, Mr. Crapo.

    STATEMENT OF HON. MICHAEL D. CRAPO, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Crapo. Thank you very much, Madam Chairman. I 
appreciate the fact that although I don't sit on this 
Subcommittee, you've allowed me to sit with the Committee 
today.
    I just want to add my comments to yours, expressing 
significant concern about the moratorium that has been imposed. 
Without compliance with law, it does not adequately address 
significant forest health and forest planning concerns.
    In my district in Idaho, there is a strong belief that this 
policy will simply continue and exacerbate further restrictions 
of access to the public lands that are now causing people from 
many different quarters, whether it be recreationists or 
conversationists or those who have legitimate purposes for 
desiring access to the public lands--it is appears that this is 
just one more, and one more major, effort to further restrict 
the public from access without justification in any reasonable 
policy.
    For those reasons, I appreciate the fact that you have held 
this hearing today. I look forward to the information that will 
come forward and pledge my support to work with this Committee 
in trying to resolve this very important issue. Thank you, 
Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Crapo.
    And the Chair now recognizes the senior member on this 
issue, and not necessarily senior in age, but senior in very 
high respect, Mr. Hansen.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Well, thank you, Madam Chairman. I appreciate 
being with you, and I compliment you for holding this hearing 
today.
    Let me point out, as, yes, one of the old dogs around here, 
that's true----
    [Laughter.]
    Mrs. Chenoweth. Oh, no.
    Mr. Hansen. [continuing] and having sat on this Committee 
for 18 years, and having had many hearings regarding this 
issue, I'm somewhat concerned about some of the proposals by 
the administration. There's a lot of myths that seem to float 
around about the Forest Service. I really enjoy having people 
come in front of us, and having the burning in their bosom 
about having the forest be nice and clean and healthy. That's 
all well and good. I have a lot more respect for the scientists 
and the foresters and the people who have spent some time on 
the ground.
    And some of those myths really bother me. If I may say so, 
the idea that we can't thin and cut the forest is one of the 
things that kind of amazes me from time to time, because that's 
where we get a healthy forest.
    I compliment Chairman Chenoweth on the idea of keeping a 
healthy forest out there. I would suggest that every person who 
has some interest in this should really listen to the gentleman 
who is past president of Greenpeace. He gave an exceptionally 
fine presentation, and scientifically based, on why we should 
keep the forests healthy. He talked of how we do it. Cut out 
the old growth, thin the forests, better for wildlife and 
endangered species.
    Madam Chairman, if you'll indulge me for a couple more 
minutes, I would like to mention something about a forest 
that's in the First Congressional District of Utah that happens 
to be called the Dixie National Forest. The forest supervisor 
is a fellow by the name of Hugh Thompson. In that area, years 
ago when our ancestors went in that area--and I have pictures 
of the first tintypes, as they're referred to, and there was 
nothing on those hills, a few scrub oak, and that was about it. 
And now the thing is absolutely beautiful, a gorgeous forest.
    Now here comes along this little thing we know as the pine 
beetle up there by Brianhead, a very famous area. The forest 
supervisor, Mr. Thompson, said, ``I could go in there and cut 
out 30 acres of that, and the healthy trees would make it.'' 
But, no. Why, I asked myself, did the environmental communities 
want to kill the forest? But they go in there and file an 
injunction against the Forest Service, and so as that's 
adjudicated, these little rascals just keep eating.
    Now I just challenge anybody on this Committee, or 
anywhere, to just go into that area from Cedar City, Utah, over 
that gorgeous area over U.S. 89, where we have all the national 
parks and some of the red rock, the most beautiful area in 
America, and you've got a dead forest. You've got hundreds of 
thousands of acres of dead forest.
    Now the scientists come along and they say, well, now 
what's going to happen is we will give you 100 percent 
guarantee, Congressman, that you will have a fire. There's just 
no hope, because you've got this fuel load of dead forest in 
there. He said, now we'll guarantee that you'll have a 
bellywasher in there, and there goes your topsoil.
    So I ask my friends in the environmental community--don't 
get me wrong; I know the environmentalists have done us a great 
job in many instances, but I think this is a very extreme 
position they're taking on this. And I feel if we're not going 
to have roads, or we can't go in and do a little cutting a 
little timber, we're in trouble.
    And in that forest, they've pretty well stopped that. The 
sawmills, Escalante and Kiobab, are dead, gone, and over. And 
now when we go in, guess how we do it? We do it by helicopters. 
Now I don't know if the figure's correct, Madam Chairman, but I 
hear the figure to do it with helicopters is $500 an hour, and 
you put them on flatbeds and then you've got to send them to 
California and Montana to be processed, where before we were 
processing them within 20 miles.
    And now people ask you, well, why is the cost of timber 
going up? Joe Cannon, the head of Geneva Steel, told me you can 
build a house out of steel cheaper than you can timber.
    So when we start getting into this thing of coming in here 
and saying, gee, we want a beautiful, green forest, let's use a 
little science in the idea. Let's talk about the people who 
have taken care of it for years and years, rather than do it 
just because we happen to fly over and see a green carpet 
there.
    Thank you for allowing me to get that off my chest.
    [Laughter.]
    Mrs. Chenoweth. Thank you, Mr. Hansen.
    The Chair now recognizes Mr. Schaffer.

 STATEMENT OF HON. BOB SCHAFFER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Schaffer. Well, thank you, Madam Chairman. You know, 
out in my State, in Colorado, this has been just a huge issue 
with all of those who are concerned and associated with 
forestry in the State, and that's quite a lot of people in a 
State like Colorado. Our State legislature has held joint 
hearings between the State house and the State senate and 
invited the Forest Service to come and testify.
    And I'll tell you why they are concerned. One is because 
their constituents are directly affected economically, as well 
as on a basis of having access to national forests on a 
recreational basis as well. There are a number of existing 
contracts that are, in fact, betrayed by the actions of the 
Forest Service, which is unacceptable.
    The access to recreation, as I mentioned, is an essential 
element and part of our economy out in the West. Lots of people 
come to Colorado and to western States in general to enjoy the 
great outdoors and to have an opportunity to recreate on public 
lands, and the Forest Service land specifically, from the 
perspective of resource management, the experts that we have in 
the State. I have yet been able to find a single one of them 
that sees any credibility in the plan put forward by the Forest 
Service on this moratorium or to explain on any logical basis 
what the motivation may be with respect to actually helping or 
preserving the integrity of our environment in the area.
    Again, the experts, the scientists, those who know the most 
about forest management are completely baffled by the actions 
of the Forest Service, and there really is more at stake here 
than just the credibility of the Forest Service. I believe that 
what credibility they have has been significantly eroded by 
these latest actions. But the health of the forest in general 
is of quite concern as well.
    Water is critically important in Colorado, being a 
headwater State. We're one of two States in the Union where no 
water flows in, no water that's appropriated anyway. All of our 
water flows out. Incidentally, the other one is Hawaii. So the 
effect of a balanced forest management system on water supply 
and water quality is of critical concern, even for people out 
on the eastern plains of the State who rely on sound forest 
management for a dependable water supply.
    The proposal essentially prohibits access to about 34 
million acres of national forest lands and untold millions of 
acres of special areas to be determined by the Regional 
Forester. The proposal ignores the role of Congress entirely in 
designating wilderness areas, or effectively designating them 
as such, and undermines the critical local input into forest 
planning. It just really threatens our local economy and the 
very health of our national forests.
    Madam Chairman, Dr. Charles Leaf, one of my constituents 
who is also a forester and research scientist from the Platt 
River Hydrologic Research Center, was scheduled to testify 
today on the hydrologic impacts of roads, timber harvesting, 
and wildfire. Unfortunately, we had a big snowstorm out in 
Colorado this morning and yesterday afternoon that prevented 
him from appearing today. I'd like to summarize what Dr. Leaf 
would have testified today, with your indulgence. It's just a 
brief statement.
    ``Today national forests are efficient producers of 
excellent quality water. The key to this dependable water 
supply is the favorable balance that exists between wind, snow, 
trees, and sunshine. That balance depends upon active 
management of our national forests. The negative environmental 
effects of wildfire are much more severe than those from forest 
roads; a Trendell and Bevinger study in 1996 came to that 
conclusion. The Yellowstone demonstrated, for example, that 
water yields, while they increased by 35 percent, actually 
decreased in quality because of sedimentation.
    ``We've heard much about the negative side of roads and 
timber-cutting. Bad logging practices can produce hydrologic 
impacts similar to those resulting from fire. However, research 
by the U.S. Forest Service has shown that proper harvesting 
methods and the careful placement of roads to minimize the 
number of stream crossings, soil disturbances, can greatly 
reduce erosion and virtually eliminate sediment entry into 
streams. For example, at the Frasier Experimental Forest in 
Colorado, removal of 35 to 40 percent of the forest cover in 
various systems of small openings resulted in 25 percent 
increase in water yields, with little or no introduction of 
sediment into streams.
    ``Finally, the application of today's technology and 
understanding, based on nearly 100 years of research, can allow 
road construction and timber harvesting to take place without 
causing significant negative impacts to forest health. The 
increased water yields associated with timber and watershed 
management in the Rocky Mountains should play a vital role in 
providing solutions to current environmental problems. With 
responsible timber management and road-building techniques, 
increased water yields can be produced without a significant 
decrease in water quality.
    ``Studies have shown that environmentally sound patch-
cutting and other forest-clearing methods designed to enhance 
stream flow could replenish water supplies from national forest 
lands without decreases in water quality, and increased water 
yields could then be used for municipal use, irrigation, or to 
augment flows for endangered species downstream.''
    Madam Chairman, I would ask unanimous consent that Dr. 
Leaf's full testimony be made part of the record, and the 
Committee has possession of that.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Schaffer. Thank you, Madam Chairman.
    [The prepared statement of Mr. Leaf may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    And the Chair is very pleased--excuse me, Mr. Hinchey.
    Mr. Hinchey. Madam Chairman, excuse me. I have a statement 
here from Mr. Vento. He may not be able to make it, and I'd ask 
unanimous consent that his statement may be entered into the 
record.
    Mrs. Chenoweth. Without objection, so ordered.
    [The prepared statement of Mr. Vento follows:]

Statement of Hon. Bruce F. Vento, a Representative in Congress from the 
                           State of Minnesota

    I am pleased to make a positive statement today in support 
of the Forest Service's responsible new proposal on National 
Forest roadless areas. This is a moderate, reasonable proposal, 
and I commend Forest Service Chief Dombeck for his hard work.
    I want to make one thing very clear: I support logging as a 
multiple use of our National Forests. I chaired the 
Subcommittee on Parks and Public Lands for a number of years. 
If I had been opposed to logging on special public lands, I 
would have done something about it. So let's get that on table 
right away.
    There are 373,000 miles of roads in our National Forests. 
That's more than the interstate highway system. The current 
backlog for maintenance of existing roads in National Forests 
is $10 billion and growing. According to the Forest Service, 
due to these funding limitations, only around 40 percent of 
these roads are fully maintained to acceptable safety or 
environmental standards. Clearly, we have a problem that is 
growing larger and larger each year. Receipts are down and the 
cost of forest programs is up. Past practices and remediation 
was inadequate when the annual sales and harvest were much 
higher.
    Something has to give. Chief Mike Dombeck and the Forest 
Service are taking a bold, but reasonable step. They decided to 
take an 18 month time-out on building more roads in roadless 
areas. Following this 18 month moratorium, the Forest Service 
will submit for public comment a final proposal that will most 
likely change current regulations on road construction in 
roadless areas. This new effort will provide an affordable 
policy path that matches sustainability and balance. This will 
cause some hardship, but when a problem is spinning out of 
control it's best to try and get a handle upon it before you 
completely lose the forest.
    It is important to clarify what the proposal is as we 
discuss and debate it. It will account for areas inventoried in 
forest plans that are usually 5,000 acres or more, areas over 
1,000 acres contiguous to roadless areas of 5,000 acres or 
more, roadless areas over 1,000 acres that are contiguous to 
Congressionally designated wilderness or Wild and Scenic 
Rivers, and, finally, roadless areas, regardless of size, that 
a regional forester determines has unique ecological or social 
values. That accounts for roughly 33 million acres of the 
National Forest System, about 9 million of which are considered 
suitable for timber harvest. Incidentally, this has everything 
to do with forest health, watershed restoration, replanting and 
maintenance aspects. Forest health can't degenerate into just 
an excuse to make up for a sustainable yield number that 
doesn't match industry demands through so called salvage.
    The Forest Service notably exempted two important areas 
from this moratorium, the Tongass National Forest and so called 
``Option Mine'' National Forests. In a perfect world. perhaps, 
Mr. Dombeck could have included these areas in the moratorium. 
And I suppose he still could. But I respect the Forest Services 
rationale for not including these areas. We in Congress at 
least should understand the long-term planning and appeals 
processes that is envisioned. By this process, it is likely 
that the final policy that the Forest Service adopts after the 
18 month moratorium, will apply to all National Forests. While 
I respect the concerns of some members of the environmental 
community about this aspect of the plan, I do not think these 
concerns should hinder us from achieving the progress this 
proposal represents.
    Just consider the goals of this plan. First, the Forest 
Service wants fewer and more environmentally sound roads built. 
Second, they aim for the decommissioning of unused or 
ecologically harmful roads. And finally, they want the roads 
that are most heavily used by the public to be safer and more 
efficient. I have observed the Forest Service for many years. 
The positive potential that this proposal represents should not 
be underestimated. This proposal is a big step forward in our 
effort to professionally improve the management of our National 
Forests so that we are serving the people based on the resource 
and sustainability of the forest--within the budget and within 
the land use laws.
    I don't deny that this will have an effect on the timber 
industry. The Forest Service itself notes that we'll see a 
reduction of as much as 275 million board feet in the volume of 
timber it will offer for sale. But we do a lot for the timber 
industry already. The purchaser road credit program alone eats 
up tens of millions of dollars that we could be using for 
recreation, research or conservation. Hopefully, in addition to 
this important roadless area reform policy, we can close the 
books on that wasteful, irresponsible program for good later 
this year. Then we'll have made some real progress toward 
protecting the natural legacy of our children for future 
generations.
    So I thank Forest Service Chief Dombeck for bringing this 
responsible proposal to us. I offer my support and advice to 
you as this process continues. And I thank the chairwoman for 
holding this important hearing. I imagine that this is the 
first of many discussions we'll have on this topic.

    [The prepared statement of Mr. Peterson follows:]

 Statement of Hon. John E. Peterson, a Representative in Congress from 
                       the State of Pennsylvania

    Chairman Chenoweth, I am pleased to have the opportunity to 
participate in this important hearing this morning, and I 
appreciate your strong leadership on this issue and forestry 
matters in general.
    With so many questions left unanswered by the Forest 
Service's proposal to halt all road activity on national 
forests for 18 months, I look forward to hearing their 
testimony. Hopefully, they will be able to offer up an 
explanation of what I believe is a mix-guided and ill-advised 
proposal.
    The impact on land within the Allegheny National Forest, 
which is located in my Congressional District, is unknown at 
this point. Any impact--via a moratorium designation--would be 
decided by the Regional Forester on a case-by-case basis. Given 
this uncertainty, it leaves the lives and livelihoods of people 
living in surrounding communities hanging in the balance. 
Nationally, the estimated job loss resulting from this 
moratorium is 12,000 jobs with an estimated loss of timber 
ranging between 200 and 700 million board feet in Fiscal Year 
1998. This comes on top of a proposed reduction in the 
President's Budget Request for the national timber sale program 
for Fiscal Year 1999.
    By all indications, the road moratorium appears to be a 
backdoor approach to halting timber sales on our national 
forests--defying the principle of multiple use. What the public 
is led to believe by national environmental organizations about 
the state of our national forests is dramatically different 
than what is actually taking place. It is important to note 
that not once in the history of the timber sale program has the 
allowable sale quantity been exceeded. Further, there has been 
a 60 percent reduction in timber harvesting over the past ten 
years with timber currently growing three times faster than 
what is actually being harvested. Clearly, we are inching 
towards a regretful and ill-advised policy of ``no-cut'' on our 
public lands.
    The road moratorium raises other flags as well, including: 
the affect on forest management practices and subsequently 
forest health; the role of national forest plans in the 
development of these new regulations; the future of the timber 
sale program; and avenues for public comment and involvement.
    Mrs. Chairman, I look forward to hearing the testimony of 
the Forest Service so that I can provide overdue answers to 
such questions lingering in the minds of my constituents and 
colleagues alike.

    Mrs. Chenoweth. The Chair now is very pleased to recognize 
two colleagues who are here with us. We'll be having more 
colleagues arrive for testimony, and we'll work them in as we 
can, but I didn't want to delay any more. And so the Chair now 
recognizes Wally Herger, the gentleman from California. Mr. 
Herger?

 STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Herger. Madam Chair, members of the Subcommittee, I 
thank you very much for the opportunity to speak today 
regarding the United States Forest Service proposed moratorium 
for road-building in roadless areas on our national forests.
    I am greatly disappointed that the Clinton-Gore 
administration would be willing to sacrifice the health of our 
national forest system to advance what would appear to be an 
extreme environmentalist agenda which could lead to no forest 
thinning on Federal lands. Our forests need the option of 
building roads as an integral tool in allowing access to 
restore forest health. Historically, our national forests were 
filled with stands of large trees. The forest floors were less 
dense and were often naturally thinned by fires that would 
clean out dense underbrush and would leave the big trees to 
grow bigger. However, because of decades of aggressive fire 
suppression in the West and modern, hands-off management 
practices like those advocated by the moratorium, these forests 
have been allowed to grow out of hand, creating an almost 
overwhelming threat of fire.
    The question is not if we will have a fire, but when our 
forests will burn and how much will be destroyed. According to 
Forest Service's own estimates, approximately 40 million acres 
of forest lands are at a high risk of catastrophic fire. The 
cause of this fire threat is an unnatural accumulation of 
vegetation and small trees on western forest floors.
    The U.S. Forest Service estimates forests are 82 percent 
denser than in 1928. Dense undergrowth, combined with 
increasing taller layers of intermediate trees, has turned 
western forests into deadly fire timebombs. Under proper 
conditions, fire quickly climbs up dense tree growth like a 
ladder until it tops out at the uppermost or crown level of the 
forest and races out of control as a catastrophic fire. Because 
of its high speed and intense heat, a crown fire has the 
capability of leaving an almost sterile environment in its 
wake, with almost no vegetation, wildlife, or habitat left 
behind. We must then ask ourselves, what habitat do we have 
left if everything in the forest burns?
    Additionally, this moratorium has the potential of limiting 
access to our national forests. Fires know no boundaries. 
Without adequate access, it is more difficult and more 
dangerous for firefighters to battle out-of-control fires. It 
is appalling that this access, which can be so vital to the 
preservation of life and property, would be unnecessarily 
limited. According to fire personnel in my northern California 
district, the best and most effective way to fight fires is 
through a direct ground attack. When there are no roads, our 
fire crews cannot gain ground access to fires. Officials are 
then left with secondary options of combined air attacks that 
are increasingly more expensive, less effective, and extremely 
more dangerous for the firefighters who have to parachute into 
wild country. Sudden shifts in wind can wreak havoc on air 
attacks and can threaten the lives of unsupported firefighters. 
An adequate road system, on the other hand, allows ground crews 
quick access and allows a more steady support system for fire 
personnel.
    I'd like to encourage the Forest Service to proactively 
implement plans to restore forests to their historic, healthy 
conditions. Instead of pursuing management options that close 
down dialog, the Forest Service should pursue programs like the 
Quincy Library Group solution that includes local communities 
and promotes active solutions to restore forests to healthier, 
more fire-resilient conditions. These goals are not achieved 
under the road moratorium proposed by the Clinton-Gore 
administration. If anything, the moratorium makes matters worse 
by once again polarizing the issue and by excluding key parties 
from the dialog.
    In closing, Madam Chair, the Forest Service should 
reconsider its proposal to place a moratorium on road-building 
on all roadless areas of our national forests. The proposal 
does nothing to promote forest health. As a matter of fact, 
there is a strong argument that, because of past forest 
practices, doing nothing can seriously further damage forest 
health.
    Again, thank you for allowing me to speak on this crucially 
important forest issue.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Madame Chairman, Members of the subcommittee, thank you for 
this opportunity to speak today regarding the United States 
Forest Service's proposed moratorium for road building on 
roadless areas on our national forests.
    I am disappointed that the Clinton/Gore administration 
would be willing to sacrifice the health of our national forest 
system to advance an extreme environmentalist agenda which 
could lead to no harvest on Federal lands. Our forests need the 
option of building roads as an integral tool in allowing access 
to restore forest health. Historically, our national forests 
were filled with stands of large trees. The forest floors were 
less dense and were often naturally thinned out by fires that 
would clean out dense underbrush and would leave the big trees 
to grow bigger. However, because of decades of aggressive fire 
suppression and modern hands-off management practices like 
those advocated by the moratorium, these forests have been 
allowed to grow out of hand creating an almost overwhelming 
threat of fire. The question isn't if we will have a fire, but 
when our forests will burn and how much will be destroyed.
    According to the forest service's own estimates 
approximately 40 million acres of forest lands are at a high 
risk for catastrophic fire. The cause of this fire threat is an 
unnatural accumulation of vegetation and small trees on western 
forest floors. The U.S. Forest Service estimates forests are 82 
percent denser than in 1928. Dense undergrowth, combined with 
increasingly taller layers of intermediate trees has turned 
western forests into deadly time bombs. Under proper 
conditions, fire quickly climbs up dense tree growth like a 
ladder until it tops out at the uppemmost, or crown, level of 
the forest and races out of control as a catastrophic fire. 
Because of its high speed and intense heat, a ``crown fire'' 
has the capability of leaving an almost sterile environment in 
its wake with almost no vegetation, wildlife, or habitat left 
behind. We must then ask ourselves, ``what habitat do we have 
left if everything in the forest burns?''
    Additionally, this moratorium has the potential of limiting 
access to our national forests. Fires know no boundaries. 
Without adequate access it is more difficult and more dangerous 
for fire fighters to battle out-of-control fires. It is 
appalling that this access, which can be so vital to the 
preservation of life and property, would be unnecessarily 
limited. According to fire personnel in my district, the best 
and most effective way to fight fires is through a direct 
ground attack. When there are no roads our fire crews cannot 
gain ground access to fires. Officials are then left with 
secondary options of combined air attacks that are increasingly 
more expensive, less effective extremely more dangerous for 
firefighters who have to parachute into wild country. Sudden 
shifts in wind can wreak havoc on air attacks and can threaten 
the lives of unsupported firefighters. An adequate roads 
system, on the other hand, allows ground crews quick access and 
allows a more steady support system for fire personnel.
    I would like to encourage the Forest Service to proactively 
implement plans to restore forests to their historic, healthy 
conditions. Instead of pursuing management options that close 
down dialogue, the Forest Service should pursue programs like 
the Quincy Library Group solution that includes local 
communities and promotes active solutions to restore forests to 
healthier, more fire resilient conditions. These goals are not 
achieved under the road moratorium proposed by the Clinton/Gore 
administration. If anything, the moratorium makes matters worse 
by, once again, polarizing the issue and by excluding key 
parties from the dialogue.
    In closing, Madame Chairman, the Forest Service should 
reconsider its proposal to place a moratorium on road building 
on all roadless areas of our national forests. The proposal 
does nothing to promote forest health. As a matter of fact, 
there is a strong argument that doing nothing can seriously 
damage forest health. Again, thank you for allowing me to speak 
on this important forest issue.

    Mrs. Chenoweth. Mr. Herger, I want to thank you for your 
fine testimony, and I know that you have a markup in another 
committee right now, but as soon as you're finished with 
markup, we'd love to have you come back and join us on the 
panel.
    Mr. Herger. Thank you very much, Madam Chair and members.
    Mrs. Chenoweth. Thank you.
    And now the Chair recognizes Congress' only professionally 
certified forester, Representative Charles Taylor.

   STATEMENT OF HON. CHARLES H. TAYLOR, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Taylor of North Carolina. Madam Chairman, if we were 
testifying this year about a medical----
    Mrs. Chenoweth. Can you pull your microphone up closer?
    Mr. Taylor of North Carolina. Thank you.
    If we were testifying before a health committee about 
medicine, we would be expected to have doctors and scientists 
with the best technology in health before us. And yet, when we 
talk about forestry, which is a profession with 100 years of 
outstanding history in our best universities and professionals 
who practice in the public as well as with our experimental 
stations for both the State and the Federal forests, we throw 
all that out the window. We do not have a professional forester 
as our Chief Forester now. We haven't had in the last two 
times. We are in the process of driving professional foresters 
out of the Forest Service and replacing them with 
environmentalists, whatever that is and whatever they know.
    In fact, environmentalism, as practiced here in Washington, 
brings forth hundreds of millions of dollars, scaring the 
people of this country, and that then is transferred to 
politicians that vote the ``right way.'' That's what 
environmentalism has become in Washington.
    Now there are a lot of conservationists throughout the 
country--in my district, in yours, and all around the country--
that are concerned about real conservation and real 
environmental questions. You will not find them in Washington, 
however.
    For instance, if we wanted to work with cutting down the 
number of roads: in my district we went after three companies 
that could bring in high-line loggers. That way, we could 
harvest timber in hard-to-get places without any roads at all. 
The environmentalists attacked those sales just as they did 
others. Consequently, all those men left the business and we 
have no high-line logging available in our district, primarily 
through the excesses of environmentalists, those that we 
mentioned, here in Washington.
    We put together some months ago an emergency timber salvage 
bill. Testimony showed that it was necessary. It was passed by 
this Congress, and after a long fight, the administration 
agreed to sign it, but then sued against it just as quickly, 
breaking their word as soon as they had signed the bill. But it 
went forward for almost 2 years.
    It was attacked over and over again--seven votes in this 
Congress, as well as ranting and raving all around the country, 
with the purpose to prove that it might be used to cut a tree 
that would not be a salvage; that is, timber unaffected by 
insects or disease or fire. After all those challenges, the 
Forest Service itself and other reports showed that there was 
no abuse of the salvage bill. And while we were challenging 
that meager piece of legislation, we lost tens of millions of 
trees to fires and insects. If you had real environmentalists, 
you would have found people concerned about these lost trees, 
rather than looking for one single healthy tree logged 
improperly under the salvage legislation.
    Last year we put together--and many of you were helpful in 
putting that group together--a science-based survey. I chaired 
a panel of scientists in March 1996 to develop an analysis of 
forest health conditions in the United States and the options 
and consequences of addressing those conditions. We've just 
finished a peer review of this report by some of the most 
outstanding scientists across the country. While there were 
certain critical opinions about the report, none of them 
criticized the report for its accuracy or its science. And that 
report, presented to this Congress last year, pointed out--and 
it's been before several committees--the need for real science 
in managing our national forests. I am sorry to say that 
science is not being carried out by the Forest Service, nor by 
those who protest every cut of trees.
    You know, if this was a sincere effort to analyze the road 
situation, you would be analyzing roads within the national 
parks or within the wilderness areas or other areas where 
timber cutting is not allowed, but administered by the Forest 
Service in wilderness especially. But we're only attacking 
areas where timber might be cut. This is primarily a challenge 
by the so-called environmentalists against any timber cutting 
in the United States and not a genuine question about forest 
roads.
    Madam Chairman, I'd be happy to answer questions, and I 
appreciate the work that you're doing in holding this hearing 
today. Thank you.
    [The prepared statement of Mr. Taylor of North Carolina 
follows:]

Statement of Hon. Charles H. Taylor, a Representative in Congress from 
                      the State of North Carolina

    Madame Chairman, I would like to thank you for the 
opportunity to testify before this Subcommittee and to address 
the issue of the health of our national forests.
    This is an issue to which a great deal of attention has 
been devoted recently, given the U.S. Forest Service's 
announcement on January 28th that it plans to implement an 18-
month moratorium on the construction of new forest roads in the 
current roadless areas of our national forests. The Forest 
Service has indicated that the purpose behind this moratorium 
is to provide a ``time out'' on new construction while it 
evaluates the present system of forest road construction 
activities. Because the Forest Service failed completely to 
involve Congress in this decision-making process, however, it 
has barreled forward with an approach that is neither 
economically wise nor scientifically sound.
    The Forest Service estimates that the moratorium will 
reduce the Federal timber sale program offering by 100 to 275 
million board feet in fiscal year 1998. The American Forest and 
Paper Association estimates that the real impact of the 
moratorium may be a loss of more than 1 billion board feet, or 
one-third of the entire Federal timber sale program. The 
Service is quoted in the Federal Register: ``Although the 
actual amounts are very difficult to estimate, this reduction 
in timber volume offered could lead to corresponding reductions 
in employment and in payments to the states.'' 63 Fed. Reg. 
4353 (1998). The Forest Service has certainly mastered the art 
of understatement, if not the science of forest management. 
According to the Service's own statistics, 15.8 direct industry 
jobs are created for every 1,000 board feet of timber 
harvested; by decreasing the timber yield offered for sale by 
hundreds of millions of board feet, the moratorium's 
potentially disastrous economic effect becomes obvious. In 
Western North Carolina alone, 150,000 to 160,000 acres of 
roadless forest areas will be affected by this moratorium, and 
three timber sales amounting to approximately 3 million board 
feet, which were ready to proceed this year, will have to be 
postponed or significantly altered.
    There has already occurred a steady decrease in the amount 
of timber harvested within last few years. This moratorium will 
only result in further reductions in Federal revenues from 
timber sales, thereby requiring budgetary adjustments; a 
significant reduction in, or loss of, payments to rural 
counties whose school systems rely upon timber receipt 
payments; higher costs for construction materials, leading to 
higher home prices; and, the loss of thousands of jobs within 
the timber industry and those commercial areas which depend 
upon it.
    I am equally troubled by the implicit policy embodied in 
the Forest Service's moratorium, a policy that places wishful 
environmentalism above sound scientific approaches. The 
overwhelming need for proper forest management is widely 
recognized, even, at times, by members of this Administration. 
Kathleen McGinty, Chair of the Council on Environmental 
Quality, has stated that, ``the consequence of stamping out 
every [forest] fire, including naturally-occuring fires, has 
been that we now have a tinderbox in many places of the 
country.'' (Paul Bedard, ``Clinton Supports Burning to Avoid 
Wildfires in Forests: Plan backed by Sierra Club Leaves Out 
Logging,'' Washington Times, July 25, 1997, p.A4.) What the 
Administration now seems unable or unwilling to acknowledge, 
however, is the potential for similar forest devastation due to 
closing off millions of acres of our National Forests to sound 
management practices.
    In March 1996 I chartered a panel of scientists to develop 
an analysis of the forest health conditions in the United 
States and the options and consequences of addressing those 
conditions. The results of the studies conducted by these 
prominent forest scientists were presented in April 1997 
through a joint hearing of the House Committees on Agriculture 
and Resources. In an ongoing effort to further this analytic 
process, the panel will soon release the collected Peer Reviews 
of the Forest Health Science Report, so that we, as the 
forestry policy and decision-makers, might benefit from a 
scientific, sensible approach to forestry management.
    It is this very approach--grounded in science, rather than 
romantic ideals of nature--to which we must now turn. The 
moratorium proposed by the Forest Service will certainly 
achieve its primary goal of halting new road construction. 
Unfortunately, it will further render millions of acres of our 
national forests completely inaccessible to proper management, 
thereby increasing the likelihood of devastation by timber 
disease, insect infestation and forest fire. According to the 
Forest Service, 40 million acres of its lands are presently at 
high risk of catastrophic fire. One might think that increasing 
the potential for such catastrophe would be as unconscionable 
to the Forest Service--which possesses the primary 
responsibility for the continued vitality and well-being of our 
national forests--as it is to you and I.
    When the specifics of the moratorium are closely examined, 
however, it becomes clear that forest health is not the goal 
that the Administration truly seeks to advance. Under the 
moratorium, all road construction and reconstruction in the 
following areas will be suspended:

        (1) Roadless areas of 5,000 acres or more inventoried in 
        Roadless Area Reviews and Evaluation (RARE II) and other 
        unroaded areas, regardless of size, which are identified in 
        forest plans.
        (2) Roadless areas over 1,000 acres that are contiguous to 
        Wilderness areas or lands classified as ``Wild'' in the 
        National Wild and Scenic River System.
        (3) All roadless areas over 1,000 acres that are contiguous to 
        roadless areas of 5,000 acres or more on other Federal lands.
        (4) Any National Forest System area of low-density road 
        development or area determined by the Regional Forester to have 
        unique ecological characteristics or social values (``special 
        areas'').
Enumerated exemptions for roadless areas in the Northwest Forest Plan, 
the Tongass National Forest and those that have a signed Record of 
Decision and have completed the appeals process, are rendered null by 
the fourth category of ``special areas:'' despite their exemptions, 
these areas may be subjected to the moratorium by the unilateral 
authority of Regional Foresters. Nowhere in the Administration's 
promulgated materials, further, do there exist specific guidelines to 
be used by the Regional Foresters in making such a decision.
    The question that presents itself is why the moratorium on new road 
construction applies only to lands under the control of the Forest 
Service, and not to those within the national park or wilderness 
systems. The answer? Simply put, timber harvesting is not permitted in 
such parks or wilderness areas, so it was unnecessary for the 
Administration to include them in the moratorium. The real motive 
behind the moratorium is to place additional burdens on the timber 
industry, which has already suffered tremendous economic disaster, as a 
token gesture to the Administration's environmentalist support base. 
Apparently, this Administration places a higher value on cultivating 
the environmental protectionist vote than on cultivating a healthy 
national forest system.
    I would like to thank you, Madame Chairman, for holding this public 
forum for discussion of the Forest Service's moratorium on new road 
construction. It is my hope that the questions which you and the 
members of this Subcommittee will pose today will, at last, produce 
some answers as to the real economic and environmental costs of this 
ill-conceived plan.

    Mrs. Chenoweth. Mr. Taylor, thank you very much for being 
here. If time allows in your schedule, we'd like for you to 
wait because some of the members may want to ask you questions. 
Do you have time?
    Mr. Taylor of North Carolina. Yes.
    Mrs. Chenoweth. Thank you.
    The Chair recognizes the gentleman from Arkansas, Asa 
Hutchinson.

STATEMENT OF HON. ASA HUTCHINSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Hutchinson. Thank you, Madam Chairwoman and members of 
the Committee. I'm grateful for this opportunity, and I will 
try to be brief, but this is an important subject concerning 
the Forest Service's proposed moratorium on entry into roadless 
areas. I commend the chairperson for providing this forum.
    I represent the third district of Arkansas, an area of the 
country that contains two national forests, the Ouachita and 
the Ozark-St. Francis. Lands in the Ozark and the Ouachita 
cover large portions of half the counties in my district. They 
allow Arkansans to enjoy the beauty and recreational 
opportunities provided by our national forest systems, and they 
afford also much-needed revenue for law enforcement, 
infrastructure, and educational services in those counties.
    I am concerned about the proposed moratorium for several 
reasons. First of all, systematic review of the management plan 
that governs the Ouachita and Ozark National Forests are 
already being conducted by the Forest Service professionals who 
live and work there. Local communities and interest groups are 
contributing to the review. A top-down, uniform Federal mandate 
like the proposed moratorium undermines the ability of these 
local foresters and communities to properly manage these 
forests based upon local conditions.
    Secondly, I am concerned that this moratorium will 
hamstring the efforts of the Forest Service professionals to 
properly care for our forest lands. For example, in 1995 and 
1996, the Ouachita National Forest faced an epidemic 
infestation of southern pine beetles, necessitating heavy 
salvage logging to stop the spread of the insects. Had the 
proposed moratorium been in place then, local forest 
professionals could not have built some of the roads necessary 
to reach the affected areas, and the infestation would have 
spread unchecked.
    Further, the Forest Service professionals who currently 
care for the Ouachita and Ozark-St. Francis National Forest 
have stated that the short-term effects of the moratorium might 
be negligible, but the long-term effects will result in a sharp 
reduction in the amount of timber that can be put up for sale 
from these two forests.
    Timber growth in our national forests now exceeds timber 
harvest by a factor of three. Seventy-four percent of our 
national forest lands are off-limit to all timber harvesting, 
and only 3 percent of our national forests are used solely for 
timber harvest. As such, in my view, it would be unconscionable 
for a mandate from a Washington bureaucracy to be allowed to 
eliminate this vital source of revenues for our counties.
    Madam Chairwoman, the Forest Service has concluded that it 
must thoroughly review its road management policy and develop a 
comprehensive science-based policy for the future, and I could 
not agree more. This is already being done in the two national 
forests in my district by professionals who have managed those 
lands successfully for decades. This is already being done with 
input of the citizen and interest groups who live in those 
areas and know their needs better than any Washington 
bureaucracy. This is already being done without the costly 
restrictions of a federally mandated prohibition on 
construction of new roads. And, Madam Chairwoman, this can 
continue to be done. As such, I would urge the Forest Service 
to reconsider this proposed moratorium and work with the 
Committee to develop a more reasonable approach to this 
historically controversial issue.
    And I thank the Chair and this Committee for this 
opportunity to present these views and for indulging me on my 
time constraints. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Hutchinson.
    Mr. Oberstar will be arriving momentarily, but I do want to 
say, for the record, that Mr. Joe Kennedy has expressed a great 
deal of concern about this issue, and the Committee invited him 
to testify and, indeed, we learned today, right before the 
hearing started, that he would not be able to testify, but we 
will be accepting his written testimony.
    So, with that, I would like to open the panel up for 
questions, beginning with Mr. Hansen, and then I'll recognize 
Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Madam Chairman. I do not 
have any questions. However, I would like to extend my 
appreciate to our colleagues, both Mr. Herger, Mr. Taylor, and 
Mr. Hutchinson, for their very fine testimony. Although we have 
some very clear and distinct differences on this issue, I 
appreciate the sincerity of their testimony and the position 
which it reflects.
    I would just like to suggest one thing, however. There has 
been some intimidation that the roadless proposal is a proposal 
emanating from the Clinton Administration. Actually, as I 
understand it, it is a professional proposal coming out of the 
professional people within the Forest Service, and it is a 
proposal based upon their very careful and scientific research, 
and it's not politically motivated; it's motivated out of a, 
likewise, sincere approach on the part of the Forest Service, 
in their professional opinion, to do what is best for the 
public lands under their jurisdiction.
    Thank you very much, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hinchey. Mr. Hansen?
    Mr. Hansen. I thank you, Madam Chairman. I appreciate the 
testimony of our colleagues. I hope people in the room realize 
that Representative Taylor is a professional forester himself, 
and he spent many years in this particular area, and I 
appreciate Mr. Hutchinson and Mr. Herger, and the words that 
they have said.
    I somewhat disagree with my good friend from New York on 
what things are motivated and what things are not motivated. 
Something called the National Escalante Staircase was said not 
to be motivated by politics, until I was able to subpoena the 
records, and I'd be happy to show those to anybody. That was 
politically motivated, obviously. I just came out of a very 
important meeting regarding air logistic centers, and also 
another politically motivated thing.
    Frankly, scientists are kind of like experts; you know, who 
do you believe? It's fun to go to court occasionally and listen 
to people testify, and who is the jury going to believe.
    I have great respect for Michael Dombeck and his people who 
are before him. I see many of them here. I'll look forward to 
their testimony. But, on the other side of the coin, I think 
the basic, bottom-line issue is the one that you have 
articulated many times, and that is the idea of forests and 
forest health, and people should have the opportunity to use 
the forests, not destroy the forests. I would submit to you 
that for almost 100-and-something years we've been able to 
manage the forests and done a rather good job of it. No 
disrespect to Mother Nature, but She manages rather ruthlessly 
sometimes with fire, wind, earthquake, and other ways. Man, 
who's done a very fine job in our western forests--and I think 
some of these folks who will be appearing before you have been 
here before, and I have great respect for many of our past 
Directors of the Forest Service.
    Thank you for holding the meeting, Madam Chairman.
    Mr. Hutchinson. Madam Chairwoman, would it be all right if 
I be excused? I appreciate this opportunity. I'm going to leave 
this to Representative Taylor, since he's an expert in this 
area.
    Mrs. Chenoweth. It certainly is. Thank you, Mr. Hutchinson.
    I see that Mr. Oberstar has arrived, and we would--I would 
like to turn to Mr. Radanovich and see if he has any questions 
of Mr. Taylor.
    Mr. Radanovich. I have no question, Madam Chairman.
    Mrs. Chenoweth. Mr. Schaffer?
    Mr. Schaffer. No questions.
    Mrs. Chenoweth. I'd like to ask a question of you.
    Mr. Taylor of North Carolina. Certainly.
    Mrs. Chenoweth. You just can't get off that easy, Charlie.
    Mr. Taylor of North Carolina. That's all right, no.
    Mrs. Chenoweth. You're the only forester in the Congress, 
and so we look to you a lot for your opinions. Tell me, how can 
we properly manage and maintain healthy forests without access?
    Mr. Taylor of North Carolina. It's impossible. First of 
all, it would be impossible to carry out the management task, 
and then, second, it would be cost-prohibitive to do it, if you 
could. Unless we manage the forests in a proactive way and 
produce a timber product which is viable, the number of jobs it 
creates and the fact it furnishes building materials and that 
sort of thing--it's very important--unless we do in a way that 
we can produce that product, then you have to pay for it with 
taxes by government action. In other words, every salvage sale 
would have to be paid for by hiring government employees to go 
in and administer it, and it would take tens of millions of 
dollars, or billions of dollars, to manage the forests in that 
way.
    That's why we established a program with the Forest Service 
last century that is managed in a way that we get the greatest 
benefits from our timber resources while using the wisest 
management. We look to our scientific experience in our State 
and Federal experimental stations, as well as our plethora of 
schools. Yale, Duke, Clemson in my area, Auburn--all over the 
country we have excellent forest schools that teach scientific 
silviculture, and yet the Forest Service seems to be ignoring 
that.
    When we put together the scientific panel that produced the 
report you have before you, that this Committee and others in 
Congress has had for over a year, we recruited the heads of the 
departments of forestry and silviculture from schools all over 
the country. Now if we cannot believe individuals from our best 
universities, or the science from our experimental forestry 
stations, then how can we believe someone who comes in with a 
theory that trees have feelings, or whatever it is?
    Last week I held a town meeting, and I had some young 
people there who were very concerned about the forests, and I 
sat with them and tried to reason with them. I asked them if 
they had been to the experimental stations within 10 miles of 
where we were sitting, and one had not, and one said, ``oh, 
yes, I've read about that; they're cutting old growth, and all 
this sort of thing.'' Clearly, he hadn't been anywhere near 
what was going on there in reality, to see today's science and 
the type of technology that's being used.
    So there's a fear being exploited across the country to 
raise funds for political purposes, and a gross 
misunderstanding of this highly technical area. I would urge 
every Member to educate themselves as much as possible, because 
there are plenty of forestry resources there in the past 100 
years, as Mr. Hansen said. But our management has to be done 
with the best science that we have available to us.
    Mrs. Chenoweth. Thank you, Mr. Taylor. I really appreciate 
your comments and your thoughts, and I look forward to working 
very closely with you on this issue.
    So the Chair now recognizes Mr. Oberstar.

   STATEMENT OF HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Oberstar. Well, thank you very much, Madam Chair, for 
holding this hearing and bringing public attention to an issue 
of prime importance to so many of us in the Congress, and to 
everybody who owns, or aspires to own, a home or does anything 
with wood in this country. Thank you for bringing the spotlight 
of public interest and attention to a subject that's almost 
been stampeded into a rule of the U.S. Forest Service, although 
there's been an extension granted. I, among many others, had 
hoped to be able to comment on the proposed rule, but they were 
rushing it so fast that we just didn't have time to put 
together a statement in proper order.
    So this Committee, once again, is doing yeoman's service in 
keeping the docket open, if you will, on subjects of broad 
public interest.Roads in our national forest system, as roads 
everywhere, are the

lifeline. I serve on the Transportation and Infrastructure 
Committee, and have done for 24 years, and I know the vitality 
that roads bring to communities of all sizes. I know how 
important the road system is in our national forest system.
    But this is not an issue about maintaining the roads. The 
underlying issue driving this rulemaking is about whether or 
not to log in our national forests. The 18-month moratorium--
anybody who's familiar with the way the Forest Service goes 
about its management plans and designating areas for logging, 
and doing the environmental impact statement, and shooting a 
site for the roads to access the timber sale--it takes 18 
months. You've got an 18-month moratorium. The moratorium, 
should it be suspended in favor of some continued forest 
products harvesting, is going to mean another 18 months before 
any of the work gets underway. You're talking about 3 years at 
a minimum of no timber harvesting in key areas of the national 
forests system nationwide.
    Now in my district, northern Minnesota, we have two 
national forests, the Superior and the Chippewa. The Superior 
is a little better known because of the age-old controversy 
over the boundary waters canoe area, for which, Madam Chair, we 
thank you again eternally for coming to the district and 
holding a town meeting, and traversing one of the portages, and 
witnessing firsthand. You've been a champion, and I appreciate 
that.
    But those forests, plus the State forests and private 
forestry lands, are the economic base for 61,000 jobs, a $2 
billion income, and 55 percent of the total wages paid in the 
manufacturing sector in my congressional district. It's vital 
to our economy.
    So to the point, there are two concerns I have with this 
proposed policy. The first is the simple issue of forest 
health. We need to manage our forests. If we agree on nothing 
else, let me agree on that fundamental principle. The forests 
held in public trust should be managed, not left to the 
vagaries of insect, disease, and forest fire, which can be--
which has been documented in the Superior National Forest back 
to 1595, the earliest recorded or documented forest by forest 
researchers, and massive forest fires that have raged 
throughout that area over the years; until most recently we've 
kept them under management.
    I want to take this log of red pine that grows in the 
Superior National Forest. From the core to this outer half-inch 
is 6 years of growth. The next half inch is 7 years of growth. 
The reason you have so little growth in the second 7 years is 
that this was an understory tree; that the region in which this 
tree grew had not been thinned; there had not been release, as 
we call it in forestry management, and the growth was stunted. 
We would have had twice--we would have had a lodgepole twice 
this size, and in another 5 years something that would be 
useful for sawtimber harvesting. As it is, if you don't manage 
the forest, you have stunted growth. Some may call that 
wilderness; I call it bad management.
    The second concern I have is forest planning and 
management. The proposed policy would exempt forests that 
recently completed a review of their management plans, but 
makes no provision for those that are just beginning or in the 
earliest process, or in some stage of developing their 
management plans. Now, you know, the

law requires that all units of the national forest system every 
5 years to redo their management plan, to have public and 
community input, and now this proposed new policy says, oh, 
forget it, those of you who haven't done it or haven't 
completed it, you're out. And as I said at the outset of my 
remarks, that means in 18 months, if this moratorium is 
lifted--if it is lifted--then they begin the process all over 
again. There's another 18 months, and you're talking really 
about maybe another 5 years before you get in to harvest any 
timber.
    This is really a no harvest timber proposed policy. What 
that means is that this 16-year-old red pine is not going to 
have any substantial additional growth for another five or more 
years, and that means that the amount of timber available, 
whether it's for pulpwood, for pulp and paper manufacturing, or 
for particle board or for wafer board, or the very little 
sawtimber that we have--we don't have the large, fast-growing 
forests that you have on the West Coast with the high rainfall, 
but the small amount of sawtimber we have sustains small 
businesses, and that's my final point.
    This is not, as we saw in the debate last summer over 
logging roads on national forests, this is not a case of little 
folks against the corporate giants. There isn't a logger in my 
district that has more than 10 or 12 employees, and most of the 
sawmill operations have about 12 to 15 employees at the most. 
These are small business people.
    These are also the first people to respond when there's a 
forest fire. They're the first ones out there in the woods to 
save the forest and those who live around, in, or near it from 
the ravages of forest fire. What you're doing is taking--what 
this policy is doing is taking away from them their livelihood.
    Throughout the whole country, of all the 174 units of the 
U.S. Forest Service, 71 percent of the timber sales are 
purchased by small operators. We're talking about undercutting 
the core of American entrepreneurship.
    I hope that, as you go through this hearing, that you 
highlight this issue and bring some heat, if not light, to bear 
upon the departmental decision on the moratorium.
    Finally, I went and looked back over the last 20 years to 
see that we have seen the harvest steadily decline on both the 
Superior and the Chippewa National Forest. We were at 150 
million board feet in 1996, and we're down to about 80, just 
about 90 million board feet for the current year. That's not 
because the timber isn't available. That's not because our 
resource has declined. It's simply because the cut has been 
reduced.
    This is a renewable resource. We have more board feet 
available, we have more timber available on the Superior and 
the Chippewa today than we did at the turn of the century. And 
if we continue to manage it wisely, we won't have little 
saplings like this; we'll have beautiful forests to enjoy for 
centuries to come.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Oberstar follows:]

 Statement of Hon. Jim Oberstar, a Representative in Congress from the 
                           State of Minnesota

    Madam Chairwoman, Members of the Subcommittee, I am very 
pleased to have the opportunity to testify today. It is a great 
pleasure to once again appear before this Subcommittee to talk 
about my district and forest policy.
    As Ranking Member on the Transportation and Infrastructure 
Committee, I know all too well the difficult task of 
maintaining a vast transportation system. I would like to 
applaud the Forest Service for recognizing and making forest 
road maintenance a priority. I can certainly appreciate the 
difficult task of keeping and maintaining an inventory of a 
system of this magnitude. The importance of forest roads cannot 
be underestimated. These roads are the life-line of tourists, 
recreationists and forest service professionals. It is true 
that the forest road system is in desperate need of repair and 
upgrade. I hope we can all support increased funding for this 
effort.
    In my district of Northeastern Minnesota, the Superior 
National Forest and the Chippewa National Forest, are two of 
the highest producing, lowest-cost forests in the Region. These 
two young, healthy forests have been managed aggressively for 
over a century, providing the productive forests that we have 
today.
    The forest products industry is the 3rd largest industry in 
Minnesota. It generates 14 percent of all dollars in 
manufacturing. It employs some 61,000 individuals with wages of 
over $2.0 billion annually. In my district, it represents 
almost half of the manufacturing jobs in the region and 
approximately 55 percent of the total wages paid in the 
manufacturing sector. This is an industry vital to the economy 
of my district.
    I had expected to comment to the Forest Service prior to 
its promulgation, however, the announcement was so sudden, few 
Members of Congress had prior input. So, this hearing is 
extremely important, and I thank the Chairwoman for a forum in 
which to express our views.
    There are two principal concerns that I have with this 
proposed policy. First, I have concerns with the simple issue 
of forest health. If we agree on nothing else, let us agree 
that forests need to be managed. If left unattended, our 
forests will slowly degenerate: ultimately consumed by insect, 
disease and fire. Indeed we have a fire history on the Superior 
National Forest dating back to 1595. Managing forests by 
sustainable forestry practices will maintain the health and 
viability of our national forest system. Under the current 
proposed policy, certain areas--potentially an entire forest, 
will be subjected to an 18-month-PLUS restriction on road-
building. The term ``road-building'' in my state is synonymous 
with timber sales. If there are no roads--there are no timber 
sales.
    I bring you today an example of poor management practices 
and the results its affects have on the resource. I have here 
an approximately 16-year old red pine from my district in 
Northern Minnesota. It came from a plantation that was 
correctly thinned in its early years. By the growth rings you 
see healthy and normal development. As the plantation continued 
to grow and thinning practices were not continued, the growth 
was stunted. By the compacted growth rings you can see the 
effects poor management has on the development. With the type 
of policy we are discussing today, it is clear that forests 
will suffer.
    Secondly, I have concerns with the issue of forest planning 
and management practices. The proposed new policy would exempt 
those forests that recently completed review of their 
management plans. The policy makes no provision for those units 
that are in the process of reviewing their plans as is the case 
with the Superior and Chippewa Forests in my district. Adoption 
of this policy would effectively eliminate the ability for 
communities in my district to participate in any substantive 
way with the forestry units.
    On the Superior National Forest, the proposed moratorium 
would suspend work over the next three fiscal years on 25 sales 
involving 50 million board feet. Neither forest will undertake 
work on a number of other sales because no one can predict what 
the outcome of this review will be. The already strained 
pipeline for sales will be squeezed further. The Superior 
National Forests is presently at 76 percent of its Allowable 
Sale Quantity (ASQ). Clearly, that percentage will decrease 
during the 18-month moratorium, and very likely another year 
and a half afterward--and the consequences will be severe and 
widely felt.
    As we saw during the House debate this past summer on the 
Purchaser Credit program, advocates of this type of policy 
attempt to portray those affected by this policy as huge 
corporate giants. Of the timber sales offered, 71.5 percent of 
all timber sales throughout the country are purchased by small 
businesses. These loggers and sawmill operators are small 
businessmen and women, family-owned operations. They have lived 
in this north country for generations and have volunteered 
their time to fight the forest fires and plant the seedlings 
that regenerate the forests, providing long-term health and 
well-being of our resources. These are small businesses in 
small towns and they are proud of their heritage.
    This moratorium should not be viewed in isolation, but with 
the backdrop of other policies that have adversely affected the 
small forest operator: the decrease in Forest Service budgets 
able to provide sufficient future harvestable timber, increase 
in costs due to litigation, and the on again off again policies 
that affect sales adds to the uncertainty and costs of the 
small operator.
    The Department's proposed policy raises other questions 
that time does not allow us to address here today, such as the 
section of ``special areas'' that is ill-defined and creates a 
whole new area of uncertainty and should be should be more 
carefully explored as should the specter those policy raises 
creating wilderness type areas without an Act of Congress. I 
thank the Subcommittee for holding this hearing and allowing a 
broad discussion of vital issues that affect the long-term 
health and viability of our national forest system. Thank you 
for your diligence.

    Mrs. Chenoweth. Thank you, Mr. Oberstar.
    I wanted to ask you--the Forest Service is now asking for 
other Federal funds for road maintenance, while at the same 
time they are eliminating nearly their entire commodity program 
that produces the majority of the Service's revenue. What is 
your reaction to this situation?
    Mr. Oberstar. Well, first of all, they include in the base 
cost of every sale that I know of in northern Minnesota, for 
each of the timber sales that have been put up, they include in 
the base cost the cost of road-building. The permanent roads 
that exist in the Forest Service are covered under a special 
provision of the surface transportation program, known as 
public lands highways, which are funded at 100 percent. All 
they need to do is ask for additional funding for their road 
programs to maintain their portfolio of roads. We provide the 
authorization in our Committee on Transportation, and when they 
look at their overall budget and make tradeoffs, they have to 
understand that roads provide more than--access for more than 
just timber harvesting. These roads are used in the Chippewa 
and the Superior and elsewhere, I know in the Chiquamagon in 
northern Wisconsin and northern Michigan, for small game 
hunters, grouse, partridge, rabbits, and for deer hunting. 
They're used by recreationalists who go into fishing holes and 
fishing lakes. They use these timber haul roads. None of the 
cost is charged off to those users. It's only the timber 
producer that pays the cost of that road.
    Mrs. Chenoweth. Thank you, Mr. Oberstar. I very much 
appreciate your testimony.
    I now recognize the Ranking Minority Member for 
questioning, Mr. Hinchey.
    Mr. Hinchey. Well, thank you, Madam Chairman. I have no 
questions of Mr. Oberstar. I just want to express my 
appreciation for his testimony. It's always a pleasure to hear 
from him and to listen to his expertise, which he's gained from 
firsthand experience. Thank you very much.
    Mr. Oberstar. Thank you. I thank the gentleman.
    Mrs. Chenoweth. Mr. Peterson?
    Mr. Peterson of Pennsylvania. Yes, I would also like to 
thank the gentleman from Minnesota. I'm from Pennsylvania, but 
I was interested in your comments that this 18-month 
moratorium--and then I think you followed that up; you said 
there'd be probably an 18-month study. So what we're really 
seeing here is the rest of the Clinton-Gore administration 
saying we're not going to cut timber any more than we can help. 
Is that your observation?
    Mr. Oberstar. Or into the next century.
    Mr. Peterson of Pennsylvania. That's right, but I mean----
    Mr. Oberstar. Yes. Exactly.
    Mr. Peterson of Pennsylvania. But that finishes their 
tenure of running this country.
    Mr. Oberstar. No new sales over those that are already in 
progress.
    Mr. Peterson of Pennsylvania. Yes, but it's their way of--
their next effort of stopping cutting? Would you think that's a 
fair assessment?
    Mr. Oberstar. That is the result. Whether they intend it 
that way--but that's clearly the result.
    Mr. Peterson of Pennsylvania. Well, as someone who's been 
observing this for years yourself, have you heard any logical 
arguments, any scientific arguments, that this moratorium makes 
some sense or there's some reason for it? Have you heard 
anything?
    Mr. Oberstar. No, I see no valid basis in the presentations 
by the Secretary or the Forest Service to justify their 
actions.
    Mr. Peterson of Pennsylvania. Well, when you look at the 
diversity of this country, I always get nervous at a Federal 
policy that is the same for Alaska as it is for California, as 
it is for North Carolina, as it is for Minnesota, as it is for 
Pennsylvania, when we're so different. I mean, the forests of 
Minnesota I'm sure are far different than the forests of 
Pennsylvania, and they're certainly different from the forests 
on the West Coast.
    Mr. Oberstar. Exactly. The 100th meridian divides the 
forestry resources of the country. Those west of the 100th 
meridian are largely the large sawtimber, fast-growing, huge 
pine forests, and we're the mix of, as in your district, which 
was Bill Clinger's district previously--and I consulted with 
him many times; we joined forces on these issues--largely 
hardwood forests.
    Mr. Peterson of Pennsylvania. That's right.
    Mr. Oberstar. And it's entirely different management 
principles that must prevail in the area east of the 100th 
meridian than west, and different terrain, different management 
practices. Where you have mountainous country, you manage the 
land much differently than you do flatlands or uplands.
    Mr. Peterson of Pennsylvania. It would be like telling the 
apple growers in Washington that they should raise apples like 
we raise them on the East Coast, when it's different climate; 
it's different soils; it's different--or the tomato growers in 
Florida, that they should do the same practices that New Jersey 
uses. I mean, it makes no sense to have--if this is about 
management, managing our forests, I can see no other--I guess 
the point I want to make very, very clear: This is about, 
again, stopping as much cutting as possible on our forests. Do 
you agree with that?
    Mr. Oberstar. I said that at the very outset, Mr. Peterson, 
and that is that the net effect--I don't want to go into 
motives, because I haven't talked enough to people to know what 
their real motive or thinking is, but the clear net effect--
anyone who understands how the forests must lay out their 
management programs, lay out 5-year plans, there's an 18-month 
period of time to do the planning for your management plans. 
We've got an 18-month moratorium, and then if it's lifted after 
that 18 months--and I'm not confident that it would be--then 
you've got--for those that have just started their plan, 
they've got to go back and start it all over again. You've got 
another 18 months. So you're talking a good 3 years, and maybe 
another year-plus. We're 5 years away from seeing some timber 
harvesting.
    Mr. Peterson of Pennsylvania. My district is the home of 
the very best hardwoods in the world.
    Mr. Oberstar. That's what Bill Clinger always said.
    Mr. Peterson of Pennsylvania. Yes, well, if you want black 
cherry, you come to Pennsylvania----
    Mr. Oberstar. Black cherry is right----
    Mr. Peterson of Pennsylvania. [continuing] and you come to 
the fifth district, because we have about 70 percent of the 
veneer in the world in my district. So we are the home--but 
it's interesting, while the whole world is trying to believe 
that we are cutting down the forests, in Pennsylvania I've been 
involved in government for 20 years--at the State and now here. 
In that period of time, if my memory is correct, we had 14 
million acres of commercial forests in Pennsylvania when I 
first went into government, and we now have 16 million acres 
and a forest has to reach a certain quality before it's 
considered commercial. And the Federal land is probably the 
most undercut and has the most dying timber. The State land is 
next, and, of course, the public land is the best managed. And 
Pennsylvania is another big public State because our State owns 
about 5 million acres, along with the Federal ownership. So we 
are a big public ownership State, and that's why it's so 
important to us that we have an appropriate management policy 
that can continue on forever, if it's done right.
    Mr. Oberstar. A forest is forever, if we manage it well.
    Mr. Peterson of Pennsylvania. That's right.
    Mrs. Chenoweth. The Chair recognizes Mr. Schaffer. Any 
questions?
    Mr. Schaffer. I have no questions, Madam Chairman.
    Mrs. Chenoweth. Mr. Hill?
    Mr. Hill. Thank you, Madam Chairman, and thank you, Mr. 
Oberstar, for your comments.
    I presume--and I don't know whether you supported the 
National Forest Management Act, but I presume that you support 
the provisions that require the Forest Service to consider 
local impacts when they make forest management decisions?
    Mr. Oberstar. Absolutely.
    Mr. Hill. Are you aware, in terms of the decision to make 
this moratorium, did anyone with the Forest Service make 
inquiries into your district with regard to what those impacts 
might be on the local forests or on the local economy?
    Mr. Oberstar. I don't think they were allowed to.
    Mr. Hill. So you believe they were denied that opportunity?
    Mr. Oberstar. Well, I don't know if they were denied it. I 
just--because we have very good communication with the staff on 
both the Superior and the Chippewa in my district offices, and 
all of a sudden this policy came out. They usually talk to us 
about everything. So I just surmise that they either weren't 
told or weren't allowed; I don't know which.
    Mr. Hill. Are you aware that there was a meeting, I think, 
in December. The Regional Foresters met with the Chief of the 
Forest Service to discuss this moratorium. Are you aware at 
all----
    Mr. Oberstar. I didn't know that.
    Mr. Hill. Do you have--is there any fire hazard in those 
forests that's associated with the current El Nino conditions? 
I know that Minnesota has had a more than mild winter this 
winter.
    Mr. Oberstar. Well, we won't know about fire condition 
until--March is usually our heaviest snow year, and we've only 
had 53 inches of snow so far this year, and our average is 131, 
and our biggest year was 1995-96 with 135 inches. March may be 
the salvage, but we're having a big snowmobile race up in the 
district, and they're trucking snow in from Canada, would you 
believe?
    [Laughter.]
    Mr. Oberstar. So I don't know about fire hazard. That will 
come this spring. But, I'll tell you, if we're going to have--
if this is 16-year-old red pine this year, at the end of this 
moratorium period and the period that follows, we may not have 
this pine around because there's going to be disease, death, 
down timber, and it's going to catch fire and burn. We're going 
to have to have a very high fire watch.
    Mr. Hill. I found your comments interesting about the 
different forests. I have 10 national forests in my district, 
and they're all different. As a matter of fact, they all have 
different species of trees. They have different issues with 
regard to riparian areas, with regard to watersheds. They all 
have different tree species, different soil conditions, 
different moisture conditions.
    I'm having a hard time understanding how a policy that is 
made in Washington can address the differences between those 10 
national forests, let alone all the national forests in the 
Nation. I don't even know how many national forests there are. 
You probably know the answer to that.
    Mr. Oberstar. A hundred and seventy-four.
    Mr. Hill. A hundred and seventy-four. I'm going to write 
that down, so I remember that, because I have about 8 percent 
of that, it sounds like.
    Mr. Oberstar. Yes.
    Mr. Hill. Were there any other groups in Minnesota--were 
any sportsmen's groups, any multiple-use groups consulted, are 
you aware of, in the decision to implement this moratoria?
    Mr. Oberstar. No, they all came and complained to me about 
it.
    Mr. Hill. And I'm just curious, in Montana, in Region 1, 
which I think all my national forests are there, and I think 
all but two of them constitute Region 1, about half of now all 
the logging roads in my district are already closed to public 
use. Are you experiencing a similar situation in your district 
with regard to closure of Forest Service roads?
    Mr. Oberstar. I don't know what number or percentage, but 
there are roads that are in serious condition, some of which 
are unusable, and especially this year it's hard to tell which 
are unusable because of lack of cold weather or because of lack 
of maintenance, but we have a serious problem on both forests.
    Mr. Hill. And the revenues for maintenance or improvement 
of those roads, of course, come from the proceeds of timber 
sales, right?
    Mr. Oberstar. That's correct.
    Mr. Hill. And so if there are timber sales that will not 
occur as a consequence of this moratorium, that will be less 
revenue to maintain the roads that are there that could be 
impacting the environment?
    Mr. Oberstar. With the exception of those that are 
designated public lands highways and are eligible under the 
surface transportation program for 100 percent Federal funding 
out of the Highway Trust Fund.
    Mr. Hill. And, generally speaking, those roads are----
    Mr. Oberstar. They're high-grade roads, yes.
    Mr. Hill. [continuing] they're high-grade roads.
    Mr. Oberstar. They're not gravel roads, no.
    Mr. Hill. Thank you. I thank the gentleman. I thank the 
chairwoman.
    Mrs. Chenoweth. Thank you, Mr. Oberstar. I very much 
appreciate your contribution to the record and the time that 
you've spent with us. I do want to say you represent one of the 
most beautiful areas in the Nation, and, indeed, it was my deep 
privilege and pleasure to be to go into your district.
    Mr. Oberstar. They'll be happy to have you back any time.
    Mrs. Chenoweth. Thank you. There's a lot of Norwegians and 
Swedes up there working in the timber industry, isn't there?
    Mr. Oberstar. And also Finns, lots of Finns.
    Mrs. Chenoweth. And Finns.
    Mr. Oberstar. Yes.
    Mrs. Chenoweth. Yes, they sure--the women sure know how to 
cook, too. Maybe the men do, too, in this day and age; I don't 
know.
    [Laughter.]
    Mr. Hill. Madam Chairman, I would just like to point out 
that there are a few Irish that were from that district. I was 
raised in Mr. Oberstar's district.
    Mr. Oberstar. They're usually the fire chiefs and the 
bosses in the iron ore mines.
    [Laughter.]
    Mrs. Chenoweth. Mr. Oberstar, again, thank you. It was a 
privilege to have you before our Committee.
    And I will now look to the next panel, Mr. Dombeck.
    Mr. Oberstar. Thank you very much, Madam Chair.
    Mrs. Chenoweth. But before we continue, I would like to 
explain that I intend to place all outside witnesses under 
oath. This is a formality of the Committee that is meant to 
assure open and honest discussion and should not affect the 
testimony given by witnesses. I believe all of the witnesses 
were informed of this before appearing here today, and they 
have each been provided a copy of the Committee rules.
    And now it's my privilege to introduce our next witness, 
Chief Mike Dombeck, U.S. Forest Service, Washington, DC.
    If you will rise, Chief, and raise your right arm?
    [Witness sworn.]
    Mrs. Chenoweth. Under our Committee rules, we will be 
questioning Mr. Dombeck after his testimony, but our Committee 
rules limit statements to 5 minutes, but the Chief's entire 
statement will appear in the record and we'll allow him to 
summarize his statement. We will also allow the entire panel to 
testify before questioning the witnesses.
    The chairman now recognizes Chief Dombeck to testify.

    STATEMENT OF MICHAEL DOMBECK, CHIEF, U.S. FOREST SERVICE

    Chief Dombeck. Well, thank you, Madam Chairman and members 
of the Committee. In fact, I was delighted to see the tone of 
humor that ended the last panel, as we embark on an issue that 
has not been very humorous for well over a decade.
    I appreciate the opportunity to visit with the panel and 
answer questions about roads and the roads program, and as has 
been articulated, I have proposed a timeout in road building in 
roadless areas for an 18-month period as one part of a 
strategy. A second part is to develop a science-based forest 
transportation system that meets the needs of local people 
while minimizing and reversing the adverse environmental 
effects associated with roads, particularly poorly maintained 
roads.
    Let me outline the key objectives of the policy. No. 1 is 
to provide managers with the best, up-to-date science and 
analytical tools to make better informed decisions about when, 
where, and if to construct new roads. A second, once those 
decisions are made, working with local people, we need to 
determine what roads are needed and commission those that are 
not needed, perhaps convert them to trails, whatever the best 
use, determined with the local community and the State.
    Third, we need to improve the roads and be able to take 
care of the roads in an appropriate manner that we do need. 
There are changing demands in local communities, changing 
access needs, and a growing recreation use on national forest 
systems. The policy review is critical, so we can focus our 
limited resources on the roads in most need.
    Finally, we intend to develop a road policy that allows us 
to catch up on our enormous backlog in road maintenance and 
reconstruction, while meeting management objectives and access 
needs.
    The road network of the national forest system is extensive 
and diverse. Many roads are essential for active management of 
national forest resources and provide many and various 
benefits. They are critical to timber harvest, to mineral 
extraction, to livestock grazing, to recreation access, and 
many local needs. They provide access for fire control, law 
enforcement, search and rescue, wildlife habitat projects, 
research and monitoring. And there is no question that the road 
network of the national forest system serves, and will continue 
to serve, as a fundamental component of the delivery system of 
multiple-use programs.
    The simple fact is that the road system we have today is 
tremendously larger than we can afford. Current funding is not 
sufficient to maintain all the roads to safety and 
environmental standards to which they were built. For example, 
we only maintain 40 percent of the 373,000 miles of road to 
designated environmental and safety standards. Let me give a 
few examples.
    Building a road requires a short-term investment of 
revenue. However, maintenance decade after decade is a long-
term financial commitment. The cost of delaying timely 
maintenance and reconstruction increases exponentially over 
time.
    In Idaho, the road to Riverside Campground on the Targhee 
National Forest could have been chip-sealed a few years ago for 
$22,000. Today it will cost more than $110,000. To reconstruct 
five miles of Scout Mountain Road on the Caribou National 
Forest will cost $1.4 million. Most of that could have been 
preserved by investing about $100,000 several years ago.
    While forest roads provide many benefits, they can also 
cause serious environmental damage. While new developments in 
road building technology result in fewer negative environmental 
impacts, the environmental effects of existing roads, of roads 
that were designed decades ago to lower standards, and roads 
that are not appropriately maintained are some of our key 
problems. They're related to increased frequency of flooding, 
of landslides, increased stream sedimentation associated with 
the reductions of aquatic habitat productivity and water 
quality.
    Research indicates that roading may accelerate the invasion 
of exotic plant species that ultimately displace native species 
and diminish the productivity of the land. My objective is 
that, with new policies and procedures firmly established, 
local managers can decide where and how individual roads should 
be managed, working with local people. The Forest Service needs 
to balance scientific information, public needs, and funding 
level to determine the size, purpose, and extent of the forest 
road transportation system.
    I would also ask, Madam Chairman, that The Federal Register 
notices be made part of the record. In addition to the two 
Federal Register notices that are out currently, we are also 
extending the comment period on the interim, temporary 
suspension of road building, and that is available, will be 
available in The Federal Register on Friday, but I would also 
ask that that be made part of the record.
    [The information referred to may be found at end of 
hearing.]
    Chief Dombeck. Under the interim proposed rule, a limited 
number of land management projects that depend upon new road 
construction, such as timber sales, may not be implemented in a 
timely manner. During the interim period, some projects may 
proceed in an altered form, and some may be postponed until 
such a time as road access management is implemented.
    I want to emphasize that only new road construction or 
reconstruction within roadless areas is affected by this 
proposal. Other needed management activities that do not 
require road construction will continue.
    In summary, Madam Chairman, the Forest Service shares your 
deep concerns for a transportation system that meets the needs 
of rural America. The Forest Service recognizes the need for a 
science-based process that enables us to manage our 
transportation system in a manner that minimizes or reverses 
environmental impacts while providing the transportation 
infrastructure needed by rural America.
    I'd be happy to answer any questions, Madam Chairman, to 
you or any of the Committee members. Thank you.
    [The prepared statement of Chief Dombeck may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Dombeck.
    I see that Mr. Stupak has arrived, and, Mr. Stupak, we've 
looked forward to your testimony. If you would like to join the 
Chief at the witness table, we'd look forward to hearing from 
you, and we will interrupt the panel to hear from Mr. Stupak, 
the gentleman from Michigan. Mr. Stupak?

  STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Madam Chair, and thank you for 
accommodating me. My plane just landed, and I appreciate the 
opportunity to get on immediately.
    I think everyone agrees that there's a need for a 
comprehensive plan of dealing with roads in our national 
forests. However, I think this moratorium that is being 
proposed will undermine years of hard work in our national 
forests, threaten forest health and the forest industry in our 
local communities.
    Madam Chair, in Michigan, two main national forests in my 
district, the Ottowa and Hiawatha--for a number of years we've 
spent time doing a forest management plan. The forest 
management plan is agreed by everybody, whether you're an 
environmentalist, whether you're in the timber industry, or 
whether you're a recreation enthusiast. We've agreed on how to 
manage our forests. We've agreed where forest roads should and 
should not go.
    Now we have this proposal from Washington which is 
basically going to undermine everything we have done for all 
these years. We have a great working relationship, and now, 
because Washington, DC, wants to change it in our national 
forests, I think it is wrong and I think we should allow the 
local citizens and the forest managers to make those decisions, 
and not impose this moratorium on the entire Nation, as decreed 
from Washington, DC.
    Second, since 1991, in my district, more trees die and rot 
than are actually being cut. For every tree that's cut, we've 
got one-and-two-thirds tree that will probably tumble down and 
die somewhere in northern Michigan because it's not being 
properly managed and we're not cutting enough up in my 
district, and forest products is a big, one of my biggest 
industries, but still, with all the trees we have in the 
national forests, we still are not keeping up with the growth 
in northern Michigan.
    Also, the new policy will only increase a trend of 
promoting the outbreak of diseases in trees, creating fuel for 
forest fires. I know I don't have to explain to the Chair what 
a catastrophic event it is when you have wildfires breaking 
out; you don't have access to it. Roads actually provide you 
that opportunity. It actually prevents the spread of disease, 
which may wipe out part of your forests. So it can be used, the 
roads can actually be used as a very valuable forest management 
tool to allow you access to this timber.
    Third, not only would the roads have a significant impact 
on the forest industry as an industry in and of itself, the 
proposed moratorium would put 16 percent of the suitable timber 
base offlimits for road building. You know, if you don't have a 
road, you can't harvest the timber. So 16 percent right off the 
top would come off the base for timber sales.
    And then you have this idea of special areas that they 
propose in this moratorium. I think that's just to put more 
forests off without having us to put roads in there. You have 
to--without the roads, you can't cut any timber. It's just a 
very bad policy.
    Finally, I think you'd also have a drastic effect on our 
local communities. As you know, Madam Chair and members of this 
Committee, the counties which have national forest lands 
receive payment, basically 25 percent of the gross Federal 
timber revenue. This policy, if you do not have the roads, you 
do not have the timber sales. Based on that 16 percent I 
mentioned, we could lose as much as $160 million in revenue, 
and that's a conservative estimate at best. So $160 million in 
payments to these local communities. That goes for schools; 
that goes for services provided by local units of government.
    So when you take a look at it, this moratorium will not 
manage our forests. In fact, I think it will be a hinderance to 
the forests. It has economic ramifications. It has natural 
resource ramifications. It has trees in my district that we 
can't even cultivate or manage our forests without it.
    But I guess the most striking is, we've asked our Regional 
Foresters, national forest representatives, to enter into 
agreement(s) with local units of government, and now we're 
going to undermine all those years of work, just because 
Washington has a ``better idea.'' So I would totally oppose 
this moratorium. A roadless area moratorium is an ill-conceived 
policy. I don't think it's been thought through. It's going to 
have detrimental effects on our environment, jobs, our local 
communities. And, understand, when you do anything in a 
national forest, we already have a number of protections in 
there--with the Endangered Species Act, the National 
Environmental Protection Act, the National Forest Management 
Act. These are all designed to protect environmentally 
sensitive areas, to make sure we don't have roads all over the 
place.
    These programs have fit well in the past. I don't think we 
should now embark upon a one-size-fits all program.
    Madam Chair, I'm pleased you're having hearings on this. 
I'm pleased we began the debate on this issue. I think the 
national forests, at least in my district, have worked fairly 
well. The Great Lakes Region is a pretty efficient, effectively 
run national forest area. I would hope we would defer to the 
good judgment put forth by local individuals.
    With that, Madam Chair, I'm happy to answer any questions 
you may have.
    [The prepared statement of Mr. Stupak follows:]

 Statement of Hon. Bart Stupak, a Representative in Congress from the 
                           State of Michigan

    Mr. Chairman, thank you for holding this hearing today and 
for allowing me the opportunity to offer my comments on this 
important issue. I have a number of concerns regarding the 
Administration's proposed Forest Service roadless area 
moratorium. While I think everyone agrees that there is a need 
for a comprehensive plan for dealing with roads in our national 
forests, this moratorium undermines years of hard work in our 
national forests and threatens forest health, the forest 
industry and our local communities.
    First of all, the roadless area moratorium undermines the 
hard work by our local citizens and subverts agreements that 
have been reached in managing our Federal lands. In Michigan, a 
number of parties from all sides spent years negotiating a 
management agreement for two national forests in my district, 
the Ottawa and Hiawatha. In one of the specific compromises, 
the Trap Rock Hills Area on the Ottawa National Forest and the 
Fibre Area on the Hiawatha National Forest were to be returned 
to management designations upon passage of the Michigan 
Wilderness Act. The roadless area moratorium would effectively 
kill this negotiated compromise. Instead of allowing regional 
foresters and local citizens to determine how their forests 
should be managed, a bureaucratic decision has been made in 
Washington, DC to impose this moratorium on the entire nation.
    Second, this moratorium could have an adverse effect on 
forest health. Since 1991, more trees die and rot each year in 
national forests than is sold for timber. This new policy will 
only increase this trend, promoting the outbreak of disease and 
creating fuel for forest fires. The Forest Service itself 
estimates that 40 million acres of its forest are at great risk 
of being consumed by catastrophic wildfire, the majority of 
which are located in roadless areas. Without the ability to 
conduct proper forest management activities, the risk of 
disease outbreak and forest fires increases dramatically.
    Thirdly, the roadless area moratorium would have a 
significant impact on the forest industry. According to the 
Administration, the proposed moratorium would put 16 percent of 
the suitable timber base off-limits for road building, which is 
a precursor for timber harvesting. Combined with the vague 
``special areas'' that can be placed off-limits by regional 
foresters, the impact on the forest industry could be serious. 
In my district, which already suffers from high unemployment, 
the forest industry is one of my top employers. I am very 
concerned that this moratorium on road building will also cause 
a moratorium on jobs in the forest industry.
    Finally, the moratorium could also have a drastic effect on 
our local communities. By law, counties with national forest 
lands receive payments equaling 25 percent of gross Federal 
timber revenues. These payments are used by county governments, 
districts and school boards for education programs and road 
maintenance. The Forest Service has been reported to have 
estimated that this policy could result in the loss of $160 
million in revenue--a conservative estimate at best. At a time 
when the PILT program remains woefully underfunded, local 
communities may be the hardest hit by this proposed moratorium.
    Mr. Chairman, I am glad that we have begun the debate on a 
comprehensive road plan for our nation's Federal forest lands. 
However, I believe that the roadless area moratorium is an ill 
conceived policy that could have detrimental effects on our 
environment, jobs and local communities. We already have a 
number of laws, such as the Endangered Species Act, National 
Environmental Protection Act, and the National Forest 
Management Act, that are designed to protect the 
environmentally sensitive areas of our country. A ``one size 
fits all'' mandate by the Federal Government is simply not 
needed.
    Again, thank you, Mr. Chairman, for holding this hearing on 
this important issue.

    Mrs. Chenoweth. Thank you. And we will defer to Mr. Stupak 
for the moment, so he can get back to his committee.
    Mr. Stupak, up there in the upper peninsula of Michigan, 
what is the average annual income of the average family up 
there?
    Mr. Stupak. Oh, my average income is, my district, maybe 
average family income, I'm going to say--I'm thinking family 
now, maybe two jobs--at most, in the twenties, $25,000.
    Mrs. Chenoweth. So this would seriously impact families----
    Mr. Stupak. Oh, not only the economics. I mean, take my 
communities. There are some counties in my district, they 
cannot bond for schools. You know, if you want to build a new 
school, you have to bond for it, put the bonding out, and we 
finance and build our schools that way. The Federal Government 
owns so much of my land up there, some of these schools cannot 
bond, because they don't have enough of a resource base or a 
tax base because the Federal Government owns most of the land. 
The meager PILT payments--and I know you've joined me in the 
past in trying to raise the PILT payments, payment in lieu of 
taxes, we set the standard, I believe, in 1978 and we've never 
increased it for inflation or anything else, but, yet, we still 
expect the local communities to provide services to its 
citizens, and the Federal Government owns all of its land, will 
not increase PILT payments.
    So we do have this idea underneath the timber sales, and 
actually my forests up there, we're what we call ``above 
cost.'' Actually, the Federal Government makes money off 
northern Michigan timber sales. So it's been a very good 
policy, and now to suddenly shut it down would be ill-
conceived.
    Mrs. Chenoweth. In my district in Idaho, some of our 
schools our having to run on 4-day weeks, and many of the 
Forest Service employees send their children to those schools.
    Mr. Stupak. Sure.
    Mrs. Chenoweth. So it does have a double-whammy. I dread to 
think that that will spread to other areas like the UP.
    Mr. Stupak. Well, if you take a look at it, Madam Chair, if 
I can go on, in these agreements I said that we have in the 
Hiawatha and the Ottowa National Forests, these are agreements 
that have been long-term negotiated, 50-year agreements. So you 
ask industry up there to invest in a community, and they based 
it upon a 50-year agreement that there would be abundant forest 
supply or timber supply for these mills. Now, after 10 years in 
the agreement, you're to change? Well, you tell the industries 
that invested millions to billions of dollars in an industry 
that, ah, we just decided in Washington, DC to change it, not 
take into consideration your economic investment in an area, 
and I think that's where we fall short in our goals to do well 
by the environment. I think we hurt ourselves and our 
communities and the trust of the Federal Government, when you 
enter into an agreement and you do not live up to it.
    And one other thing. If you take these forests off the 
market, because you can't build any roads, there's no more 
timber sales. That 16 percent I mentioned, what do you do? You 
put pressure on your State forests; you put pressure on private 
forests to then provide the wood for these mills, the timber 
resources for these mills. So you're putting greater pressure--
it may not be on the Federal land, piece of land, but you're 
putting pressure, and it can be environmentally damaging to the 
State forests and to the private forest owner.
    Mrs. Chenoweth. Thank you, Mr. Stupak. Well-noted.
    Do any members of the Committee have questions of the 
Congressman?
    Mr. Peterson of Pennsylvania. Just thank him for his good 
testimony.
    Mr. Stupak. Thanks.
    Mrs. Chenoweth. I want to join Mr. Peterson and thank you 
for your fine testimony. As you know, should you wish to 
supplement your testimony with any written information, in 
addition to what you've testified to, the record will remain 
open.
    Mr. Stupak. Thank you, Madam Chair, and thank you for the 
time.
    Mrs. Chenoweth. Thank you very much.

        CONTINUATION OF THE STATEMENT OF MICHAEL DOMBECK

    Mrs. Chenoweth. Thank you, Chief Dombeck. I appreciate your 
indulgence there. These Committee members, Congressmen have 
committees that they're do markup in, and it's difficult to 
work them in and out.
    As you can see by the many comments I have received here 
from constituents, this roadless moratorium has not been well-
received at all. And I am placing these questionnaires 
regarding the roadless area as part of the official hearing 
record, without objection.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. As we all know, this initiative has been 
long in coming, and the only problem is that the Clinton-Gore 
administration has decided that it is better to work in the 
back rooms than to involve the public and the Congress. I 
cannot speak for everyone in Congress, but I have personally 
attempted to work with you, Mr. Dombeck, on several occasions 
with regard to this issue. As you know, word began to leak out 
that the Forest Service was working on a roads initiative 
around the end of August, and in response to this, my staff in 
Turkey spoke to you about what you had planned. You informed 
them that you were not working on any kind of roadless policy 
or a de facto wilderness policy.
    Upon hearing more of the administration's roadless 
initiative, I sent a letter of inquiry to the President, and 
this letter was sent on December 10, 1997. An answer was 
requested by January 5th of 1998. But after numerous inquiries, 
no answer has ever been received to this letter. Five letters 
from congressional leadership, including three signed by 
myself, were sent without a reply.
    Now there was an article in The New York Times, dated 
January 10, 1998. The answer to our letter did not come from 
the administration, but our letters of inquiry were answered by 
this--an article in The New York Times, dated January 10, and 
it outlined your initiative. But we didn't hear from you; we 
heard it through the press.
    What it pointed out was something that we knew all along. 
What this article says is that the Vice President is the one 
who has been pushing for this. Is this why the Sierra Club sent 
its letter to Vice President Gore, cc to Katie McGinty? Is this 
why the Sierra Club sent this letter, dated January 13, from 
the Sierra Club to Vice President Gore, and a carbon copy to 
Katie McGinty? Is this why the administration went around this 
Committee and the Congress?
    Chief Dombeck. I'm not familiar with that letter, Madam 
Chairman.
    Mrs. Chenoweth. Kathy, would you show the letter to the 
Chief?
    Chief Dombeck. I don't recall having seen this letter 
before, and I guess I can't comment on the intent of it, other 
than a group--I assume the group's stating their position.
    Mrs. Chenoweth. Mr. Dombeck, is this whole program being 
initiated out of the Vice President's office or out of Katie 
McGinty's office? Now let me back up and say, we have reason to 
be very concerned. As Chairman Hansen referred to the Escalante 
National Monument issue, this administration was in absolute 
denial that, No. 1, it was politically motivated, and, No. 2, 
that it was coming from the highest reaches in the White House, 
until we turned up information on subpoena, inside documents.
    I am utterly baffled as to why, No. 1, my letters and the 
letters from this Committee, as well as the entire Resources 
Committee, went unanswered, and yet the communication was going 
on between the Sierra Club and the Vice President, carbon copy 
to Katie McGinty.
    When we first met and we first started talking together, I 
never did get the impression that this kind of thing could have 
happened, but it did. I want to ask you again, after numerous 
inquiries by myself, Chairman Young, and many others went 
unanswered by you, about the content and nature of this 
initiative, and you claimed that you knew nothing about this 
policy, when personally asked. Is the statement true in The New 
York Times that this policy is something that the Vice 
President initiated and pushed, and what percentage of your 
time since August 1997 have you spent on it personally?
    Chief Dombeck. First of all, let me just give you a little 
bit of history on this issue. The answer to your first question 
is, no, it was initiated by the Forest Service. In fact, the 
first statements that I made on the problems associated with 
many of the controversial areas was in, I believe it was March 
18 testimony in this room before you.
    The meeting with the management team of the Forest Service, 
as now I'm just a little bit over a year in the job, we took a 
look at what the most challenging, perplexing problems were for 
the agency, because my objective is to try to move the agency 
into more of an anticipatory management scheme. The challenges 
that the agency faces, and that natural resource management 
faces in general, perplex all of us, and the more time we can 
spend anticipating problems and issues, I believe the more 
efficient we can be. As a matter of fact, I just want to say 
that many of the statements that have been made here, just from 
the standpoint of overall forest management and challenges that 
we have, I think you will find broad agreement for.
    So we then addressed the issue in more detail at another 
national leadership meeting of our Regional Foresters and 
Station Directors that we held in St. Paul in August, and at 
that time assignments were made to career staff to go ahead and 
begin an analysis of what we do with the challenge that we have 
with this roads program. Now it's a program that's been in the 
emergency--literally been in the emergency room for a number of 
years, and in fact, our inability to maintain roads because of 
maintenance problems and lack of funding is sort of pulling the 
whole program down.
    We then, the professional staff of the agency, looked at 
options, and we met in--I believe it was--was it December 4?--
again, where I called a special meeting of the management of 
the Forest Service. It was at that time we began to discuss 
what our options might be in addressing this issue.
    Mrs. Chenoweth. Mr. Dombeck, you had a meeting in St. Paul 
in August and you were in Turkey with my staff in September, 
when my staff asked you directly if you were involved in this 
type of program, and you told them no.
    Chief Dombeck. Well--and, again, I think about the--the 
policy addresses road building. It doesn't address land 
allocation, roadless management. It focuses specifically roads.
    Mrs. Chenoweth. Well, I just want to say, Chief, that when 
we, either formally or informally, ask you a direct question, 
we need a direct answer, and this was not a direct answer, and 
I'm very, very disappointed, to say the least.
    The fact that your Service has worked around us, has not 
worked with us, and this is a major change in policy--if the 
Vice President--let me ask you this, and then I'm going to open 
this up for questions with the other Committee members. If the 
Vice President was not directing this policy, then why did he 
take credit for it in The New York Times? If it was The 
Washington Times, you know, this is not a newspaper he normally 
works with, but The New York Times is another story. Why did he 
take credit for this? And if you are continuing to be in 
denial, that this was not initiated by the Vice President, then 
I would appreciate your asking him why he's taking credit for 
it and getting back to us. We need to know where these policies 
are being driven from.
    Chief Dombeck. Now tell me the question again?
    Mrs. Chenoweth. OK, the question is: You denied that the 
Vice President initiated this program. Yet, the Vice President 
himself took credit for this program in The New York Times. If 
he didn't initiate it, then why is he taking credit for it in 
the press? And I think that if you still want to deny that he 
initiated it, then you need to ask him, or let this Committee 
know where the policy is emanating that is driving management 
on our national forests.
    Chief Dombeck. First of all, let me say that--let me 
reaffirm again that, you know, this policy, the needs to 
address the roads issue on the national forest system came 
from--came from me and the staff of the leadership of the 
Forest Service. Now the other thing to keep in mind is the fact 
that, as policy is developed, a policy that is--an issue that 
is this intense and has been for so long--is of intense 
interest, and I, my staff and I brief not only the people on 
our own staff and others on--associated staff directors, and so 
on, in Washington, which we did, we brief--since we work for 
the administration and the Executive branch, I briefed the 
Secretary, the Secretary's staff, various people in the 
administration, as the policy was nearing completion, because 
that's my responsibility.
    I might also--any time you have a large number of people 
involved in developing a policy that's of such high interest, I 
guess I don't know how you prevent people from talking and 
leaks and that sort of thing.
    Mrs. Chenoweth. The question is: Why did the Vice President 
take credit for this program in The New York Times, if he had 
nothing to do with it?
    Chief Dombeck. I don't know that.
    Mrs. Chenoweth. Pardon me?
    Chief Dombeck. I don't know the answer to that.
    Mrs. Chenoweth. All right. Mr. Hinchey, do you have any 
questions?
    Mr. Hinchey. Yes, I do, Madam Chairman. Thank you very 
much.
    Mr. Dombeck, I want to express my appreciation for your 
initiative in proposing the moratorium on road building in the 
forest preserves. Sometimes I must imagine that you think 
you're in the road maintenance and road building business 
rather than the forestry business. The national forest 
transportation system includes approximately 373,000 miles of 
authorized roads currently. In contrast, the interstate highway 
system has less than 48,000 miles of roads. So you're 
overseeing a road system eight times as long as the Federal 
interstate highway system.
    For additional perspective, your highways constitute enough 
mileage to encircle the globe more than 15 times--an 
extraordinary circumstance, I think. And these roads, by the 
way, access currently 191 million acres of national forest 
lands, and all of these 191 million acres of national forest 
lands are used for a variety of purposes. So I'm sure it must 
appear to you that you're in the road business rather than the 
forestry business at some point, and I could fully understand 
why you're suggesting a moratorium.
    Given that you have identified a forest road repair and 
maintenance backlog now, currently, of $10.5 billion, can you 
tell me what funds you are requesting in the fiscal year 1999 
budget?
    Chief Dombeck. We have--the President's budget is asking 
for, I believe it's about a 20 percent overall increase in the 
forest roads program. This is a program--just to exemplify the 
challenges that I have and the Forest Service has, as it's 
stuck in this issue, is in 1985 we had an overall forest roads 
budget of about $228 million; by 1996, that had fallen to about 
$95 million. And, yet, the backlog continues, and as I 
explained in some of the examples, road maintenance problems 
are such that, when not addressed, they increase at a more 
rapid rate year after year after year, if they're not addressed 
and become costly problems that contribute to not only safety 
problems, but environmental problems. We find ourselves having 
to lower the weight limits on bridges. And one Forest Service 
employee from Wyoming told me that, you know, it used to be 
that the school bus could get across the bridge; now it can't, 
because of load limit restrictions.
    We should be--we have about 7,700 bridges that we should be 
maintaining and improving 300 to 400 a year, and I believe 
it's--is it about 40?--that we have funding for to maintain. So 
it's an infrastructure problem that we have to face and deal 
with it. And I understand the tenacity of the issue.
    Mr. Hinchey. I bet you do. And it's also a safety problem, 
as you point out, because you have private transportation 
vehicles, including school buses, as you identified, traveling 
over these bridges. So it's important that you use what money 
you have, and it's darned little, apparently, to maintain these 
roads and make sure that they continue to be safe, rather than 
constructing new ones which would add additionally to the 
burden and make it impossible to maintain the existing 
infrastructure.
    Have you asked for any money in the present budget which 
will go to decommission unneeded and environmentally harmful 
roads?
    Chief Dombeck. Yes, the funds requested for decommissioning 
has increased. Would you hand me that table [speaking to 
staff]? Or we could provide that information.
    Mr. Hinchey. OK, well, if you could provide, I appreciate 
that you don't have that right at your fingertips.
    [The information referred to follows:]
    Chief Dombeck. I see now the--we're proposing in fiscal 
year 1999 to decommission about 3,500 miles in roads.
    Mr. Hinchey. The National Forest Service makes a very 
substantial contribution to the national economy, and it does 
so because it is employed, used, for a great many purposes. Can 
you tell me whether there is greater economic value to the 
country by supporting the recreation industry or from logging? 
What is the differences there?
    Chief Dombeck. Well, the trends have been changing rapidly, 
and of course the overriding values that my economists and 
folks tell me is that the benefits derived from other uses--
recreation, and so on--far exceed the values of commodity 
extraction, but I want to make sure that I underscore that I 
also understand the importance of jobs in small communities.
    I'm one that grew up on a national forest, and also 
understand the variety of uses, the importance of multiple use, 
and can appreciate that a job is a job.
    Mr. Hinchey. Well, it's important that someone in your 
position have that kind of sensitivity, and I very much 
appreciate that you demonstrate it, and I value it as well, 
because I grew up in a small community and I know the 
importance of logging. We have the Catskill Forest Preserve and 
the Adirondacks in New York--vast forests. So I'm very familiar 
with the importance of forestry and the kinds of jobs and 
industries that it can create in a variety of industries.
    People use these forests, and I understand that more people 
are using the national forests, visiting the national forests 
annually than the national parks. Is that true? And do you have 
any figures on that?
    Chief Dombeck. Yes, that's true. The information I have is 
that, just to give you an example of the increase in growth in 
recreation, in 1980, data that we have indicates we had about 
560 million visits to national forests; by 1996, that had 
increased to 865 million. We expect it to exceed a billion 
soon.
    And just to give you an idea, the vehicle traffic on 
national forest system roads, in 1950, there were about 15,000 
vehicles every day on national forest roads associated with 
logging. That's about the same number as we have today. In 
fact, the timber harvest is about the same level today as it 
was in the 1950's. However, we have about 1.7 million vehicles 
a day associated with recreation and other local uses on 
national forest system lands. That's a tenfold increase from 
1950, and we haven't made the adjustment to the change, and 
this is why we need to take a look at the underpinning 
policies. I need to give credit to the timber industry and the 
forest products industry, and others, because most of those 
roads were built for those purposes, but today they're being 
used for very, very different purposes, and we need to make the 
adjustments.
    Mr. Hinchey. This reflects, obviously, the changes in our 
society, the changes in economics, the changes in recreational 
attitudes, and the need for us to recognize the value of the 
multiple uses that occur within the forestry system. I very 
much appreciate your sensitivity to that and your carrying out 
your duties in full recognition that the forests provide great 
opportunities, not just for logging, although that's very 
important, but for recreational and for wildlife habitat and 
for a variety of other uses as well.
    Mr. Peterson of Pennsylvania. [presiding] I'm Congressman 
Peterson, sitting in for Congresswoman Chenoweth. We have a 
vote that we must take momentarily. The meeting will be recess 
for 30 minutes, and then we will return for extensive 
questioning.
    Chief Dombeck. Thank you.
    [Recess.]
    Mrs. Chenoweth. [presiding] The hearing will come to order.
    We'll recognize Mr. Peterson for the next round of 
questioning.
    Mr. Peterson of Pennsylvania. Thank you, Madam Chairman.
    Before I ask my questions, I would like to submit a 
statement for the record.
    Mrs. Chenoweth. Without objection.
    Mr. Peterson of Pennsylvania. OK. Welcome, Mike. It's a 
pleasure to have you here.
    But I do have a lot of questions about this issue. I was 
surprised--you have stated quite unequivocally this morning 
that this policy came from you and your staff. Is that correct?
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. Was----
    Chief Dombeck. Initially, we, as I said, particularly after 
the debate in the Congress over the issue this year, this past 
year, we felt it was imperative that we need to move the ball 
forward, and we need to shift the debate. Because my biggest 
concern is that the entire program is in jeopardy, and then 
we're really going to have problems.
    Mr. Peterson of Pennsylvania. Yes, I agree. The issue, 
though, of a moratorium, that was not suggested to you by 
someone from Agriculture or even higher up, that this is 
something you should take a look at?
    Chief Dombeck. That's correct.
    Mr. Peterson of Pennsylvania. So you----
    Chief Dombeck. We looked at----
    Mr. Peterson of Pennsylvania. It wasn't suggested from your 
superiors that you should look at a moratorium?
    Chief Dombeck. We looked at----
    Mr. Peterson of Pennsylvania. No?
    Chief Dombeck. No.
    Mr. Peterson of Pennsylvania. It wasn't suggested to you by 
somebody?
    Chief Dombeck. No.
    Mr. Peterson of Pennsylvania. So his came from you and your 
staff?
    Chief Dombeck. That's correct.
    Mr. Peterson of Pennsylvania. [continuing] you looked at 
the big picture? OK.
    I guess the other point that surprises me a little is the 
diversity of America. Every time we do something unilaterally 
from Washington, when it impacts Alaska, Florida, Pennsylvania, 
and Arizona, and everything in between, it affects everybody 
differently. There are probably forests where this is a good 
idea; there are probably forests where this will cause 
problems. Do you agree?
    Chief Dombeck. I agree.
    Mr. Peterson of Pennsylvania. Well, I mean, why couldn't it 
have been a regional approach or a forest-by-forest approach or 
even your regions, where you have the hardwood forests and the 
coniferous forests? I mean, there's--where you have the dry, 
arid areas and the areas with--I mean, there's so much 
difference in what--well, the needs are so different. You took 
away all your own flexibility.
    Chief Dombeck. Well, first of all, let me say that what we 
have out now is a proposal for public comment. In fact, as I 
mentioned in my opening statement, is that, as a result of a 
request from a number of Members of Congress and Senators, we 
have extended the comment period for another 30 days, and will 
be holding public meetings to make sure the appropriate 
information is out there. And this is a proposal that emanated 
from the Forest Service, and it is now out there for us to talk 
about, to communicate with Congress, with the American people, 
with any of those that are interested in the proposals, both 
the long-term proposal as well as the interim. And I want to 
point out this is an interim proposal. It's an 18-month 
proposal, and my commitment is that at 18 months, if we don't 
have a new proposal out there, we'll go back to the way we're 
doing business now.
    Mr. Peterson of Pennsylvania. So it was more political 
reasons? You saw the political fight that went on on the House 
floor and in the Senate, and all the rankling that went on, and 
it was like it was almost a tug-of-war with no big winner on 
either side. It was kind of an evenly divided issue. So it was 
better to step around that for a couple of years?
    Chief Dombeck. Yes, that's part of it, but, also, we find 
in studies that unroaded areas or areas of road density are our 
best strongholds for aquatic species. These are areas where we 
have fewer problems with invasive noxious weeds and things like 
that. So there's also a scientific basis to this as well.
    Mr. Peterson of Pennsylvania. But, in reality, your 200 
million acres is a portion of the 700 million acres we own, and 
that's not the first thing to worry about plant species in the 
same manner that some of the other areas would. I mean, yours 
is really multi-use. I guess I'm a little surprised that plant 
consideration is driving this policy or this issue. I mean, 
that's a pretty weak argument as far as your mandate for 
managing the multi-use part of the national reserve, or 
whatever you want to call it, of 700 million acres.
    Chief Dombeck. Well, again, you know, it's one of the 
pieces in the entire process, as we looked at the pros and cons 
of the various options that we had.
    Mr. Peterson of Pennsylvania. Did you run this by the 
regional people----
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. [continuing] prior to 
announcement?
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. They had a chance to react 
and recommend or oppose.
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. How about the managers of the 
forests?
    Chief Dombeck. To a certain extent, yes. I made, you know, 
a number of personal calls, as staff and the Regional Foresters 
and others that were involved in developing the nuts and bolts 
of the policy did more extensive sensing. I--for example, I can 
remember talking to Dave Wilson, who's supervisor of the 
forests in South Carolina, and he said, well, because of these 
challenges, I really haven't been going into roadless areas for 
the last several years. So we talked with people like Bob 
Storch, the supervisor, one of the supervisors in Colorado, and 
made a variety of phone calls.
    Mr. Peterson of Pennsylvania. Some of them, but not--they 
didn't all get included?
    Chief Dombeck. That's right.
    Mr. Peterson of Pennsylvania. OK.
    Chief Dombeck. The other point we did, though, is we did 
gather data from all the forests, and letters went out--I'm not 
sure when--Bob, in December [speaking to staff]?--in October, 
asking for information on impacts and things like that.
    Mr. Peterson of Pennsylvania. OK. I know my time's up, but 
if I could ask one concluding question--now you talk about 
there's going to be input or hearings in this report period. 
Where, Region 9?
    Chief Dombeck. Do you recall, Rhey, where the locations 
[speaking to staff]? I have--I think I might have that list 
here some place. Does someone have it? At any rate, we'll 
provide that information for you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Peterson of Pennsylvania. I'm told Boston and 
Minneapolis, but, boy, that leaves a lot of us out in the 
cold--unless we want to travel long distances.
    Chief Dombeck. I'll--we're also going to have a public 
meeting here in Washington, DC as well.
    Mr. Peterson of Pennsylvania. But, still, for input, now 
that leaves a lot of forests a long ways from any chance of 
public input or public discussion. I mean, that's 
disappointing.
    Chief Dombeck. Well, we'd certainly be happy to visit with 
you and take a look at that.
    Mr. Peterson of Pennsylvania. OK.
    Chief Dombeck. The important thing to me is that people 
understand the ramifications of the proposals in a clear 
fashion, and have a basis----
    Mr. Peterson of Pennsylvania. But that's why the hearing 
process is important, I think. People on the ANF and people--
the citizens, not your people, but the citizens have absolutely 
no idea how that's going to impact them. We've already been 
impacted in a huge way in the last few years, and they're 
scared.
    Mrs. Chenoweth. Thank you, Mr. Peterson.
    The Chair now recognizes Mr. Vento.
    Mr. Vento. Thanks, Madam Chair, and thanks for holding the 
hearing. I have an opening statement which I'll place in the 
record.
    And I want to quickly point out the news release here from 
the Forest Service, where it points out that--I don't know what 
the information--I misunderstand, but it's a public meeting for 
interim roadless rule and long-term transportation policy and 
development, and it indicates meetings, numerous meetings, in 
Alaska, California, Colorado, Georgia, Idaho--two meetings in 
Idaho, and Minnesota is only having one meeting, I guess. 
Montana is having three; New Hampshire, New Mexico, North 
Dakota, Oregon, South Dakota, Utah, Virginia, Washington, 
Washington, DC, and Wyoming. So I don't know that this is 
adequate. I don't think I'll be able to make it to all those 
meetings, incidentally, but I'd ask unanimous consent to place 
that in the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Vento. Mr. Dombeck, Chief Dombeck, I think the policy's 
on the right track. I don't know what, after the hearing 
process or this rulemaking process, but I hope that you will 
make an effort to pursue it. And I would like to take a little 
credit for it, too, even though I didn't have--you didn't talk 
to me before you did this policy, did you?
    Chief Dombeck. I don't recall.
    Mr. Vento. I supposed I'm in the same category as Al Gore.
    [Laughter.]
    Well, not quite the same category.
    [Laughter.]
    Mr. Vento. But, in any case, I'm glad that you paid 
attention to what happened on the House floor when we trimmed 
back the dollars for road building. I think the message is that 
low-cost forests, have low-cost type of sales, and I think that 
probably a lot of that has to be reckoned with, and I think 
that the public is not going to stand still for subsidizing the 
road building and the cutting of the national forests. At the 
same time, we're going to lose the taxpayer dollars and we lose 
the forest. And I just think we need to have a policy.
    Now I don't stand and I've not sponsored and haven't 
pursued bills that would ban timber harvest from the national 
forests. I don't agree with that. I think the multiple-use role 
is the right role. I mean, there's a lot of enthusiasm today I 
think for that, because I think it comes out of frustration 
with the ability of the Forest Service and land managers to do 
it, and they said, if this is going to be the bottom line, then 
we're going to go for a proposal that I think is more harsh.
    And I think that this particular proposal--these proposals, 
but one of the problems here is that someone was talking about 
science, but isn't it a case here where most of the forest 
management plans have been eclipsed by a lot of new information 
with regard to what's happening in these various ecosystems?
    Chief Dombeck. Yes, sir, that's correct. In fact, that was 
one of the reasons that sort of the second-generation plans 
were exempt, because they have--they're based on more up-to-
date science. The forest, the remainder of the forest plans are 
from the eighties, the early eighties, and some of that 
information that they're based on may even be 1970's 
information. Is that correct [referring to staff]?
    Mr. Vento. I mean, so the point is here, you're saying give 
us--we're saying give us a breather in terms of building roads, 
but you're not stopping harvest in those forests. In fact, you 
may rearrange or do some things to, in fact, augment the 
harvest in other areas. Is that accurate?
    Chief Dombeck. Yes. In fact, I, as many of the witnesses 
here or many of the statements reflect, I'm certainly a 
proponent of active management. For example, if we don't 
continue with active management, up to 60 percent of the aspen 
in the intermountain West will be lost, you know, the very 
symbol of the State of Colorado. So we need to be able to move 
forward in these areas and do the appropriate work that's 
needed.
    The serious question to ask is, do we need a permanent road 
to do the work that we're going to have to fund year after year 
after year to maintain for decade after decade after decade, or 
are there other ways to do the work? Should we be looking for 
other technologies? We ought to be doing other kinds of things 
as we move forward, because with 373,000 miles of roads 
currently on the books that are an issue that we have to fund 
year after year, or try to----
    Mr. Vento. Plus 60,000, apparently, that are not--that are 
ad hoc type of roads that are there.
    Chief Dombeck. Yes, yes. And I'd say that's a low estimate.
    Mr. Vento. Well, I think the real problem here is that 
we're running into an issue, unfortunately, where the revenues 
from the harvest don't sustain the type of activities, either 
in terms of maintenance of existing roads, much less these 
roads that are illegal roads really, ad hoc roads, nor do they 
sustain the type of effort. So with decline, we really have a 
crunch here. Maybe we can get some--I notice that my ranking 
member from Minnesota of the Transportation Committee was in; I 
didn't know if he offered any highway funding moneys to help us 
with these roads or not. I know that I'll have to talk to him 
about that. I'm going to a meeting right now.
    But I don't think you can do anything about the weather in 
northern Minnesota. They've had closure in terms of the 
Superior Forest and others because they depend upon the swamps 
and the other areas being frozen. Unfortunately, it's not this 
year; it's warming up pretty good, and that's another problem 
that we face, and that causes more damage.
    But, you know, if you're interested in forest health, it 
seems to me that this is exactly what this is aimed at. One of 
the biggest problems in terms of the forest, in terms of 
watersheds, in terms of road restoration--these are some of the 
biggest problems in terms of the health of the forests, and the 
slumping and the damage that's being done to these forests, the 
erosion, and so forth, with roads is key.
    I think that we should really, in a sense, I think, take a 
look, a new look, at this and reinforce what roads we can, and 
find out what the backbone of the system is, rather than to 
just keep cutting new roads. As you point out, it's a lot 
cheaper to cut a new road than it is for the long-term 
maintenance of it. The reconstruction of it, and the other 
costs that are associated with it need to be dealt with, but 
there's no revenue stream to deal with that today. That's one 
of the major problems.
    So taking a look and finding out where we're going to get 
the revenue to deal with this is absolutely essential. I think 
you're doing the right thing. I hope that it would get the 
support of those that are advocates of forest health, because 
that's what this is really about. This is one of the key 
elements in terms of forest health. To hear some talk about it, 
the only aspect of forest health that seems to interest them is 
salvage, and I think there's a little more to it than that. 
Unfortunately, it adds up to making commitments in terms of 
dollars and cents, rather than rhetorical speeches.
    Thank you.
    Mrs. Chenoweth. Thank you. Rhetorical speeches? Duly noted.
    [Laughter.]
    Mrs. Chenoweth. Mr. Hill? Mr. Hill?
    Mr. Hill. Thank you, Madam Chairman.
    Mr. Dombeck, I want to spend a little more time on the 
process here, just to make sure that I'm fully clear of how we 
got to this point and who recommended that we adopt this 
policy. You've been Forest Chief now for about a year; is that 
correct?
    Chief Dombeck. Yes.
    Mr. Hill. At the time that you were interviewed for the job 
as Forest Chief, did the idea of a moratorium come up in any of 
the discussions with the White House, the Vice President, and 
other people, the Secretary of Agriculture?
    Chief Dombeck. Not that I recall.
    Mr. Hill. OK, so there was no discussion of it at that time 
or any----
    Chief Dombeck. In fact, I did not, you know--I have never 
had a personal private conversation with the Vice President. 
I've shaken his hands a couple of times at meetings and things 
like that, but, beyond that, that's the extent of our 
conversation.
    Mr. Hill. And you've indicated that no indication or 
direction, no recommendation, came from either the White House 
or the Council on Environmental Quality?
    Chief Dombeck. That's correct.
    Mr. Hill. And at the time that you made the decision to 
implement the moratorium, did you consult with the White House, 
the Vice President, the Vice President's staff, or the Council 
on Environmental Quality?
    Chief Dombeck. I consulted with the various members of the 
administration, as I pointed out, you know, like all agencies, 
we work for the Executive Branch. I've consulted with various 
leaders in the Department, and also briefed CEQ.
    Mr. Hill. But you just briefed them? You didn't seek their 
consent to move forward?
    Chief Dombeck. That's correct.
    Mr. Hill. OK. Did you meet with any outside interest groups 
during this period from August through the time that you 
announced this moratorium with regard to their input?
    Chief Dombeck. Well, we've gotten a lot of mail and a 
variety of meetings with people from both industry, the 
recreation community, the conservation community----
    Mr. Hill. But I'm asking, did you meet with them? Did you 
meet with any outside groups? Or did any of the people that 
were helping you prepare this moratorium or with whom you 
sought counsel?
    Chief Dombeck. Yes.
    Mr. Hill. And can you give us a list of what those 
organizations, who those organizations were?
    Chief Dombeck. Yes. I can--we'd be happy to do that.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Let me just ask you a few questions about a 
couple of organizations just at the present time. Included in 
those organizations, was the National Cattlemen's Association 
one of those?
    Chief Dombeck. I don't recall.
    Mr. Hill. How about the Safari Club?
    Chief Dombeck. I'm not sure.
    Mr. Hill. How about the American Forest and Paper 
Association?
    Chief Dombeck. Yes.
    Mr. Hill. How about the National Mining Association?
    Chief Dombeck. I don't believe so.
    Mr. Hill. How about the Society of American Foresters?
    Chief Dombeck. Yes.
    Mr. Hill. And the National Association of Counties?
    Chief Dombeck. No.
    Mr. Hill. American Farm Bureau?
    Chief Dombeck. No.
    Mr. Hill. National Farmers Union?
    Chief Dombeck. No.
    Mr. Hill. Resource Providers Coalition?
    Chief Dombeck. I don't believe so, no.
    Mr. Hill. Pulp and Paper Workers Resource Council?
    Chief Dombeck. I've met with various members of the pulp 
and paper industry, the unions; I'm not sure-----
    Mr. Hill. About this issue?
    Chief Dombeck. [continuing] which segment of them. Not 
necessarily--I don't recall about this issue, but we meet and 
talk about a variety of issues when we meet.
    Mr. Hill. If you would, I have a list of organizations. I 
would just ask if you would note on that which groups you might 
have met with.
    Chief Dombeck. I'd be happy to.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. How about Forest Service employees in Montana? 
Did you consult with any Forest Service employees in Montana 
about this moratorium?
    Chief Dombeck. Yes, the--you know, the Regional Forester 
participated in all the--I believe in the management committee 
meetings, although Dale Bosworth, as I recall, may have been 
absent from the December 4th meeting, because I think he was 
moving at that time.
    Mr. Hill. I guess, separate from the meetings that you 
conducted, did you seek his counsel with regard to any impacts 
on Montana?
    Chief Dombeck. Did he seek--say----
    Mr. Hill. Dale Bosworth's counsel on the impacts that this 
might have on Montana?
    Chief Dombeck. The groups that worked--the employees that 
worked on this issue did--we gathered input from--I believe the 
letters went to every national forest--is that right, Bob 
[speaking to staff]?--asking for information through the 
Regional Forester, through the typical chain of command.
    Mr. Hill. But separate from asking for data, did you ask 
for their counsel on whether they should or shouldn't do it--
whether you should or should not implement the moratorium?
    Chief Dombeck. Well, I primarily consulted with the 
Regional Foresters, and my staff----
    Mr. Hill. The question is, did--was Dale Bosworth one of 
those that you consulted with?
    Chief Dombeck. Yes.
    Mr. Hill. And did he recommend favorably or unfavorably 
that you move forward with the moratorium? Do you recall that?
    Chief Dombeck. I'm not sure I specifically asked him that 
question. Do you remember, Bob [speaking to staff]?
    Mr. Hill. So you didn't ask him whether he favored it or he 
didn't favor it? So in what fashion did you seek his counsel, 
then? If you didn't ask him whether he favored it or he didn't 
favor it, what kind of counsel did you suggest, did you ask him 
for? Did you ask him what the impacts would be on Montana?
    Chief Dombeck. I personally did not specifically ask him 
that question, but as the policies, the internal policies were 
reviewed, each Regional Forester--and I assume they vetted this 
with their staffs--had an opportunity to comment on the policy 
to provide input as the policy was developed.
    Mr. Hill. So you don't know whether he favored or opposed 
it. You didn't seek his counsel on whether he favored or 
opposed it. All you sought from him was data, and that data 
did--I'm just characterizing what you've said now--and that 
data did not contain any information that would allow you to 
identify what the impacts would be in Montana. Is that what 
you're saying?
    Chief Dombeck. I don't believe that's quite right. The 
process is, as one individual, you know, I do not personally 
talk with, you know, over 120 forest supervisors. I sample----
    Mr. Hill. But we're talking about regionals. We're talking 
about regional forests here--foresters here now. I mean, what 
you said is that you made this decision on your own. And what 
I'm just trying to find out is who you consulted, what 
information you had at your disposal to make that decision, and 
I'm specifically interested in whether or not you sought the 
counsel of the Regional Forester in Region 1, which includes 
Montana, with regard to the impacts it would have on Montana, 
and whether he suggested that you move forward or not move 
forward with this moratorium.
    Chief Dombeck. No. 1 is I did discuss this issue at length 
with most of the Regional Foresters, including Dale Bosworth. 
They provided information that we--that the staff requested on 
impacts. So that was taken into consideration. And if the 
question is, did I personally ask him what the impacts in 
Montana would be, I believe the answer to that is no. However, 
the data provided by him was reviewed and was taken under 
consideration.
    Mr. Hill. So you are in possession of data that would 
identify the impacts in Montana?
    Chief Dombeck. Yes.
    Mr. Hill. Thank you, Madam Chairman. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    The Chair recognizes Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman.
    Chief, in your opening comments you mention that you 
suggested that you had mentioned the issue of the problem with 
respect to road construction and road maintenance in previous 
hearings and meetings with this Committee. Do you recall 
whether you ever suggested to us that you were considering a 
moratorium at any point in time?
    Chief Dombeck. No, I did not--I don't believe I did.
    Mr. Schaffer. At what point were you considering a 
moratorium? When did you begin to come to the conclusion that 
this was in the best interest of the people of the country?
    Chief Dombeck. I believe probably nearing the 4th of 
December, the national leadership meeting we had. Is that about 
the way you recall, Bob [referring to staff]? Yes.
    Mr. Schaffer. What is that? What's a national leadership--
--
    Chief Dombeck. That's all the regional foresters and 
station directors from around the country.
    Mr. Schaffer. The 4th of December? The assurance that the 
Council on Environmental Quality or anybody at the White House 
had some role in proposing the moratorium, and you suggest they 
did not, is that right? Does this moratorium fit in with the 
overall goals and objectives that are managed under the Council 
of Environmental Quality, Katie McGinty's outfit?
    Chief Dombeck. Well, I guess I'm--you know, I guess I'm not 
sure of the question. I'm not sure what their specific goals 
and objectives would----
    Mr. Schaffer. Well, the stated goal of the Council on 
Environmental Quality is to coordinate all agencies and make 
sure that all environmental activities in the country are 
somehow coordinated and are consistent, and so on. And so I'm 
curious as to whether you have any idea whether the moratorium 
is consistent or fits within the overall goals and objectives 
of the Council on Environmental Quality.
    Chief Dombeck. Well, they were briefed, and did not object, 
and I'm assuming that would be part of their decision process.
    Mr. Schaffer. Did they provide any input, any suggestion 
one way or another, positive, negative at all? Or is no 
objection the basis of their concluding that there is some 
support there?
    Chief Dombeck. Well, in my view, I believe about two 
briefings that I personally participated in, they did not--they 
did not attempt to influence the decision.
    Mr. Schaffer. How about Secretary Glickman? What has been 
the nature of his input and involvement in this decision?
    Chief Dombeck. The Secretary and I, and the Secretary's 
staff and my staff, had several meetings, reviewing the pros 
and cons of the decision, talking about the impacts and the 
data that we had at that time at length.
    Mr. Schaffer. Does the Secretary support the moratorium?
    Chief Dombeck. Yes.
    Mr. Schaffer. How about the Secretary of the Department of 
Interior? Has he been briefed or knowledgeable about the 
decision at any point in time?
    Chief Dombeck. I don't know whether he's been briefed. I 
did not brief him. I assume that he--you know, I don't know 
what knowledge he has, since I did not brief him on the issue, 
and I don't believe any of my staff did.
    Mr. Schaffer. Could you talk about----
    Chief Dombeck. That interaction would typically occur at 
the Secretary's level.
    Mr. Schaffer. With respect to existing contracts, I've 
mentioned that before; that has been one of the biggest 
concerns raised in my State, that there are logging contracts, 
mining patent rights, and so on, that--or patents that already 
exist and are predicated on new road construction and in many 
cases grazing permits of all sorts, all kinds of contracts that 
have been predicated on a matter of--a level of consistency 
with respect to roads. Have you given any thought to the impact 
of your moratorium on these existing contracts?
    Chief Dombeck. All of the existing contracts, any personal 
property rights, will move forward. In fact, we have 6.5 
billion board feet of timber under contract now in the 
pipeline.
    Mr. Schaffer. Any existing contracts in the whole country?
    Chief Dombeck. Yes.
    Mr. Schaffer. How many of those exist? What are we--what 
does that mean in terms of, I don't know, proportion, dollar 
amount, road miles? I don't know. What is the extent of that?
    Chief Dombeck. To give you an example, was it 1997 we--the 
actual harvest, we believe, off the National Forest System 
lands was about 3.--was it 3.3 billion? So at the current 
harvest rate, today there's about a 2-year timber supply in the 
pipeline that will not be affected by the suspension of road 
building for the 18-month period.
    Mr. Schaffer. Mr. Stupak mentioned the payment in lieu of 
taxes that communities receive from the Forest Service lands, 
and that is something I'm concerned about, too. What kind of 
assessment have you made with respect to that? What kind of 
impact do you expect the moratorium will have on payments to 
counties and school districts?
    Chief Dombeck. The current data that I have shows that it 
would range anywhere from $1 to $4 million, depending upon the 
range, the progress of a particular sale that sold. Part of 
this, much of this is aside from the moratorium itself because 
market conditions and other things like that basically 
determine when an operator harvests, does the actual harvest, 
and typically, in the contract they would have a 3-year period, 
a 3-year window in which to take advantage of the markets or 
whatever factors they figure into their profit margins, and so 
on.
    Mr. Schaffer. I see my time has expired, Madam Chairman. Is 
there--will there be further questioning?
    Chairwoman Chenoweth. Yes, we're going to have at least one 
more round.
    Mr. Schaffer. Thank you.
    Mrs. Chenoweth. OK. Mr. Dombeck, I have another round of 
questioning for you.
    As we understand it, the moratorium has not been enacted 
yet. Is that true?
    Chief Dombeck. That's correct.
    Mrs. Chenoweth. OK. Have you given direction to the field 
to stop work on any timber sales?
    Chief Dombeck. We have not. I'd better ask Bob. But I'll 
introduce Bob Joslin, the Deputy Chief of the National Forest 
System, and with Bob is Rhey Solomon, who's our Deputy Director 
of Ecosystem Planning.
    The answer is no.
    Mrs. Chenoweth. So you have not given any direction to any 
field members to stop work on any timber sales?
    Chief Dombeck. That's right.
    Mrs. Chenoweth. OK. Well, I have a letter in my hand from 
the Forest Service canceling the South Babione timber sale 
because, quote, ``it is located in a RARE II roadless area.'' 
How do you--this was signed by Craig Yancey, dated February 13. 
How do you justify canceling sales before the moratorium is 
enacted?
    Chief Dombeck. Well, I would only say I assume that's the 
decision of--is that the forest supervisor, Bob [speaking to 
staff]? What was the name of the person that signed the letter?
    Mrs. Chenoweth. He's the District Ranger.
    Chief Dombeck. The District Ranger. I would assume that's a 
decision, then, that's made at the local level.
    One of the things to keep in mind on this issue, when we 
particularly talk about activities in roadless areas, these are 
the most contentious areas that our employees deal in. In fact, 
if we would go to the most extreme, one of the more extreme 
cases is the Cove-Mallard series of sales on the Nez Perce 
National Forest in Idaho. In fact, what the forest supervisor 
and the staff there tell me is that virtually all of the 
organizational energy goes into that effort, into the Cove-
Mallard effort, because of the level of controversy associated 
with it, and so on. And from the standpoint of efficiency, if 
that energy and that funding could be applied to other areas 
that will not be repeatedly appealed and litigated and 
protested, it's certainly a much more efficient way and a more 
effective way for us to utilize the forestry expertise that we 
have throughout the Forest Service.
    Mrs. Chenoweth. Chief Dombeck, this is not in the Cove-
Mallard. This is in Sheridan, Wyoming, the office----
    Chief Dombeck. Yes.
    Mrs. Chenoweth. [continuing] comes out of--that's located 
in Sheridan, Wyoming. And we've got a District Ranger making 
decisions contrary to what you have testified to this Committee 
you have directed them to do or not to do. And, in fact, in 
Craig Yancey's letter, he says, ``The Forest Service has 
proposed to suspend temporary road construction and 
reconstruction in most roadless areas. The Forest Service is 
also proposing to revise regulations concerning management of 
the transportation systems.''
    So the suspending of this timber sale is directly the 
result of this moratorium that has not yet been enacted, and to 
which you've testified no timber sales have been suspended.
    Chief Dombeck. Well, I should have qualified that to my 
knowledge. However, I think the important point there is that 
decision was made, I assume--I'd better not speak for the 
District Ranger--and correct me if I'm wrong, Bob [speaking to 
staff], but I would assume that decision was made by the 
District Ranger, based on the information that he has. There is 
no--has been no directive that has come from me saying stop 
anything. What we've got is the proposal out there for public 
comment. We've extended that comment period 30 days, as we go 
through the appropriate NEPA and legal requirements, and at 
some point it will be brought to conclusion.
    Mrs. Chenoweth. Chief Dombeck, somehow people who rely on 
the forest have got to somebody who's calling the shots. I 
mean, a District Ranger enacted the suspension of a sale 
contrary to what you have testified here. Now the buck has got 
to stop with you. I mean, either you get your District Rangers 
to comply with what you're issuing, so that there will be some 
order in this country, and we're able to anticipate, or there 
is absolutely no leadership. And that doesn't comport with my 
idea of you. It just doesn't. And it is utter confusion.
    And let me proceed.
    Chief Dombeck. Well, I appreciate the compliment----
    Mrs. Chenoweth. Do you want to answer that?
    Chief Dombeck. [continuing] because I know on this issue we 
don't have many compliments floating around. Thank you.
    Mrs. Chenoweth. Well, yes, but will you assure me that no 
other timber sales, including this Babione timber sale, the 
cancellation issued out of Sheridan, Wyoming--will you reassure 
this Committee that no other timber sales will be canceled, 
including this one, until the moratorium is truly enacted, to 
be consistent with your testimony?
    Chief Dombeck. Well, again, first of all, let me say that 
what we have out there is a proposal, and field managers make 
decisions on a variety of things, and I have not, and will not, 
direct a field manager to stop a sale on a policy that is not 
in place, that's in development.
    Mrs. Chenoweth. So you will not direct a field manager to 
stop a sale that you have testified to this Committee you are 
not stopping sales on because of the proposed moratorium? I 
mean, they have got to be accountable to you. Please answer the 
question, sir. Yes or no?
    Chief Dombeck. Yes, they are accountable to me, and my 
objective is to hold them accountable.
    Mrs. Chenoweth. So your statement, then, as you stated to 
this Committee, was that this is a proposed moratorium and no 
sales have been canceled because of the proposal?
    Chief Dombeck. That's correct.
    Mrs. Chenoweth. OK. It's pretty clear Craig Yancey's 
decision and his cancellation is contrary to what you've 
testified here. I would like very much for you to either assure 
this Committee that all of your people under your jurisdiction, 
and under your supposedly direction, will abide by what you 
have told this Committee. So you're telling me that, in spite 
of what you're testifying here, the buck does not stop with 
you? Everybody is on their own?
    Chief Dombeck. We can provide--we can check and provide you 
with--if there's additional information to that, associated 
with that specific sale, but our objective is to hold our 
managers accountable, and my commitment to you is that I intend 
to do that.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Hold them accountable to you and what 
you've testified to this Committee?
    Chief Dombeck. Yes.
    Mrs. Chenoweth. All right. Do you think it's appropriate to 
stop a sale which has been under litigation and then released 
by a judge, stating that the Forest Service has done their job 
correctly, and then only to be stopped by a roadless moratoria 
because you decided to include 20-year-old boundaries under RAR 
II?
    Let me be specific. The Lone Pine timber sale in Idaho is a 
10-million-board-foot sale originally planned as part of the 
Cove-Mallard environmental analysis. Now Lone Pine sale is only 
the fourth sale to be sold, or ready to be sold, under the 
Cove-Mallard EIS--a process that began back in 1980. Now this 
sale made its way all the way through the ninth circuit court 
of appeals, and we got a positive decision out of the court of 
appeals. And this is only the latest of many court decision 
approving the Lone Pine and the EIS work the Forest Service 
did.
    Now a memo from Regional Forester Bosworth, February 5, to 
forest supervisors directing them not to spend any funds on 
planning or preparation work associated with possible future 
roads or roadless areas occurred. The Lone Pine sale was ready 
to advertise and sell, but the moratorium was announced before 
the judge's decision was issued. Now, because of the RF, of 
Bosworth's memo, the Forest Service is not advertising the 
sale.
    Again, this is contrary to the fact that you said that the 
moratorium is only a proposal. So I would also like for you to 
look into that, too. It's not often that the ninth circuit 
agrees with us and the Forest Service, and I just really need 
to have you take charge.
    Thank you very much.
    Mr. Doolittle?
    Mr. Doolittle. Chief Dombeck, you've been formally 
petitioned, I guess, by the Sierra Nevada Forest Protection 
Campaign to take certain measures, including, I think, a ban on 
logging in riparian areas and in roadless areas and in old 
growth in the Sierras. Is that correct?
    Chief Dombeck. I have not seen the petition itself. Have 
you seen that, Bob [speaking to staff]?
    Mr. Doolittle. Actually, that petition, I believe, went to 
a region, the Region 5. I think you got a copy of it, though. 
So does your staff acknowledge that you've gotten it?
    Chief Dombeck. They--the people here haven't seen it, but 
that doesn't mean we----
    Mr. Doolittle. I understand.
    Chief Dombeck. We'll check.
    Mr. Doolittle. OK. Just maybe you can confirm that in 
subsequent communication with the Committee.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. But it does list your name, along with a 
number of other prominent officials at the bottom of the letter 
that got it.
    Are you aware of any efforts going on within the region to 
discuss having the moratorium on areas where fur-bearers are 
found?
    Chief Dombeck. No, I'm not. I have heard concerns about 
fur-bearers, but I have not heard it expressed in terms of a 
moratorium.
    Mr. Doolittle. I think if they were to have a moratorium, I 
believe the fur-bearer habitat would go the entire length of 
the Sierras. Is that your belief?
    Chief Dombeck. Possibly.
    Mr. Doolittle. So that potentially a moratorium on areas 
where we have fur-bearer habitat could effectively lock up the 
entire forest? Is that also your belief?
    Chief Dombeck. Well, I'm not sure. Is that--that's 
something we'd have to check on, and I don't have that. I 
haven't had the pleasure of spending enough personal time in 
the Sierras myself to know the answer to that.
    Mr. Doolittle. Well, I'm concerned about that. Of course, 
those CASPO guidelines have been utterly disastrous, and 
whenever something responsible has been attempted, why, the 
administration has reopened the issue and called for further 
study, and so forth. So we're still operating under the so-
called interim guidelines, which were never intended to be a 
permanent management--maybe they were intended to be a 
permanent management policy, but that was clearly not their 
expressed intent.
    You and I have talked privately about Mr. Sprague and the 
allegations that I had received, the Committee has received, 
about efforts to remove him. I just wanted to ask you, while 
you're before the Committee, that if--it's been alleged that a 
coalition of prominent environmental groups have met with you 
and other representatives--or maybe I should say ``or other 
representatives''--from the administration for the purposes of 
urging the reassignment of Lynn Sprague as a Regional Forester 
in Region 5. Is it true or false?
    Chief Dombeck. I have met with a variety of groups. No one 
has--from the environmental community that I'm--that I recall 
has personally asked me to remove Lynn Sprague. In fact, I 
recently met with Lynn Sprague to reassure him that I want him 
to stay in California. California, as you know, has been a very 
tough, tough State for our--all of our employees and our 
regional people, given the population growth, the level of 
intensity of many of the issues, and maintaining continuity is 
important.
    And what I did mention to Lynn is the fact that, you know, 
let me know what you need from the standpoint of support and 
help from me as you move forward.
    Mr. Doolittle. Are you familiar with a man by the name of 
Robert Nelson, former Director of the Forest Service's Fish and 
Wildlife staff?
    Chief Dombeck. Yes. I worked for Mr. Nelson many years ago.
    Mr. Doolittle. It's my understanding--and, again, I 
appreciate your being here because you're clarifying some of 
these issues, but supposedly the Department recently contracted 
with Mr. Nelson, or otherwise entered into some understanding 
with him to recruit a replacement for Mr. Sprague, and that Mr. 
Nelson has been in the process of contacting forest supervisors 
in Region 5 to gauge their interest in serving as Regional 
Forester. Is that true or false?
    Chief Dombeck. I believe that's false.
    Mr. Doolittle. OK.
    Chief Dombeck. At least to my knowledge.
    Mr. Doolittle. What is--does Mr. Nelson presently--or what 
are his job duties for the Forest Service?
    Chief Dombeck. He's retired, and----
    Mr. Doolittle. Retired? OK. So he doesn't really have any 
formal relationship at this point?
    Chief Dombeck. That's correct. Does he do any volunteer 
work [speaking to staff]?
    Mr. Doolittle. So no volunteer work? I think--was that----
    Chief Dombeck. As far as----
    Mr. Doolittle. As far as you know?
    Chief Dombeck. [continuing] I'm aware of at this point.
    Mr. Doolittle. OK.
    Chief Dombeck. But it is typical for retirees and others 
with expertise to be involved or be consulted on issues. It's 
not an atypical situation.
    Mr. Doolittle. When you find out about this Sierra Nevada 
Forest Protection Campaign petition, could you let us know what 
the status of their petition is, and your office's response to 
that request?
    Chief Dombeck. Yes.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. OK. Well, as you know, a number of us are 
very concerned about Mr. Sprague. Mr. Sprague does not 
represent the ideal forest policy, from my standpoint, I must 
share with you, but I think he's a man of integrity who's 
trying to do a good job. And I would hate to see him replaced 
because of the attacks by the other side. California is a 
difficult place, because there are people that feel like I do, 
that we still believe in the old-fashioned, and apparently 
outdated, concept of multiple use of the national forest and 
public lands, and then there's the opposition who comes from 
the trendy, upscale areas who believe basically, and have 
stated positions, that we should have no logging whatsoever in 
the national forests. And they will become--I don't know--urban 
welfare preserves for those to visit who can afford to do so.
    I'm very frustrated with the policy, to say the least. Mr. 
Stupak expressed a lot of these sentiments, and he's from the 
other side of the aisle, that I might express. I represent a 
lot of these districts that are heavily dependent for jobs in 
these areas, and it's been an utter disaster, especially with 
the California spotted owl. It's not even--I mean one sham is 
the northern spotted owl, and those disastrous policies 
continue in effect to this day, despite the fact that it does 
very well outside of the multi-canopied, old-growth forests, 
including dwelling in K-Mart signs, apparently with good 
results. Now, however, in this part of California, the 
California spotted owl is not even endangered, not even 
threatened, but we're afflicted with the so-called interim 
CASPO guidelines, and now more demands by these groups for yet 
further restrictions.
    And now the administration is expanding or changing its 
policy on roadless areas, et cetera, and I really wonder when 
we're going to get back to forestry. It seems like it's 
becoming something else. We already have an EPA and a Fish and 
Wildlife Service. If this is what the Forest Service is 
becoming, why do we need them? You don't have to answer that. 
But I feel a great deal of frustration about it, and I think 
it's been a disastrous policy that's been pursued, and 
apparently we're going to struggle with this for another 2 or 3 
years at least.
    So I guess my time is up, and I thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Doolittle.
    The Chair recognizes Mr. Peterson.
    Mr. Peterson of Pennsylvania. Thank you.
    We were chatting before about the input locally, and I 
think that's vital. I came to Washington to help decisions be 
made back home, and to have less of a Washington domination, 
and this is a perfect example.
    Let me ask you a question. Why couldn't every forest have a 
hearing on how this is going to impact, and to inform the 
people locally? I mean, I think that's the least you can do, is 
to have a hearing in each forest. You don't have to be 
involved. They're very capable of doing that. You can give them 
a format. Is that a fair request?
    Chief Dombeck. I think it is.
    Mr. Peterson of Pennsylvania. Will you support that?
    Chief Dombeck. If you would like to have a hearing--and, 
obviously, with 100--and--what?--54 or 55 national forests, 
about 120 units, I believe what staff did, when they looked at 
sites, is to respond to requests and take a look at local 
recommendations. And we'd be happy to do that.
    Mr. Peterson of Pennsylvania. You'll do one in the ANF? But 
I'd like to ask it on a broader scale. I think every forest 
that wants one, where the local input is requested by the 
legislator or by public opinion--people ought to know if it's 
going to--it may turn out to be that the impact's minimal in 
some forests. They need to know that. I just think that's fair, 
and it wouldn't--it shouldn't be a Washington problem, because 
your people out there are very capable of holding on one 
evening or--one evening hearing. I mean, that's not a big deal, 
as far as effort. It takes a day or two of planning, inviting 
the public, and some format described, someone to moderate. And 
is that a fair request?
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. OK. I guess I'd like to talk 
a little bit on the bigger picture. I want to show you a chart. 
I think you can see it. The gray areas are the conservative 
allowable cut; the black lines are the cut. And I guess--and I 
might use the new popular term--the left-wing conspiracy wants 
no timber cut. I mean, there's no doubt about that. The left-
wing conspirators want us to not take resources off the public 
land; all 700 million acres to be looked at. They're not to be 
utilized, even though the 200 million you manage are multi-use, 
were purchased and set aside for multi-use, and for multiple 
reasons.
    So it just seems like each and every thing that happens--
now another--in looking at the big picture, another part of 
your system is now offlimits to timber, and it just went from 
12 billion board feet to about 3, on an average now, billion 
board feet. That's a huge cut in cutting. It's had a huge 
impact in this country. And with the fact that more timber is 
burning and dying than we're cutting on Federal land--I mean, 
it's an issue that we ought to argue about; we ought to 
discuss. But it seems like every move by the Department or the 
administration brings the number down, locks another so many 
acres up that's not a part of it. I think it's that big picture 
that scares us all, because we know the left-wing conspirators 
want no cutting, and I guess we think they're winning, and they 
are winning.
    We think it's bad public policy. We don't think it's good 
for the health of America. We don't think it's good for the 
health of the forest. We know it's not.
    And so the foresters in my district, people who have spent 
their whole life managing a resource--and I mean, some of the 
ones I know are just very, very thoughtful--they're just 
utterly amazed at what we're doing. They have absolutely no 
understanding why we are locking up the most renewable resource 
we have in this country that's so much a part of our economy 
and so much a part of a lifestyle. The hunters don't like the 
forest locked up because it doesn't bring about good hunting. I 
mean, there's a lot of people that don't. There's so many 
arguments why it's bad policy, but, yet, everything we do seems 
to move us closer to that direction.
    Would you like to comment to that?
    Chief Dombeck. Yes. First of all, let me say that the 
nationwide effect of the roadless--or, rather, the temporary 
suspension of road building affects about 8 million acres which 
is in the timber base--now, of the 191 million acres in the 
national forest system. Now there's also a reason that these 
areas are roaded--are not roaded, and typically either timber 
values have been lower or--the easy stuff is taken first.
    But the issue that you bring up is really something that we 
could spend a whole day on, and I'm sure we will at future 
hearings, but I often ask myself question, why is it that we 
have 40 million acres at high risk of fire or insect, disease 
infestation? And there are a variety of reasons associated with 
that. Management practices have changed. Fire suppression was 
articulated very clearly by one of the earlier panel members, 
but it's also lack of investments, because we're coming from a 
budget structure in a time where we were able to put the cost 
of management on the back of timber, but one--you've got an 
exception in Pennsylvania with the wonderful hardwoods you 
have----
    Mr. Peterson of Pennsylvania. Sure.
    Chief Dombeck. [continuing] but the fact is that we need to 
make continual investments; we need to do the thinning, the 
prescribed burn, the mechanical treatments, the other kinds of 
things to deal with situations where we historically have, say, 
200 and 400 stems of Ponderosa pine and now we have 3,000 of a 
fir species that's a fire hazard; that the trees are all 
competing for the same amount of moisture, of nutrient, and 
that sort of thing there, and we need to get in there and deal 
with those situations. But we have put the cost of management 
on the back of timber, and when the timber may not be there to 
harvest, for whatever reasons, what do we do then? And this is 
part of the dialogue that I hope to have with this Committee 
and others in the future because the urban/wildland interface 
and other areas are big challenges for us in this country.
    Mr. Peterson of Pennsylvania. What is the timber base now? 
Of the couple hundred million you manage, how much of that's 
really forestry practices, timber cutting going on?
    Chief Dombeck. I believe it's 43 million acres.
    Mr. Peterson of Pennsylvania. After the roadless area?
    Chief Dombeck. Forty-three million acres are in the 
suitable timber base. Of--the interim policy and the RARE II 
areas would include 8 million of that 43.
    Mr. Peterson of Pennsylvania. So 43 minus 8 really?
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. OK. Well, that's what I 
wanted--so we're down to 35----
    Chief Dombeck. Yes.
    Mr. Peterson of Pennsylvania. [continuing] million acres, 
out of 200. That's a pretty small percentage that we're now 
practicing forestry on. And though we're getting all this 
publicity that cutting timber costs money, and why do we do it, 
when you've got the cuts so low, and they're so small, they 
don't make money any more. I mean, you know, part of the 
problem that it's not--the cost to do a small sale is just as 
good as a large sale. I mean, so you've got the sales down so 
small, the board feet so low, it's like it's been designed to 
fail. I'm a businessman. I know how you can design a business 
to fail. It's like this economically has been designed to fail, 
so the left-wing conspirators can say, ``It doesn't make any 
sense. We're losing money.'' And, yet, they don't count the 
money that goes out to the communities. That's not a part--and 
that shouldn't be part of the cost. That's a benefit to those 
communities. That builds schools and that builds roads and 
that--you know, it's fire protection to those people, and all 
of the things that we allow them to use that money for; yet, 
that's considered cost and not a benefit. That's a benefit to 
those communities that's being taken away. So, I mean, it's a 
bigger issue.
    I want to thank you for your candor.
    Mrs. Chenoweth. Mr. Schaffer?
    Mr. Schaffer. Thank you, Madam Chairman.
    Let me followup on Mr. Peterson's comments, if I could, and 
your answers. So there's 191 million acres managed by the 
Forest Service?
    Chief Dombeck. That's correct.
    Mr. Schaffer. Of the open management category that we're 
talking about that can be--that is relevant to the discussions, 
you said 43 million acres, and this moratorium effectively 
locks up 8 million?
    Chief Dombeck. What the proposed temporary suspension does 
is prevents only building and reconstruction of new roads.
    Mr. Schaffer. So do you anticipate there would be an 
increase in helicopter removal, or what's going to happen?
    Chief Dombeck. I expect people will be looking at other 
options. Some of the NEPA work that's on these areas considers 
other options.
    Mr. Schaffer. Well, considers other options? Do you expect 
this--it's going to be viable removal? Is there going to be 
people lining up for these sales, or what--and so what if you 
can call a helicopter. That may sound great, but can anybody 
really afford to do that?
    Chief Dombeck. I wouldn't want to be overly optimistic and 
say in some places maybe, but probably not a lot, but I also 
want to point out that, this whole issue set aside, there are 
sales that don't sell.
    Mr. Schaffer. Right. But we're talking about 8 million 
acres, basically, out of the 43. So what, that's 18, 20 
percent, somewhere along that line is affected by the 
moratorium. Your press release indicated that between 100 and 
275 million of--that this moratorium--so you predicted an 
impact of between 100 and 275 million board feet in fiscal year 
1998. There are other Forest Service documents that say the 
volume could be as high as 436.1 million board feet in fiscal 
year 1998. So there's a lot of speculation, I suppose, as to 
what the real impact is going to be.
    I would like to just ask what relevance you think Congress 
has in all of this. Why is it that we read about the moratorium 
in the newspaper when it has such a significant impact on 
economics, on local government funds, on recreation, and so on? 
Why is it that you've decided to move forward on this without 
talking to any of us?
    Chief Dombeck. Well, first of all, keep in mind that this 
is a proposal, and the objective of the comment period, of the 
dialog that we're having, is to gather input, to double-check 
our data, to make sure that outside sources, all sources have 
an opportunity to comment on the proposal, and----
    Mr. Schaffer. So when do you expect to commit on moving 
forward with this proposal or abandoning it?
    Chief Dombeck. Well, the----
    Mr. Schaffer. What's the point of no return?
    Chief Dombeck. The comment period closes on March 30--and 
what are you assuming the timeframe would be to finalize 
[speaking to staff]? At least 30 days beyond that. I'd say 
the----
    Mr. Schaffer. You know, the whole science, the study, the 
research on roads and roadless areas is--seems to me to be 
pretty complete, but pretty intensely studied, at any rate. 
What is it about the money that this Congress--American 
taxpayers have already expended studying the effects of roads 
on erosion. What--where is it that we have insufficient data 
and evidence right now? What are we lacking right now that 
causes the need for this moratorium?
    Chief Dombeck. The----
    Mr. Schaffer. What's missing in our--in all of our 
research?
    Chief Dombeck. Well, I guess not being the technical expert 
myself on roads and road-building, I don't quite follow the 
connection between what's missing and the suspension. The----
    Mr. Schaffer. Well, let me--let me give you----
    Chief Dombeck. The science----
    Mr. Schaffer. [continuing] a good example. My State, your 
Forest Service has studied part of the National Forest near 
Frasier, Colorado, concluded that timbering and road-building 
can be accomplished without adverse impacts on water quality, 
and there are other studies to that effect that have occurred 
that we know that it's not new construction--or that it's not 
maintenance. You mentioned that this $10 million or $10 billion 
backlog in maintenance is somehow the issue, but it's not--the 
research--it's not maintenance so much that is cause for any 
kind of sedimentation, and so on. That typically occurs 
immediately after new construction, but then seems to be--seems 
to be dealt with effectively shortly thereafter. And there's a 
lot of research that has been done that suggests that there are 
specific strategies that could be employed to reduce any kind 
of sedimentation or water quality problems, or any other issues 
affecting roadless areas or new road construction. Why a 
moratorium across the whole country? Why don't we just 
implement these studies that we have on a case-by-case basis in 
specific areas where a problem is known to exist?
    Chief Dombeck. Well, in fact, those new studies, that type 
of information is the information base that will be used in the 
development of the new long-term policy.
    Mr. Schaffer. Well, well, but why do you need an 18-month 
moratorium? This research has gone on for years. It's--this is 
nothing new. Do you expect you're going to discover something 
in the next 18 months that you could not or should not have 
discovered in the last 18 months or the last 18 years, for that 
matter?
    Chief Dombeck. The focus of the 18-month effort on a long-
term policy is basically to obtain comment, to synthesize and 
gather the information, not necessarily start new research 
projects, although in the recent years, especially as a result 
of El Nino, the increased concern over land slides, things like 
that, has heightened the level of awareness and has generated 
more interest in this, and investments have been made in 
additional research in those areas over the last few years.
    Mr. Schaffer. The local foresters and the forest experts in 
my State can't think of a single example of why we need a 
moratorium in Colorado, for example. Are you aware of any 
specific reasons a moratorium ought to impact Colorado?
    Chief Dombeck. Well, again, the challenge is to get people 
to understand the importance of the infrastructure and the road 
system, and I oftentimes think, how do I square building new 
roads, especially when in many cases, almost 50 percent of the 
time, these projects are appealed and litigated, when, on the 
other hand, I'm dealing with one $10-plus billion backlog in 
reconstruction----
    Mr. Schaffer. Why hasn't all the research led to this 
understanding that you explain is desirable?
    Chief Dombeck. Well, I believe that's where we're headed. I 
hope that's where we're headed.
    Mr. Schaffer. Well, what about all the money that we spent 
studying roadless areas and studying the impacts of roads? Why 
have these studies not lent themselves or helped you come to a 
conclusion about the impacts of them and what ought to be done, 
or some kind of plan? Why don't we move forward on a reasonable 
plan? Why do all these studies only suggest we need a 
moratorium to study more?
    Chief Dombeck. Well, again, the 18-month period will be 
used to develop a long-term policy, based upon the most up-to-
date science----
    Mr. Schaffer. Why can't you come up with a long-term policy 
without an 18-month moratorium?
    Chief Dombeck. I think you probably could.
    Mr. Schaffer. Why don't we?
    Chief Dombeck. But the other challenge is, in the eyes of 
the American public, Forest Service roads equal logging. Now 
the challenge that we have is to make sure that people--and I 
think some of the dialogue that you have had in the Congress 
and other places has really focused on that over the last 
decade, and particularly, especially the last couple of years 
since I've been watching this more closely. And we've got to 
consider Forest Service roads as part of the needed 
infrastructure of rural America, and then fund it 
appropriately.
    Mr. Schaffer. So you're in agreement with me, it sounds 
like, that we could move forward on a long-term plan without an 
18-month moratorium? Just to restate that, we do agree on that 
point, do we not?
    Chief Dombeck. It would be possible, yes.
    Mr. Schaffer. So the stated purpose early on that the 
reason for the moratorium was for further study, further 
information gathering, and so on, is--well, let me just ask: Is 
there more to it than that? Is the only reason you propose an 
18-month moratorium for the purpose of establishing a long-term 
plan?
    Chief Dombeck. Information--and I'll refer back to the most 
up-to-date information we have that I'm aware of--has come out 
of the Columbia Basin assessment that talks about, refers to 
exotic species, and I'd be happy to share a copy of that with 
you.
    Mr. Schaffer. So is the application of this moratorium on a 
nationwide basis motivated by the Columbia Basin study?
    Chief Dombeck. Only in part.
    Mr. Schaffer. Can you still think of any example in 
Colorado that would--that has initiated the need for a 
moratorium that applies to Colorado?
    Chief Dombeck. I somewhere have a list here of the more 
recent studies and synthesis of information, and I would check 
to see if there's anything--I could check and see if there is 
anything specific to Colorado and provide an answer.
    [The information referred to may be found at end of 
hearing.]
    Mr. Schaffer. Well, if it's not there, why don't you exempt 
Colorado? Why don't you exempt States where you have no real 
compelling reason to include them in a moratorium? Maybe it's 
Montana; maybe it's Idaho; maybe it's Wyoming. It could be most 
of the country, when it comes right down to it. But the forest 
supervisors, the foresters in my State, they come to the State 
legislature and they say, ``Look, we're baffled by this. We 
have no idea what these folks in Washington are doing or why. 
You know, they had a meeting, told us what they were going to 
do, but we have no compelling reason in our State.'' And they 
point the finger back here. You know, I'm back here. I'm kind 
of trying to find out some answers, too. From what I can tell, 
Colorado is not part of this equation, other than we're 
affected economically by a moratorium. If that's the case, why 
don't you exempt States like mine, focus on where the problem 
exists?
    Chief Dombeck. We will--this is what we're here for, is to 
have this dialogue and----
    Mr. Schaffer. You will what?
    Chief Dombeck. [continuing] to be challenged.
    Mr. Schaffer. You said, ``We will. . . .''?
    Chief Dombeck. Will consider all the input that we get from 
this Committee, from each of the members.
    Mr. Schaffer. You know, I really think the burden ought to 
be on you to establish a legitimate reason for pulling a 
significant portion of our economy out from under us before you 
do it. You've already decided to move forward on making a 
proposal without the consent of Congress. You say that you've 
not made any final decisions, that that's still open, and 
you'll consider our input, and so on. But if that really is the 
case--you know, the burden ought--you ought to take upon 
yourself to consider the real financial impact that this has on 
communities, and if there's no compelling environmental benefit 
to be gained in a State like mine or the next State down the 
road, then you shouldn't even be talking about moratoriums in 
these areas. You ought to zero it down to where you have a real 
need, where your local experts tell you there's a real need. I 
mean, this notion that you're going to blanket the whole 
country as if every forest is the same is laughable, when it 
comes right down to it, and it suggests to me that you're not 
all that serious about considering the economic impacts of 
local communities. Maybe I'm wrong; maybe you'll prove me 
wrong. I hope you do.
    Thanks, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Mr. Hill?
    Mr. Hill. Thank you, Madam Chairman.
    Chief, I do want to compliment you on one thing, and that 
is that you extend the comment period another 30 days, and I do 
appreciate that. I know the people in Montana--and I would like 
to have you give us an assurance here today, and that is, 
before you have those meetings in Montana, you will have 
available for the people in Montana what the impacts are going 
to be on the forests of Montana. Will you give us that 
assurance today?
    Chief Dombeck. I believe the information that we have will 
be part of the announcement that will appear in The Federal 
Register on Friday.
    Mr. Hill. Will that include impacts in terms of individual 
forest sales, how they'll impact individual forests, how 
they'll be impacted, number of acres that will be impacted?
    Chief Dombeck. I believe it will be--the information we 
have will be by individual forest. I believe it will be the 
number of sales, perhaps not the number of acres, but, more 
importantly, the board feet effects.
    Mr. Hill. I mean, there are more impacts than just timber 
harvest, and not that timber harvest isn't important. I guess 
my point is, how can you solicit public input when you haven't 
given the public the facts so that they can comment on them? I 
would just urge you to extend this comment period beyond that, 
until at least a point in which you've given the people the 
information that they need in order to make an appropriate 
assessment, so that they can provide you valued input. Does 
that seem unreasonable?
    Chief Dombeck. No. And I believe that's the intent.
    Mr. Hill. Then I would urge you to--you brought up the 
Columbia Basin, the Interior Columbia Basin EIS, and I'd like 
to ask a couple of questions about that, because you chose not 
to exclude that area that is currently under study, and as you 
know, we're moving through that process right now. Why did you 
choose not to exclude that area?
    Chief Dombeck. The--because it's not--the areas that were 
excluded were the areas, what I'm basically referring to as the 
second-generation forest plans, the plans that are more recent, 
that are based on more recent information, recent public 
involvement process, and those include the areas of the Pacific 
Northwest. The Tongass is under appeal, which is basically 
still in process, sort of a semi-quasi-judicial process, and 
the other areas were not excluded because the information their 
forest plans are based on is sometimes up to--could be up to 15 
or 20 years old.
    Mr. Hill. So what you cited earlier was that the reason 
that you implemented or you want to implement this moratorium 
is that you were in possession of science that the individual 
forests were not in possession of. Substantially, that came 
from the Columbia Basin study. I believe that that's what you 
said to Mr. Schaffer.
    And, yet, we are fairly well along with regard to the 
Interior Columbia Basin study. I guess I would just say to you, 
are you aware of the potential impacts that this decision will 
have on the collaborative effort that has gone into the 
Interior Columbia Basin study?
    Chief Dombeck. Yes. I have met with numerous county 
commissioners in Idaho, county commissioners from Oregon----
    Mr. Hill. I hope you stay around following your testimony 
because there's a county commissioner from Montana that has 
been a strong advocate, Larry Dolezal, for trying to work 
within this collaborative stewardship that you talk about, who 
I think will express to you that he feels as though he was 
blindsided by this decision.
    And, specifically, I want to just make reference to a 
project that is in his district. As you know, the Lincoln 
County, where he comes from, has been particularly adversely 
impacted. In fact, I think it's listed under one of the top 10 
endangered communities in America. Where they're trying to--the 
Economic Development Administration has provided some funding 
to try to develop a new ski area. Are you familiar with that?
    Chief Dombeck. I'm not familiar with the ski area itself.
    Mr. Hill. So you're not aware of the fact that the local 
forest superintendent has been working to try to complete an 
EIS on that by September of this year, with the goal being that 
we could develop this ski area, and that that project will be 
imperiled by your moratorium?
    Chief Dombeck. Not that specific issue.
    Mr. Hill. So when you said earlier that you solicited data 
on impacts, the individual forests didn't provide you any data 
with regard to any specific timber sales, with regard to any 
specific other projects that might be impacted by this 
moratorium?
    Chief Dombeck. They provided information on timber sales. 
Did they--pardon [speaking to staff]? OK, we've got datasets 
that we will have for all other activities, and I assume we 
will make that available during the--as the comment period 
proceeds. So people can----
    Mr. Hill. When do you think that that information will be 
available in Montana with regard to the forests in Montana?
    Chief Dombeck. Within 2 weeks.
    Mr. Hill. I'm sure you're aware of the fact in the Interior 
Columbia Basin study, one of the things it suggests that would 
be good for forest management would be to manage the roadless 
areas, some intrusion into the roadless areas, some mechanical 
harvest, other things. Are you aware of that?
    Chief Dombeck. Then you're talking about the need for 
active management? Yes.
    Mr. Hill. Wouldn't you say that your moratorium is in 
conflict with what the science is telling you from the Interior 
Columbia Basin study?
    Chief Dombeck. Not necessarily. I think we have a mindset 
that we have to build a permanent, fairly expensive road to 
maintain, and we've got the backlog to deal with. And one of 
the things that----
    Mr. Hill. Are you suggesting that your moratorium would not 
apply to temporary roads in these roadless areas?
    Chief Dombeck. No.
    Mr. Hill. It does apply to temporary roads?
    Chief Dombeck. It does apply to temporary roads. However, 
the new policy will address more broadly when and where and 
what types of roads to build, based upon the most up-to-date 
science. For example, you know, we're doing, in fact--a timber 
director, a forest management director who recently retired 
said, he said, 10 years ago we never thought we'd be doing the 
amount of helicopter logging that we are today. Someone from 
California was recently telling me that one of the forest 
engineers indicated that we could probably do the same forest 
management job we're doing today with a significantly less 
intensive road network. And it's directions like that that I 
want us to be looking at. Again, as we talk about the other 
activities and the impacts, I just want to make sure that you 
understand--No. 1, we've talked about the fact that this is 
proposal, but also, No. 2, the fact that what we're talking 
about is road construction and reconstruction only. We're not 
talking about other activities.
    The intent is not to stop forest management. In fact, the 
intent is to--we've got to look for new----
    Mr. Hill. It's to delay, though. You're going to delay. 
You're going to delay forest management in those areas. By 
limiting access to those areas and intrusion into those areas, 
you're going to be delaying forest management, which I have 
great concern about.
    There are two points I want to make, if I might, Madam 
Chairman, before--I know my time has expired here. And that is 
that you talked about the impacts of El Nino on some of the 
coastal areas with regard to landslides and that sort of thing. 
We've got the reverse impact in Montana. Post-El Nino periods 
are extraordinarily dry periods in Montana. They're periods 
with high incidence of fire. We have got a tremendous exposure 
to catastrophic fire. If you delay any management of that 
problem in the roadless areas in Montana, you are compounding 
the potential hazard to Montana, to Montana communities, and to 
those forests to fire.
    The Interior Columbia Basin study will point out to you--
and I know that you're familiar with it--that we have a serious 
problem in Montana with respect to that. And I would just urge 
you to consider exempting this area that's part of the Interior 
Columbia Basin study from this moratorium--to allow that 
process to go forward.
    As you know, the goal there is to develop the science that 
can be incorporated into those forest plans, whether they be 
transportation or other aspects of those forest plans, so that 
we can get them updated. What, in essence, you're going to 
propose doing--I can tell you right now that if you move 
forward with this, it's going to erode any--any--cooperation, 
any collaborative effort that you've going to have to move 
forward with the Interior Columbia Basin study and in an effort 
to implement it. You're going to create more conflict, less 
collaboration in Montana if you do that. So I would just urge 
you to, at least if you're going to implement this moratorium, 
you allow people to do it on a forest-by-forest basis.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    Mr. Dombeck, under the Alaskan Native Claims Settlement Act 
and the Alaska Lands Act, Native corporations were entitled to 
select and own lands for traditional use and economic benefit 
as settlement of Alaskan Native aboriginal land claims. Access 
to the lands also was guaranteed under these laws, and many of 
these lands are located within the national forests in Alaska. 
Is it not true that roads needed for access to Alaska Native 
aboriginal lands would be exempt from the administration's 
roadless policy?
    Chief Dombeck. Well, the Tongass National Forest is exempt 
from the policy now.
    Mrs. Chenoweth. In every case it's exempt, including the 
special areas?
    Chief Dombeck. Of the current temporary suspension of road 
building, yes, the Tongass is exempt. The Tongass record of 
decision was signed in May, and the appeals process for that 
decision on the entire forest plan is currently in progress.
    Mrs. Chenoweth. With regard to the new roadless moratorium, 
or the moratorium on roads, under roadless area and under 
future special designation of special areas, designation by the 
Regional Forester, are you telling me that Alaska, the Tongass 
is exempt from both of those?
    Chief Dombeck. Yes.
    Mrs. Chenoweth. You testified that this moratorium only 
applies to roadless areas. In the lower 48, what about the 
special areas that are in multiple-use areas now?
    Chief Dombeck. The proposal on that is that that would be 
under the discretion of the Regional Forester?
    Mrs. Chenoweth. So, actually, contrary to your original 
testimony, it does extend to far more than the roadless areas? 
It does extend into the multiple-use areas? And you are giving 
the Regional Forester the authority, through this policy, to 
designate special areas, and they will become, in essence, de 
facto wilderness, right?
    Chief Dombeck. Well, this--again, keep in mind the policy 
applies only to roads, not to other activities, and the 
specific kinds of areas--and we are looking for comment on 
this--is areas like municipal watersheds where communities get 
drinking water supplies from, other areas very similar to that.
    Mrs. Chenoweth. So it does apply to more than roads? It 
does apply to watersheds, right?
    Chief Dombeck. Well, the policy applies to roads only, 
but----
    Mrs. Chenoweth. It will impact entire watersheds, right?
    Chief Dombeck. In certain situations it could.
    Mrs. Chenoweth. I wonder if you can explain to the 
Committee, and for the record, the exact degree that the 
Columbia River ecosystem planning process predicated or 
precipitated this roadless moratorium policy.
    Chief Dombeck. It's a nationwide problem that we're dealing 
with, with the whole roads issue. It's certainly not limited to 
the Columbia Basin. What I can say, though, is that some of the 
information gathered in the Columbia Basin assessment is 
probably some of the newest and best information that we have.
    Mrs. Chenoweth. How did that precipitate--how did that 
information precipitate this action? How did the Columbia 
ecosystem planning process precipitate this action?
    Chief Dombeck. Well, I would say it didn't precipitate this 
action. The whole debate that we've been in for more than a 
decade over the roads and road funding issue is something that 
is part of the larger issue. What I face and what the Forest 
Service faces is a continually declining roads program that 
lacks support, and the support for the roads program continues 
to erode. Somehow we've got to reframe the issue so the roads 
program is viewed as part of the transportation network, the 
infrastructure of local America. I mean, it's--I grew up on 
Forest Road 164 in the Chequamegon National Forest in northern 
Wisconsin, and today it's a blacktop road. A bus goes down it 
every day, and a mailer-out, and, yes, a few logging trucks, 
and lots of tourists. It's important that we be able to 
maintain this infrastructure that's needed by local 
communities. I hardly go to a county or talk to a county 
commissioner when he says to me, ``How come you're not taking 
better care of your forest roads?''
    Mrs. Chenoweth. Chief Dombeck, you stated in your testimony 
that you worked with the American Forest and Paper Association, 
AF&PA, on developing this policy. Did you work with them--to 
what extent did you work with AF&PA on developing this policy?
    Chief Dombeck. I guess I'm not sure I would--if I did couch 
it as though worked with them--as a matter of fact, they--we 
discussed the whole issue of roads with a variety of people. In 
fact, the whole roads issue is an issue that was--you know, has 
been hotly debated and talked about for the past decade or more 
within--not only within the Forest Service, but others that are 
interested in roads.
    Mrs. Chenoweth. Did AF&PA take an official position on this 
and then work with you or to what degree did you work with 
AF&PA?
    Chief Dombeck. Well, to my knowledge, from the standpoint 
of discussing the issue, and as we have with many people over 
the years, it's, you know, how do we get beyond the issue, as 
we looked at the--what in 1996 we were, you know, very close to 
losing almost 80 percent of the program. Another debate ensued 
in 1997, and it's a program that is in the intensive care unit, 
and the responsibility that we have is to try to come up with 
ways and options of resuscitating that program.
    Mrs. Chenoweth. I just want to say, before we have to 
recess temporarily, that when I first came to the Congress, it 
was my decided opinion that the Forest Service was so broken 
that we may not be able to recover. I gave everything I had to 
give, as chairman of this Committee, to try to stay very open 
to you and to work with you. You're a gentleman, and you're an 
impressive person. But the way I see this moving, I'm convinced 
now the Forest Service is too broken. I mean, there's no 
accountability from the top. District Rangers are stopping 
sales. We have a sale, the George Washington National Forest in 
Virginia has also been canceled. We've had, because of this 
roadless policy--and yet it's only proposed.
    The entire public process has been made a mockery of by the 
very fact that sales have been canceled while this is still a 
proposal, Chief, and yet then we reach out to the people with 
hearings. It truly is a mockery, and it's disappointing.
    I guess in my heart of hearts I'd still like to see us 
recover from that in terms of making the American people and 
communities that are affected a part of the process again. I 
don't see that happening. I hope I can be surprised. I still 
look for that. But I don't--I hope that I don't have to get 
used to being so utterly disappointed, and that disappointment 
is not just shared here in this Committee; it's shared by our 
Resources chairman and members of the Committee on the House 
side, and certainly on the Senate side, too. I think that the 
envelope has been pushed way too far on this one, and as with 
the Tucson Rod and Gun Club, we learned that policy was 
implemented based on unwritten policy. And I was hoping that 
you would be able to turn that around. I don't see it 
happening.
    We have been called for a vote. It's a 15-minute vote, and 
there is 5 minutes left.
    Chief Dombeck, we have a lot more questions, but we will 
submit the questions to you in writing and would expect that 
you respond to them within 10 days.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. I know that you have a meeting with Senator 
Hutchinson, and you will be gladly excused from the Committee 
for that meeting. I would appreciate if your staff would stay 
and listen to the rest of the testimony.
    Thank you for the long period of time that you have spent 
with us. And I really hope that some fruit will be born from 
this in terms of making the American people part of the process 
again, and that is done first through Congress and then through 
the NEPA process.
    Right now this hearing will be recessed for 20 minutes. 
Thank you.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order.
    We will begin with the third panel: Max Peterson, executive 
vice president of International Association of Fish and 
Wildlife Agencies; Larry Dolezal from Lincoln County, and Mr. 
Dolezal is a commissioner from Troy, Montana; Bob Powers, 
legislation advocate, United Brotherhood of Carpenters and 
Joiners of America; Bill Banzhaf, executive vice president, 
Society of American Foresters in Bethesda.
    And I wonder, gentlemen, if you would mind standing and 
take the oath. Raise your right hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. Please be seated.
    And we will open with Mr. Peterson.

     STATEMENT OF MAX PETERSON, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Max Peterson. Thank you, Madam Chairman. You have my 
statement, which is rather long. If you'd accept it for the 
record, I'll try to save you some time and brief it.
    What I've attempted to do, at the request of staff, is to 
provide a brief historical overview of the saga of roadless 
area reviews and evaluation, which really began in the 1910's, 
and then there have been other reviews done since.The major 
reviews that have been done in recent history began after the 
passage of the 1964 Wilderness Act, which required a review of 
the primitive areas.
    Then in 1972, Forest Service Chief McGuire was concerned 
about agitation both inside and outside the Forest Service as 
to what to do with roadless areas, particularly those that were 
next to primitive areas. He ordered a nationwide review of 
roadless areas, which became known as RARE I. And I've given 
you some data on RARE 1.
    Because of the difference in national forests in the East, 
and the imprint of man on national forests in the East, there 
were very few areas in the East that were included in that 
inventory. Partially because of that, and the question, 
incidentally, of what constituted a road, and what was a road 
in a roadless area, there was a second roadless area review 
undertaken beginning in 1977. That was a huge review. As you 
know, that resulted in a very large environmental statement, 
whth more than 300,000 comments on that environmental 
statement--I think the largest number of comments ever received 
on any environmental statement in the history of any 
organization.
    As a result of that, review, commonly called RARE 2, 
recommendations were made, signed off on by President Carter, 
that said, so many acres should be wilderness, so many areas 
should be used for multiple use other than wilderness, and so 
many areas should be subject to further planning. It was the 
hope of many that those recommendations would sort of settle 
the roadless area question; that Congress, then, would look at 
those nationwide recommendation and that Congress would decide 
which areas would be wilderness, which areas would be multiple 
use other than wilderness, which areas would be further 
planning.
    Unfortunately, that didn't happened. Congress instead 
started action on a State-by-State basis, and as you know, 
except for Idaho and Montana, the roadless area legislation has 
essentially been enacted in all those States.
    One of the issues, though, that came up then that bedevils 
us, I think, today on the issue that's before us is, what 
happens after you get through the first generation of forest 
plans? I remember sitting in a hearing and hearing Senator 
Hubert Humphrey and Congressman Foley say at that time, we want 
to pass an Act of Congress, which was the National Forest 
Management Act, that will set forth a planning process that 
will include: interdisciplinary analysis; it will include input 
from people, public involvement, and then a decision will be 
made on how to manage an area of land, and that plan will 
remain in effect for 10 to 15 years. And plans will be revised 
from time to time with public involvement and by looking at, 
what is new, what do we know today.
    So I admit to being somewhat perplexed at this proposed 
Interim Directive because I don't really see how it fits into 
the laws involving management of national forests, which 
envisions that there will be a plan for an area of land and it 
will stay in place until it's revised or amended. There's 
nothing in the law or in the regulations that, as far as I 
know, contemplate something called an interim directive that, 
again, puts the roadless area in some kind of a limbo.
    You might ask yourselves this question: Suppose somebody 
came along and decided they wanted to develop all those 
roadless areas in the next year, in spite of the fact that was 
not in accordance with plans? We would hardly believe that such 
action would be appropriate. Somebody just to say we're going 
to go into all those areas next year, in spite of the fact that 
would be contrary to land management plans.
    It seems to me that you can't have it both ways. You either 
have to say the areas are governed by plans or they're not. So 
I guess one of the disappointments to me, regardless of the 
merits of this proposal, is the question of process.
    And I guess the only other comment I'd make--and let me 
make it very clear that at this point in my current role as 
Executive Vice President of the International Association of 
Fish and Wildlife Agencies. I am not taking a position. I 
expect that in some States they think that a moratorium is a 
good idea, and it may well be in that State for some roadless 
areas. In some other areas there will be concern that if it 
concentrates development on already-developed areas, which may 
be a much higher value for fish and wildlife than some of the 
roadless areas, that there will be concern about it.
    Let me also point out that I don't see much association 
between a roadless mandate and a review of the road system. A 
review of the road system I think probably is a good idea, 
because the road system has grown and use has changed. The 
proposal mentions ghost roads. That's the first time I've heard 
that expression. You can still see the tracks of the Donner 
Party as they went across parts of the Nevada desert and into 
California. So in some parts of the country, if anybody ever 
made a road track, it's still there, and if the terrain allows 
it, some people will follow that road track. And some people 
will follow that road track to their favorite fishing hole, and 
sometimes that's not a good idea. It may cause damage.
    So a review of the road system, particularly as large and 
complicated as it is--and I was a little curious at the 
comments about it being 10 times as long as the interstate 
system; the State of New York has a road system that's several 
times as long as the interstate, and so does the State of 
Virginia, both of which are a whole lot smaller than the 
national forest system. So sometimes these comparisons don't 
make a whole lot of sense.
    Anyway, I think there is a case for review of the road 
system, looking at, what do we know about management and lumber 
use of these roads. The use has expanded exponentially. There's 
very little proportional use of these roads by timber hauling 
anymore. In many cases, 95 percent of the use is recreation, 
including fishing and hunting. So the use has changed. So there 
is a need to review the system; I think that's true.
    I'm not at all sure, though, what that has to do with a 
moratorium on roadless areas, because very few roads are being 
built in those areas anyway. It stops activities indefinitely 
that are in accordance with forest plan. Some of them, as you 
know, have been under consideration for many, many years. Some 
of them have gone through administrative appeals and court 
challenges and everything else, and now we have something else 
called a moratorium on top of it, which to me, particularly 
being done without what I would consider due process. I think 
this is not a good idea. That's just my horseback opinion. I 
have been involved in the development of the policy or 
implementation of it. Those are just sort of off-the-top-of-my-
head opinions.
    Thank you.
    [The prepared statement of Mr. Max Peterson may be found at 
end of hearing.]
    Mrs. Chenoweth. Those are pretty good horseback thoughts. 
Thank you, Mr. Peterson.
    For our next witness, I'd like to yield to Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. Madam Chairman, I am 
very pleased to introduce a distinguished witness and a friend 
of mine from Montana, Larry Dolezal. I have found him to be a 
very thoughtful, compassionate, committed, open-minded person, 
a problem-solver. He's a Lincoln County commissioner in 
Montana. He's worked extensively on forest issues.
    Lincoln County depends heavily on forest products and 
receipts from the Kootenai National Forest. Its residents also 
depend on the nearby forest for their recreation. And as you'll 
hear from Larry's testimony, he's witnessed how dwindling 
forest receipts have hurt his county's economic development, 
schools, recreational access, and how this moratorium will make 
a bad situation even worse.
    Madam Chairman and members of the Subcommittee, we are 
fortunate to have the chance to hear Larry's firsthand 
expertise on the moratorium and the impact on the communities 
there in Troy and Eureka, Montana.
    Thank you.
    Mrs. Chenoweth. Thank you.
    Commissioner, would you please proceed?

STATEMENT OF LARRY DOLEZAL, LINCOLN COUNTY COMMISSIONER, TROY, 
                            MONTANA

    Mr. Dolezal. Thank you, Madam Chair, and thank you, 
Representative Hill from Montana, for giving me this 
opportunity to appear before you today.
    I've been serving as a county commissioner in Lincoln 
County, Montana for the past 12 years, and am currently the 
Chair of our board. As you may be aware, Lincoln County has 
been very active regionally and nationally in public lands 
issues. I've testified before Congress on PILT and other 
legislation, and am currently one of two county commissioners 
representing the Montana Association of Counties on the East 
Side Ecosystem Coalition of Counties, actively involved on 
reviewing the Interior Columbia Basin Ecosystem Management 
Project.
    I'm here to tell this Committee firsthand that the 
conditions described and the economic data contained in the 
material released in support of the proposed interim rule is 
inaccurate. We within the EECC, the Coalition of Counties, 
certainly understand the position Chief Dombeck outlined before 
us recently at Boise, Idaho. He opened the meeting by 
apologizing for proceeding with the proposal without first 
having involved the counties in the Basin. He termed it a 
serious mistake. He agreed in blood that the moratorium would 
end 18 months or sooner after its adoption.
    Commissioners commented that Basin counties which have 
carried the ICBEMP were blindsided by the moratorium, and that 
what the ICBEMP science has shown is the need for active 
management to prevent wildfires. This moratorium represents a 
serious breach of trust between governments.
    The Chief acknowledged this damage to trust and encouraged 
the counties to offer a way during the 30-day comment period to 
repair that trust. The EECC has identified additional concerns 
with this proposed interim policy that severely jeopardize our 
continued involvement in the ICBEMP. These reasons are 
straightforward.
    First, the ICBEMP cannot succeed if it is overridden by a 
piecemeal approach toward Federal land management in direct 
violation of an ecosystemwide plan. Second, the ICBEMP is 
science-based, supposedly. The EECC fully supports having sound 
and direct scientific results coupled with adaptive management. 
This policy is not based on science, but rather on politics. If 
ICBEMP is to succeed, politics cannot be elevated over science.
    Third, we've been assured throughout this project that the 
results will be a regional solution based on regional 
ecosystems and collaboration. This policy, however, is a 
national one-size-fits-all edict that violates the promise and 
integrity of a regional ecosystem-based solution.
    Fourth, the administration has emphasized collaboration of 
all stakeholders as the most sound approach to difficult 
Federal land management policy issues. County officials have 
absorbed tremendous political heat, holding to the process, 
seeking the very best outcome for the Basin and its 
communities.
    With this reported policy, we wonder if we are, indeed, 
partners. We've not been invited to consult about it. Our 
opinion has not been requested in any way. Can we trust that 
collaboration is, in fact, important to Federal leaders and the 
administration? We've been seriously compromised by the 
administration with its proposed interim rule.
    The current position of the EECC is somewhat precarious. 
Following a lengthy, complicated discussion and deep soul-
searching, the Coalition of Counties decided to withhold a 
decision on whether to stay with the project until a final 
decision is made on the USFS roadless area moratorium. The EECC 
decided to work with the Federal team to find language based 
upon the ICBEMP science and the DEIS to create special 
flexibility or a full or partial exemption for national forests 
within the Basin. The Federal team has agreed to work with us 
to this end, under the authorization of Chief Dombeck.
    Shifting to a local perspective, over 90 percent of Lincoln 
County households identified logging as the most important 
economic activity in our local communities, and these same 
people are employed, over 90 percent, in forest management. 
These are the working families that form the backbone of our 
communities. The management of our national resources here is 
simply indisputably the foundation upon which the rest of our 
economy is built. We must not forget that trees are a renewable 
resource. There are such things as tree farms.
    Incidentally, the nonresident travel or tourism component 
of our basic economy ranges from 1 to 3 percent. For this 
reason, we strongly dispute the social-economic data within the 
ICBEMP regarding the overstatement of recreation. On the 
Kootenai National Forest, almost 60 percent of the Forest 
Service system roads are closed, and within my home district 75 
percent are closed, primarily due to transportation system 
management dictated by grizzly bear recovery.
    Our people say that two huge problems that affect their 
harvest of wild resources, picking huckleberries, gathering 
firewood, fishing and hunting, et cetera, are national forest 
road closures and public land access. We want a working 
national forest. Our people don't want welfare. We want work. 
How can we when we are shut out of 60 to 70 percent of our 
public lands?
    A combination of these foregoing concerns is faced by an 
effort to diversify our local economic base. The Treasure 
Mountain Ski Area adjacent to our Cabinet Mountains Wilderness 
would also help us stabilize our local economy. The proposed 
roadless moratorium presents some very real obstacles that 
could cause this project to be aborted.
    Will provisions be made for exemptions for projects such as 
this? The U.S. Forest Service has placed a priority on 
recreation. It seems like Federal hypocrisy for the Forest 
Service to delay, and possibly impede, an economic 
diversification effort that has merit and funding from other 
Federal agencies.
    Many of you may be unaware that the United States and four 
other countries comprise 10 percent of the world's population 
and about 50 percent of global consumption. The United States 
is now a net importer of wood and wood products, and other 
construction materials, as well as most metals and plastics.
    In Montana, the Forest Service has reduced timber harvest 
by more than 50 percent since 1950. Yet, consumption is never 
discussed when decisions are being made that reduce harvests. 
We need to rethink the commonly held notion that the answers to 
many of the world's environmental problems is to simply 
designate ever-larger resource-rich areas as parks and 
preserves.
    Decisions are being made on a daily basis and at all levels 
of government to restrict raw materials extraction almost 
always on environmental grounds. No one is addressing our 
global responsibility. Few are asking what the environmental 
impacts are when our raw materials are imported from somewhere 
else.
    A new process for determining where and how we build roads 
must be based upon sound science. It must not duplicate or add 
to processes that are already mandated by current laws in order 
to eliminate further delays in planning. And most of all, any 
new process must be firmly embedded in collaboration and 
consultation with local affected communities. There must also 
be incorporated into this collaborative process a vehicle for 
local affected community involvement in deciding which roads 
need to be maintained, which roads need to be upgraded, or 
those that need to be decommissioned.
    As I end my testimony before you today, I would like to 
summarize what I feel the most important issue is for you to 
consider. It is not the issue of road building moratorium. It 
is the constant barrage of Federal edicts enacted from above 
that are threatening our custom, our culture, our traditional 
way of life in rural communities out West. We have been 
encouraged to come to the table to negotiate and review forest 
management practices through the ICBEMP process. We have kept 
our promise. We've stayed active in this process under 
tremendous political adversity. Our constituents tell us: You 
can't trust the Federal Government anymore. They tell us to 
look at the effects of the grizzly bear protection and other 
endangered species management. They see forests that are in 
dire need of help and could catastrophically burn this summer. 
They attend public meetings to voice their opinions, but feel 
as if their input falls on deaf ears.
    I used to tell them that we still need to try to work for a 
common goal, work out our differences in a managed plan that 
can benefit all interests. I constantly appeal to them to 
attend one more meeting, write one more letter, that will 
hopefully influence decisions. I'm not sure that I can tell 
them that any longer.
    Every effort we have made to work together with the Federal 
agencies to solve the important management decisions with words 
of reason have been ignored by this administration, which 
continues to impose additional regulations with no 
understanding of the effects on rural America. We're being 
backed further and further into a corner. We are fighting for 
our survival.
    We want the simple rights of Americans to pursue life, 
liberty, and happiness--all of which are being denied us by 
current public land management decisions, our very own country. 
This time it may be the straw that broke the camel's back. 
Trouble is brewing in the West. People are tired of not being 
heard. The common-sense, practical approach of rural people 
living on the land continues to fall on deaf ears. Special 
interest groups now seem to be the managers of our national 
forests. What they list as valuable and endangered does not 
include the vanishing rural American lifestyle out West.
    It's time that we placed this management back under sound, 
scientific means and remove politics from it. It is time to 
listen to the people. It is time to manage our land 
responsibly. You may very well hold the keys to the future of 
rural life in the West. You must prevent this looming disaster.
    Thank you.
    [The prepared statement of Mr. Dolezal may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Commissioner. That was 
outstanding testimony.
    We are being pushed by three votes that have been called, 
three 15-minute votes, and we're about at the end of the first 
15-minute vote. There will be two others following that, and 
then a 5-minute vote. I am so sorry to tell you, but we need to 
recess the Committee for 45 minutes to get these votes in.
    And, Mr. Peterson, I realize you may need to catch a plane, 
and if you're not here when we come back, we understand, but I 
do have a page of questions that I will be submitting to you.
    Mr. Max Peterson. Thank you. I do have to go, but I have a 
meeting with Congressman Hansen at 3:30. I might swing by here 
about 3 o'clock or something; I don't know.
    Mrs. Chenoweth. All right.
    Mr. Max Peterson. Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And so the Committee is recessed for 45 
minutes.
    [Recess.]
    Mrs. Chenoweth. The Committee will be in order.
    [Witnesses sworn.]
    Mrs. Chenoweth. The Chair recognizes Bill Banzhaf for his 
testimony. Bill is the executive vice president of the Society 
of American Foresters here in Bethesda, Maryland. Mr. Banzhaf?

STATEMENT OF BILL BANZHAF, EXECUTIVE VICE PRESIDENT, SOCIETY OF 
                       AMERICAN FORESTERS

    Mr. Banzhaf. Thank you, Madam Chairman. My name is Bill 
Banzhaf, and I represent the 18,000 members of the profession 
of forestry, including those in research, education, and 
practitioners both in the public and private sector.
    We really appreciate the opportunity to give the 
professional view this afternoon. I would say that, by and 
large, we are very supportive of the Chief's goals to improve 
his agency's ability to do a better job--better onsite 
decisions as to where and when roads should be built, and 
establish a sound approach to upgrade roads when appropriate, 
and to identify a sustainable funding source for future road 
building.
    We simply don't understand what the moratorium has to do 
with any of those goals. The Forest Service could develop a set 
of regulations at any time without a roads moratorium. I think 
former Forest Service Chief Max Peterson indicated that every 
institution needs to continually re-evaluate and improve how it 
does its work, but you don't stop your core area while you're 
looking at that.
    Additionally, the policy, the proposed moratorium, really 
undermines the years of hard work that the forest profession, 
the scientific community, and the public at large have put into 
making some very difficult land management allocation decisions 
through the NFMA process and through the RARE I and RARE II 
processes.
    Now in discussing the Tongass National Forest, Chief 
Dombeck stated, and I quote, ``It is important to people that 
we retain the integrity of the planning process and the appeals 
processes.'' Now it's our view that we do need to honor that 
commitment to the integrity of the planning process, and that, 
therefore, every unit of the national forest system should be 
exempt from this moratorium, since they have gone through a 
sound forest planning process.
    I'd like to briefly summarize some of our concerns with 
regard to the possible effects of this proposed moratorium. 
First, it will undermine or limit the ability of forest 
managers and citizens at the local level to address some 
critical needs in forested areas. The agency itself has talked 
about the fact that they have 40 million acres that are at 
severe risk for catastrophic fire. Clearly, if we have a 
moratorium on road building, this could very well limit the 
opportunity for professional natural resource managers to do 
fire prevention techniques, whether it's thinning, prescribed 
burning. So we have some real difficulties in that area.
    Another example just really occurred several weeks ago with 
the very tragic ice storm in the Northeast. The White Mountain 
National Forest may very well not be able to go through and 
correct some of the difficulties that they sustained during 
that very, very severe ice storm.
    Another concern with the policy--and, Madam Chairman, you 
brought this up yourself--is the vague and subjective criteria 
for the special lands, the inclusion of lands, quote, ``because 
of their unique ecological or social values.'' This sets the 
stage for more acrimony, and we certainly had enough of that 
over the last 10 years, more legal entanglements. We're very 
concerned that, based on that approach, we're going to go from 
an issue that needs to be addressed addressing roads to an 
issue that addresses land allocation, and I don't think we want 
to go there.
    I guess I would have to express my puzzlement in hearing 
the testimony this morning that the Regional Foresters have the 
discretion to identify the special lands, but do not have the 
discretion to identify the need to handle roadless areas on a 
site-by-site basis. To me, this doesn't make sense. We in the 
Society of American Foresters truly support and trust local 
discretion. We're very proud of the professionals that work in 
the Forest Service at the local level and the regional level, 
and we believe giving them discretion in one area and 
withholding in the other is not sending sound management 
signals.
    The real issue the Forest Service should be addressing--and 
I give Chief Dombeck credit for underlining this--is the 
backload in maintenance and reconstruction needs of the 
existing road system. He has stated that he will work on this 
serious problem, and we commend him for that. We commend the 
Forest Service for that.
    However, as I've stated before, we fail to see how the 
moratorium does anything to address the maintenance and 
reconstruction backlog. In fact, I think it does just what it's 
done today, and that is, misdirect needed focus and energy onto 
a wholly different issue.
    We very much appreciate the ability to provide testimony 
and would be happy to answer any questions you might have.
    [The prepared statement of Mr. Banzhaf may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Banzhaf. I appreciate that 
very interesting testimony, and we will be back to you with 
questions.
    Mr. Amador, you've come a very long way. It's been a long 
day, and I thank you for your patience.

 STATEMENT OF DON AMADOR, RECREATIONIST, BLUE RIBBON COALITION

    Mr. Amador. Thank you. Thank you, Madam Chairman, and 
before I start my testimony, I did want to comment on 
Representative Oberstar's comments today about where--if 
multiple-use recreation groups were consulted, and it was his 
opinion that they were not, and our organization was not 
consulted on this policy, either.
    As a native of California who has, quite literally, grown 
up in the forest of the Pacific Northwest----
    Mrs. Chenoweth. Mr. Amador----
    Mr. Amador. Yes?
    Mrs. Chenoweth. [continuing] for the record, would you 
state what----
    Mr. Amador. Oh, yes, my name is Don Amador, California-
Nevada representative for the Blue Ribbon Coalition.
    Mrs. Chenoweth. All right, thank you.
    Mr. Amador. OK. As a native of California who has, quite 
literally, grown up in the forest of the Pacific Northwest, 
where my wife, two teenage boys, and I enjoy exploring using 
forest roads, our timber lands, where we have learned much 
about such natural treasures as wild trillium, salmon berries, 
blacktail deer, thrushes, et cetera, I must say that as an 
outdoor recreationist my family and I are greatly troubled by 
the administration's roadless area policy.
    After carefully studying this policy, the Coalition has 
concluded that this proposal is nothing but a de facto 
wilderness grab designed to thwart the will of Congress, as 
outlined in the National Forest Management Act. Never before in 
my many years of working with the Forest Service, either in my 
capacity with the Coalition or as chairman of the Off-Highway 
Motor Vehicle Recreation Commission at the California 
Department of Parks and Recreation, have I ever witnessed a 
more anti-access or anti-recreation policy.
    What the Forest Service fails to recognize is that the road 
obliteration process is as, if not more, intrusive than the 
actual road building. As a heavy equipment operator and former 
operating engineer, I find no environmental documentation on 
how the Forest Service expects to mitigate the disastrous 
environmental impact of increased sedimentation caused by this 
program. And if any of you would like to see an example of 
that, you come out to California; I'll take you to Jacoby Creek 
on the Six Rivers and show you the impact that a road rehab 
program has on the environment.
    If this program is implemented on a national level, the 
consequences to fish habitat will be incalculable. As road 
engineers will tell you, the most serious environmental impacts 
to habitat occurs within the first 4 to 6 years post-
construction. By proposing a national road rehabilitation 
program, the Forest Service will be actually causing far more 
environmental damage than if the old road and trail systems 
were left as is and maintained with volunteer partnerships 
between recreation organizations and the agency.
    The Forest Service fails to recognize that the unimproved 
road system is the product and the reason why many families 
travel to the forests. Without a large and viable unimproved 
road system that provides public access for fishermen, hunters, 
mountain bikers, sightseers, disabled Americans, senior 
citizens, off-highway recreationists, equestrians, and rock-
hounders, the forest, as a recreation or tourist attraction, 
ceases to exist.
    While that may be an attractive prospect or goal for many 
of the national green advocacy groups or their law firms, the 
Forest Service must fulfill its mandate to serve all of the 
people and not succumb to the desires of an elitist few.
    Needless to say, I am skeptical when the Forest Service 
claims that this policy is not anti-access or anti-
recreational. For example, the Forest Service in Region 5, 
while claiming to be focusing on recreational opportunity for 
all Americans, has been quietly implementing many of the road-
closing aspects of the draft Resources Planning Act of 1995, a 
plan that is yet to be approved by Congress.
    Expressing my current distrust and frustration with the 
Forest Service's new proposed roadless policy--and I think they 
have it aptly named, for it is, indeed, a true ``roadless'' 
policy--is something I take no pleasure in. However, 
considering its lack of outreach to the multiple-use community 
with no apparent language guaranteeing a viable roads-to-trails 
or roads-to-four-wheel-driveways, I hereby state the Blue 
Ribbon Coalition's opposition to this policy as written, and 
urge this Committee to direct the Forest Service to follow its 
multiple-use mandate.
    Thank you again for allowing me the privilege to testify 
today.
    [The prepared statement of Mr. Amador may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Amador.
    The Chair recognizes Jack Phelps, who is the director of 
the--the executive director of the Alaska Forestry Association 
from Ketchikan, Alaska. You have come a long ways.

 STATEMENT OF JACK PHELPS, EXECUTIVE DIRECTOR, ALASKA FORESTRY 
                          ASSOCIATION

    Mr. Phelps. Yes, ma'am.
    Mrs. Chenoweth. Mr. Phelps?
    Mr. Phelps. Thank you, Madam Chair and members of the 
Subcommittee. For the record, my name is Jack Phelps, executive 
director of the Alaska Forest Association, and I do thank you 
for the opportunity to provide testimony before your 
Subcommittee today.
    The association represents or consists of 100 member 
companies who are directly involved in the Alaska forest 
products industry and account for more than 1,400 direct year-
round equivalent employees. As an aside, I'd mention that a 
mere 6 years ago that job force was around 4,600, and that loss 
is directly attributable to the Forest Service failure and 
refusal to put timber on the street.
    As you know, we have the largest national forest in the 
country, the Tongass. We also have the second largest national 
forest in the country, which is the Chugach, and I'll talk more 
about those in a moment.
    The AFA also represents an additional 200 associate member 
companies who provide goods and services to Alaska's timber 
industry. The livelihoods of AFA's members, their workers, 
their families, and the timber-dependent communities in which 
they live depend upon the availability of timber from the 
Tongass and Chugach National Forests and are directly affected 
by Forest Service decisions pertaining to those forests.
    I'm also here today on behalf of the forest products 
industry nationwide. The actions that Chief Dombeck and the 
Forest Service are taking, or proposing to take, regarding 
roadless areas in the national forests are in violation of the 
Federal laws and regulations which govern the responsibility of 
the agency and its management of those forests. The unilateral 
moratorium imposed by the Forest Service on the majority of our 
national forests will suspend road construction on millions of 
acres of roadless areas and significantly affect pending and 
future access to those for future use. In fact, it will delay, 
as you've heard today, offerings of badly needed timber, both 
in my region and in others.
    I have in my written testimony provided detailed 
specifications of the violations of law and regulation. I won't 
belabor those today, but I would like to move directly to some 
comments on how these proposed policies will affect our region.
    Although the Tongass National Forest in Alaska is allegedly 
exempted from the nationwide moratorium, we are extremely 
concerned about a backdoor imposition of this moratorium on the 
Tongass. The agency proposes to deal with the Tongass roadless 
areas when appropriate, they say, during its review of appeals 
filed in the recently revised Tongass Land Management Plan. We 
are concerned that the Forest Service will impose the 
moratorium by characterizing a change in the land management 
plan as ameliorating or addressing appeal points raised by 
environmental groups. And I would hasten to point out that in 
these appeals the environmental groups have identified a myriad 
so-called roadless areas not in the Tongass at large, but in 
the mere 676,000 acres of the 17-million acre Tongass that are 
still available for timber harvest. So this is a direct attack 
on the minutial amount of land that's still available for the 
one of the many multiple uses that actually produces revenue 
for the Forest Service, and I think it would behoove this 
Subcommittee to look very, very carefully into that issue, not 
only in the Tongass, but in other areas as well. As was pointed 
out this morning by Congressman Taylor, this is not an attack 
on anything but the land base that is still available for 
harvest, which in our case is very, very small relative to the 
overall size of the forest.
    In the plan appeal process, the Forest Service should be 
reminded that it can only move to correct legal errors which 
occurred during the forest planning process. It cannot make new 
policy as part of an alleged plan amendment under the appeal.
    I believe that if there are plan amendments--and this, 
again, could affect any and all of the forests across the 
country--if there are plan amendments which significantly 
affect the forest plan, they have to be done through the proper 
amendment process which is set forth in the National Forest 
Management Act, including public input and including amendments 
to the environmental impact statements.
    Now moving to the Chugach, which is the second largest 
national forest, similar concerns arise. In the case of the 
Chugach, the Forest Service has just begun the process of 
revising the Chugach Land Management Plan. The scoping process 
period ended on December 31, 1997, and a draft revised plan and 
its accompanying draft environmental impact statement are 
expected during the period of this moratorium. It appears to us 
that the Forest Service may be unilaterally foreclosing, by 
implementation of the moratorium, the multiple-use options 
which would otherwise be available for consideration during the 
public planning process, and that is absolutely unacceptable 
under our democratic system and under the NFMA. The problem is 
especially acute on the Chugach, where more than 98 percent of 
that forest is inventoried roadless.
    In addition to the above, as you, yourself, mentioned this 
morning, ANILCA, the Alaska National Interest Lands 
Conservation Act, prohibits the establishment of new areas of 
wilderness or even the study of forest lands for such purposes 
in Alaska. I've provided for you a briefing paper which details 
that.
    In conclusion, Madam Chairman, the proposed rulemaking on 
roadless areas, both in its interim form via moratorium and in 
its more permanent form, runs contrary to all the laws by which 
public lands, particularly the national forest system lands, 
are to be managed. Because of the paucity of roads in our 
State, Alaska will be disproportionately harmed by this 
administrative policy. The rest of the country will be 
adversely and unjustly punished as well. It not only hurts the 
industries that work in the forests, but every American who 
wants to be able to drive into the national forests which 
belong to all of us.
    Congress must do all in its power to stop implementation of 
this unacceptable policy and to insist that the Clinton 
Administration follow the law when it proposes to make changes 
in the management of national forest system lands.
    That concludes my formal comments, and I'd be more than 
happy to answer your questions.
    [The prepared statement of Mr. Phelps may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Phelps. I know that you had 
to leave at 4 o'clock.
    Mr. Phelps. I have a plane pushing me pretty hard.
    Mrs. Chenoweth. Yes. And if you can stay for questions, I'd 
appreciate it.
    Mr. Phelps. I could do that.
    Mrs. Chenoweth. All right. The Chair yields to Mr. Hill for 
his questions.
    Mr. Hill. Thank you, Madam Chairman.
    Larry, I just have a few questions for you, and, 
incidentally, again, I want to thank you for coming and 
appearing and providing your testimony. And I want to thank 
you, Madam Chairman, for having this hearing.
    Could you give us some sense of what the impacts have been 
on the citizens of Lincoln County as a result of the Forest 
Service, the current Forest Service practices?
    Mr. Dolezal. Well, I think the first thing is the roads 
were built and maintained with timber revenues, and with 
reduced harvest, we now have less revenues to maintain the 
roads. A lot of people don't realize that these roads are 
accessing a major drainage, say, and they'll have cutting units 
scattered along, and then in rotation they'll treat other 
areas. So they have like a 5- or a 10-year or a 15-year plan to 
treat an area, and the only reason they're not able to generate 
the revenue to maintain the road is they're not actively 
managing that area for a length of time.
    The impacts to our citizens as a result of current Forest 
Service management basically are three main areas: jobs, 
employment, access, and revenues to support local county roads 
and schools. When you're only treating less than 40 percent of 
the land base, as many other people have stated that have 
testified, on the Kootenia over 60 percent of the land base is 
already being managed for other uses. So the only productive 
timber base is already reduced to under 40 percent. So our 
harvest level is about one-fourth of the annual growth. So 
people need to ask the question, what's happening to that other 
75 percent that's growing every year? When you're not treating 
it, it's building up in fuel loads. So probably one of the 
major impacts it has on the local people is the threat and the 
danger of fire.
    Three-fourths of our people live in rural areas. They don't 
live in the municipal city limits. So those people are out 
there interspersed in the wildland interface with their 
residences. So when there's a threat of wildfire, it has a real 
impact potentially on people that live in those rural areas.
    The other things, the jobs, we have been impacted by a loss 
of about, oh, a thousand-plus basic industry jobs. Our basic 
economy is 90-plus percent built upon the natural resources, 
and so when you see that kind of a loss and we're still 90-
percent-plus basic industry, wood products, and Forest Service, 
Federal civilian, if we see those basic industries cut back 
even further, it's going to have dire impacts.
    The access is probably the thing that makes people's blood 
boil the most, because when you're only able to access a 
fraction of the forest, your huckleberry pickers, your firewood 
gatherers, your fishermen and hunters, hikers, et cetera, their 
ability now to access to trailheads, they've got to walk 
several miles up gated roads, and there's no flexibility to 
keep those roads open seasonally, so you can get your firewood. 
I don't know how many people would consider packing firewood 
out on your back.
    [Laughter.]
    Mr. Dolezal. Then, of course, the last one is revenues. 
When you're not harvesting at even approaching a sustainable 
level, your revenues are in decline. Ours are 50 percent of 
what they were just 4 years ago for forest receipts. So when 
your revenues are in decline, you have to look for other 
sources to finance your schools and your roads; we're just up 
against it from all those angles.
    Mr. Hill. What's the unemployment rate in Lincoln County?
    Mr. Dolezal. Double digits.
    Mr. Hill. The 15 percent area, something like that?
    Mr. Dolezal. Sixteen. In fact, our unemployment's been as 
high as 20 to 25 percent.
    Mr. Hill. When's the last time that that area was really 
threatened by wildfire? Was that in the 1988 season?
    Mr. Dolezal. Actually, 1994 is when we had our last big 
fire season, and they predict, with El Nino, that we could see 
the very same thing occur this year.
    Mr. Hill. And the fuel loads are getting worse all the 
time, because we have more mortality in the forest than we're 
harvesting, too, right?
    Mr. Dolezal. That's correct.
    Mr. Hill. You've worked with the Interior Columbia Basin 
Ecosystem Management Project. And I know that you've taken a 
lot of criticism for hanging in there with this project, 
because you really want to bring an end to this management by 
conflict.
    I would just ask you, how do you react to this moratorium, 
in light of the work that you've done and your experience 
working on that project?
    Mr. Dolezal. Well, to be as brief as possible, our 4 years 
of collaboration are basically totally undermined by this 
moratorium, or this proposed moratorium, and I could expand on 
our concerns. They're expanded on more in detail in my written 
testimony that I have submitted.
    The Basin, if it doesn't receive some flexibility or 
exemption, the Coalition of Counties will not only withdraw 
from our collaborative effort on this Columbia River Basin 
Project, but I would expect that we will as a group join forces 
in actively lobbying our Governors and our State legislatures 
and also our congressional delegation to oppose ICBEMP from 
going to FEIS, from going to ROD, and from receiving any 
further funding. It's that dire.
    Mr. Hill. Can I ask one more question? How many--do you 
know how many miles of roads there are in the Kootenai Forest?
    Mr. Dolezal. I don't know how many Forest Service----
    Mr. Hill. Yes, I meant Forest Service roads. You don't 
know? Could you--do you know what percentage of it is currently 
restricted?
    Mr. Dolezal. Forestwide, 60 percent of the forest system 
roads are closed, and in my home district, where we are dealing 
with grizzly bear recovery, 75 percent of our forest system 
roads are closed. That has a lot of people up in arms.
    In fact, just recently, we had meetings in Troy, Libby, and 
Eureka. We had about 100 people attend each of those meetings, 
in excess of three-and-a-half hours of testimony and 
interaction with the Forest Service, Fish and Wildlife Service, 
State Fish and Wildlife and Parks. So we had a total of over 10 
hours of testimony just in our county alone over the 
possibility of increased restrictions on access management for 
grizzly bear. And people are very upset and just basically said 
in no uncertain terms that they will not accept any more 
restrictions to public land access.
    Mr. Hill. Thank you. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you very much, Mr. Hill.
    Mr. Phelps, your comments about the legalities of this 
process are exceedingly interesting to me. Is there anything 
that you would like to add to your testimony with regard to the 
legality of the process?
    Mr. Phelps. Only that the National Forest Management Act is 
very clear that if major changes are going to be made in a 
forest plan, it's essential that the process of making those 
significant amendments follow the same process as was used in 
drafting the plan in the first place. That includes an 
environmental impact statement. Under NEPA, it requires an 
analysis of the socio-economic effects of such change. It 
requires a significant period of public comment and a 
significant review of those public comments and incorporation 
of them. It includes a requirement that the agency work with 
the elected officials of the local community. In that, all of 
those, we saw given short shrift in the Tongass Land Management 
Plan revision as it was, and to see, then, after going through 
that very painful process in which our available harvest base 
in the Tongass was reduced by 60 percent, to have them come 
along and unilaterally withdraw a significant--impose a 
significant additional withdrawal of those lands is not only 
appalling, but, in our opinion, grossly illegal.
    Interestingly, not only do these actions violate the law 
itself, they violate the regulations which have been 
promulgated by this very agency based upon those laws. And, 
again, the details of that and the specific citations are 
included in my written testimony.
    Mrs. Chenoweth. Do you think that the Forest Service is 
vulnerable to a successful lawsuit restraining them from this 
action?
    Mr. Phelps. I think they very much are. The problem is 
we've spent so much money in litigation over the last 10 years, 
trying to defend our industry, our pockets are getting pretty 
empty. Unfortunately, every time they do try to put timber on 
the street, these public interest lawsuits that are funded by 
the taxpayers are brought to bear and stop those harvests. We 
end up trying to intervene on behalf of the Forest Service 
because we can show harm, and the Forest Service can't. So it's 
a never-ending drain on the pockets of the very people who are 
trying to produce revenue for the country and jobs for the 
people.
    I think they are vulnerable, Madam Chairman, but the 
ability to bring such a lawsuit has a pretty high price tag on 
it.
    Mrs. Chenoweth. It's a shame that we've gotten to the point 
where we're so drained we can't even defend our rights.
    I know that you have to leave, Mr. Phelps. I do have other 
questions for you. If you don't mind, I'd like to submit them 
in writing.
    Mr. Phelps. Absolutely. We'd be happy to respond to them in 
writing.
    If I could be permitted one other comment----
    Mrs. Chenoweth. Yes.
    Mr. Phelps. There was some talk today about helicopter 
logging as an alternative. I would point out that helicopter 
logging is exceptionally expensive--exceptionally expensive 
relative to more, you know, more traditional, mechanized 
approaches--cable or ground-skidding. But what's especially 
important about that is that the cost of harvesting, as well as 
the cost of sale administration on the part of the Forest 
Service, has risen astronomically, and it's to the place now 
where, when they talk about sales going without bids, it's 
because basically they've designed these sales in such ways 
that a person can't make any money buying, and you lose money 
if you buy them--and to throw a significant amount of that into 
the much more expensive, exceptionally much more expensive 
helicopter system, it would just be another way of ending the 
harvest altogether, plus it's inherently more dangerous as 
well.
    Mrs. Chenoweth. Thank you, Mr. Phelps. I very much 
appreciate your coming all the way from Alaska and----
    Mr. Phelps. Well, we appreciate the opportunity to have a 
voice in these things.
    Mrs. Chenoweth. Thank you.
    Mr. Phelps. Thank you.
    Mrs. Chenoweth. Mr. Hill, you wanted another round?
    Mr. Hill. Thank you very much, Madam Chairman.
    Larry, I just have a couple more questions for you. You've 
spent, as we mentioned earlier, a lot of work on the Interior 
Columbia Basin Ecosystem Management Project. That study looked 
in considerable detail at the fire threat really to the whole 
Intermountain Northwest Region. And you've spent a lot of time, 
I know, with that. Could you just describe for us what the 
impacts on the environmental, the soils, and watershed would be 
from these catastrophic fires?
    Mr. Dolezal. Well, if you go to an area that has been 
burned intensively with intense heat, many times the soils are 
destroyed right down to the bare mineral element, and it 
creates a situation where the potential for invasion of noxious 
weeds or exotic plant disease is greatly enhanced. In fact, 
some of the areas that we have our greatest weed problems now 
are where there were fires.
    In the 1994 fires, if we would have had more wind, we would 
have had much more catastrophic events. As it turned out, there 
were many rural areas that were cautioned that they may have to 
be removed from their homes, and we were very fortunate that 
the winds didn't come up. So those people were able to stay in 
their homes.
    Mr. Hill. Kind of changing the subject here, have you had a 
chance to look at the administration's new initiative on 
decoupling the forest payments from the forest revenues, and 
what do you think about that as a local government 
representative?
    Mr. Dolezal. I have had really very little exposure to 
that. One thing that's interesting, it appears to be an effort 
to remove counties from the debate. We think the most equitable 
way to formulate this, if it is pursued, would be to average 
over the last, say, five to 7 years, rather than pick going 
back to, say, last year or this year, because we've experienced 
ourselves a 5-year decline. So it's kind of an insult when they 
suggest, well, we'll go back to this last year's allocation. It 
seems like it would be much more fair to local governments, to 
schools and counties, if they would use an average that would 
at least capture some of those years when we had more favorable 
revenues.
    But counties would still be very involved in the debate 
about roads and revenues because the biggest picture, the 
biggest issues that we face are employment, the viability of 
our communities, and access to public lands. We still have to 
serve our people and represent them at the table to fight for 
public access and to fight for viable communities, viable 
economy.
    Mr. Hill. What percentage of the people who live in Lincoln 
County use the public lands for camping or berry picking or 
hunting or fishing, or do you have any indication of that? I 
know you did some surveying on that.
    Mr. Dolezal. Actually, it was a recent survey, completed in 
fact just a year ago by a sociology assistant professor named 
Rebecca Templen-Richards out of the University of Montana 
Sociology Department. The results of that survey indicated that 
between 60 and 84 percent of the households surveyed--and they 
almost a 90 percent response rate--used public lands for such 
things as picking huckleberries, fishing, hunting, and 
gathering firewood.
    Mr. Hill. So it's a way of life? I mean----
    Mr. Dolezal. Oh, very.
    Mr. Hill. Use of these public lands is a way of life for 
people in Lincoln County?
    Mr. Dolezal. Very much so, and I would invite--I wish some 
of the other Members were here, because I would like to invite 
them to Montana and see how they like hiking three or four 
miles up a gated road to go pick huckleberries when they used 
to be able to drive to the huckleberry patch.
    Mr. Hill. I guess, in essence, we've added insult to 
injury. We've taken away people's jobs. We've eroded the 
community and the ability of the community to sustain itself, 
and then we've taken away the people's recreation.
    Mr. Dolezal. And there's one other point on this recreation 
emphasis that doesn't seem to be addressed, and that is, if 
we're going to shut down timber and wood products, then what's 
going to replace the revenues to support our counties and our 
schools? The county road systems are what tie the forest system 
roads to the primary and secondary highway system. Without that 
vital link that the county maintains, people wouldn't have 
access to the forest system roads and access to the public 
lands.
    But, beyond that, what would our permit cost be and what 
would the fees be to replace the millions of dollars that go to 
counties for roads and schools generated from timber receipts? 
If we had to go totally to recreation fees to support our 
counties and our schools, how much would it cost us to get to 
that trailhead to go hiking? How much would we have to pay to 
fish or to hunt? How much would I have to pay for a huckleberry 
permit? Or for a firewood permit? A thousand dollars? I mean, 
we're talking some hard money here if we're going to replace 
forest receipts for our public infrastructure.
    Mr. Hill. So instead of contributing to the income of the 
community, it would drain money from the community?
    Mr. Dolezal. Right. And one other aspect, most of the 
recreation traffic on our forests is from people that live 
there and work there. Apart from hunting season, which is 5 
weeks, and seasonal fishing, those are the only activities that 
are guided and outfitted primarily in our area, though the 
greatest share of that recreational traffic are people that 
live and work there. Well, when over 90 percent of your basic 
economy is built on wood products, if you take wood products 
out of there, you're not going to have anybody out there 
because they're not going to be there.
    Mr. Hill. Thank you very much. Thanks for being here, 
Larry. We really appreciate it.
    Thank you, Madam Chairman, for the hearing.
    Mrs. Chenoweth. Mr. Dolezal, that was outstanding 
testimony, and I thank you very much.
    Mr. Dolezal. Thank you for having me.
    Mrs. Chenoweth. And you are excused now, and we'll call the 
next panel: Bob Powers, legislative advocate, United 
Brotherhood of Carpenters and Joiners of America--for the 
second time, we call you up, Bob. Jerry Hamilton, 
silviculturist, retired, Forest Service, Salmon, Idaho; Craig 
Gerhrke, regional director of the Wilderness Society in Idaho; 
Brent Atkin, president, Public Lands Council, St. George, Utah, 
and Tim Coleman, executive director, Kettle Range Conservation 
Group in Republic, Washington.
    Thank you. I wonder if the members would stand and take the 
oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. I'm going to open the testimony up by 
hearing from Craig Gerhrke. I want to just say a word about Mr. 
Gerhrke, because I am his Congresswoman; he may not always want 
to admit that, but I am.
    Mr. Gerhrke does outstanding work in Idaho and is one of 
the most sought-after and highly regarded individuals in 
outcomes and impacts of management decisions on our public 
lands. While Mr. Gerhrke and I don't always see eye to eye, I'm 
very pleased that you could join us today and bring your 
testimony as a part of the record. Thank you very much for 
being here, Craig, and I'm so sorry that you've had to wait all 
day, but we look forward to hearing from you now.

 STATEMENT OF CRAIG GERHRKE, REGIONAL DIRECTOR, THE WILDERNESS 
                            SOCIETY

    Mr. Gerhrke. Well, thank you, Congressman Chenoweth. I 
appreciate that.
    I'd like to thank you and the Committee for inviting the 
Wilderness Society to testify today on the Forest Service's 
initiative to develop a transportation policy. My name is Craig 
Gerhrke. I'm the regional director for the Wilderness Society 
in the Idaho office.
    The Wilderness Society welcomes the Forest Service 
attention to the wilderness area issue and also to its need to 
address its existing road network. We're supportive of their 
initiative, but we do believe it has significantly 
deficiencies. We regret the exemption of the national forest in 
Alaska and on the Pacific Coast and in place like on the 
Targhee, which already have their land management plan in 
place.
    We hope that during the comment period the Forest Service 
will consider strengthening the proposal because one goal we 
think that badly needs to be addressed is the legitimate 
protection of the roadless areas. We think that putting a 
moratorium on road construction is a good first step, but from 
our standpoint, we would work to see that roadless areas are 
maintained and are protected in the indefinite future.
    For example, I think we're looking at probably the Deadwood 
roadless area timber sale going forward with about 20 million 
board feet harvesting by helicopter. If we had our druthers on 
it, we'd like to see the Deadwood area and all other ones 
protected from further timber harvesting. So that will be 
something we certainly will be urging during the comment 
period.
    I'm going to focus most of my testimony that I talk about 
today on the State of Idaho, on the issues I'm familiar with 
out there. As you know, Idaho is a very unique place. Outside 
of Alaska, we have more wild and protected forestland than any 
other State in the Nation. We have, in addition to the 4 
million acres of designated wilderness, there are more than 8 
million acres of national forest roadless lands that qualify 
for wilderness protection, and some of the very cleanest waters 
in our State come from those areas, and some of actually the 
Nation's rarest wildlife and fish species, like the caribou, 
chinook salmon, grizzly bears, owe their continued existence in 
the lower 48 in part to Idaho's roadless lands.
    These roadless lands, as you know, they're roadless for a 
reason. The more accessible country has long been accessed for 
timber harvesting, and the steepness, the ruggedness of this 
area has up until now made them basically what you call second-
best--harder to get to, more expensive to get to. But even 
having said that for the last decade, the Wilderness Society 
looked at the wilderness area inventory in Idaho and found that 
we've lost about a million acres since the mid-1980's when the 
forest plans were developed and put into place. At that point 
we had about 9 million acres of wilderness land. Since then, 
we've lost, like I said, about a million acres of land, of 
roadless land, to roading and log-building efforts, and that 
amounts to about 11 acres per hour every day.
    The lands of those national forests have a network of 
forestry roads of about 30,000 miles in Idaho, six times the 
length of the State's State highway system. And last year, the 
Idaho Panhandle Forest said they only had enough money to 
perform about 25 percent of its road maintenance needs. So I 
think a step back is very important at this step, to look at, 
what are we going to do with these roads that are in place, and 
how are we going to look at the wilderness lands, and how do 
they come into play?
    We believe very strongly that maintaining the roadless 
areas in their current undeveloped condition has many 
environmental advantages. There's been a lot of talk today 
about the Interior Columbia Environmental Ecosystem Management 
Project. I think it hasn't been mentioned, though, that that 
report has found that, by and large, the wilderness parts of 
the forest are in much better ecologic condition than the parts 
that have been managed for other uses. We have found that some 
of Idaho's best Chinook salmon habitat, steelhead, bull trout, 
and the cutthroat trout habitat remain in what are called these 
aquatic strongholds, the high forests and watersheds that have 
not been developed, and that those strongholds are going to be 
key, if we're going to recover the species beyond those 
strongholds back into areas where they once existed.
    One of the basic tenets I think of conservation biology is 
to identify the best of what you've got, protect that, and then 
go out and rehabilitate and restore what has been damaged from 
past activities. So we're going to be very strongly urging that 
those aquatic strongholds, those best habitat areas are left 
alone, and that the primary function of ICBEMP should be, how 
do we restore our forests where we have managed and we've 
impacted the land to the point where we have declining fish 
species all across the Columbia Basin?
    I mentioned that the wilderness inventory that the 
Wilderness Society performed last year, we compared that 
wilderness inventory to the information on ecologic integrity 
coming from ICBEMP, the Interior Columbia Project, and found 
that the designated wilderness areas are in the best ecologic 
condition of much of the land in the entire Basin. More than 90 
percent of our wilderness have a high ecologic integrity, and 
one-half of the roadless areas have a high ecologic integrity.
    It really became clear 2 years ago, when we had the 
mudslides on the Clearwater National Forest, what happens when 
you put roads into places where they maybe should not have been 
put. We had over 1,000 landslides that winter, when we had a 
rain-on-snow event after the land had been supersaturated from 
extensively rainfall in November.
    An independent survey of landslides in the upper Lochsa 
found a correlation of about 95 percent of those slides were 
associated to the logging roads and harvest units, and the 
Forest Service themselves found on the Powell district that 93 
percent of all those slides were associated with roads and 
timber harvests.
    Now the forestwide assessment on the Clearwater found that 
about 70 percent of the landslides were associated with some 
activity like----
    Mrs. Chenoweth. Seventy?
    Mr. Gerhrke. Seventy percent.
    Mrs. Chenoweth. Seventeen?
    Mr. Gerhrke. Seventy, 7-0, were associated with roads and 
timber harvests. I suspect that that might be an underestimate 
because much of that survey was done from aerial photography, 
and I think that if they had went on the ground in more of the 
forest, they would have found that that percentage was probably 
higher.
    If you look at a map of those landslides on the Clearwater, 
you'll find that there was a denser concentration in places 
like the upper Lochsa, Orogrande Creek, Pete King Creek, and 
the Moose Creek/Deception Basin. These are places that have 
been some of the most heavily roaded and logged forests on the 
Clearwater. In contrast, there were relatively few landslides 
in the roadless lands extending from Kelly Creek over to Fish 
and Hungery Creeks and on the south side of the Lochsa River.
    I think I'm running out of my 5 minutes, so I guess, just 
in conclusion, I would say that this timeout I think makes a 
sense from our standpoint. I believe that, frankly, one of the 
best things the Forest Service could do would be to look at 
their roadless lands and ask, why are these lands in such good 
ecologic condition, and then take those lessons and apply them 
to the managed forest base. I think there's a continued real 
problem with maintaining the roads that they have now, and we 
certainly supported the Forest Service's efforts to 
rehabilitate and obliterate roads that they don't need any 
more, because contrary to what's been said, people are right 
that there's a big pulse of settlement where roads are 
constructed, but if the maintenance needs aren't met, those 
roads will start to fall apart, and you'll get the further 
water quality impacts where you'll have culverts wash out or 
you can't just walk away from them after they're built; you 
have to maintain them, and that's going to be a big drain, I 
think, on the funds the Forest Service has, if it has to go to 
maintaining the extensive network they have in place right now.
    Thank you.
    [The prepared statement of Mr. Gerhrke may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Gerhrke, and the Chair now 
recognizes Brent Atkin, president of the Public Lands Council. 
Mr. Atkin?

STATEMENT OF BRENT ATKIN, PRESIDENT, PUBLIC LANDS COUNCIL, ST. 
                          GEORGE, UTAH

    Mr. Atkin. Thank you, Madam Chairman, for the opportunity 
to testify today. I am Brent Atkin from St. George, Utah, 
presently serving as president of the Public Lands Council.
    The U.S. Forest Service's January 28th proposal to suspend 
road construction activities in all roadless and other special 
areas while it spends 18 months analyzing and revising the 
national forest system transportation regulations looks to me 
like a thinly veiled attempt to essentially create de facto 
wilderness areas outside of the process that Congress has 
established.
    By law, roadless area decisions are dealt with in the 
forest planning process and wilderness area designations have 
been clearly spelled-out by Congress. Many States have reached 
agreements and established wilderness areas under the existing 
framework. There will be no incentives for local people to try 
to work through the existing processes to deal with local 
roadless area issues when this one-size-fits-all policy from 
Washington becomes effective.
    Unfortunately, this proposal seems to be the latest example 
of this administration's lack of interest in adhering to the 
statutory boundaries established by Congress. In my 2 years of 
service as president of the Public Lands Council, I have 
witnessed this administrative overreach several times.
    The Interior Department's 1994 rangeland reform 
regulations, several parts of which were enjoined by the 
Federal district court as a result of a lawsuit by the PLC; the 
uproar caused by the President's creation of the Grand 
Staircase Escalante National Monument, and now this road 
building proposal.
    As a rancher who utilizes forage from Federal lands as part 
of my family's ranching operation, I find it difficult to 
understand how a top-down approach to Forest Service road 
building is going to benefit either the resources or the local 
people whose jobs depend on industries that use resources from 
Forest Service lands. What I do see happening for sure is that 
this action is going to generate more questions than answers, 
which in turn will continue to add to the economic instability 
that we already have enough of.
    Until the Forest Service completes its review on issues, 
new regulations about roads, I guess all we can do is speculate 
about how this will affect grazing, timber, mining, and 
recreation on Forest Service lands. I wonder how ranchers with 
Forest Service grazing permits in these designated roadless 
areas are going to explain this proposal to their bankers?
    I can understand the desire of the Forest Service to ensure 
that its process for building and maintaining roads is based on 
the best science, to ensure that road building is done in the 
least-damaging way, but their proposal seems to be putting the 
cart before the horse. If the Forest Service intends on 
evaluating all its lands to determine which lands should even 
have roads, it is turning the whole notion of multiple use on 
its head. Many multiple-use activities, such as timber, 
grazing, recreation, hunting, and camping, are just going to 
require a certain amount of roads in order to facilitate the 
activity--a very common-sense conclusion. However, if roads are 
deemed to be inappropriate in a given area, then many multiple-
use activities will just not be able to take place. This is not 
the process that Congress has established for the Forest 
Service to make multiple-use decisions. The decision to build 
or not build roads should be based on the multiple-use needs of 
the specific location.
    As it currently exists, this road building moratorium seems 
likely to have several negative impacts. Roadless areas with 
unnaturally high fuel loads will continue to be highly 
susceptible to fires; watershed restoration activities 
requiring access will not be able to occur; local economies 
dependent on access to forest resources will suffer more job 
losses, and it will undermine the ability of local foresters 
and communities to properly manage forest based on local 
conditions.
    The Forest Service should withdraw its interim rule that 
places a moratorium on road building. It is not a necessary 
prerequisite for the Forest Service to be able to revise its 
road building regulations and seems clearly designed to 
circumvent not only the multiple-use decisionmaking process, 
but also the wilderness area designation process established by 
Congress. If it does not withdraw the interim rule, at a 
minimum the Forest Service should eliminate the special areas 
category. This special areas authority would essentially allow 
Regional Foresters to prevent road building on every acre, not 
just roadless, of the national forest system that has unique 
ecological characteristics or social values, which would result 
in yet more acres being offlimits to multiple-use activities.
    Thank you, Madam Chairman, for the opportunity to testify 
today.
    [The prepared statement of Mr. Atkin may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Atkin. I appreciate your 
being here.
    Mr. Atkin. My pleasure.
    Mrs. Chenoweth. You certainly have your hands full with the 
PLC.
    Mr. Atkin. Thank you.
    Mrs. Chenoweth. Bob Powers?

     STATEMENT OF BOB POWERS, LEGISLATIVE ADVOCATE, UNITED 
        BROTHERHOOD OF CARPENTERS AND JOINERS OF AMERICA

    Mr. Powers. Thank you, Madam Chairman. On behalf of the 
500,000 members of the United Brotherhood of Carpenters and 
Joiners of America, all of whom are impacted by restrictions on 
access to Federal lands, we are pleased to address this 
Subcommittee to express our opposition to the proposed new 
policy on roadless areas recently unveiled by the Clinton 
Administration.
    The Subcommittee may be interested to know that 
representatives of the Carpenters' Union met with Forest 
Service Chief Michael Dombeck earlier this month to voice our 
concerns over the moratorium. My remarks before the 
Subcommittee today reflect many of the same topics raised at 
that meeting.
    Union forest product workers are concerned about protecting 
our environment and our public lands. Our members have long 
supported responsible forest management practices and 
sustainable forestry. Through the years, we have worked closely 
with our employees to push for advancements in forestry and 
forest practices that reflect the best science and a heightened 
concern for forest ecosystems. That is why we often support 
efforts to help the Forest Service better respond to forest 
health issues.
    Although a close examination of current policies governing 
roadless areas may be necessary to address environmental 
concerns, we are concerned that through the moratorium the 
Forest Service is circumventing thorough public debate and 
input from scientists and stakeholders. With so much at risk, 
an open public process is the only appropriate course of action 
before any new roadless area policy or revised approach to 
forest roads construction is implemented. Our union is eager to 
participate in such a process.
    Year after year the now-familiar political blood-letting 
over forest roads policies causes extreme uncertainty for 
forest workers, sawmill owners, and timber-dependent 
communities. Instead of short-term, politically motivated 
policies such as the moratorium, the administration should work 
with Congress to develop a comprehensive, long-term plan for 
forest roads construction that is based on the best available 
science and addresses the environmental and forest health 
concerns surrounding roadless areas.
    Incredibly, notably absent from the proposed rule is any 
reference to a scientific rationale behind a moratorium. It 
seems as though the intent of the policy is to set aside 
roadless areas permanently as wildlife habitat or wilderness 
recreation areas under the guise of addressing environmental 
concerns.
    Even the Forest Service admits that the moratorium would 
conflict with environmental responsibility by preventing the 
implementation of ecosystem maintenance and enhancement 
activities. Indeed, the moratorium will unduly add to the 
Forest Service's huge backlog of such activities. As a result, 
wildfire fuel loads will be allowed to accumulate in the 
critical habitat areas that the moratorium aims to protect.
    According to the International Association of Firefighters, 
lack of active forest management activities has resulted in 
hotter and more intense forest fires, placing the lives of 
forest firefighters at risk and devastating millions of acres 
of wildlife habitat. In 1994, for example, the cost of fighting 
the record number of wildfires approached a billion dollars. 
With recent El Nino rainstorms soaking the West, it is likely 
that wildfire fuel, such as thick low growth and grasses, will 
buildup, providing the ingredients for yet another year of 
record-breaking wildfires. Without well-maintained forest roads 
providing firefighters with safe access to remote areas, the 
cost of fighting fires could far exceed a billion and include 
extensive wildlife habitat and property damage. Ultimately, 
poorly maintained roads threaten the lives of firefighters.
    The Forest Service recently acknowledged that there are 
thousands of miles of ghosts or nonsystem forest roads in 
roaded and roadless areas of the national forest causing 
extensive environmental damage. If ghost roads in roadless 
areas lie in disrepair during the moratorium, 18 months of 
environmental damage could occur due to runoff and siltation of 
rivers. Given the opportunity, our workers could assist the 
Forest Service in addressing the backlog of forest management 
activities as well as other environmental concerns.
    Most troubling perhaps is that the proposed rule goes 
beyond just applying a moratorium on roadless areas. The 
special areas loophole effectively leaves the door wide open 
for Regional Foresters to end all construction of forest roads 
in roaded areas as well. The broadly defined provision, section 
212-13, subsection (a)(4), suspends road construction in, 
quote, ``any national forest system area on which the Regional 
Forester subsequently determines that road construction or 
deconstruction should not proceed because of the area's special 
and unique ecological characteristics or social values.'' This 
alarming provision constitutes an unprecedented expansion of 
roadless areas and spells an even greater danger for the health 
of our national forests.
    As it is, the moratorium would place a minimum of 33 
million acres offlimits to forest road construction activities. 
The economic repercussions of such an unprecedented land grab 
are enormous and would be tantamount to an economic timebomb 
for timber-dependent workers, communities, and families.
    In 1995 alone, harvesting and processing of timber on 
national forests supported more than 63,600 jobs, generating 
some $2.2 billion in employment income. Additionally, $257 
million, or 25 percent of the gross receipts of the Federal 
timber sale program, were returned to States and counties to 
support local schools and other essential public services as 
payments in lieu of taxes. A moratorium will likely end Federal 
payments to many timber-dependent communities and at the same 
time jeopardize the livelihoods of thousands of forest workers 
nationwide.
    Our conservative estimates indicate that at least 12,000 
jobs will be lost as a result of the proposed moratorium. The 
special areas provision could force many more mills to close, 
resulting in thousands more unemployed workers. Sadly, our 
members have already felt the ill effects of land base 
restrictions in national forests throughout the Pacific 
Northwest and now northern California, where more than 20,000 
men and women, thousands of whom are our members, have been 
tossed to the unemployment line as more than 200 mills have 
closed in the last 7 years due to restrictions on timber 
harvesting.
    The Carpenters' Union supports the Subcommittee's efforts 
to scrutinize the proposed moratorium. The moratorium is 
economically unsound and environmentally risky. The 
administration should withdraw this proposal and, instead, work 
with Congress in taking a broad look at land use policies, with 
the goal of developing a long-term, balanced approach to land 
use.
    For too long, the livelihoods of timber-dependent workers 
and communities have been held hostage by inconsistent Forest 
Service policies, unbalanced judicial decisions, and frivolous 
timber sale appeals. We urge Congress and the administration to 
set aside the partisan battles and develop a balanced approach 
to land management aimed at preserving ecosystems while 
minimizing job loss and economic disruption. We suggest that a 
new Federal land management policy might include mechanisms to 
streamline the timber sales appeal process, require the Forest 
Service to obliterate more road miles than are constructed, 
allow the Forest Service to contract construction and 
reconstruction of forest roads, replace the purchaser road 
credit program with a system of environmental credits, where 
timber is traded for environmental restoration, and critically, 
provide a safety net for displaced workers and communities 
impacted by legal or administrative restrictions on access to 
Federal lands.
    Instead of pursuing an unwise, harmful moratorium, the 
administration should address the many concerns surrounding 
land management the right way, through an open public process 
that aims to develop a balanced, long-term policy. We are eager 
to provide assistance toward developing such a policy and to 
provide the insight of timber-dependent workers into these 
important issues.
    Thank you.
    [The prepared statement of Mr. Powers may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Powers, thank you very much for your 
testimony.
    Mr. Powers. Thank you.
    Mrs. Chenoweth. The Chair recognizes Tim Coleman. Mr. 
Coleman is the executive director of the Kettle Range 
Conservation Group in Republic, Washington.

  STATEMENT OF TIMOTHY J. COLEMAN, EXECUTIVE DIRECTOR, KETTLE 
                    RANGE CONSERVATION GROUP

    Mr. Coleman. Thank you, Madam Chairman, for an opportunity 
to speak today. My name is Timothy J. Coleman, and I am 
director of the Kettle Range Conservation Group in Republic, 
Washington. That's in northeastern Washington State. Basically, 
the forest where I live is very similar to north Idaho and 
western Montana.
    My wife and I live in a log home that we built out in the 
rural area, northeastern Washington, we built out of logs from 
our place, and I have 120 acres of forestland. So what happens 
on the Federal forest directly affects the value of my 
forestland. So I bring that concern to you today as well as my 
concerns for conservation of the resource.
    For the past 16 years, I have worked as a forest 
conservationist with the national forest, learning relevant 
law, on-the-ground, site-specific forest conditions, and I base 
my knowledge on that 16 years of empirical evidence-gathering.
    With regard to the Forest Service interim directive on road 
construction in roadless areas of the national forest, I feel 
that it is both scientifically and economically justified. 
However, the policy doesn't go far enough. The policy still 
allows for logging in these roadless areas, and it doesn't 
address uninventoried roadless areas, such as the roadless area 
East Deer Creek, which is the sole source of water for the town 
of Orient, Washington. There is no other source of water for 
that town. It gets it off the national forest. There are many 
communities, rural communities, in the West that are in the 
same situation.
    The interim directive also doesn't apply to the Northwest 
Forest Plan forests; it doesn't apply to the Tongass, where 
38,000 acres of the 14 million inventoried roadless acres will 
be logged each year, at a huge loss to the taxpayer, impacts to 
fisheries, recreation, and water quality, costing the taxpayers 
well beyond the direct economic subsidies from Congress, and 
we're talking about recreation here. Well, certainly fishing in 
Alaska and hunting in Alaska is one of the biggest things, and 
the blacktail deer in Alaska depend on those old forests, and 
so do the salmon depend on healthy watersheds.
    In Washington State, nearly a million acres of 
uninventoried roadless lands are not part of this moratorium. 
They were never inventoried during RARE II, including areas 
such as 16,000-acre Owl Mountain, where it's loaded with old-
growth timber. Now I don't know why they didn't inventory that 
area, but my guess is it's because it's loaded with old-growth 
timber.
    In December, a letter signed by over 100 scientists and 
university professors from Idaho, Washington, Oregon, 
throughout the country, sent a letter to the President stating, 
in our view, a scientifically based policy for roadless areas 
on public lands, at a minimum, to protect from development all 
roadless areas larger than a thousand acres and those smaller 
areas that have special ecological significance because of 
their contributions to the regional landscapes. The scientists 
didn't say anything about logging in roadless areas with 
helicopters being economically justified.
    The Interior Columbia Basin Project found that the 
remaining healthy fish populations in the Basin, an area the 
size of France, tend to be in the areas with the fewest roads, 
and they stated that, unequivocally, those undeveloped areas 
are critically important to sustaining native fishes and water 
resources. They also stated that those areas have tremendous 
economic value to society and are in relatively good ecological 
condition, and therefore, have little need for active 
restoration. That's from the scientific assessment, page 68, 
82, and 108.
    The Basin study also found that roadless areas constitute 
the highest value that public in the Basin have for public 
lands. The Basin study also found--the Interior Columbia Basin 
Project also found there is a high risk to watershed 
capabilities from further road development, and that, in 
general, the effects of wildfires in those areas are much lower 
and do not result in chronic sediment delivery hazards 
exhibited in areas that have already been roaded.
    An economic letter from--a letter from 32 economists from 
across the country, including members of Washington State 
University, University of Idaho, Idaho State University, and 
elsewhere in the Northwest, sent a letter to the President 
saying that pristine forest science provide economic value that 
is independent of direct use. A growing body of empirical work 
in this area suggests that such values constitute a large 
portion of the total economic value of public forest lands. The 
public highly values these areas. People move into the Columbia 
Basin primarily because of the quality of life there. They 
don't move there because people log on the national forests. 
Some of them, I should say, but not very many.
    According to the Basin study 108,000 jobs are associated 
with recreation in the Basin; 3,105 jobs are associated with 
logging. That's quite a difference. That's eastern Oregon and 
Washington at 3,105 jobs there.
    Mrs. Chenoweth. Excuse me, Mr. Coleman. That comparison was 
108,000?
    Mr. Coleman. A hundred and eight thousand. It's in the 
draft environmental impact statement.
    Mrs. Chenoweth. Compared to?
    Mr. Coleman. To 3,105 jobs for eastern Oregon and 
Washington.
    Mrs. Chenoweth. OK.
    Mr. Coleman. So I'm comparing larger regions there, but the 
point was that it's 2.5 percent of the jobs in the Basin are 
associated with logging; 14.6 are associated with recreation.
    According to Forest Service research, by the year 2000, 
there will be a public demand for roadless recreation in the 
Northwest that exceeds 8 million acres, and presently--and this 
is a study by Swanson and Loomis that was done by the Pacific 
Northwest Research Station in 1996--it found that there 
currently is an 8-million-acre excess--in other words, a supply 
over demand of roaded recreation--and that we could save 
somewhere around $960 million a year by not building new roads 
and by closing additional roads.
    Now I'm a hunter and a fisher. I've hunted all my life and 
have fished all my life. And I'll tell you where I find the 
biggest deer during hunting season, and that is in those 
roadless areas, because on the fringes they're being hunted 
like crazy, because the roaded access you can drive down the 
road with your truck and shoot them out of the window. Even 
though that's illegal, people do it.
    Forest Service data shows clearly that 30 percent of the 
roads are used by the majority of the public. As owners of 
private forestlands, my wife and I are economically affected by 
the management of Federal forests. When the prices went down 
during the salvage rider, I wanted to sell trees off my land; I 
couldn't give them away--for the chip market went in the 
toilet, and it's been there since, and it's like I'm trying to 
do timber stand improvement on my 120 acres, and the Federal 
forest management is affecting my property values.
    Roadless areas are for the most part unroaded and unlogged 
because they contain the most marginal forest-growing sites. In 
the Kettle River Range, where I am from, they're Class 5 sites. 
I mean, you can't grow trees economically and sustainably in 
those higher elevation sites. They're also extremely expensive 
to log, and they're located on unstable soils.
    According to the Wilderness Society, in total, the roadless 
areas in the lower 48 comprise about 16 percent of the suitable 
timber base, and that's not everything here, as the Forest 
Service has noted; it's basically 8 percent of this proposal.
    It is not prudent from an ecological and economic 
standpoint to protect roadless areas. It is the morally right 
thing--or it is not only prudent--excuse me--from an ecological 
and economic standpoint to protect roadless areas, it is 
morally the right thing to do. We have absolutely nothing to 
fear from erring, if error we make, on the side of conservation 
of roadless areas. This is not irreversible. You know, if we do 
nothing to roadless areas in the next 50 years, 50 years from 
now that could all change and they could go in log and we 
haven't lost anything. This idea that somehow these areas are 
going to burn up and go away--it's like, didn't these forests 
exist before modern forestry practices came into practice? How 
did they get there in the first place? How did all those 
critters and those fish get there?
    Mrs. Chenoweth. Mr. Coleman, will you be able to conclude?
    Mr. Coleman. Yes, I'll conclude. Thank you.
    I brought with me a selection of water from my creek which 
I gathered last spring. This is right out of my creek. Would 
you want to drink that? I don't think so. That's spring runoff 
water, and the reason is because the road density in my 
watershed exceeds about--or ECA is equivalent clear-cut acres--
exceeds 25 percent. So at high spring runoff, runoff snow, 
that's what my water looks like, and that's a major tributary 
to Kerilou Lake, the Kettle River, and so on. This water costs 
a dollar. It cost me a buck. Water has--clean water has value. 
This water costs the American taxpayers hundreds of millions of 
dollars in endangered species, recovery of fisheries, and 
purifying polluted water.
    So, in closing, Madam Chairman, thank you so much for 
giving me an opportunity to speak here today. I want to 
reiterate something that's been touched on several times today, 
and that is, the forest plans did not have agreement. Many, 
many people disagreed with the way they were laid out, and 
there's a tremendous amount of science that's come out since 
then.
    And the other thing that seems to be lost in this whole 
discussion is that the population of the country is growing. In 
Washington State, it's projected to double in the next 50 
years. Where are these people going to go to recreate? Is 
everything going to be by permit in the future? I hope not. I 
hope that the Federal forests remain open and free, just like 
our spirit used to be.
    Thank you very much.
    [The prepared statement of Mr. Coleman may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Coleman.
    The Chair recognizes Jerry Hamilton. We've had an awful lot 
of good testimony, and quite by accident, we saved one of the 
best to last. So, Mr. Hamilton?

 STATEMENT OF JERRY HAMILTON, SILVICULTURIST, RETIRED, FOREST 
                            SERVICE

    Mr. Hamilton. Thank you, Madam Chairman. I'm Jerry 
Hamilton, a retired Region 4 silviculturist, and I now live in 
Salmon, Idaho. I work for a mineral exploration company.
    The Forest Service states that the intent of their proposed 
moratorium on road construction within roadless areas is to 
protect their values. Please keep in mind that the Forest 
Service has been in a continuous cycle of environmental 
evaluation and land management planning since 1969. 
Consideration of roadless area values and protective 
requirements have been part of the Forest Service action since 
RARE I was initiated over 25 years ago. If the agency hasn't 
figured out how to do the job in over 25 years, what sort of 
miracle is going to occur in the next 18 months?
    Reducing the revenue-generating capacity of national 
forests would provide no support for managing the forests--or 
for State and local governments, let alone the transportation 
systems proposed. The Roads and Trails Fund allows the 
collection of 10 percent of the gross receipts from such things 
as timber sales, recreation, mineral leases, and so on. This is 
trust fund money to be used for construction and maintenance of 
roads and trails. This is a source of money that is based on 
the economic capabilities of managed forests.
    Various cooperative efforts, like riparian conservation 
agreements, county land use plans, and others have been 
developed over many years of hard work at the local and agency 
level. These were developed with the best social and 
environmental science available, and they were developed 
according to accepted legal process at the time under existing 
laws, rules, and regulations, and in conjunction with current 
national forest land management plans.
    So what are the real problems then that even the proposed 
moratorium won't solve and may even make worse? First is the 
perennial shortfall between the programs the Forest Service is 
responsible for conducting and the budget available. The 
moratorium can only result in further reduction of revenue 
available for road maintenance. Even worse will be the 
additional economic hardships for rural communities already 
hard hit by previous access restrictions. A significant 
credibility gap already exists between Federal land management 
agencies and local communities surrounded by Federal holdings. 
This proposal will severely damage the ability of the Forest 
Service to carry out the mission assigned by Congress. Those of 
us that live in rural communities will no longer be partners in 
shaping our futures. The partnerships and collaborative process 
developed in the past will be dissolved or be severely damaged.
    Second, the proposed policy language is open-ended 
regarding statutory rights of access. It doesn't provide any 
guidance for Forest Service managers, and I ask the 
Subcommittee to make it crystal clear to the Forest Service 
that nondiscretionary access not be impaired. The policy would 
preempt all State and local laws and regulations in conflict 
with road access. It would reduce school funding. Unemployment 
rates could rise as much as 33 percent in seven States in the 
West and some eastern and southern States. The policy would 
reduce dispersed recreation opportunities and would invalidate 
existing forest land management plans. It could close public 
access by up to 47 percent of the land base outside wilderness, 
and I think that it would create multiple economic losses that 
would far exceed the $100 million limit set by the Unfunded 
Mandates Reform Act.
    The policy is intended to improve road construction 
techniques and decrease road density, but it will channelize 
increased visitor traffic into areas with existing high road 
density, where the potential for stream sedimentation is 
greater and has its most immediate effect on water quality and 
species habitat. In addition, county road maintenance funds 
will be reduced and county roads are usually the primary access 
routes to the national forest system. A policy analysis does 
not address these effects with regard to the Clean Water Act, 
and it attempts to bypass the NEPA process for addressing 
environmental standards.
    In his memoirs in 1947, Gifford Pinchot wrote that, ``The 
Service had a clear understanding of where it was going. It was 
determined to get there, and it was never afraid to fight for 
what was right. Every man and woman in the Service believed in 
it and in its work, and took great pride in belonging to it.''
    Something drastically has changed from that observation. 
Walk into any Forest Service office these days and tell me if 
you see that same devotion. Morale is down; people in mid-
career can't wait to retire. Their hard field work, their 
budgets, their professional expertise, their genuine desire to 
do the best professional job usually gets undermined by a last 
32-cent appeal or a top-down Washington office notice of intent 
that becomes arbitrary policy. The service provided to the 
American public is down, and so is the respective public 
opinion of Forest Service ability to manage the land.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Hamilton may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Hamilton, thank you very much.
    I have a question for you. We'd like to see some examples 
of the effects this moratorium would have on the ground.
    Mr. Hamilton. Madam Chairman, if I may----
    Mrs. Chenoweth. Yes.
    Mr. Hamilton. The best example, of course, that I could 
come up with is where I live, Salmon National Forest.
    Mrs. Chenoweth. Mr. Hamilton, we're going to need to ask 
you to hold your mike for the record.
    Mr. Hamilton. OK. This area here is the Frank Church 
Wilderness. It comprises about 24 percent of the land base, 
total land base, of the Salmon National Forest, which is 1,770-
some-odd million acres. The other colored areas that you see 
here are all RARE II areas, and the balance here in white 
within these little inked lines are what's left of the Salmon 
National Forest from the RARE II, OK. Forty-seven percent other 
than the Frank Church of the remaining balance of the Salmon 
Forest is in these old RARE II areas, which are covered in the 
National Forest Land Management Plan. They are not all 
roadless, but quite a few of them are. They're managed under 
multiple-use concepts for different uses, according to that 
plan. They represent 47 percent. What's left in the little 
white scattered areas represents about--that is it?-29 percent, 
and if you tack on the thousand-acre-plus that they want to 
hold back, and any other area that's not roaded on the Salmon 
Forest, I think it's illustrated here, we have nothing, nothing 
left.
    The other Federal ownership in Lemhi County is by the BLM. 
So you add together the BLM and the Forest Service; that's 92 
percent Federal ownership in Lemhi County, Idaho.
    Mrs. Chenoweth. Thank you very much, Mr. Hamilton. That's 
very interesting.
    I do have to say the leadership called me into a meeting at 
5 p.m., and I've kept them waiting for 7 minutes now, and they 
don't seem to understand that I think this is far more 
important than my being in a meeting with them, but that's the 
way it is around here. And so what I'm going to do is to ask 
you if it would be all right if I submitted my questions to you 
in writing. And I do want you to know that this record will 
remain open for 10 days for you to supplement the record, 
should you desire to do so. And your answers, of course, to my 
questions will become part of the record.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And I also want you to know that this 
hearing will be printed, and should you wish to receive a copy 
of the hearing transcript, you're welcome to notify us and let 
us know, and you will receive a copy.
    So I wish everybody could have heard your testimony, and 
you had to wait for so long, and I very, very much appreciate 
that. Some of you have come a long ways.
    But I will be submitting the questions to you tomorrow and 
would appreciate your answers back in 10 days. So we can be 
sure to get them into the permanent record.
    So, with that, I want to submit for the record, without 
objection, a statement from the American Petroleum Institute, 
the Rocky Mountain Oil and Gas Association, and three other 
major petroleum industry associations. I will be submitting 
their record also to be made a part of our record.
    [The information referred to may be found at end of 
hearing.]
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. So, with that, I want to say thank you 
very, very much for the investment of your time and effort into 
this very, very important hearing.
    Senator Craig will also be holding similar hearings in the 
Senate, and we can certainly keep you posted on the days that 
he will be hearing on this issue.
    So, with that, I would like to say that this hearing is 
adjourned. Thank you very much.
    [Whereupon, at 5:09 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]


    HEARING ON H.R. 3297, TO SUSPEND THE CONTINUED DEVELOPMENT OF A 
  ROADLESS AREA POLICY ON PUBLIC DOMAIN UNITS AND OTHER UNITS OF THE 
   NATIONAL FOREST SYSTEM PENDING ADEQUATE PUBLIC PARTICIPATION AND 
  DETERMINATION THAT A ROADLESS AREA POLICY WILL NOT ADVERSELY AFFECT 
FOREST HEALTH AND FOLLOW-UP ON THE CLINTON-GORE FOREST SERVICE ROADLESS 
                            AREA MORATORIUM

                              ----------                              


                        TUESDAY, MARCH 17, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth [chairwoman of the Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRSS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee on Forests and Forests 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
3297, as well as the Clinton-Gore Administration's Forest 
Service Roadless Area Moratorium.
    A lot has happened since our last hearing on the Clinton-
Gore Administration's Forest Service Roadless Area Moratorium 
on February 24. The first important development is that 
Congressman John Peterson introduced H.R. 3297 in response to 
the preponderance of information that public involvement with 
regards to the moratorium would fall far short of what is 
required by law under the National Environmental Policy Act.
    I applaud Mr. Peterson for introducing this bill which will 
require that before the Clinton-Gore administration can 
implement any portion of the roadless moratorium, the Forest 
Service must conduct proper public hearings in each unit of the 
national forest system to allow affected citizens the 
opportunity to express their concerns.
    It's clear that the administration did not analyze the 
environmental, economic, and recreational impacts before 
proposing this moratorium. The administration still has no idea 
of the full extent of impacts upon the environment, upon rural 
employment and recreational opportunities. To propose such a 
broad, top-down plan without even a cursory review of the 
impact is alarming. This roadless proposal violates the trust 
we put in the Forest Service professionalism. It is both bad 
for the environment and bad for people.
    The ``open houses'' that the Forest Service are conducting 
are too little too late. They don't provide the public with an 
adequate forum to provide meaningful input. Instead, they are 
simply a forum for the administration to put their spin on the 
proposed policy. Chief Dombeck might call that ``adequate 
public comment'' and ``collaboration,'' but I call it wholly 
unacceptable.
    I strongly support H.R. 3297 which will require this 
Clinton-Gore Roadless Area back-room deal to be aired publicly, 
and allow for public participation by those most affected by 
this destructive proposal.
    Last Friday, the editorial board of The Washington Post 
wrote that we in Congress should let Chief Dombeck alone to see 
what he can do. And this editorial position was flanked by an 
article titled, ``Watershed in Communications,'' which details 
the Forest Service's PR program designed to ``manipulate the 
media and everyone else to support the administration's 
policies over the next 8 months.''
    While Chief Dombeck was able to use The Washington Post 
editors to sell his destructive agenda, what he and The 
Washington Post editors ignore is the fact that our forests are 
in dire condition. Our forests, under the Clinton-Gore 
administration's stewardship, are dying and rotting due to 
mismanagement--and this is when the Forest Service's own budget 
continues to grow.
    We now have seen a copy of Chief Dombeck's PR plan which 
was reported in the press. After reading it, I am left to 
question, ``Where does the Forest Service get the legislative 
authority to manipulate the press and others to promote their 
agenda by traveling to fires receiving high media coverage?''
    I am also left to wonder where Chief Dombeck gets the 
legislative authority to use this once proud agency--and I 
stress, once proud agency--to take ``every opportunity to tie 
with the Vice President's Clean Water Initiative, and indeed 
provide a media event for the Vice President.''
    Section 303 of Public Law 105-83, which is last year's 
appropriations bill for the Forest Service states, ``No part of 
any appropriation contained in this Act shall be available for 
any activity or the publication or distribution of literature 
that in any way tends to promote public support or opposition 
to any legislative proposal on which congressional action is 
not complete.''
    Additionally, section 624 of the fiscal year 1998 Treasury-
Postal Appropriations Act states, ``No part of any funds 
appropriated in this or any other Act shall be used by an 
agency of the executive branch, other than for normal and 
recognized executive-legislative relationships, for publicity 
or propaganda purposes, and for the preparation, distribution 
or use of any kit, pamphlet, booklet, publication, radio, 
television or film presentation designed to support or defeat 
legislation pending before the Congress, except in presentation 
to the Congress itself.''
    The Forest Service Communication Plan I have before me is 
clearly a violation of the public laws listed above that outlaw 
propagandizing the public on matters presently before the 
Congress. The Forest Service Communications Plan expressly 
acknowledges that Congress must approve much of the agenda. And 
this detailed account provides a strategy that the Forest 
Service plans to use to lobby Congress as The Washington Post 
puts it, ``manipulate the media and everyone else to get 
support for the administration policies.''
    The Forest Service was created by President Teddy Roosevelt 
and Gifford Pinchot to protect our forests and allow for their 
wise use. And now, rather than protect the forest environment, 
Chief Dombeck has allowed the Forest Service to be used as a 
tool of the Clinton-Gore Administration to gain partisan 
political advantage and to promote Vice President Gore's 
Presidential aspirations.
    As I can see from the press reports of Chief Dombeck's 
recent trip to Utah, he is sticking right on his PR schedule. 
And reflecting back to The Washington Post editorial which 
asked Congress to leave Chief Dombeck alone to see what he 
could do, the answer to this request is clear--Chief Dombeck, 
we have already seen too much.
    This blatant use of the Forest Service for strictly 
partisan political purposes will not be tolerated. It is 
unthinkable to utilize catastrophic fire and the resulting 
devastation to human life, and to the animal life, and the 
environment for partisan political gain, and to promote Vice 
President's Gore's Presidential aspirations.
    The Forest Service used to be run by professionals, and now 
it is being run professionally by the White House political 
operatives for purely partisan purposes. Mr. Dombeck, I don't 
think you realize how much distrust Congress and the American 
public have for the Clinton-Gore Administration. This 
administration's pattern of conduct leaves us no choice but to 
wonder when, why, and even where natural resources destruction 
[sic] are even made.
    The Chairman would recognize the Ranking Minority Member 
for any statements he might have, but unfortunately he isn't 
present. When he does arrive, we will interrupt the proceedings 
for his statement. Now I will introduce our first witness. Do 
any, oh, Mr. Peterson, do you have a statement please?
    [The prepared statement of Mrs. Chenoweth follows:]

    STATEMENT OF HON. JOHN E. PETERSON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. Yes, I have a short statement I'd like to 
share with the record.
    Mrs. Chenoweth. Please proceed.
    Mr. Peterson. Madam Chairman, and members of the 
Subcommittee, I am pleased to be here today to hear testimony 
from several witnesses on legislation that I proposed just a 
few weeks ago. H.R. 3297--first, I'd like to thank the Chairman 
for her willingness to conduct a hearing on this bill, and her 
cooperation in pursuing the issue of public involvement in the 
development of policy by the Federal Government.
    By the way of background, H.R. 3297 was introduced as a 
result of the Subcommittee's hearing on the Clinton-Gore 
Administration's interim road moratorium policy. During that 
hearing, I inquired of Forest Service Chief Dombeck what 
process was in place to solicit public comment on the road 
moratorium proposal. While the Forest Service devised a so-
called public input process consisting of 25 open houses, it 
became obvious to me from the format of those meetings that 
open and free discussion would not be the result. The format 
was designed so that a collective body of people attending the 
meeting would never gather in one place for long. In addition, 
I was deeply disappointed to learn last week that the Forest 
Service also prepared answers to anticipated questions about 
the level of public involvement in these meetings. From all 
indication it appears to me that the Forest Service has been 
working around the people this policy would undoubtedly affect.
    Accordingly, I believe H.R. 3297 is vital to ensuring a 
place for all Americans in the creation of policy by the 
Federal Government. The proposed interim policy leaves too many 
questions unanswered. We are left in the dark concerning its 
impact on forest health, recreation and general access issues, 
funding for education, emergency services, as well as jobs. 
Until the time that specific answers can be given to the people 
living in and around our national forests, I believe the 
implementation of the 18 month moratorium should be halted. 
That's what H.R. 3297 sets out to accomplish.
    And I'd like to say to Chief Dombeck, who I personally 
like, Chief Dombeck, you will never go wrong when you let the 
sun shine into the process of making public policy. When we 
have an idea--good or bad--and we all have good ones and bad 
ones, we never make a mistake when we let the public 
participate and refine that idea and concept until it's a good 
tempered piece of steel and is right. That's all we're really 
asking, is that policies that affect forest health, policies 
that affect the economics of communities, and policies that 
affect the lives of those who use our forests, should not come 
from the top down. They should, the idea can come from the top 
down, but then they should percolate back up through the 
system.
    I was most disappointed last week when you shared that you 
had not discussed this policy with one forest manager and only 
one regional manager that you could remember. That's not how it 
should work. I think you've erred. I urge you to correct that 
error, the sooner you correct it the better it will be. Madam 
Chairman, I'd like to, again, I appreciate your willingness to 
hold this hearing today, and I look forward to working with you 
to ensure fairness for our constituents as debate on this 
misguided and ill-advised policy unfolds. Thank you.
    [The prepared statement of Mr. Peterson follows:]
    Mrs. Chenoweth. Thank you, Mr. Peterson. Mr. Doolittle, do 
you have statement for the record?
    Mr. Doolittle. I have no statement.
    Mrs. Chenoweth. Mr. Hill?
    Mr. Hill. No, I haven't.
    Mrs. Chenoweth. Mr. Peterson, I want to say that I fully 
agree, especially with all of your statement, but especially 
the last part of your statement. I feel that much of what has 
come up is being driven above Mr. Dombeck, and he is a 
gentleman, and I appreciate him personally very much. But the 
policy is exceedingly unfortunate. At this time, I do want to 
say that Mr. Bob Schaffer from Colorado is unable to be with 
us. So without objection, I do want to read part of his 
statement, a letter to, a statement to Chief Dombeck. I have 
here a bipartisan letter which was introduced by Mr. Schaffer 
and Mr. Stupak, Mr. Bart Stupak of Michigan, of which I am also 
a signatory, requesting that you work with us in a bipartisan 
manner on forest roads policy.
    During the last hearing on the proposed transportation 
policy, Mr. Dombeck, you were asked by Mr. Schaffer if you 
could come up with a long-term policy without an 18 month 
moratorium and your response, and I quote for the record was, 
``I think you probably could.'' When Mr. Schaffer asked if we 
could move forward on a long-term plan without an 18 month 
moratorium, your response was, ``It would be possible. Yes.'' I 
would like to place in the record this letter signed by 23 
Members of Congress requesting that you withdraw the 18 month 
moratorium so that we can move forward equitably and 
efficiently on a forest transportation policy. You will receive 
this request in writing shortly.
    Without objection I'd like to enter that into the record.
    [The information referred to follows:]
    Mrs. Chenoweth. And then also we continue to have public 
comments come in in opposition to the roadless moratorium.
    So without objection these too would be entered into the 
record.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Now I'd like to introduce Mr. Mike Dombeck, 
Chief of the Forest Service, in Department of Agriculture, 
Washington, DC.
    Before we continue, I would like to explain that I intend 
to place all the witnesses under oath, and this is a formality 
of the Committee that is meant to assure open and honest 
discussion, and should not affect the testimony given by 
witnesses. I believe all of the witnesses were informed of this 
before appearing here today, and they have each been provided 
with the Committee rules.
    If, Mr. Dombeck, if you will rise and raise your right hand 
to the square. Do you solemnly swear, under the penalty of 
perjury, to tell the truth, the whole truth and nothing but the 
truth, so help you, God?
    Mr. Dombeck. I do.
    Mrs. Chenoweth. Under the Committee rules, witnesses must 
limit their oral statements to 5 minutes but their entire 
statement will appear in the record, and we also allow the 
entire panel to testify before questioning the witnesses. The 
chairman now recognizes Chief Michael Dombeck.

   STATEMENT OF MICHAEL DOMBECK, CHIEF, UNITED STATES FOREST 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Dombeck. Well, thank you, Madam Chairman and Committee 
members. Thank you again for the opportunity to discuss this 
important topic in front of this Subcommittee.
    I want to start out by reiterating some of my key points 
from the hearing we had a couple of weeks ago. And that was--I 
had proposed to essentially call a time-out on road building in 
roadless areas during which the Congress, the administration, 
and the American people can engage in a dialog about when, 
where and if to build new roads on national forests.
    During that hearing, the Subcommittee was concerned about 
the urgency that would cause me to take such action. And I want 
to reaffirm that I do not take this lightly. I want to assure 
the Subcommittee, Madam Chairman, that there are numerous 
strong reasons for taking such action.
    First of all, on the economic front. We have a $10 billion 
backlog in road construction and maintenance. We have in our 
arterial and collector roads, 93--we had 93,600 miles in 1991 
that were passable to passenger cars. Because of lack of 
funding and maintenance, today that number is 86,000. From the 
standpoint of economics and proposing projects in a roadless 
area, there's a very high failure rate. The rate of appeal, the 
rate of litigation, it's costly for the agency to propose these 
projects when we can divert--we could possibly divert this 
energy and resources into areas of less controversy to carry 
out the appropriate forest management and produce many of the 
products that local communities depend upon. So just from the 
standpoint of economics, how can I justify more roads when I 
have 380,000 miles of roads in the national forest system, and 
only 40 percent are maintained to an environmental standard?
    The scientific reasons, and I will state a few, largely 
scientific information from the Columbia Basin, but also from 
other areas. Eighty percent of the sub-basins with the highest 
forest integrity are comprised of areas that are 50 percent 
roadless or wilderness areas. Conversely, those sub-basins with 
the lowest forest integrity were comprised of less than 25 
percent roadless and wilderness. Only 7 percent of the degraded 
watersheds in the basin are found within roadless areas. About 
60 percent of the best aquatic habitats are found in roadless 
or very low road density areas. Conversely, 87 percent of the 
areas with high potential for fires, crown fires, insect and 
disease mortality on forest service and BLM lands are outside 
of roadless areas.
    And we know that roads contribute to the degradation of 
water quality, the disbursal of noxious weeds, and facilitate 
human-caused fires. There are many, many scientific reasons 
from other parts of the country that also prompted me to make 
this decision, and this proposal, rather.
    Let me say that to--choosing to build roads in areas is 
currently a divisive issue nationally. In fact, this has been a 
controversial issue for at least 30 years, intensely 
controversial for the Forest Service for the last 10 to 15 
years; and we came within one vote of losing 80 percent of the 
program in 1996 in this body. In 1985, we had a $228 million 
roads budget, by 1996 that road budget has fallen to $95 
million, indicating the loss of support for our present 
policies and the level of controversy associated with it.
    This is a decision that I take very seriously. I chose to 
pull the controversy off the shoulders of the forest 
supervisors, and I've got to say that I'm a very strong 
proponent, as you know, of local decisionmaking. But when I see 
an issue that is so divisive and so challenging for an agency 
that the issue is literally in the emergency room from the 
standpoint of the jeopardy of the entire program, I believe 
that action needs to be taken. And I also take very seriously 
our professional obligation to advance proposals that are based 
upon the best science and professional resource management 
expertise.
    I would also like to comment on the Communications Plan in 
response for your letter of Thursday. Let me say that I hope 
that my explanation today will suffice to ameliorate your 
concerns. The Forest Service develops and uses communication 
plans when dealing with complex issues involving numerous 
government agencies, Congress, the media and numerous interest 
groups. Communication plans are used by our agency and 
employees to provide the coordination and direction necessary 
that the many stake-holders of the Forest Service are provided, 
timely, accurate and understandable information about an issue, 
an initiative, a program or a proposal so that they may develop 
an informed opinion about the issue. Because the majority of 
Forest Service communication activities occur at the local 
level, we have found plans helpful in providing coordination 
activities.
    The Communication Plan can also identify support material 
that will provide Forest Service people information that they 
may not have in the field. Support material commonly includes 
key messages, talking points, questions and answers and other 
items. Some plans will also identify opportunities to highlight 
or showcase agency efforts with the media, local officials, 
interest groups, individuals, Members of the Congress, and 
their staff, or officials from the executive branch.
    Madam Chairman, it is the firm policy of the Forest Service 
not to engage in lobbying, not to engage in partisan political 
activities, and I believe that a very careful reading of the 
Forest Service National Resource Agenda Communication Plan will 
reveal that we have strictly adhered to that policy. At no time 
during the development of this Communication Plan was there any 
attempt by any member of the administration or Congress to 
insert or craft activities for partisan advantage. I assure, 
Madam Chairman, that I will not tolerate lobbying or partisan 
political activities as part of any Forest Service employee's 
involvement in the implementation of our Communication Plan. On 
this point, I believe it's important that there is no 
confusion.
    With that, Madam Chairman, Committee members, I'd be happy 
to respond to any questions that you might have, and I'd also 
ask that my full written statement be entered into the record. 
Thank you.
    [The prepared statement of Mr. Dombeck may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Dombeck, and certainly your 
entire statement will be entered into the record. But I've just 
got to say that if this Communications Plan doesn't lay out a 
heavy lobbying effort, then we don't read words with the same 
meaning. And I guess all of the Committee members--I just want 
to say this personally--all of the Committee members have 
somehow set you apart from what has gone on in recent times. 
But the double-speak that I see in your statement is not so 
much what I've been used to hearing from you, but what we've 
been hearing come out of the administration lately. And it 
saddens me to see this happen.
    I'm going to begin my questions with a question that has 
bothered me for weeks. Why has there been little or no public 
involvement in development of this proposal involving the 
public? But before you answer, I believe I have the answer as 
written on page 21 of the Communications Plan, which states--
and remember this hearing is not as much about roads, but the 
first focus of this hearing is about public involvement--and 
that's why Mr. Peterson has brought forth his bill, because he 
feels, as we all do, that it's so important that the public be 
involved as required under NEPA and APA. But based on page 21 
of the Communications Plan, it states, ``Based upon comments 
from thousands of people from all parts of the country, and in 
consultation with scientists and natural resources 
professionals, the agenda represents the best effort in 
identifying where the Forest Service needs to be focusing its 
energies over the next several years.''
    I think The Washington Post put it best on Friday when they 
said that this answer is just slightly better than saying, 
``that you don't care about involvement.'' ``Comments received 
during discussions of the agenda that are not of a fatal nature 
will be shared at the fall leadership meeting.'' And in 
response to the question as to why there was no public 
involvement, or very little public involvement, and this is the 
Communications Plan, ``in development of the agenda, the 
following answer may best be used.'' And then when asked if 
there will be public involvement during the period from now 
until the new fiscal year, leadership can state, this is what 
the Plan is telling you to state, ``we will be listening 
carefully to what people are saying about the agenda. If there 
is a fatal flaw in our proposal, yes it will be changed. 
Lacking a fatal flaw, parts of the agenda will be implemented 
immediately. Other parts needing congressional approval and 
funding will be deferred until such time as concurrence has 
been achieved.''
    Now that's the pat answer, but it doesn't allow for public 
involvement and public comment with regards to the impact of 
this major Federal decision on every single forest, and the 
communities involved. Mr. Dombeck.
    Mr. Dombeck. Well, let me say first that the components of 
the agenda are four basic components: No. 1 is watershed health 
and restoration; No. 2, sustainable forest management; No. 3, 
dealing with the recreation issues that we face and the 
increasing recreation demand and how we fund those; and No. 4, 
the forest road policy. These issues have been in public 
debates, have been topics of dialog like the Seventh American 
Forest Congress for many, many years. These issues are also 
proposals of the administration's budget, and that are--I don't 
believe there is much that is new in the agenda.
    The key change in policy that I believe needs to be made, 
and that we need to move dialog forward on, is the fact that, 
in the balanced use of national forests, we need to consider 
forest management and all resource uses pretty much on a equal 
plane with not one dominant over another. And I would--I 
believe that the forest management debate that we're having 
today is the perception that timber harvest is driving 
everything we do in the Forest Service. And the fact is timber 
harvest is very important, and I stated very clearly in the 
agenda that I'm a strong supporter of active management, but 
what we have to do is we have to integrate timber harvest and 
forest management better into the needs we have to deal with 
the urban wild land interface, the forest health issues, the 
issues of the risk for catastrophic fire in a more balanced 
way. So I will say that the items in the agenda are basically 
not new.
    Also the thing--on the last page of my agenda speech--the 
direction to the employees was that this then needs to be 
implemented at a local level and they are to go out and work 
with the local publics as they design projects and so on to 
move forward within the framework of that agenda.
    Mrs. Chenoweth. Mr. Dombeck, that's an interesting answer 
but it isn't an answer to my question. This hearing is about 
public involvement, not about timber harvest, not about the 
specifics of the agenda, but why hasn't the public been 
involved in a major Federal action in which NEPA requires 
public involvement? Our reports from Anchorage, from all over 
the Nation, that we're getting in indicate that your public 
involvement involves open houses in which people will be 
allowed to come in and hear and see what you're doing. But 
should they wish to have any input at all on their part, they 
must go one-on-one to a separate area with a Forest Service 
person and with a tape recorder present, express their concern. 
Now that is very intimidating. That is a torquing of the 
hearing process, and that is what Mr. Peterson's bill is trying 
to deal with, that we all understand what an open public 
hearing is. It's not being present and putting forth a lot of 
propaganda. It's not lobbying as section 303 and the other 
section in the Labor--Treasury-Postal bill stated you shouldn't 
be doing.
    In fact, what your agenda allows for is in direct violation 
to what these recent laws that have been passed and enacted 
require of you. And so, again, I would ask that, you know, we 
stay on the focus of what this hearing is about. And that is 
about open public comment. The ability of the American people 
to let you know, the decisionmakers, and let us know the impact 
of these major Federal decisions. Mr. Doolittle.
    Mr. Doolittle. Mr. Dombeck, what percentage reduction do 
you believe we've experienced in the total timber harvest say 
since 1990?
    Mr. Dombeck. Nationwide, and I'm not sure of the specific 
1990 number is, that we've gone from a high of almost $12 
billion in the late 1980's to currently about $3.7, $3.8 
billion.
    Mr. Doolittle. So then the representation $12 billion to $3 
billion. So that's more like an almost 75 percent reduction 
then?
    Mr. Dombeck. Yes.
    Mr. Doolittle. And what has that reduction in timber 
harvest cost the Federal Government in lost revenue?
    Mr. Dombeck. I don't have that number in front of me but it 
certainly is significant.
    Mr. Doolittle. Would it be--I realize you don't have the 
number in front of you and I would appreciate your providing 
that for the record at a later point--but just if you had, are 
we talking tens of millions, hundreds of millions, what's the, 
you know, the rough dollar sum we would be--realizing you don't 
know the exact figure, and that you'll provide it later on.
    Mr. Dombeck. Certainly tens, perhaps hundreds.
    Mr. Doolittle. OK. I just asked that because, did our 
taxpayer organizations express any concern about that, that 
you're aware of? They seem so concerned to save the government 
money. I don't recall hearing the so-called ``taxpayer 
organizations,'' making any statement whatsoever about that, do 
you?
    Mr. Dombeck. I'm sorry I don't recall, I don't know if the 
Forest Service has received, you know, specific complaints or 
statements from taxpayer organizations.
    Mr. Doolittle. I just, that's in your testimony, where you 
note, you know, the fundamental taxpayer perspective. I always 
thought I had a fundamental taxpayer perspective, but I find 
myself completely at odds with these so-called ``taxpayer 
organizations,'' which basically are advancing the extreme 
environmentalist agenda cloaked in the mantle of ``fiscal 
conservatism.'' They're an embarrassment, and I find it 
interesting that you cite that in your testimony, at least your 
written testimony, where they're indeed, they're quoted. 
``Look, don't spend any more of our money building something 
you may not need, and that you definitely can't afford to 
maintain.'' These so-called experts and self-professed stewards 
of the public purse have ignored the dramatic loss to the 
Treasury, that has been just fine with them.
    You testified that could be up to hundreds of millions of 
dollars but because we can save $10 million, due to this 
temporary road moratorium, you know, that's great. I just think 
that's very disingenuous to ignore the huge cost to the United 
States Treasury, directly, but then to cite these so-called 
``experts,'' because we're going to save $10 million in a 
temporary road moratorium.
    Mr. Dombeck. To answer your earlier question--I'm, with, 
the specific respects to our road-building and road 
maintenance, yes, we have received comments from people on 
that.
    Mr. Doolittle. You cited, and I didn't find this in your 
written testimony, but I heard you say it here, that you cited 
as evidence of how controversial the road program is, and how 
much, you know, support is rapidly declining in Congress, that 
the appropriation for road-building has declined--I'm sorry I 
don't remember the figures you used--but any ways, dramatically 
declined, but when I talk to appropriators they say, well look 
there's been a three-fourths reduction in the timber harvest, 
so obviously if we're having this dramatic reduction in timber 
harvest, then we should be scaling back the money available for 
the roads. So then to hear you sit here and use just the 
opposite argument based on those figures, which is, look, 
Congress doesn't support the roads because they've cut back the 
road funding. I mean it's just ludicrous. Can you appreciate 
the consternation I feel hearing that used in that fashion?
    Mr. Dombeck. Well, perhaps. But an important point is that 
the use of the road system has changed significantly over time, 
which is one of the reasons the framework of the policy needs 
to be looked at. We had about 15,000 vehicles per day 
associated with the timber harvest in the 1950's. And we have 
about that same number on national forest system roads today. 
However, we have 1.7 million vehicles per day associated with 
recreation tourism and other kinds of uses which is a tenfold 
increase from what we had in the 1950's, and yet the source of 
funding and support for that program is still tied to timber 
harvest activities.
    Mr. Doolittle. Well, I see my time is up, but let me just, 
you know, we're talking about saving money. Now I read, 
someplace I read in here, in your answers I guess to the last 
questions, propounded in the last hearing a couple of weeks 
ago, that you're not going to--if I read this correctly--you're 
not going to allow logging, using those, using roads in those 
roadless areas, but where there's a fire threat or something, 
then you will allow helicopter logging, and that you justify 
that by, you know, the grave risk that is posed. Well, how many 
times more expensive is helicopter logging than logging using 
forest roads?
    Mr. Dombeck. It's significantly more expensive.
    Mr. Doolittle. Like is it four times or five times more 
expensive?
    Mr. Dombeck. I would have to venture a guess, maybe three. 
And it's contingent upon the value of the timber.
    Mr. Doolittle. Well, I mean, how much is, do you have any 
idea what the amount of helicopter logging you're likely to be 
doing, and what the potential cost of that are during this time 
we have this moratorium?
    Mr. Dombeck. In some cases the sales that are up now have 
helicopter logging alternatives in them with an economic 
breakdown of that, and I'd be happy to provide you with 
examples of that kind of information.
    Mr. Doolittle. Well, would you please, you can do that? And 
I'd appreciate that, but even more importantly for our taxpayer 
friends who are excited about the $10 million in road 
construction costs that we're going to save during this 
temporary moratorium, could you also juxtapose with that the 
estimated additional cost due to having to use helicopter 
logging, or some form of logging other than using the roads? I 
mean, I'd just like to know how much we're saving. I'd like to 
talk to my taxpayer friends and see how, if they're aware of 
the net savings as opposed to what the gross savings of $10 
million are projected to be. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Doolittle. Mr. Peterson.
    Mr. Peterson. Thank you. Mike, you talked about the reason 
for having this moratorium, that we were in this heated 
controversy here in Congress, and we were within one vote last 
time. I guess this is my first year in Congress--or my second 
year in Congress, first term in Congress--but it's not my first 
year in public policy. I served in local government 8 years, 
state government 19 years and had a business for 26 years, so I 
think I've had a little experience in public policy, what works 
and what doesn't.
    But I was amazed--that was the first time I participated in 
that debate--and I was one of the debaters, and the two people 
that led the fight didn't even understand what we do. And I'd 
say that if they were here. One was from Massachusetts and one 
was from Illinois, did not understand the issue in any detail 
at all. Their staffs did not understand this issue in any 
detail at all. We talked to their staff, my staff talked to 
their staff. They were carrying water for a national 
organization whose against all cutting, and they will take 
whatever measures will slow up cutting timber in forests 
because they're against that.
    And I have no problem with someone having that view or that 
belief, but I know you don't agree with that, but it shows that 
those groups have been winning because we went from 12 billion 
board feet to 3 billion board feet, and the bulk of that was 
not good forestry practice. Most of it was salvaged. Just 
doing--I know in the ANF--it was cutting gypsy moth damage, and 
other things. We weren't able with the allotment of cut to 
practice forestry, we were just taking care of problems, and 
that's been happening all over America. So we've stopped, you 
know, you talked about the forest is more than cutting down 
trees. Absolutely. It's a fourth as much of cutting down trees 
as it used to be, so it's one fourth of what it used to be. And 
we're very supportive of tourism and recreation, but they all 
go together. And it seems to me that every policy that comes 
down, prior to you, now with you, squeezes the amount of forest 
that can be managed until it's smaller and smaller. And we know 
the ultimate goal of those who are proposing that, zero, which 
is not good public policy.
    Though we did have a close vote on the floor, I'm here to 
say most people didn't know what they were voting for and 
against. They were voting because a certain organization said, 
``Vote for this, it will help your green scorecard.'' Well, 
whether they're right or whether they're wrong, this issue 
should be decided with good public debate. And that moves me on 
to the open house concept.
    I've held hearings at the local level. I've been part of 
hearings at the state level and I've been a part of hearings 
here. When you really have input--in your statement, you say, 
``H.R. 3297 would prohibit the Department of Agriculture from 
adopting a suspension of road construction rule unless we hold 
public meetings on every national forest system unit and 
regional foresters would be required to participate in each of 
those meetings in order to adopt a final rule. These 
requirements are excessive, and they would require 120 
meetings, stretching out the rulemaking timetable from at least 
6 to 12 months at a significant cost of taxpayers.''
    I would think, without any doubt, your regional foresters 
would understand the forests that they manage, and what people 
think of them, a whole lot better than they do today if you go 
through that process. And I mean that sincerely. Over and above 
this issue, this property is owned by the taxpayers of America, 
not you and I, not the Forest Service, but the taxpayers of 
America, and they have a right to have a part in the 
decisionmaking process. And I believe the open house concept is 
not a process for public discussion, for decisionmaking. It's 
just PR and I mean that sincerely. That's what I would do if I 
just wanted to PR what I wanted to do, I'd have open houses.
    This issue deserves people giving both sides of the issue, 
their concerns, what they believe, what their philosophy is, 
with press there, people talking about it and reporting. The 
sunshine should be a part of that process. And I guess I'd be 
interested in why you think that is inappropriate?
    Mr. Dombeck. With response to your point about public 
meetings and the regional foresters, and even more importantly 
the forest supervisors knowing what's going on locally, and I 
would include the district rangers in that, these are people 
that live in the communities that interact with people in local 
communities. They go to the same churches and their kids go to 
the same schools and it's their responsibility to know the 
stake-holders, to know what the issues are on a routine basis, 
not only the issue of roads, but on the whole panoply of issues 
that we deal with.
    From the standpoint of the public comments associated with 
this, the temporary suspension of road-building, I checked 
yesterday with the Washington office, and we have received 
about 20,000 comments in the Washington office, alone. The 
public meeting process that was established by our planning 
people that know the laws and the regulations regarding NEPA, 
that follow the Administrative Procedures Act regulations, this 
is how I've instructed them, and this is how these meetings 
have been set up. The fact is that every individual that wants 
to participate, that wants to speak with someone, that wants to 
record a statement, or that wants to provide a written 
statement is fully free and encouraged to do so.
    Mr. Peterson. But I, if I were a citizen, not a 
Congressman, would not have the chance in a public forum to 
tell your regional foresters what I think in the public where I 
can be quoted, and my answer can be quoted in the press. That's 
``open public forum.'' Open houses are not--the sunshine isn't 
there. Nobody reports what people say. There's a huge 
difference. Do you think Congress should start passing laws by 
having that process that you're going to use? Would you like 
that? Would you like to have to enforce laws that we devise in 
the same format?
    And I want to tell you, rules and regulations effect our 
lives just as much as laws do. And you're making rules and 
regulations in a process that is totally different than the 
process of making law, and it shouldn't be the same. In fact, I 
think we're more impacted by law--or rules and regulations in 
this country than we are by law. Because we don't have a 
regulatory review process that does anything to give people 
input. And you're subverting the public process totally. Would 
you like us to make laws with the open house process where we 
would, no press, nobody being quoted?
    Mr. Dombeck. Well, the----
    Mr. Peterson. Would you like that?
    Mr. Dombeck. [continuing] press is not barred from the 
public meetings. I would assume the press is attending these 
public meetings, that people comment freely, that people make 
statements that, we respond to the comments as part of the NEPA 
process, we enumerate the comments on the various issues and 
respond as part of the NEPA process, publicly.
    Mr. Peterson. Well, yes but the average citizen is never 
going to see that, the average--but if you're in a town meeting 
concept, where the press reports, the whole town then is part 
of the discussion. Everybody knows what's going on, that's what 
America's about: the public knowing what's going on, how it's 
going to impact them, not just those who have the ability that 
day to take a day off and go in and talk to somebody because 
lots of people would be very interested who can't do that. But 
if it's in the media, they can listen to the radio, and they 
can open the newspaper the next day, and they can know what the 
debate was, and then they can respond to you whether they agree 
with you, or whether they agree with those who are opposed to 
what you're doing. That's public process.
    I don't hold a town meeting and tell people I'll send them 
secret answers. I answer them in front of the press and they're 
in the paper the next day. That's public process. That's the 
format upon which we make good laws, and when we under-debate 
laws, we usually pass bad laws. And we don't let the sun shine 
into regulations, we'll have regulations that in time will have 
a far more detrimental impact than we ever meant them to have, 
because there's always somebody there smart enough to realize 
what some of the long-term implications are going to be.
    And you're subverting that whole process. You're allowing 
yourself, you may get lucky, you may be formulating a policy 
that will have a very negative impact on some forests, and 
you're taking a kind of a shot in the dark, I think, and that's 
not how we should make laws, and it's not how we should make 
regulations, and it's not how we should make rules.
    Mrs. Chenoweth. Thank you, Mr. Peterson. Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman, and thank you Chief 
Dombeck. Chief Dombeck, how big is the current road maintenance 
in this year's fiscal year 1998 budget?
    Mr. Dombeck. I can find my budget sheet here in just a 
minute. Randy, is it--$109 million.
    Mr. Hill. $109 million, does that include any funding that 
comes out of the Transportation budget for Federal highways 
that are on U.S. Forest Service land?
    Mr. Dombeck. No, it doesn't.
    Mr. Hill. This is just within your budget?
    Mr. Dombeck. Yes.
    Mr. Hill. $109 million. And how many miles of road will be 
maintained with that budget?
    Mr. Dombeck. We'll have that very soon. About 380 miles.
    Mr. Hill. 380 miles?
    Mr. Dombeck. About 40 percent of the 380,000 miles.
    Mr. Hill. About 40 percent of the 380,000 miles.
    Mr. Hill. Some level of maintenance.
    Mr. Dombeck. And to, as I stated, we're able to maintain 
about 40 percent of the roads to standards today.
    Mr. Hill. With the $109 million. You made a statement 
earlier, and this is a statement that is often repeated by the 
Forest Service, and that is that we have $10 billion worth of 
backlog of maintenance on Forest Service roads, is that 
correct?
    Mr. Dombeck. Yes.
    Mr. Hill. That comes to about $26,500 per mile of U.S. 
Forest Service roads, are you aware of that?
    Mr. Dombeck. I had not personally done that calculation.
    Mr. Hill. I just did it for you. I guess I would ask you, 
how much does it cost a typical Forest Service road that was 
built for logging purposes that now primarily provides access 
to recreationists?
    Mr. Dombeck. The Forest roads----
    Mr. Hill. Does it cost $26,500 per mile to maintain roads 
like that?
    Mr. Dombeck. The high cost roads to maintain are the 86,000 
miles of arterial and collector roads that are paved, that 
black-top that----
    Mr. Hill. And I would agree with you, and you don't really 
anticipate, as part of the development of a new road management 
plan, closing those roads, do you?
    Mr. Dombeck. No.
    Mr. Hill. I didn't think so. Could you provide an inventory 
for me of how you get $10 billion, making note of how much of 
that is highways and how much of that is recreational roads, 
and how much of that is logging access roads?
    Mr. Dombeck. Yes, as a matter of fact that information was 
collected from the Inter-Mountain Region through a detailed 
inventory and analysis by the engineering and road staff there, 
and then was extrapolated with a smaller sampling of other 
parts of the country.
    Mr. Hill. The problem is the way this is presented, as you 
know, Mr. Dombeck, is that it is used to argue that we should 
close gravel roads in National Forests because we can't afford 
to maintain them. Point in fact, the real maintenance backlog 
is on arterial roads, paved roads. And the reason I raise that 
question is simply to make that point because I think it often 
goes unnoted. The plan of this moratorium is to update road 
management plans in the forest, is that correct? That's the 
statement you made earlier, that's what you intend to do in 
this 18 month period of time?
    Mr. Dombeck. Yes, the development of the long-term policy, 
and I'd like to say with that, that when we talk about the 
gravel roads that you mentioned earlier, the most important 
thing for us to do is to work with, develop a framework based 
upon science and then work with the counties and the local 
communities to make sure the transportation systems mesh and 
compliment one another.
    Mr. Hill. And you don't believe the Forest Service is doing 
that today? You don't believe the local forest supervisors are 
working with local transportation officials in terms of 
evaluating road management plans?
    Mr. Dombeck. To a certain extent, but given the backlog 
that we have and given the expense of the maintenance, I think 
we need to really sharpen our focus on that.
    Mr. Hill. Well, I don't disagree with you about that, but 
the problem is that you're putting a moratorium on one kind of 
roads when the real problem is a different kind of roads. I'd 
like to go on because I'd like to ask a couple of questions 
with regard to this moratorium. Does this moratorium also apply 
to road closures? Are you going to put a moratorium on the 
closure of any additional roads in the forest?
    Mr. Dombeck. No it only, it only applies----
    Mr. Hill. And how about road reclamation? Is there going to 
be a moratorium on the reclamation of any roads, the removal of 
any roads, the obliteration of any roads in the forests?
    Mr. Dombeck. No.
    Mr. Hill. And how about the erection of new barricades on 
forests to restrict access to any forest roads, is there a 
moratorium on the erection of any additional barricades on any 
Forest Service road?
    Mr. Dombeck. No.
    Mr. Hill. And how about the removal of culverts, is there 
going to be moratorium on the removal of culverts on any Forest 
Service roads during this moratorium?
    Mr. Dombeck. No.
    Mr. Hill. I see, so the moratorium doesn't apply to some 
decisions with regard to the transportation management, only 
the construction of the new roads?
    Mr. Dombeck. That's correct.
    Mr. Hill. OK, thank you Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill, and we will return for 
another round of questioning. In regards to that, I want to ask 
you Chief Dombeck now, I have mentioned in my opening 
statements about what I feel is a problem with section 303 of 
last year's appropriations bill, and section 624 of the 
Treasury-Postal appropriations bill which so clearly indicates 
that in that Act and all other Acts, it prohibits lobbying and 
distribution of materials and so there are congressional 
actions which have not been completed, that impact this 
Communications Plan that has been used. Are you aware that 
Congress is currently considering Ice-T legislation?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Your staff is circulating a modification to 
the formula funding Federal lands highways that would benefit 
the Forest Service at the expense of the Park Service. This 
alternative formula is being advanced by the American 
Recreation Coalition, are you aware of this activity?
    Mr. Dombeck. There has been a variety of dialog concerning 
potential sources of funding.
    Mrs. Chenoweth. So you are aware of the activity then?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. The portions of your agenda that deals with 
increase in forest road maintenance and watershed funding are 
presently before the Congress in the context of the 
administration's budget request, is that not the case?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. You will shortly be sending a legislative 
proposal to Congress to modify the formula used to pay counties 
separating receipts from timber sales from county payments, is 
that not correct?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Is the National Association of Counties 
supportive of your proposal to decouple county payments?
    Mr. Dombeck. The support from counties, I believe, is 
variable. Some counties have requested that we look into ways 
to stabilize payments to counties, I'd say that's highly 
variable.
    Mrs. Chenoweth. Included in funding requests currently 
before the Congress are funds needed to support the Vice 
President's Clean Water Act initiative, is this not correct?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. So in general terms there are at least four 
separate issues in which congressional action is not complete 
that are relevant to your national resources agenda, is that 
not correct?
    Mr. Dombeck. Yes, however, I'd like to add that members--I 
have a--I've had counsel check on activities that are 
forbidden, and activities that are acceptable. And the 
acceptable activities include advocating policies or positions 
of the executive branch, several of those that you listed----
    Mrs. Chenoweth. I would love to see their opinion, and so 
if they could present it to the Committee in writing, I would 
appreciate it.
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Let's talk about your fiscal year 1998 
Interior appropriations bill, Public Law 105-83, did the 
President sign this legislation, Chief? Last year's 
appropriations----
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. [continuing] bill effecting 1998. Since the 
President signed the legislation, is that now the law of the 
land? Isn't that correct?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Since it's the law of the land, aren't you 
bound by those provisions?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Do you believe that one of your 
responsibilities is to obey the law?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Do you know that section 303 of the Act 
provides, as I stated earlier, that no part of any 
appropriation contained in this Act shall be available for any 
activities or the publication or distribution of literature 
that in any way tends to promote public support, or opposition 
to any legislative proposal in which congressional action is 
not complete. You are aware of that section, right?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Let's talk about H.R. 2378 fiscal year 1998 
Department of Treasury and Postal Services appropriations bill, 
did the President sign this legislation?
    Mr. Dombeck. I don't have specific knowledge, I would 
assume he did.
    Mrs. Chenoweth. Well, I can guarantee you he did. Since the 
President signed the legislation, is it now the law of the 
land, is that not correct?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Since it is the law of the land, are you 
bound by these provisions?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Do you believe that one of your 
responsibilities is to obey the law?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Do you think that section 624 of the Act 
provides that ``no part of any funds appropriated in this, or 
any other Act, shall be used by an Agency of the executive 
branch, other than for normal and recognized executive 
legislative relationships, for publicity or propaganda 
purposes, and for the preparation, distribution or use of any 
kit, pamphlet, booklet, publication, radio, television, or film 
presentation designed to support or defeat legislation pending 
before the Congress except in presentation to the Congress 
itself.'' So there are two additional statutes which seem to 
limit your activities in this area, is that not correct, Chief?
    Mr. Dombeck. I'm not, I would rely on my counsel for the 
interpretations on that. What we have been dealing with, and as 
the Communication Plan indicates, that what we're doing is 
communicating and advocating policies of the executive branch.
    Mrs. Chenoweth. Let me re-ask the question. Section 303 of 
the Appropriations Act, section 624 of the Postal-Treasury 
Appropriations Act clearly indicate that no pamphlets, 
booklets, any kind of relationships can be established, except 
with the Congress itself, on any legislation that's pending 
before the Congress. Is that not correct?
    Mr. Dombeck. I'm not personally familiar with that piece 
but I----
    Mrs. Chenoweth. If that is correct, wouldn't that seem to 
limit your activities with regards to what your Communications 
Plan lays out?
    Mr. Dombeck. Well, not being the personal expert on this 
issue, I would rely on, you know, the interpretations of Office 
of General Counsel and my experts in Public Affairs on that 
issue.
    Mrs. Chenoweth. Mr. Dombeck, you're the Chief, and you're 
the guy that they have in front, if you're not the expert, than 
who is?
    Mr. Dombeck. Well, my policy is certainly that we work 
within the law, that we do not lobby, that we do not engage in 
partisan politics, and I strongly, in the most strongest terms, 
the policy is that the Forest Service remain within those 
guidelines.
    Mrs. Chenoweth. Let's look at, let's look at section 303 
and section 624, and I appreciate your comment, but we'll first 
focus on the publication and distribution of literature, even 
though that is only part of the prescription of these statutes. 
On page one of your Communications Plan, you talk about 
distributing editorials, articles and features to key media 
outlets and publications that use and reflect the tone of key 
messages in this Plan, would you call that ``the publication 
and distribution of literature?''
    Mr. Dombeck. Yes, and it's the communications of 
administration executive branch proposals and positions.
    Mrs. Chenoweth. Also, on page one of the agenda, you talk 
about ``distributing to key stake-holder groups'' your agenda, 
in your mind, does that involve ``distribution of literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Also, on page one you indicate that by 
October 1st your Office of Communications will distribute a 
brochure to all of your employees for public distribution, does 
that suggest ``distribution of literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. On page three of the agenda, you talk about 
establishing a new web-site that will contain speech materials, 
new releases and questions and answers, is that ``the 
publication or distribution of literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. On page four of the document, you talk 
about keeping employees and retirees informed by providing them 
with facts sheets, briefing papers, questions and answers, and 
speeches, you also talk about sending a letter to every Forest 
Service employee, is that ``the publication or distribution of 
literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. On page five of the agenda, in describing 
contacts with external audiences, you note that ``in the days 
ahead, the Office of Communications will produce extensive 
briefing materials for distribution,'' the document indicates 
that this will include brochures, videos, radio interviews and 
assorted other fact sheets and supporting materials, does this 
sound like ``the publication or distribution of literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Also, on page five you direct your unit 
leaders in the field to make contact with local media, 
providing them with your national press release as well as a 
local segment on how your agenda will affect the local area, 
does that involve ``the publication or distribution of 
literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. On page five, you talk about developing 
planning newsletters that will be used to explain the impacts 
of the agenda, the impacts will have on local unit activities, 
does this involve ``the publication or distribution of 
literature?''
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Therefore, Chief, even using the narrowest 
construction of the narrower section of 303 prohibition, which 
reaches ``any activity or the publication or distribution of 
literature,'' we have just identified eight violations of that 
statute. Can you really say that you were complying with 
section 303?
    Mr. Dombeck. Yes, I believe we are based on the information 
that I've gotten, the information or literature that is being 
distributed is, varies from scientific analyses to mechanisms 
for individuals to promote watershed health, sustainable forest 
management, appropriate management of forests to reduce fire 
risks, a broad spectrum of information that it's the Forest 
Service's responsibility, from the standpoint of conservation 
education, from the standpoint of providing the public the 
information that they need to make reasoned decisions, and 
understand the interactions. In fact, much of the challenge 
that we have is educating the public, to make sure there is a 
support base, for active forest management, and a whole variety 
of issues that we could discuss like that.
    Mrs. Chenoweth. Well, Chief Dombeck, you talked about your 
watershed concerns, and in light of your answer just now, that 
what you are sending out is benign scientific data, on page 17, 
with regards to, it states, ``emphasis placed on the watershed 
aspects of the agenda,''--it states in here, ``we will take 
every opportunity to tie with the Vice President's Clean Water 
initiative, and, indeed, provide a media event for the Vice 
President to showcase the initiative on national forest 
lands.'' I think that goes far beyond sending benign scientific 
data.
    Now let's look a little more at section 303 which prohibits 
any activity that in any way tends to promote public support or 
opposition to any legislative proposal on which congressional 
action is not complete. This involves a rather broad 
restriction on agency actions, but on page 16 of your 
Communications Plan, as you talk about media relations, you 
indicate that, ``we will take every opportunity to meet with 
reporters and editorial boards when visiting the field on 
agency business to discuss the agenda,'' as you just recently 
did in Utah, does that involve a section 303?
    Mr. Dombeck. No, I don't believe it does.
    Mrs. Chenoweth. Further, you state, ``we will place 
speeches, op-ed pieces, by-line stories, and feature articles 
in target markets in periodicals.'' Does that involve a 
section--a violation of section 303?
    Mr. Dombeck. I do not believe it does.
    Mrs. Chenoweth. Did your meeting in Utah with the editorial 
board involve discussion of any items that are before the 
Congress right now?
    Mr. Dombeck. I don't recall specifically; we talked in 
general about the agenda, as it's put out in the speech that I 
delivered to all employees. We talked about the increasing 
recreation activities on the Wasatch front. We talked about 
forest health issues. We talked about a wide variety of issues. 
I do not recall discussing a specific piece of legislation.
    Mrs. Chenoweth. Do you recall discussing the roads 
moratorium with the editorial board members?
    Mr. Dombeck. I believe it was--it was a question was 
brought up, yes.
    Mrs. Chenoweth. Mr. Doolittle, do you have some questions?
    Mr. Doolittle. Chief, you mentioned in our last round of 
questions, the huge increase in the use of the forest for 
recreation. My question to you is, doesn't a lot of that 
recreation involve the use of forest roads?
    Mr. Dombeck. Yes, it does.
    Mr. Doolittle. And do those recreational users pay a fee to 
help construct and maintain the forest roads?
    Mr. Dombeck. No, they don't.
    Mr. Doolittle. So then who does pay for the construction 
and maintenance of the forest roads that we use?
    Mr. Dombeck. The construction and maintenance--the 
construction of most of the Forest Service roads has been paid 
for by timber sales over the decades.
    Mr. Doolittle. See, what I find intriguing, I had a chance 
to use some of those roads for recreation, I was very grateful 
that timber companies we had the roads available, we were 
watching out for the logging trucks as we were racing around, 
but how do you, you sound like you're talking about imposing 
this road moratorium somehow to advance the interests of 
recreationists but since the effect is to reduce the number of 
roads available, doesn't that work in exactly the opposite 
direction, against the interests of people who would use those 
roads?
    Mr. Dombeck. No, sir I don't think it does. The objective 
is to make sure that we have a process in place to determine 
when and where we build new roads that's in close concert with 
the needs of local communities, the management activities on 
the land, to reduce the number of roads that we build, because 
when we build a road, we're also making a long-term commitment 
to provide the funding to maintain that road, and that's part 
of what's missing in the dilemma that we find ourselves in 
today. And, in fact----
    Mr. Doolittle. But let me just, if I may interject, the 
Forest Service isn't honoring that commitment because you've 
allowed a $10-plus billion backlog of road maintenance to 
buildup. I mean is that, have I misinterpreted that, or is that 
in fact the case?
    Mr. Dombeck. Certainly the backlog is there, but also, as I 
mentioned earlier, the fact that there is not support for the 
Forest Service roads program is again part of a misperception 
on the part of the public, that the Forest Service roads 
program, equal logging, equal subsidy, equal sedimentation, 
equal bad, and therefore, we're not going to support it, and 
what I hope we can do together is make sure that we all 
understand that the roads on national forests are an important 
part of the infrastructure of America that need to be 
maintained.
    Mr. Doolittle. But what led you to the conclusion that 
there's not support for the Forest Service road program amongst 
the public?
    Mr. Dombeck. Well, the fact that we have a declining budget 
in the roads program, the fact that we have not been able to 
maintain the support we need, the fact that we have drifted 
into a, the significant backlog that we have.
    Mr. Doolittle. Well, I already explained to you the reason 
we've had a declining budget in the roads program is because 
you had a three-fourths reduction in the amount of timber. 
You'd have to be deemed incompetent if you kept funding a 
bureaucracy whose job is to oversee the management of the 
forests, they've had a three-fourths reduction in the program, 
there should of course be some corresponding reduction in the 
roads program. So I don't take that as a valid basis for the 
conclusion that there's not public support for the program. So 
now give me the other reasons again, let's go through those, 
that you believe that there's not public support for this 
program?
    Mr. Dombeck. Public support for the road and maintenance--
--
    Mr. Doolittle. Yes, just the roads program in general. You 
know, you made the statement, well, this is, the public doesn't 
support it, well, OK, tell me why you think the public doesn't 
support it?
    Mr. Dombeck. We came within one vote in the House of losing 
80 percent of the program in 1996, it's been a program that's 
been debated----
    Mr. Doolittle. OK let me go back to that. Now you're not 
talking ``public,'' you're talking Members of Congress?
    Mr. Dombeck. Yes.
    Mr. Doolittle. When you come to that vote on the floor of 
the House, right?
    [Laughter.]
    Mr. Dombeck. OK.
    Mr. Doolittle. So we can deal with Members of Congress but 
I never interpreted that to mean necessarily the public, 
frankly, I don't think the public has much of a clue about the 
Forest Service roads program, or cares for that matter. The 
ones who care are the ones who live near the forests and whose 
jobs depend upon it. They really care and they really support 
it. Now you talk about maintaining an adequate base of support 
for active forest management, well, what are you doing to 
maintain that?
    Mr. Dombeck. The----
    Mr. Doolittle. I'd just like to hear some things that 
you're doing to work on that.
    Mr. Dombeck. [continuing] support for the roads program, 
specifically?
    Mr. Doolittle. No, well, I think your statement was active 
support in general for active forest management.
    Mr. Dombeck. I believe the many of the communications 
issues that we've been talking about, the fact that there's a 
need for forest management overall, we need to better integrate 
our timber harvest and forest management activities at the 
urban wild land interface, particularly the places where there 
are overstocked stands, offsite species, there's a lot of work 
that needs to be done on the forest, and part of the challenge 
that we're talking about, and this is a very, very complex 
issue, that requires lots of dialog, is the reward system has 
been tied to the value of timber, and as I have testified 
before this Committee in the past, once the large saw logs are 
gone, the values aren't there. And the effort then----
    Mr. Doolittle. Well, let me ask you, are the large saw logs 
gone?
    Mr. Dombeck. In a large proportion of the area, yes they 
are.
    Mr. Doolittle. But where did they go?
    Mr. Dombeck. They were harvested.
    [Laughter.]
    Mr. Doolittle. So you're telling me that we have a lack of 
large saw logs?
    Mr. Dombeck. What I'm telling you is that we have areas 
where the stand densities, the species composition is not what 
is ideally suited for the sites that have led to a variety of 
forest health issues that will not require us to make 
investments in the land. And then we get into the--which leads 
us into the whole dialog of the low-cost timber sales, which is 
something we really probably shouldn't be talking about, we 
should be talking about the desired future condition that we 
want in the watersheds on the land, and the products will flow, 
the fiber, the water, the recreation opportunities in a 
balanced fashion.
    Mr. Doolittle. Well, it looks to me that the Clinton 
Administration has worked overtime to finally produce a below-
cost timber sale year. We had, we never had one. Your 
predecessor testified before this Committee there was never a 
year in which we lost money on the Forest Service timber 
program until last year. And what happened last year?
    Mr. Dombeck. The trend over time and over about the last 10 
years, we have decreased the amount of clear-cutting by about 
84 percent, we're increasing the number of sales that are tied 
to other objectives, to improving forest health, a variety of 
those kinds of activities.
    Mr. Doolittle. Let me ask you this, just, I realize you 
don't have the figures in front of you, but roughly, how much 
timber was harvested last year throughout the country on a 
national forest?
    Mr. Dombeck. About 3.4 billion board feet.
    Mr. Doolittle. Three point four billion board feet, and how 
much timber do we add to the national forest, how much did we 
add last year, approximately?
    Mr. Dombeck. We're not certain as to a specific number, but 
significantly more than that.
    Mr. Doolittle. I've heard in other testimony before this 
Committee that it averages between 4 and 5 times of what we're 
taking off. Do you dispute that?
    Mr. Dombeck. No, I don't.
    Mr. Doolittle. OK, let me ask you, let me ask you the next 
question. If you were to rate the condition of our national 
forests, and give them an excellent condition, good, fair, poor 
or failing, what grade would you give them as the Chief of the 
Forest Service?
    Mr. Dombeck. It's highly variable from one part of the 
country to the next. The most, I believe, the most significant 
forest health problems we have are in the inner-mountain west 
where we have overstocked stands, the forest health issues that 
you know very well in California, and some of those areas.
    Mr. Doolittle. OK, well give a grade to those areas. What 
grade do you give them, ``A,'' ``B,'' ``C,'' ``D,'' or ``F?''
    Mr. Dombeck. Again, it's highly variable from one watershed 
to the next.
    Mr. Doolittle. Well, I understand it's variable, now we're 
going to make an overall assessment.
    Mr. Dombeck. Maybe, it depends if you're a tough grader, or 
what your curve is, I would certainly say----
    Mr. Doolittle. Be a tough grader.
    Mr. Dombeck. [continuing] maybe a ``B'' to a ``C,'' a 
``C.''
    Mr. Doolittle. A ``C'' or a ``D?''
    Mr. Dombeck. ``C.''
    Mr. Doolittle. ``C,'' OK, average. But isn't it indeed the 
condition far below what we've known to be the average? Isn't 
it the worst in fact that it has ever been in the 20th century.
    Mr. Dombeck. Yes, and it will continue to get worse until 
we make the investments and deal with the over-stocked stands, 
deal with the offsite species where we had initial stand 
densities of 200 to 300 stems per acre perhaps of Ponderosa 
pine today, we have maybe 3,000 stems per acre of fir species 
that are creating problems from the standpoint of catastrophic 
fire, increased densities, lower vigor in trees, more 
susceptibility to insect disease infestations, and these 
require investments, these require active management, these 
require work, and these are areas where we need to better 
integrate timber harvest to the overall objectives of the 
condition that I think we're very much in agreement on.
    Mr. Doolittle. Then why aren't you doing that? Are you 
doing that, I don't think you are. Am I missing something?
    Mr. Dombeck. The trends in thinning has been increased 
significantly. I believe last year we were budgeted to do, help 
me, Randy, somewhere in the neighborhood of 750,000 acres, and 
we did about over a million, we'd like to be doing 3 million 
acres a year in thinning and fuel-reductions and those kind of 
activities, to begin to close the gap in our backlog.
    Mr. Doolittle. Wouldn't you have to, Chief, and I'm way 
over my time, and I apologize to the chairman of the Committee, 
I'll try to make this my last question. If you were growing 
annually four to five times the number of board feet of timber 
that you're annually harvesting, are we talking about geometric 
progressions in the size of the problem from year to year? I 
mean, wouldn't you in fact, if you were really going to take 
care of these forests say over a 10 year period, wouldn't that 
require a dramatic increase in the amount of timber being 
treated over what you're proposing to be done from year to 
year?
    Mr. Dombeck. Yes----
    Mr. Doolittle. I mean----
    Mr. Doolittle. Go ahead, I don't, go ahead----
    Mr. Dombeck. Yes, and we'd like to do more and we'd like to 
work with Congress to do more, the proposed 1999 budget talks 
about significant increases in these areas, but we need to 
further accelerate that.
    Mr. Doolittle. I mean it sounds to me like to deal with 
this problem, you need, I don't know, penicillin, the most 
advanced antibiotics you can apply, and it sounds like that the 
Forest Service is giving the patient a couple of baby aspirin. 
I mean, is that, am I missing something? It seems to me as I 
confront this issue, you know, when I try to get right down to 
it, we're doing so very little compared to what you've 
identified as the problem. Am I misperceiving that, or is that 
your feeling as well?
    Mr. Dombeck. I certainly agree that we need to be doing a 
lot more than we have, and again, I want to say that this is 
why I believe active management is important and I believe that 
we've got to make sure that our incentive system, that our 
budget structure, allows us to, as aggressively as we can 
afford to, to move and to do the job that we need to do, 
whether it's, as I said, integration of timber sales and timber 
harvest activities into areas where we need to deal with forest 
health issues.
    In many cases, a lot of the wood associated with these 
overstocked stands are very low value wood. In fact, the Forest 
Service in the forest products lab has been working with 
industry to develop uses for lower value woods. In fact, today 
we're getting the same amount of, from the same volume of wood 
we're probably getting twice the volume of dimension lumber, 
we've got the wide variety of technologies that industry has 
developed and much, some of it, with the contribution of Forest 
Service scientists, in the chip-board plants, the wide variety 
of uses that we have for wood.
    In fact we're using it much more efficiently but we still 
got to do more because there's a lot of work that needs to be 
done on the land. And I think this is an area of common 
agreement that we all share, that we need do a tremendous 
amount of work in the urban wild land interface, with an 
acceptable way that reduces risks. And a lot of this is light 
on the land work with an individual with a chain saw and some 
light equipment, and a wide variety of things, and encourage 
the, further development of technologies to deal and, of 
course, then move forward with the appropriate level of 
prescribed burning. Much of the area, particularly of the 
inner-mountain west, we cannot burn today because of the high 
fuel levels, and those stands need to be treated prior to 
burning.
    Mrs. Chenoweth. Thank you.
    Mr. Doolittle. If I may just----
    Mrs. Chenoweth. Thank you very much.
    Mr. Doolittle. [continuing] impose, Madam Chairman, this 
observation. I believe you support active forest management but 
the policies coming out of the administration, which you 
represent, are moving us in exactly the opposite direction.
    Mrs. Chenoweth. Thank you, Mr. Doolittle. I do want to 
state the Chair has noted some outbursts of laughter and this 
cannot be tolerated in the hearing room. I think we all need to 
afford the witness the courtesy of providing a climate for 
concentration that is needed when he is before, or in this 
situation. I apologize to the witness, and I would also want to 
say if there is any further demonstration as such, that the 
staff will note that and parties will have to be removed from 
the hearing room. I also want to mention to the Committee, the 
Chair would sincerely appreciate that we stay on focus on Mr. 
Peterson's bill. Thank you, very much. Mr. Peterson.
    Mr. Peterson. I just want to followup on one more question 
here that deals with the road budgets. You requested a $190 
million, is that----
    Mr. Dombeck. $109 million.
    Mr. Peterson. Oh, $109 million, OK. As the manager of the 
forests, and all that's in them, how do you, I mean, I've been 
a manager. It's a manager's job to ask for what he needs. How 
do you rationalize asking for $109 million when you have a $10 
billion backlog? I mean, how do you----
    Mr. Dombeck. Of course, we work in, within the constraints 
that we're given from the standpoint of, you know, of the whole 
budget process, and we have to balance priorities, and there 
are many, many issues that we have to deal with, as the issues 
that Congressman Doolittle and I were discussing, a wide 
variety of things. I've, as we stated though the budget is, for 
service roads, the budget is vastly under-funded.
    Mr. Peterson. But if the Forest Service doesn't publicly, 
clearly, distinctly say that, how does the debate begin? How do 
we win the debate in Congress if you don't even ask?
    Mr. Dombeck. I believe we're engaged in that process now.
    Mr. Peterson. But you asked for $109 million, and you need, 
I mean, I guess that's the frustrating part. I want to look at 
this, just for a moment, from a rural perspective, $109 million 
for Forest Service roads that millions of Americans use for 
tourism, and for recreation and so forth. I mean, that's 
peanuts in the American budget scheme of trillions, and I guess 
it, then you look at the Pelt program, it's not fully funded. I 
mean rural America is taking it in the neck, but I guess I 
would hope your agency would be a louder voice saying, and 
those of us who are here to support you.
    That, but the problem I think we face is those who oppose 
roads, and I'm just going to bring this in the debate we had 
last year. I had a running debate with one of the players, and 
I told him, I said, ``You're cutting the budget and I need $2 
million.'' And he said, ``Oh no, I'm cutting it $42.5'' Because 
he considered the $50 million road credit and the $42.5 to be 
one in the same and that $50 million was an authorization and 
$42.5 is what we were actually going to spend. And we argued 
about that the whole time, that was a month or two. And when it 
was all done, and we had some arguments over that, when it was 
all done, he walked up to me and he said, ``You're wrong, I was 
trying to cut your budget $92.5 because I was rounding the 
figures.'' But he didn't know that. So here we had this whole 
public policy debate in the halls of Congress and those that--
who were trying to cut the budget didn't think they were 
cutting it half as much as they were. But they were told to run 
that amendment by somebody. They didn't even understand the 
issue, and I guess that's the part that I find frustrating 
because it didn't effect their districts, they're all 
suburbanites.
    Everybody we were arguing with is from suburban America who 
were carrying the banner for groups who No. 1, don't want trees 
cut; and No. 2, don't want the recreators out there in the 
forests any more than they want the roads. That's the bottom 
line. That's their next agenda.
    Back to the issue, how many acres will be effected by your 
100,000 and 500,000 acre plots that will be in the moratorium?
    Mr. Dombeck. The temporary suspension of road building only 
deals with the specific activity of building or reconstructing 
roads. Many of the activities that occur do not require roads. 
In fact, some of the new data, the more up-to-date data that we 
have, in fact I have a list of sales as the newer data came in, 
that they are able to move forward without road building. Some 
are able to move forward because they had a helicopter logging 
alternative as part of the process that they're able to select, 
even though the profit--the margin of profitability is 
different--but then we're not saddled with a long-term deal of 
having to maintain that road for decade after decade.
    So there's a wide variety of variability tied to this. In 
addition to that, we've got 6.5 billion board feet of timber in 
the pipeline that's sold, that's waiting to be harvested and 
that determination will be made by the operator, which is 
contingent upon market conditions and other things like that. 
They typically have about a 3-year timeframe once they buy a 
sale.
    Mr. Peterson. Now you're into my second question, but you 
didn't answer my first one. The second question was how many 
timber sales will be canceled or not moved forward or 
implemented because of this policy? Are there some?
    Mr. Dombeck. Yes. The data that we have here, in the 
roadless areas is 104 sales in 1998. And it's likely that, 
possible, that some of those still may go forward.
    Mr. Peterson. But 104 could be stopped?
    Mr. Dombeck. Yes, and that----
    Mr. Peterson. How many sales are all together, what's your 
total number of sales?
    Mr. Dombeck. It would be well over 1,000. It would be 
easier to give you the data and volume of, harvest volume, what 
we're----
    Mr. Peterson. OK.
    Mr. Dombeck. [continuing] expecting is a reduction in about 
99.6 million board feet and that's out of about 3.8, that's 99 
million out of a 3.8 billion board foot program.
    Mr. Peterson. 98 million would be lost?
    Mr. Dombeck. Yes.
    Mr. Peterson. OK. But you don't have a figure of how many 
acres are not going to allow harvesting?
    Mr. Dombeck. No, not specifically.
    Mr. Peterson. So how does the public know, if you don't? I 
mean, I guess that's the part that bothers me. I mean, I guess 
that's part of the discussion of this policy is that I'm not 
sure your people know the total impact, let alone the public, 
and I think that's unfortunate.
    Mrs. Chenoweth. Thank you, Mr. Peterson. Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. Going back to this 
question of roads, I just did a calculation, incidentally, 
Chief, and it's about $500 per road is what your budget is now 
for maintaining about half of the roads. The $10 billion figure 
which you used just again in your conversation with Mr. 
Doolittle at $26,000 a road is a disingenuous argument when 
you're talking about constructing roads in forest areas where 
there will be for sales. You know that and I know that. What is 
the cost per mile for obliterating a Forest Service road?
    Mr. Dombeck. I would say that's highly variable depending 
upon the----
    Mr. Hill. Give me a range.
    Mr. Dombeck. [continuing] the typography. I'd have to give 
you a, respond in writing to that. We don't have a roads 
engineer here with us today, but also I want to point out that 
we're responsible for 7,700 bridges that we'd like to do.
    Mr. Hill. How many of those bridges, and what portion of 
that bridge budget, is associated with Forest Service roads 
that are gravel roads that are used for access for logging and 
other recreation purposes, or how many of them are arterial 
roads? Can you provide that information to me?
    Mr. Dombeck. I don't have that information with me.
    Mr. Hill. But you will provide that to me?
    Mr. Dombeck. Yes, I assume we can.
    Mr. Hill. There are about 8 million acres that are effected 
by this moratorium, is that correct?
    Mr. Dombeck. There are about 8 million acres in the RARE II 
category that are in the timber base, yes.
    Mr. Hill. And what percent, how many acres are in Montana?
    Mr. Dombeck. I'd have to, I don't have that information.
    Mr. Hill. How many acres are in region one?
    Mr. Dombeck. I don't believe we have that information here 
either, do we? No, but we can give you the regional breakdown 
of that. I can get that very quickly.
    Mr. Hill. Mr. Dombeck, when we had a hearing a week or so 
ago, I asked you if you'd provide some data to the people of 
Montana so that they would be informed at the time of the 
public meetings, you can't tell me how many acres are in 
Montana, and yet you had three public meetings in Montana?
    Mr. Dombeck. The employees in Montana, I'm sure have that 
data.
    Mr. Hill. You don't have that data?
    Mr. Dombeck. I don't have that data with me by state.
    Mr. Hill. Would you, the Forest Service makes an assessment 
of fire hazards, puts it on a sign every day in all the 
forests, do you recall what those assessments are, high fire 
hazard, low fire hazard?
    Mr. Dombeck. Yes.
    Mr. Hill. What are those different levels, do you recall?
    Mr. Dombeck. Well there's low, moderate and high.
    Mr. Hill. Moderate and high. Would you tell me what your 
assessment of the fire hazard is in the areas that are impacted 
by this moratorium in Montana, are they high, moderate or low?
    Mr. Dombeck. Low.
    Mr. Hill. So you believe that the fire hazard in Montana is 
low in these roadless areas?
    Mr. Dombeck. Keep in mind that the fire, I'm sorry----
    Mr. Hill. That's not consistent with the Interior Columbia 
Basin Study.
    Mr. Dombeck. The Interior--this is not to say that some 
areas, roadless areas are not, do not have forest hills 
problems but the Columbia Basin Study does indicate that about 
80 percent, 87 percent of the areas that are in the high risk 
category are in roaded areas.
    Mr. Hill. You made a statement at the time you announced 
this moratorium that one of your concerns was, is that roads 
and access ``increase the pressure on wildlife species from 
hunters and fishers,'' do you recall making that statement?
    Mr. Dombeck. Certainly habitat fragmentation and things 
like that are issues.
    Mr. Hill. But what your statement was was ``increased 
pressure on wildlife species from hunters and fishers.'' I 
guess, do you believe that that is a concern with regard to 
building and constructing new roads and maintaining existing 
roads?
    Mr. Dombeck. Habitat fragmentation certainly is.
    Mr. Hill. But that's not what, what you said was, 
``increased pressure on wildlife species from hunters and 
fishers,'' not ``fragmentation.'' You were talking about 
``pressure.'' Do you now, you don't believe that that is an 
appropriate concern, or is no longer your concern?
    Mr. Dombeck. No, I believe it certainly, it could be a 
concern, but again, those kinds of things need to be evaluated 
and looked at on a local case by case basis in concert with the 
responsibilities that the state fish and game agencies have in 
regulating animal populations.
    Mr. Hill. This was your statement, not my statement. Do you 
recall making that statement?
    Mr. Dombeck. I don't remember the specific context of the 
statement.
    Mr. Hill. Well, one of the concerns that I have is, first 
of all, in our region about half of the roads now have 
restricted access, many of them are closed, more are being 
obliterated, and one of the principal social values in Montana 
is opportunity to recreate in a public land, including hunting 
and fishing and camping, and I do believe that your effort here 
is an effort at further restricting public access to the lands 
of Montana. Can you give me an assurance today that the people 
in Montana, at the end of this moratorium, are not going to be 
faced with further restrictions of access to the public lands?
    Mr. Dombeck. Those further, if there are further 
restrictions, they will be made either--the decisions will be 
made--either at the local level by our forest supervisors in 
the planning process or they will be made through acts of 
Congress with regard to additional wilderness designations, or 
other things at this level.
    Mr. Hill. Mr. Dombeck, I would just say that I think it's 
duplicitous for you to suggest that you're going to make this 
moratorium decision in your office, and then you're going to 
allow those other decisions to be made somewhere else. I don't 
believe that to be true, but, let me just go on to one last 
thing. Do you believe that this moratorium is, that this is 
covered by the SBRFA bill, the Small Business Regulatory 
Flexibility Act?
    Mr. Dombeck. That assessment will be made, or is being made 
now, as we go through the NEPA process. The analysis that we 
have to date indicates that it will not be, likely will not.
    Mr. Hill. And why is that?
    Mr. Dombeck. Because of the thresholds that SBRFA requires, 
but I will be consulting on that issue with staff, and follow 
their recommendations.
    Mr. Hill. One last question is, how much time went into the 
development of the Communications Plan?
    Mr. Dombeck. I guess I can't specifically answer that, I 
would say maybe the two staff people that worked on it, perhaps 
three or 4 days, that might be an overestimate.
    Mr. Hill. So you didn't solicit input from the individual 
regional foresters, or individual supervisors to develop this 
plan? This was a plan developed solely within your office with 
a couple of staff people?
    Mr. Dombeck. Well, I am, the Washington office was 
responsible for the development of the plan, I guess I would 
have to ask the staff the breadth of input that they got. I 
assume that they're in constant communication with their 
counterparts in the field.
    Mr. Hill. The reason I ask that is that just a few months 
ago, you were here and others, talking about the inability of 
the Forest Service to meet the deadlines with regards to the 
Results Act and the development of a strategic plan for the 
management of the Forest Service. Are you telling me you think 
it was an appropriate thing for you to take the resources that 
should be committed to developing a strategic plan for the 
management of the Forest Service, and put those resources in 
development of this Communications Plan?
    Mr. Dombeck. I would say that the same, the communications 
staff works on a wide variety of issues. The efforts with 
regard to the strategic plan in the Government Performance and 
Results Act is also a very high priority, in fact is a 
significantly higher priority.
    Mr. Hill. Sell the sizzle.
    Mrs. Chenoweth. Thank you, Mr. Hill. The Chair welcomes 
Mrs. Cubin.
    Mrs. Cubin. Thank you, Madam Chairman. Mr. Dombeck, you 
stated earlier, and I believe you, that you think active 
management is important, so it brings a question to my mind, 
then why are you taking a time-out from an active management in 
placing this moratorium on the forest road program? And then 
that leads me to another thing that I wonder about, as you 
know, until his recent legal problems, Secretary Babbitt had an 
aggressive schedule that allowed him to promote the 
administration's natural resources agenda, if you will, and 
based on all the news that I read and see, it appears to me 
that you have replaced the Secretary in his role as you travel 
extensively selling the administration's agenda. My question to 
you is that since you are not a political appointee--a 
political appointee appointed by the President and confirmed by 
the Senate--and have never held public office, are you 
comfortable with this new political role that you have?
    Mr. Dombeck. The agenda is, the Forest Service agenda, it 
was developed by the leadership of the Forest Service. The 
agenda is based upon, on science, on technology, the years of 
resource professionalism within the Forest Service----
    Mrs. Cubin. I don't like to interrupt but I don't have a 
lot of time, and the quote, ``we will take every opportunity to 
tie with the Vice President's Clean Water initiative, and 
indeed provide a media event for the VP to showcase the 
initiative on national forest lands,'' that doesn't sound like 
science to me, that sounds real political. And that's what I'm 
asking you. Are you comfortable with your political role? I'm 
not asking you if you're comfortable supporting whatever 
science may be involved here, but are you comfortable with this 
political role?
    Mr. Dombeck. I see the role as promoting what's good for 
national resource management and forest management, sustainable 
forestry, watershed health and restoration across the country.
    Mrs. Cubin. Thank you. Because this bill is about having 
hearings before this sort of thing can happen again, and the 
fact that hearings weren't held, and there wasn't public input, 
I want to bring up some public input that you might have 
received, in fact, that you would have received, had the 
opportunity been available.
    As you know, the Wyoming Wilderness Act accomplished three 
things within the state of Wyoming: it designated wilderness 
areas to certain specified lands; it designated certain areas 
for wilderness study, to be considered by Congress for final 
wilderness designation; and finally it released all other 
Forest Service lands to multiple use. Congress, and Congress 
alone, can designate wilderness lands as wilderness in Wyoming, 
or any other designation that is not for multiple use. There's 
no provision in the Wyoming Wilderness Act for the designation 
of de facto wilderness. By virtue of the moratorium, future 
timber harvest will be rendered impossible, oil and gas 
exploration will be stopped, recreation opportunities will be 
severely curtailed, and so doesn't, or can, do you think that 
the moratorium could equate itself in Wyoming to a de facto 
wilderness since these other multiple use activities will have 
to stop?
    Mr. Dombeck. No, and let me reaffirm that we're speaking 
about a proposal that is out for public comment and----
    Mrs. Cubin. Wait a minute, speaking about a proposal, so in 
other words, I'm learning something new right here. You're not 
going to impose the moratorium until after you take public 
comment?
    Mr. Dombeck. That's correct, the proposal was made several 
weeks ago. The public comment period on the proposal ends March 
30th, and at that time the comments will be analyzed and moved 
forward.
    Mrs. Cubin. And you think that's adequate time? I just want 
to, I said that I would give you some information regarding 
public comment that you haven't had the opportunity to get. I 
have a letter here from Dick Cheney who is the, was the author 
of the Wyoming Wilderness bill, and while I don't have it in my 
possession, I soon will, a letter from Senator Malcolm Wallop 
and Senator Al Simpson, who were the Senate sponsors for this, 
and I would like to enter this letter into the record.
    Mrs. Chenoweth. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Cubin. Thank you, Madam Chairman. ``The current effort 
to impose an 18 month moratorium on USFS roadless areas within 
the State of Wyoming prompts me to write this letter. This 
letter is clearly outside the legal bounds for the Wyoming 
Wilderness Act of 1998. The State of Wyoming is entitled to 
exemption from this proposed plan. No where in the Federal 
Register's Proposed Interim Rule, RINAB680095, Temporary 
Suspension of Road Construction in Roadless Areas, is the 
language that the Wyoming Wilderness Act recognized.
    Having cosponsored this historic legislation when I was 
Member of the U.S. House of Representatives, representing 
Wyoming, I now feel compelled to bring this to your attention. 
Roadless areas no longer exist within the State of Wyoming. 
Attempts to reinterpret the intent of this legislation, or its 
language, would move the USFS's efforts outside all legal 
bounds, and compromise the agency's integrity. The 
congressionally approved legislation designated specific 
wilderness, wilderness-study areas, and released for multiple 
use all other RARE II forest lands. This action legally 
eliminated the roadless category within Wyoming state 
boundaries.'' It goes on.
    This is just what you hazard when you don't offer enough 
time for public input, and when you move forward, or take 
public input at such a level but already have your mind made 
up, not you, Chief Dombeck, but the administration. I think the 
tragedy of this administration may not be so much in the 
personal flaws of the President, but I think the real tragedy 
is that many in the administration can't be trusted to provide 
the truth, the whole truth and nothing but the truth, because 
for you to sit there and say to me, Chief Dombeck, that this is 
based on science and not on Al Gore's political agenda, and 
attempts to be elected President, it's sort of astonishing.
    And I think that you are a good scientist, and I think you 
are a capable man to manage the forests and to know what to do, 
and I am very sad to see that you are in this political 
position now where it appears that politics have, for whatever 
reason, become higher in what you have to do than managing the 
forest for good forest health. Thank you, Madam Chairman.
    Mr. Dombeck. Could I respond to----
    Mrs. Chenoweth. Yes.
    Mr. Dombeck. [continuing] could I respond to one, I think, 
one important point you made, and from the standpoint of the 
perception that the temporary suspension of road-building does 
not change land use allocations. It, we're talking specifically 
about the act of building----
    Mrs. Cubin. But if they can't----
    Mr. Dombeck. [cotinuing] a road, and in many cases there 
are other alternatives, other ways to accomplish the land 
management objectives on the land, and we're talking about an 
18 month period, only, until other, the entire framework of the 
long-term policy that there's complete agreement that we need 
to develop is moving forward. So we're only talking, first of 
all it's a proposal, and we're only talking about the act of 
building a road. There are other ways----
    Mrs. Cubin. But without----
    Mr. Dombeck. [continuing] to get into these areas, other 
mechanisms to do the work, we encourage that.
    Mrs. Cubin. But you know and I know, you know and I know 
very well that we're not going to have hunters and fishermen 
parachuting in.
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Thank you----
    Mr. Dombeck. It also does not close any roads in this 
specific policy of the interim. It maintains the access that we 
have unless there are other mechanisms in place. We're talking 
about construction of roads only.
    Mrs. Chenoweth. Thank you, Mr. Dombeck. Thank you, Mrs. 
Cubin. I have promised the members a third round of 
questioning, and I just have a very, I have two very short 
questions. Mr. Dombeck, on page 14 of your initiative in the 
Communications Plan, you talk about round tables with stake-
holder groups to discuss and clarify what the agenda is, and 
what it will mean to them. Now this is in the context of the 
fact that this committee, and Mr. Peterson's bill is asking for 
open public comment, open public hearings, and what you propose 
is to meet with individuals, as indicated on page 14, and they 
are as follows, your targeted groups for the Chief to meet with 
will be: wildlife partners; ten organizations representing non-
DC based wildlife organizations; fishnet and fisheries 
interests; the green groups; 31 environmental organizations; 
the American Recreation Roundtable headed up by Derrick 
Crandle, 30 organizations; private forestry counsels; and the 
luncheon at the press club hosted by the Natural Resources 
Council of America, which is 70 conservation wildlife, 
environmental and professional organizations.
    My question is, why are there no commodity groups, such as 
cattlemen, timber men, miners, organized labors, labor 
representatives, school board representatives, county 
commissioners, people who will be effected on the ground by 
these, economically, by this organization? Why is, why are they 
not included if, from your frame of reference, you believe this 
is the right way to go?
    Mr. Dombeck. Well, I, let me say last night, or about 4:30 
yesterday, I did meet with the Public Lands Council, I've met 
with a wide variety of groups, and will continue to meet with a 
wide variety of groups, and certainly do not see myself limited 
by the suggestions that the Plan proposes. I believe that 
industry, that the entire array of stake-holders that I deal 
with, in fact, it's my responsibility to meet with as many 
people as I possibly can knowing that as one individual, I 
cannot meet with them all, and the staff, the Deputy Chief, the 
regional foresters, the forest supervisors, meet with a wide 
variety of people.
    With respect to the point on the National Press Club, so 
far in my career I have spoken at the National Press Club 
twice, am invited to speak at a wide variety of forums, some I 
can make, and some I can't. I'll be speaking at the Forest 
Products Industry in Orlando on Friday, and then Saturday I go 
to the, is it the North American Wildlife, Fish and Wildlife 
Conference, where I'll be meeting with state directors. I 
routinely meet and visit with the National Association of State 
Foresters.
    Mrs. Chenoweth. I think, Mr. Dombeck, our concern that you 
need, rather than meet with certain conservation groups or 
certain environmental groups to meet and discuss things with 
them, you talk about speaking about here, speaking to the 
National Association of Counties, that's entirely different 
than listening to these people who would be impacted, and 
that's what Mr. Peterson's bill is all about, requiring that 
you do just what is required of you under the law, no more, no 
less, and listening to the people who will be impacted by this 
very major Federal decision.
    On another matter, earlier I placed into a record, into 
this record, a bipartisan letter sent to you by Congressman 
Schaffer and Congressman Stupak. In that letter to you, the two 
Congressmen who wrote it, and all the Congressmen, including 
myself, stated that the Congress intends to remain willing to 
work with you on your transportation plan if you are willing to 
withdraw your moratorium. Do you want to work with us?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Are you willing to withdraw your 
moratorium?
    Mr. Dombeck. That will be based upon the comments and the 
analysis as part of the process that we're involved in now. 
What I will do is, I will work with you as proposals are 
further developed, and be very open about discussing 
alternatives and options and suggestions that we may have as we 
go through the process.
    Mrs. Chenoweth. Are you willing to withdraw the moratorium?
    Mr. Dombeck. I don't have an answer to that at this time.
    Mrs. Chenoweth. Mr. Peterson.
    Mr. Peterson. Yes, if I could be a little more, we've 
talked pretty much in general here today I, of course, I 
represent the eastern forests, the Allegheny National Forest, 
and you were talking earlier about the, that all the big, large 
saw, high-quality saw logs are gone, I mean, I know you're 
speaking of virgin timber, but I mean, you know, there's lots 
of good timber stands that have been cut numerous times and the 
big high-quality saw logs there, they may never equal some of 
the virgin timber, but you know and I know, that the perception 
you left with that statement was that all the good stuff is 
gone.
    Mr. Dombeck. Let me correct that, I was mainly using that 
in the context of the inner mountain west, and some of the 
forest health issues. You're certainly right, the condition of 
the watersheds in the east today are far superior to what they 
were at the turn of the century in the area where I grew up in 
northern Wisconsin, is that forests are better condition today 
than they were when my grandfather lived, was a kid there.
    Mr. Peterson. But would you describe the Allegheny National 
Forest as one of the most mature, high-quality, hardwood 
forests in America?
    Mr. Dombeck. Yes.
    Mr. Peterson. That's what everybody in Pennsylvania thinks, 
that it's the best of the best, and it's mature. It appears 
that a category of special consideration will probably impact 
the ANF more than the other categories, but do you have any 
data on what the impact will be on the ANF?
    Mr. Dombeck. We do not have complete estimates on that. 
We're getting comments on that. What I can tell you is the 
major areas of concern are associated with municipal 
watersheds. We have a significant amount of controversy 
associated with activities in watersheds that provide drinking 
water supplies.
    Mr. Peterson. On ANF? On the ANF?
    Mr. Dombeck. On the Allegheny National Forest?
    Mr. Peterson. Yes.
    Mr. Dombeck. I don't have that.
    Mr. Peterson. I don't think that's a common problem on the 
ANF. I mean, there might be one, I can't even think of one, but 
there may be one or two, but I, that's not a controversy on the 
ANF. I mean, there's no communities within it, it's, you know, 
it's pretty----
    Mr. Dombeck. Yes.
    Mr. Peterson. Back to the road issue, did I hear you say 
something about the moratorium also includes reconstruction? 
You said, I hadn't, you said, ``construction and 
reconstruction,'' in one of your statements a little while ago?
    Mr. Dombeck. It could, depending upon the specific 
situation where you might have a very old trail or something 
that's not part of a formal road system.
    Mr. Peterson. So reconstruction could also be impacted if 
the moratorium carries forward as is? So it's not just building 
of new, it's maintaining of old?
    Mr. Dombeck. Not maintaining, reconstructing. And I 
understand there is, and this is why things like this, those 
kind of decisions need to be made at the local level.
    Mr. Peterson. Another part that I guess is veering a little 
bit from the issue, but we talked about having the timber sale 
being an actual loss, you actually lost money last year. But 
that's assuming that the 25 percent that pays for education, 
that pays for local issues, is a throw away, and it's not. That 
25 percent is the vital lifeblood of many of our communities, 
so for people to say that it was a loss in your system is 
really playing numbers game, because it's not a loss to those 
communities unless they lose it. I mean that's their lifeblood, 
that's how they educate kids, that's how they operate local 
services. Because, you know, the plight, and I'm going to 
conclude with this, the plight that real America feels, and 
some of you that are very opposed on the other side, the plight 
that real America has is, you know, 700 million acres, not in 
the Forest Service, but all total have been taken out of public 
ownership.
    And in Pennsylvania state government, one of the last 
things I did was get the in-lieu of tax payment doubled. Now 
there were lots of people against that but when you take that 
land away from local use, you owe something back to those 
communities. And we have not done that very well at the Federal 
level. I mean, we pay a pittance, which is not being fully 
funded. And each of these proposals take away the right to use 
the resources, whether it's timber, or oil, or gas, or 
whatever, making it far more difficult. And that's really a 
part of the lifeblood of rural America. I mean rural America we 
dig coal, in rural America, we drill for oil, in rural America, 
we harvest timber. And we have suburban people and urban people 
who are not impacted saying we shouldn't do that, and yet it 
may be 25 or 30 percent of our economic base. It's how we live. 
We provide those resources and in many cases we're importing 
those resources from far off countries, balance of trade, it's 
not very good American economics in the whole scheme of things.
    And should we argue about how it's done, you bet. Should it 
be done with the best practices, you bet. Should we protect our 
watersheds, you bet. But the pendulum went way out of whack. We 
went from 12 billion board feet to 3 billion board feet, and a 
lot of people look at this as one more way to slow up and put 
off limits, you may not have meant that, but put off limits 
another so many million acres to where we're down, and some say 
it's 14 percent, and some say it's 18 percent, and I don't know 
which number is accurate, that's actually available in the 
Forest Service land for forestry practices. That's a pretty 
small piece, whether 18 is right or 14 is right, we're down to 
a nub of the original. And yet everybody sees the push to make 
it less, and that's the concern I think you're facing. And I 
guess my frustration----
    Mr. Dombeck. Can I respond to----
    Mr. Peterson. Sure.
    Mr. Dombeck. [continuing] a couple of your points. Well, 
I'm glad we found an area of agreement in the funding that you 
mentioned, because I am one that believes we shouldn't even be 
talking about the low cost timber sales, we should be talking 
about maintaining the long-term health of the land, and working 
within the limits of the land, the products will flow. I think 
that is a basic premise that I want to continue to work for as 
long as I'm in this job and beyond.
    The second thing I want to mention is the point about the 
25 percent fund has been perplexing for the Forest Service 
because we have, as we have injunctions we put counties into, 
not only the downturn and the trends that you mentioned, and I 
don't, I haven't had anyone tell me that they want to go back 
to 10 or 12 billion board feet because there is, I believe, 
agreement that that was too high, and the pendulum is now 
swinging back the other way.
    But the, also the proposal that's before the Congress that 
the administration has made, is that to stabilize the 25 
percent fund at either the 1997 level or the average of the 
1986 to 1990 level because we have, I can give you an example 
of a worst case scenario where $26 million worth of timber 
sales we're enjoying that means that those counties won't get 
$5 to $6 million, and I believe in this case it was five 
counties, so how do they pay their teachers? Well, there's got 
to be some mechanism to reduce this amplitude and stabilize the 
payments that counties get so a superintendent of schools or a 
county commissioner can plan better, and that's also a proposal 
that we'll be discussing.
    Mr. Peterson. But I think the President did propose that 
but, if my memory is correct, there was no money allocated 
toward it, and so that's the process goes on. You know Pelt was 
an agreement to the rural areas, will pay you this in lieu of, 
and we don't even get full payment in that, and it's a 
pittance. So I mean we don't even get the full pittance. I 
guess that's the frustration level that's out there. Rural 
America is really, really being put upon, locked up our 
resources, locked up our land, that's where we live.
    Mrs. Chenoweth. Thank you, Mr. Peterson. The Chair 
recognizes Mr. Vento.
    Mr. Vento. Thanks, Mr. Dombeck. Madam Chair, thanks for 
recognizing me. I just got off the plane a little bit ago, and 
I understand that this is a, I hadn't seen the bill before that 
is being heard this morning, but it's kind of tough trying to 
be green even on St. Patrick's Day, I guess, Mr. Dombeck.
    [Laughter.]
    Mr. Vento. But I wish you a happy St. Patrick's Day, and my 
colleagues. I, you know, generally have supported the idea that 
you have to take a pause, I guess, a time-out, in terms of 
looking at the resources. Obviously, we excluded much of the 
timber production west of the Cascades because there had been 
more thorough plans in place with regards that.
    Now this authority is being exercised under the 
administrative authority of the Forest Service, and so you have 
to go through the Administrative Procedures Act, is that 
correct?
    Mr. Dombeck. Yes.
    Mr. Vento. And that mandates itself public hearings, does 
it not?
    Mr. Dombeck. There are procedures that are required that we 
are following.
    Mr. Vento. The issue here is I had talked about glasses, 
that the case here, where information or some of the science 
and basically eclipsed the existing Forest Service, plans, is 
that your judgment, Chief?
    Mr. Dombeck. Yes.
    Mr. Vento. And so the idea is to try to proceed, especially 
with regards to these roadless areas, to in fact attempt to 
reassess what the impact is because we're not maintaining the 
existing official roads, much less the unofficial roads that 
exist, is that correct?
    Mr. Dombeck. Yes.
    Mr. Vento. The bill I received, looking at the bill here, 
says ``except and after public participation, this mandates 
public hearings in the interim for final rule in which the 
national forest is located''--is in attendance, the Forest 
Service is in attendance, the Forest Chief, you have to be in 
attendance, are you going to be in attendance at each of these 
25 meetings you've established?
    Mr. Dombeck. No, I won't. I assume some are going on today.
    Mr. Vento. ``In each public domain or other unit of the 
national forest,'' so there are issues that you have other 
responsibilities besides just these hearings, is there any 
reason to, will you follow and monitor what the outcome of 
those hearings are based on the testimony and the advice of 
your associates and professionals?
    Mr. Dombeck. Yes.
    Mr. Vento. This goes on, though, to say that, ``the report 
has to be based on record of each hearing included under 
prior''--``which concludes the interim final will not,'' it 
says ``diminish the forest health in such public domain or 
other unit of the national forest system.'' Do you expect that 
the report that you come forth would, in fact, diminish the 
forest health?
    Mr. Dombeck. The point that I want to make on that 
particular section of that is that that basically requires, as 
I read the bill, it would require us to not to diminish forest 
health, not adversely affect multiple use activities, and not 
to affect county, state, local government, economically or 
otherwise, and the fact is that we have to balance these issues 
and it's very difficult to maximize everything.
    Mr. Vento. It's my understanding that no matter what the 
public says, these, under No. 2, would dominate, that no matter 
what the public views with regards to these issues, which 
includes interim final report ``will not,'' no matter what the 
public views are with regard to--so this bill is inconsistent, 
to say the least, the way I read it, exception after public 
participation, the public participation is going, as long as it 
effects these three things, if it affects forest health, if it 
affects the payments back to the county, if it affects multiple 
use, in other words, I guess, multiple use being, if it affects 
timber harvest, that's one of the multiple uses, and so if 
anything of those are adversely effected by what the public 
thinks, then the report--you can just throw out the public 
participation.
    Mr. Dombeck. Yes.
    Mr. Vento. Now when public participation comes in, you get 
100 witnesses at a hearing or 2,500 at 25 hearings, you can't 
obviously do what everyone asks you do, is that right? Everyone 
has their say, not everybody has their way.
    Mr. Dombeck. If we could, we probably wouldn't be here.
    Mr. Vento. So what really guides you is not these three 
elements in terms of forest health, or multiple use activities 
or adverse, I mean, in fact, I don't know how you could 
maintain all the multiple use activities. One of the principle 
functions under the 1897 Organic Health Act of the Forest 
Service is protection of the watershed, isn't it?
    Mr. Dombeck. Yes.
    Mr. Vento. Is that any less important than providing the 
opportunity for the use of wood fibre from the national forest?
    Mr. Dombeck. No, in fact, that's also one of the mandates 
of the Organic Act.
    Mr. Vento. It's one of the mandates of the Organic Act, so 
isn't it possible very, under the multiple use, that there are 
in fact inherent conflicts?
    Mr. Dombeck. Yes.
    Mr. Vento. And so, I mean, this particular report couldn't 
talk about watershed and timber, I mean, one of them are going 
to have to be effected, isn't it, I mean, one of the principal 
concerns you have in this roadless policy has the effect in 
terms of what's happening with watersheds, and the lack of 
maintenance of roads, the intrusions into the forests, the 
spreading of weed. Somebody said it provided us a way to pick 
the weeds, well the weeds probably wouldn't be there if the 
road wasn't there.
    Mr. Dombeck. Yes, that's correct.
    Mr. Vento. And so there is an inherent conflict, a 
contradiction in this particular, so why are we re-writing, 
this basically would guide the entire Forest System, these 
three phrases would guide the entire decision with regards to 
this?
    Mr. Dombeck. Yes.
    Mr. Vento. You will have a frame of reference, will these 
issues be considered in the 25 meetings that you have?
    Mr. Dombeck. These issues will be considered along with 
many, many other issues that a wide variety of people will 
bring forward.
    Mr. Vento. I mean, one would say, one of the things they'd 
say is, well, if it adversely effects motor recreation, then 
you can go forward with that policy. That would be wrong to do, 
I think. But in other words, you have to balance these out in 
terms of trying to come up with the best possible solution for 
the most people, is that correct?
    Mr. Dombeck. That's correct.
    Mr. Vento. And, of course, maintaining the lot, in other 
words, changing the basic, following the basic Organic Act. Do 
you believe in some instances that that has not been followed 
with regards to road policy in the recent past?
    Mr. Dombeck. Yes, we need to greatly increase the emphasis 
on water and watersheds and the flow of water in the west, and 
all parts of the country, and that needs to be balanced with 
all the forests.
    Mr. Vento. I'd like to think that the professionals at the 
Forest Service did their best in terms of following it, but the 
fact is, that today that new information, new science, new 
forestry, has indicated that there's a significant number of 
changes. In fact, forest health, in my definition doesn't just 
include eliminating salvage, or eliminating problems for insect 
infestation, it deals with watersheds, it deals with 
reforestation, it deals with a whole host of different 
activities, does it not?
    Mr. Dombeck. Yes.
    Mr. Vento. So, I mean, unfortunately, there's too many 
conflicts and contradictions in a proposal like this. I don't 
see, do you believe that there would be a--isn't it the 
effort--and I talked in the last session that we had that I was 
present at with you, Chief, we talked about the fact that it's 
your intention to try to deal with, and to try to overcome, 
whatever limits would be in terms of timber harvest by 
providing opportunities on existing roaded areas, is that 
correct?
    Mr. Dombeck. That's correct.
    Mr. Vento. Do you think that there is, there will probably 
be a shortfall in some forests with regard to this, but in many 
others, you think that you can accommodate the need to have a 
continuous supply of wood fibre as product?
    Mr. Dombeck. Yes, in fact, we have to significantly 
increase our management activities in areas like urban wild 
land interface, areas where we have significant forest health 
problems, and integrate all the management practices, and some 
fibre will be produced, and there are some low-value woods 
there that are of no value, and we've got to look at soil 
stability and noxious weeds and the whole panoply of issues, 
depending upon the watershed or the part of the country that 
we're in.
    Mr. Vento. My staff points out to me that the estimate that 
you now have in terms of reduction over this period is 100 
million board feet, is that, that's what's offered for sale, is 
that correct?
    Mr. Dombeck. That's the 1998 volume, yes. And we have 
about, I want to also point out that we've got 6.5 billion 
board feet under contract that's ready and waiting to be 
harvested.
    Mr. Vento. It's ready to be cut, but, in other words, folks 
are waiting for the price to go up, or waiting for other 
reasons, they may not perform on those contracts, as a matter 
of fact, is that correct?
    Mr. Dombeck. That's correct.
    Mr. Vento. You're assuming, I suppose, that some of those 
will not be performed on and then that timber would, or could 
be offered for resale or rebid again, is that correct?
    Mr. Dombeck. That's correct.
    Mr. Vento. So some of this could in fact belie, I think the 
issue here is to try to work it out. I don't think, you know, I 
obviously had my concerns about, you know, continuing the road 
construction program, and I'm frankly pleased because I voted 
to take out the road subsidy. I know you didn't agree with 
that, Chief, but we did so because I think that was the avenue 
available. And if that's the only avenue available, I guess, we 
can raise this issue again on the floor in terms of trying to 
knock out the complete subsidy, but I'd much rather try to get 
a rational policy. And I appreciate the fact that you are 
trying to do that to try to build, find some middle ground 
between those of us in Congress that want to see that forest 
health, a good policy followed with regard to roads and the 
damage to these forests, and those that share a different view 
of what is a good policy. So I think that that's the only 
reason that this amendment was defeated last year was because 
they came up with a different amount of money and then in 
conference it got lost, so that is still there, so I appreciate 
the fact that you're trying to respond to it.
    It seems to me that the difference of whether it's 200 or 
100 is not so great as to completely distort the opportunity to 
use wood fibre from the national forests. There are other 
sentiments, of course, that want to ban any type of harvest, 
even on a select basis from the forests. Up to this point, 
we've always thought it was workable, but perhaps I'm wrong, 
perhaps it isn't workable, perhaps it has to be one way or the 
other. But I appreciate the effort that you're trying to make 
despite the fact that you're receiving this much heat for it. I 
suppose some of that is to be expected, and obviously emotions 
run pretty high with regards to this, and I understand, and 
afford everyone their own feelings with regards--but not their 
own facts. Thank you, Chief.
    Mr. Dombeck. Thank you.
    Mr. Vento. Thank you, Madam Chair, for allowing me to 
continuing for longer than my allotted time.
    Mrs. Chenoweth. You're certainly welcome. I thank the 
gentleman for being here and being able to arrive in time, and 
Mr. ``O'Vento,'' I thank you for spreading your Irish cheer too 
into this hearing room.
    [Laughter.]
    Mrs. Chenoweth. Chief, you have been a real trooper. You've 
been on the stand for nearly 2.5 hours. I do want to close 
simply by saying and entering this into the record, that our 
focus has been, and I know that Mr. Peterson is trying to again 
restate that which has been stated in the Administrative 
Procedures Act with regards to this particular issue, and my 
concern arises out of the kind of hearings that will be heard.
    Mr. Jerry Hamilton from Salmon, Idaho, just called this 
morning apparently and one of my staff members in the committee 
just brought this telephone message into me, and it states that 
he attended the Forest Service public hearing last Saturday in 
Missoula. ``It was very loosely structured,'' he said, ``the 
Forest Service asked people to watch a video, and submit 
comments on a postcard.'' Mr. Hamilton had testimony prepared 
to turn in or give orally. He was told he could use a tape 
recorder but then the Forest Service would have to transcribe 
it, so they preferred that he fill out a card. He left his 
written testimony, and then left the meeting.
    This is our concern, Chief. This is how this is being 
handled in the field, and so we just hope that this legislation 
gives us the opportunity to get back on track, and to be able 
to hear from the public.
    I want to thank you very much. I would ask that you remain 
until after the next panel of witnesses testify. We may have 
further questions.
    Mr. Vento. Madam Chair, I do have one question if I could 
be permitted to?
    Mrs. Chenoweth. Mr. Vento.
    Mr. Vento. Yes, I appreciate your trying to conclude this 
and the Chief has been here for a long time. But I wasn't 
looking at the backlog question, and I always thought that the 
$10 billion backlog applied to the entire 475--373,000 miles of 
road. But according to what the testimony is, it looks to me 
that it does not apply to the entire 373,000, much less, I 
guess, the 60,000 miles of illegal roads. Can you comment on 
that, Chief? Is it my understanding that it does not apply?
    Mr. Dombeck. Yes, and the important part to understand 
there is that the most expensive part of the backlog has to do 
with the arterial and collector roads, the cost of maintenance 
and reconstruction of these hard-surface roads and bridges.
    Mr. Vento. So this is the smaller portion, the $10 billion 
only applies only to the arterial roads, is that what you're 
saying?
    Mr. Dombeck. Yes, but I would say it's certainly by far the 
larger portion of the cost.
    Mr. Vento. And so, OK, well, and they're the ones used by 
the recreationists, they tell me?
    Mr. Dombeck. Yes.
    Mr. Vento. Ten billion for just the 86,000?
    Mr. Dombeck. Yes, school buses, mail routes. I grew up on 
one.
    Mr. Vento. I think this is an important problem because it 
seems to me to go beyond what the forests are going to be able 
to support based on the revenue, so it is a pertinent fact. I 
don't think it really has any, I don't know what it, I think 
there's a couple of issues here that I would just make an 
observation in my chairperson, you know, with regard to this in 
terms of how this is going to be maintained, and what's going 
to be done with it. You know, you might, you know, we should be 
looking at that issue in terms of trying to get some dollars. I 
mean, this is one of the biggest backlogs. We also have the 
Forest Service, or the Park Service, when we talked about 
backlogs, much of it was for the roads going in and out of the 
park.
    Mrs. Chenoweth. I thank the gentleman, and thank you again, 
Mr. Dombeck. The Chair now recognizes the second panel. We 
welcome the Honorable Ron Marlenee, Consultant, Government 
Affairs, Safari Club International, Fairfax, Virginia; Sharon 
Hahn, Lake County Commissioner, Two Harbors, Minnesota; Ric 
Davidge, Anchorage, Alaska; David Kiehl, Vice President, North 
East Hardwoods, Inc., Pennsylvania; and Steve Holmer, Campaign 
Coordinator, Western Ancient Forest Campaign, Washington, D.C.
    I would like to, again, as you know, we would like to swear 
all the witnesses so I wonder if you would stand and raise your 
right hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. The Chair recognizes the Honorable Ron 
Marlenee. Welcome.

STATEMENT OF HON. RON MARLENEE, CONSULTANT, GOVERNMENT AFFAIRS, 
                   SAFARI CLUB INTERNATIONAL

    Mr. Marlenee. Thank you, Madam Chairman and I appreciate 
your tacking ``The Honorable,'' on the front of that. I want to 
thank you for having the hearings, and I want to congratulate 
the author of the bill, Congressman Pete Peterson.
    Safari Club International has an organization representing 
a broad spectrum of sportsmen, supports without reservation the 
legislation that you have introduced.
    I appear here today as the consultant for Governmental 
Affairs for Safari Club International. In my 16 years in 
Congress, I served on the committees responsible for forest 
management, in both the Agriculture Committee and the Resources 
Committee. I have seen good management, and I've seen bad 
management. I have seen good proposals and bad proposals. The 
proposal to unilaterally, and I emphasize ``unilaterally,'' 
close roads is a bad proposal for sportsmen, and other 
recreational users. The proposal is so bad that it must have, 
and it does have, dedicated professionals in the field of the 
Forest Service shaking their head.
    Madam Chairman, if the Forest Service does not have the 
money to maintain 23 percent of their roads, which are not 
primitive roads, where in the world are they going to get the 
money to decommission, rehabilitate and restore even a small 
portion of existing roads which they propose to do? It's an 
expensive proposition, because access on public lands is 
important to good game management, and to sportsmen, we have to 
question if the proposal to eliminate access on public land is 
a political decision.
    We have to question what happened, what happened to the 
validity of Forest Management Plans that everyone participated 
in, and that the taxpayers spent hundreds of millions of 
dollars on. We have been there, and we have done that in 
previous congresses and through the administration, we've 
looked at those roads.
    We have to ask if the Forest Service is repudiating the 
credibility and credentials of its personnel and the validity 
of its own findings. These were the professionals who evaluated 
watersheds, wildlife sensitive areas, recreational needs, the 
validity of wilderness designation. The Forest Service does all 
of that prior to a timber sale, or building road, or even 
establishing a trail.
    We as sportsmen question the intent of a suddenly conceived 
or politically instigated concept that the bureaucracy must 
invoke a moratorium and involve themselves in a new round of 
evaluation of existing access to property owned by the general 
public.
    If the Forest Service must persist in this duplicative 
hearings--efforts, duplicative efforts, then sportsmen should 
have the opportunity to participate in hearings on every 
forest, just as H.R. 3297 calls for. To allege that regional 
hearings will suffice is a fraud. When ill-feelings already 
exist about being denied access, to deny the opportunity for 
input is an insult to sportsmen, the elderly, the handicapped 
and family oriented recreationist. We want to ensure that this 
new effort does not further erode an already diminishing access 
to recreational opportunity on public land.
    Increasingly, sportsmen are coming up against pole gates 
and barriers, ``no motorized vehicle,'' signs when they arrive 
at the edge of public property. They deserve to know how many 
miles have already been closed or lost before the Forest 
Service closes more.
    We would suggest that this Committee amend the bill to 
require the Forest Service to provide data at the local level 
on how many miles of roads have been closed in the past 10 
years and how many pole gates and barriers have been put up in 
the last 10 years.
    In an effort to justify further road closures, the Forest 
Service implies that hunting in the forest system is having a 
negative impact on wildlife. They contend that access has led 
to ``increased pressure on wildlife species from hunters and 
fishers.'' Madam Chairman, in my years of experience, it has 
been that the Forest Service consults extensively with state 
wildlife agencies and that the jurisdiction of wildlife and 
hunting is primarily a state right and responsibility. Because 
the Forest Service allegation appears in their public document, 
because it impugns the role of hunting in conservation, and 
because it denigrates the capability of state wildlife 
management, I would suggest that this committee require the 
Forest Service to name even one state agency that his not 
fulfilling their obligations. We, as an organization, know of 
none and resent the fact that this ill-thought out statement is 
used to justify closure considerations that could be harmful to 
sportsmen and wildlife management.
    In closing, the reason SCI is alarmed is that the public 
lands of the Forest Service are a destination for our hunters 
in our country. Over 16 million days of hunting occur annually 
in the national forest. For many of these hunters and 
sportsmen, the only opportunity to hunt is on public land. 
Safari Club International is committed to ensuring access in 
the forest for this group of sportsmen. We are gratified to 
have worked with both Federal public land managers and state 
fish and game officials, and we hope we can do so again in 
attempting to find reasonable solutions for the young 
generation of hunters, and for outdoor recreationists on our 
public lands.
    [The prepared statement of Mr. Marlenee may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Marlenee. The Chair is very 
happy to welcome Sharon Hahn. The last time I saw you, Mrs. 
Hahn, we were at the Boundary Waters, we flew from Eli around 
the Boundary Waters, the lakes, and it was a very interesting 
and educational flight. I thank you very much.

    STATEMENT OF SHARON HAHN, LAKE COUNTY COMMISSIONER, TWO 
                       HARBORS, MINNESOTA

    Ms. Hahn. And we thank you for coming up there. It was very 
nice of you do, and I hope that you have a better understanding 
of the lay of our land.
    Mrs. Chenoweth. Well, I want to welcome you to the 
Committee and we look forward to your testimony. Please 
proceed.
    Ms. Hahn. Thank you, Madam Chair. I am pleased to have the 
opportunity to address you and the committee on an issue that 
is critically important to the communities I represent.
    My name is Sharon Hahn, I'm an elected Lake County 
Commissioner from Minnesota, also representing Arrowhead 
Counties Association, which covers seven northeastern Minnesota 
counties. I am here to support H.R. 3297 and urge its passage.
    As a lifelong resident of the region, I find that we are 
continuously assailed by one ill-conceived regulation or 
another which directly effects our livelihood, economy, and 
welfare. Once again, we find a Federal agency unilaterally 
making an unfounded decision without input from citizenry and 
without understanding its effect.
    My associates have been trying for several weeks to 
determine the known extent of these regulations on our national 
forests, and cannot get definitive information or maps, showing 
the effected regions. The Forest Service cannot, or will not, 
tell us the possible extent of their regulation resulting from 
``wilderness boundary'' or ``Special Areas.''
    I find the proposed rules on road-building to be ambiguous, 
at best, and threatening to local businesses, other land 
managers, and individuals.
    The Federal Government has been studying roadless areas for 
over 70 years on the Superior National Forest. It began with 
the Forest Plan in 1926. We have gone through wilderness 
designation twice, RARE I, RARE II, and are currently involved 
in Forest Plan revision. Wilderness or roadless area review is 
a mandatory requirement for Forest Plan revisions. This process 
has no end. Forest Service decisionmaking is inefficient and 
not effective, particularly in regard to roadless areas. 
Something may need to be done, but this, in my opinion, is not 
it.
    Rule 2, which deals with areas adjacent to wilderness, has 
profound potential for wilderness expansion by fiat in several 
Minnesota counties. Perhaps hundreds of thousands of acres 
could be added by a de facto process to the existing wilderness 
areas since the existing boundary has 396 miles of adjacent 
lands.
    I am not sure what ``other Federal lands,'' means, but the 
Superior National Forest adjoins Indian reservations and 
Voyageurs National Park. Again, thousands of acres could be 
effected by this policy.
    There are in the proposed regulations no hint of what low-
road density development could be. ``Low'' compared to what? 
This could include most national forest land. Certainly there 
are roads in national forests, but compared to urban, rural, 
agricultural, and industrial lands, forest lands are areas of 
low-road density. There is no size requirement. The only areas 
exempted from the proposed rule are a few acres with a road or 
other facility sitting on top. Without some definitions, 
guidelines or criteria, it is impossible to estimate effects 
and comment constructively. How the national forests intend to 
implement this requirement is a complete mystery.
    Special and unique ecological characteristics or social 
values is the most puzzling and potentially most dangerous part 
of the proposed regulations.
    If one turns the statement around, and asks, ``What lands 
are there that do not have special, unique or social value?'' 
it becomes more clear. A judicial interpretation of this 
regulation could shut down the national forests. Who and how 
will the Forest Service determine the values that dictate to 
other social values?
    It is clear that decisionmaking, at least in this instance, 
is being centralized to the regional and Washington offices. 
Projects planned and designed at district level need to be 
decided by the region. It is another example of top-down 
government that is insensitive to local needs and concerns.
    Although private lands are expressly exempt from these 
regulations, the regulations are silent in regard to other 
intermingled public ownership. In the eastern region, where 
national forest lands were acquired, as opposed to land 
provided through public domain, there is a large amount of 
state and county land intermingled with national forest land. 
Within the forest boundaries of the Superior National Forest, 
and outside of the existing wilderness area, there are over 1 
million, 700 thousand acres of non-Federal ownership. State and 
county forest lands make up the bulk of these acres. We are 
deeply concerned about the consequences of other public 
ownership. We fully intend to access and manage our forest 
lands and waters. This leads to an interesting dilemma. If 
other public land and water is not exempt, how does the Forest 
Service intend to deal with the consequences?
    The meeting places suggested for public input are simply 
not acceptable. We are invited to travel 300 miles to listen to 
staff tell us what they don't know. The meetings are all in 
large cities where the bulk of the citizens are not adversely 
effected, or even care about these regulations. It is estimated 
that 50 to 55 million board feet of planned timber sales would 
be effected by these proposed regulations on the Superior 
National Forest alone. Jobs, family, businesses and communities 
within my region will be severely impacted by these proposed 
regulations. Meetings with northern Minnesota citizens that 
will be adversely impacted, and will need to live with the 
consequences, must have a real opportunity to be heard. This 
can only be done by having meetings in each national forest, as 
described in H.R. 3297.
    In summary, as proposed, these regulations will not result 
in better land management. Roadless area issues are not going 
to be resolved by interim roadless regulation.
    Madam Chair, I thank you for the opportunity to carry our 
message to this Congress and to point out the shortcomings of 
the proposed Forest Service roadless area regulations. H.R. 
3297 would at least begin to restore sanity to this proposal. 
Thank you.
    [The prepared statement of Ms. Hahn may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mrs. Hahn. The Chair welcomes 
Ric Davidge all the way from Anchorage, Alaska. Mr. Davidge.

          STATEMENT OF RIC DAVIDGE, ANCHORAGE, ALASKA

    Mr. Davidge. Thank you, Madam Chairman. I have provided the 
Committee a written statement, as well as appropriate 
attachments, and I would just highlight a couple of specific 
points in that.
    In the capacity as Acting Assistant Secretary for Fish, 
Wildlife and Parks during the Reagan administration, I also 
served as the chairman of the Land Policy Group between 1981 
and 1983. This group oversees the public policy and allocation 
of Land and Water Conservation Funds to the National Park 
Service, the Fish and Wildlife Service, Bureau of Land 
Management, and U.S. Forest Service.
    In 1982, the Land Policy Group formally promulgated the 
Land Protection Policy, which required unit-specific resource 
and fiscal allocation strategies that fully integrated local 
communities, and landowners in the process, while fully 
complying with NEPA and APA. Land acquisition, other than 
emergencies, was effectively halted in the process of these 
plans. I believe protection policy approach does have some 
application that you're facing before this Committee.
    We make five key points: The legislation should immediately 
stop road closures and the interruption of approved new roads 
for at least the 18 month process, or until each unit-specific 
plan is completed, reviewed and approved.
    Two, the Committee should require unit-specific plans with 
integrated participation, specifically, with local government 
officials and landowners who clearly have a high degree of 
impact other than general citizens at large. In the land 
protection program, unit managers were specifically directed to 
send notice each individual who owned land, or interest in 
land, within those areas.
    No. 3, the Committee should require full compliance with 
NEPA, specifically, in the area of secondary impact 
assessments. A lot of land managers do not understand the need 
to do secondary impact assessments which look at not just the 
social and economic, but also the cultural impacts of public 
policy, which is really one of the fundamental concepts of the 
passage of NEPA as a statute. The Committee should require full 
compliance with the Administrative Procedures Act. I have run 
open houses. They're effective in a scoping process, but not in 
the gathering of public testimony.
    And also, the Committee should require full compliance with 
the Americans with Disabilities Act. I look at a road as a 
public facility, and I think ADA would have some application 
there.
    In addition, and finally, I think the Committee should 
maintain its aggressive oversight of the implementation of the 
statute and require reports on a regular basis, as well as look 
at representative plans for each of the unit areas that the 
Committee members are interested in to see if they do comply 
with the statute.
    Thank you for the invitation, Madam Chairman.
    [The prepared statement of Mr. Davidge may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Davidge, for your 
very interesting testimony. The Chair recognizes Mr. Peterson 
to introduce the next witness.
    Mr. Peterson. It's my pleasure to introduce David Kiehl, a 
resident of the Fifth District in Pennsylvania, who has come to 
testify on behalf of H.R. 3297. I'd like to welcome him and 
thank him for making the trip here, and giving us, given the 
stringent timeframe.
    As Dave will explain, he is Vice President of North East 
Hardwoods located in Marienville, Pennsylvania. It's a 10 year 
old company. He comes today, however, as a member of the 
Allegheny Forest Alliance. The Alliance is a broad coalition of 
individuals and groups who are interested in the management of 
our public lands. As David will describe, the coalition 
reflects views of its members who support environmental 
stewardship, and active and multiple use management of our 
public lands, including the Allegheny National Forest. Again, I 
want to thank Dave for coming to Washington today to share his 
views, or the views of the Alliance with us.

    STATEMENT OF DAVID W. KIEHL, VICE PRESIDENT, NORTH EAST 
           HARDWOODS, INC., MARIENVILLE, PENNSYLVANIA

    Mr. Kiehl. Thank you, Congressman, and thank you, Madam 
Chairman for this opportunity, and members of the Subcommittee. 
As the Congressman stated, I'm Dave Kiehl, Vice President and 
one of the owners of North East Hardwoods of Marienville, 
Pennsylvania.
    North East Hardwoods, as he stated, is a small, privately 
owned producer of high-quality, and I underline that, Allegheny 
hardwood lumber. We also buy and sell veneer logs. We started 
our business in 1988. At that time, there were just my two 
partners, my wife, Jody, and myself. During the last decade, we 
have grown slowly, but steadily. Nearly all the timber that we 
use in our business comes from the Allegheny National Forest, 
90 to 95 percent to be exact. For our company, and many others, 
this National Forest is literally the mainstay of rural way of 
life.
    I am testifying today on behalf of the Allegheny Forest 
Alliance, a coalition of individual school districts, townships 
and boroughs, hardwood lumber and veneer manufacturers, trade 
associations, and sporting and wildlife conservation 
organizations. The Alliance supports sustainable forestry, 
environmental stewardship, and multiple use management of the 
Allegheny National Forest, and other public forest lands. We 
oppose the proposed moratorium on the construction of roads 
into national forest roadless areas. If such a moratorium is 
necessary, then Congress should enact H.R. 3297, legislation 
sponsored by Congressman Peterson and others, required to give 
extensive local hearings beforehand.
    The 513,000 acre Allegheny National Forest is located in 
northwestern Pennsylvania. It is a model of well-managed, 
multiple use forest. Like other national forests east of the 
Mississippi, the ANF was almost completely cut-over around the 
turn of the century. During the 1920's and 1930's, the Federal 
Government acquired these cut-over lands, and established the 
Allegheny National Forest. Through pro-active forest 
management, this second growth forest has slowly matured. Now 
the forest is at peak economic and biological condition. The 
ANF is extremely well-stocked with black

cherry, maple, ash and other valuable hardwood species. In 
fact, about one-third of the world's commercial supply of black 
cherry timber, used in fine furniture and veneers, comes from 
the Allegheny National Forest.
    Most of the unique roadless areas within the ANF have 
already been set aside under a variety of designations. And the 
road system within the forest is essentially complete. These 
roads are used primarily for recreation--I might say 90 percent 
for recreation--resource protection and resource management. 
Obviously, the proposed roadless area moratorium will have a 
different effect on the use and management of the ANF than on 
other national forests, for the roadless acreage is much 
greater. Certain national forests would be exempt from the 
moratorium. However, the ANF does not qualify for any of the 
exemptions. According to the ANF officials, there are roadless 
areas within the forest that would be effected by the 
moratorium.
    To help citizens in our area to comment on the moratorium 
proposal, we made several inquiries with staff of the ANF. In 
each case, we asked the Forest Service officials to tell us 
precisely how the moratorium would effect the ANF. To date, we 
have received information of what is proposed by the 
administration, but no information about how our forest would 
be effected. I don't think you need any other justification for 
the forest-by-forest hearings proposed in H.R. 3297 than the 
complete absence of any meaningful site-specific information 
about the local effects of the proposed national moratorium.
    I ask you, how can anyone be against this bill? All it does 
is require the agency to do what it should have done in the 
first place. Start at the bottom, and it works its way up.
    The Forest Service, at least in our part of the country, 
has not even prepared a map showing which portions of the ANF 
remain roadless. A national roadless moratorium poses risks for 
companies that rely upon national forest timber sales, as I do, 
and school districts and local governments that receive a 
portion of national forest receipts. But the greater risk is to 
the forest itself. An 18 month moratorium on road building in 
national forest roadless areas will tie the hands of those who 
we have been entrusted to manage our forest.
    Of particular concern to us, and to the sponsors of H.R. 
3297, is how forest health could be impacted. There are many 
situations where building a road is necessary to fight wild 
fire or otherwise protect the forest ecosystem. Therefore, we 
ought to assess the forest health implications of a road 
building moratorium before such a moratorium is adopted.
    The Allegheny Forest Alliance will continue to oppose the 
proposed roadless moratorium. However, if such a moratorium is 
inevitable, then top-level Forest Service officials should 
receive testimony from local citizens at hearings in, or near, 
every national forest. We urge the subcommittee to promptly 
approve H.R. 3297 to ensure that such hearings take place.
    Thank you for this opportunity to voice our concerns.
    [The prepared statement of Mr. Kiehl may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Kiehl, and thank you for 
traveling into Washington for this testimony. And last, but 
certainly not least, the Chair recognizes the Campaign 
Coordinator for the Western Ancient Forest Campaign, Steve 
Holmer.

   STATEMENT OF STEVE HOLMER, CAMPAIGN COORDINATOR, WESTERN 
            ANCIENT FOREST CAMPAIGN, WASHINGTON, DC

    Mr. Holmer. Thank you, Chairman Chenoweth, for this 
opportunity to testify. The Forest Service's proposed road 
building moratorium is a good first step toward improving 
management of National Forest roadless areas, but if falls 
short of President Clinton's statement that ``these unspoiled 
areas must be managed through science, not politics.''
    Roadless areas are critically important, both to people and 
wildlife. They provide clean drinking water, opportunities for 
recreation, wildlife habitat and spawning grounds for fish. 
Many communities depend on the clean water, as well as the 
recreation and tourism from unroaded forest areas. Recent 
studies in the northwest, the Sierra Nevada, Columbia Basin and 
Southern Appalachians have documented the ecological importance 
of these pristine areas, and the need for their protection.
    Taxpayer subsidies for timber roads facilitate the logging 
of roadless areas which otherwise would be uneconomical to log, 
thus adding to the red ink of the national forest timber sale 
program. These losses totaled $502 million in 1996, according 
to independent economist, Randall O'Toole, using Forest Service 
data. The Congressional Research Service noted that $790 
million was appropriated for timber sales in 1996, and yet not 
one dollar was returned to the Treasury for the 3.8 billion 
board feet of timber that was supposedly sold, and I would say 
given away from our national forest.
    We cannot continue to expand these subsidies which are 
harming the environment, and we have a system that we can't 
even maintain so it simply doesn't make sense to expand this 
network. You're creating a liability for the taxpayers in the 
process, a liability now estimated at least $10.5 billion.
    According to DOA Under Secretary Jim Lyons, ``Roads are the 
No. 1 threat to water quality on the National Forests.'' In 
addition, roads and logging are linked to increased landslides 
and flooding, threatening lives and property. The Sierra Nevada 
Ecosystem Project concluded that logging has actually increased 
fire risk by leaving flammable brush and changing the 
microclimate.
    I'd like to share with you a quote, another quote from the 
Columbia Basin Project, ``Fires in unroaded areas are not as 
severe as in roaded areas because of less surface fuel, and 
fires that leave some of the large trees survive to produce 
seed that regenerates the areas.'' Many of the fires in 
unroaded areas produce a forest structure that is consistent 
with the fire regime, while the fires in roaded areas commonly 
produce a forest structure that in not in sync with the fire 
regime. Fires in roaded areas are commonly more intense due to 
dryer conditions, wind zones on the foothill valley interface, 
high-surface fuel loading and dense stands. This suggests that 
the problems are not in the roadless areas, the problems are in 
the managed areas.
    Would the moratorium deny access to our forests? No, 
there's already an extensive network of 433,000 miles, plus 
another 25-29,000 miles of road that aren't talked about. These 
are county, state and Federal highways that criss-cross the 
national forest system. Right now, the Forest Service indicates 
that only about 80 percent of all traffic is on 20 percent of 
the roads. And just to get back to the point of hunting, this 
moratorium would not limit any existing hunting access.
    Would the moratorium invalidate the forest planning 
process? Regrettably, forest plan revisions have so far not 
adequately protected roadless areas. Two recently revised 
forest plans on the Black Hills and the Rio Grande did not 
propose to protect any roadless areas. A recent poll showed 
that 77 percent of northwest voters believe that protecting 
pristine forests as wilderness is an effective means of 
safeguarding clean drinking water, salmon habitat and ancient 
forests. The roads moratorium is a step in the right direction, 
but the proposed Forest Service rule would exempt the Tongas 
National Forest, the forests under the Northwest Forest Plan, 
forests that have revised their forest plans, and many roadless 
areas that are less than 5,000 acres.
    A policy for roadless area management should end logging 
and end road building in all inventoried roadless areas, as 
well as in roadless areas of smaller size identified through an 
independent scientific assessment. Good stewardship of our 
national forests requires that these last remaining wild places 
should be fully and permanently protected.
    And I'd like to comment on H.R. 3297. Our Campaign opposes 
the bill because it would unnecessarily delay the 
implementation of the proposed moratorium. The bill requires 
120-156 public hearings attended by the Chief or forester, plus 
156 separate analyses. This delay will cause substantial 
environmental harm from numerous timber sales now planned in 
national forest roadless areas. I'd like to enter America's 
Wildlands at Risk, a report that we produced that documents 50 
timber sales now pending in roadless areas that threaten our 
heritage. Will that be allowed in the record?
    Mrs. Chenoweth. Is there any objection?
    Mr. Holmer. Thank you.
    Mrs. Chenoweth. The Chair will take that under advisement. 
Thank you.
    [The prepared statement of Mr. Holmer may be found at end 
of hearing.]
    Mr. Holmer. We were satisfied with the moratorium's 
original 30-day public comment period because extensive public 
debate has taken place on the issue of timber roads over the 
last 2 years. And our position of roadless area protection is 
well-established. I'd like to also submit for the record over 
25 editorials that appeared in the newspapers in every region 
of the country in support of any destructive subsidies for 
building new logging roads. If you'd accept these comments, I'd 
be appreciative.
    Mrs. Chenoweth. Mr. Holmer, you are entering those as part 
of your testimony, right?
    Mr. Holmer. For the record, yes.
    Mrs. Chenoweth. All right, thank you. They are accepted.
    [The information referred to may be found at end of 
hearing.]
    Mr. Holmer. The additional 30-day comment period and the 25 
open houses around the Nation are giving interested citizens 
more than sufficient opportunity to register their concerns. At 
a recent open house in Anchorage, 60 citizens chose to 
participate and submit comments. The agency allowed those 
present to overview the comments received and 59 of those 
comments were in favor of the proposed moratorium. I would 
contend that there is strong public support for this 
moratorium.
    H.R. 3297 requires the Forest Service to determine that the 
moratorium will not effect forest health. The best available 
science indicates that the moratorium will help improve forest 
health by eliminating an activity, road building, that has been 
demonstrated to degrade watersheds with erosion and sediment, 
fragment wildlife habitat, and increase fire risks. Past forest 
management that emphasized road building, logging, fire 
suppression, and grazing has caused substantial degradation to 
managed areas. And it is in these areas that genuine 
restoration efforts should be undertaken, not in the roadless 
areas.
    Chief Dombeck stated in the recent testimony, and today, 
that 87 percent of the areas at high risk of wildfire are in 
the managed areas----
    Mrs. Chenoweth. Mr. Holmer, let me say that----
    Mr. Holmer. [continuing] not the roadless areas.
    Mrs. Chenoweth. [continuing] all witnesses with the 
exception of Chief Dombeck have been held to 5 minutes.
    Mr. Holmer. Sure. That's fine.
    Mrs. Chenoweth. So I'd appreciate your----
    Mr. Holmer. May I close my testimony?
    Mrs. Chenoweth. [continuing] wrapping it up----
    Mr. Holmer. Sure.
    Mrs. Chenoweth. [continuing] in 15 seconds.
    Mr. Holmer. OK, well in closing, while the stated intent of 
this legislation to increase public participation is laudable, 
the bill's provisions are excessive in this case. I will say 
it's encouraging that many of the bill's sponsors, who 
supported the Salvage Logging rider, which suspended public 
participation, have now reversed course and are endorsing the 
right of the public to have an input in public forest 
management. Thank you for this opportunity.
    Mrs. Chenoweth. Thank you, Mr. Holmer. The Chair recognizes 
for questioning, Mr. Peterson.
    Mr. Peterson. Mr. Holmer, how many of the forests have you 
visited?
    Mr. Holmer. I've been to 16 or 17 different national 
forests.
    Mr. Peterson. What part of the country?
    Mr. Holmer. In every region but the southwest.
    Mr. Peterson. You've been in the northeast?
    Mr. Holmer. Yes, up in Vermont.
    Mr. Peterson. In Vermont, OK. Do you think people from 
Pennsylvania who have a concern with this policy, the original 
plan called for them to go Minnesota or New Hampshire, you 
think that's----
    Mr. Holmer. Well, I personally felt that the public comment 
period where people could send their comments in writing 
through the mail was sufficient, and that would allow any 
person, in any part of the country to submit their comments. 
And that's an open opportunity that will be open until March 
30th, I believe.
    Mr. Peterson. OK, you don't think that people who are 
proposing regulations from Washington should have to stand in a 
public forum and defend those when local people have concerns, 
with the press there?
    Mr. Holmer. Well, I think that in some cases that might be 
appropriate. In our view, this proposal does not have the kind 
of impact that the legislation that you put forward would 
suggest.
    Mr. Peterson. You said, that's your opinion, OK. But I 
notice you have a good job. You're not impacted economically in 
anyway, you're not part of a rural economic economy, you don't 
depend on local recreation to make your living, you don't 
depend on any kind of resources from rural America to make your 
living, you're pretty cozy here, and it's easy for people from 
urban suburban America, who have their view, and they have a 
right to that, that most of rural America should be off-limits. 
You know, we have 700 million acres of public land here in 
America that we own, 700 million. Do you think we should timber 
any of it?
    Mr. Holmer. I believe that logging on the national forest 
is not the question before us today.
    Mr. Peterson. I'm asking you a question.
    Mr. Holmer. I don't have any problem with logging on 
national forests or on private or state lands. The question is 
where's the logging place, and what kind of logging are we 
talking about? You know, the fact is that these roadless areas 
are worth more protected, than they're worth logged, just for 
the clean water, just for the recreation, just for the fish and 
wildlife values. They're worth more protected, than they are 
logged.
    Mr. Peterson. Well, about 82 percent of the Forest Service 
land, which is not the set-asides, 82 percent of it, which is 
land for multiple use, we have lots of areas that are not for 
multiple use, but we're down to 18 percent that's now that you 
can practice forestry. It's been squeezed and squeezed and the 
squeeze is at a couple 3 more percent.
    How does that make good public policy, that this land was 
put in public trust for multiple reasons, recreation, tourism, 
resources, and individuals and groups like yourself, want to 
lock up the resources? You don't want that to be a part of the 
multiple use. And that's your bottom line, I know that as well 
as you know that.
    Mr. Holmer. Well, that is not our stated position. Our 
position is to protect old growth and roadless areas, municipal 
watersheds, riparian areas, and we have an ecological basis for 
these protections, but I think if you wanted to look at them 
through an economic prism, and you look at the timber sale 
program through an economic prism, it doesn't make sense the 
way we're conducting logging on the national forest right now. 
The program needs to be massively scaled back, if not 
completely eliminated, until they can show that they can do the 
job right.
    Mr. Peterson. Well, it's one-fourth of what it used to be, 
and I'm sure you'll be happier when it's one-fifth of what it 
used to be, or when it's one-sixth----
    Mr. Holmer. I think it should be noted why the harvest came 
down. Judge William Dwyer cited a systematic and deliberate 
failure by the Forest Service to comply with laws effecting 
wildlife. Now do you think it's OK for the government to ignore 
these laws? I disagree, the public disagrees and most 
certainly, the court disagrees.
    Mr. Peterson. But I think your argument just makes the 
point. What works in Alaska has no relevance to what works in 
Pennsylvania. What works in California has no relevance to what 
works in Vermont and New Hampshire or New England. We're a 
diverse country, we're a diverse forest and a ``one-fits-all'' 
policy--if I come to Washington for reason, is to give 
government back to the people, not to have government at the 
Washington level, at the administrative level, to set rules and 
regulations which I fear more than law, under any issue, not 
just this issue, that's the worst government you can have, when 
rules and regulations are promulgated without any sunshine.
    The basis of government, good government, is the people 
having a chance to share their views. Only the elite 
organizations of America had a chance to share their views on 
this issue, on both sides of the issue. The citizens that grub 
out a living, that carry a lunch bucket, that are fighting to 
feed their families, and want to have a quality of life in 
rural America, have not been heard and they deserve to be 
heard.
    Mr. Holmer. I would agree that public participation and 
sunshine is extremely important. I think in this case the 
provisions in your bill go a little too far, and I think based 
on the 20,000 comments the Forest Service has received, there 
are a lot of people in this country who are paying attention, 
and who have submitted comments.
    Mrs. Chenoweth. Thank you, Mr. Peterson. The Chair 
recognizes Mr. Vento.
    Mr. Vento. Well, thank you, Madam Chairman, I just want to 
say that I think that the purpose of public participation is 
good. I think the effect of this bill would be to obviously to 
completely frustrate exercise of this new policy, whether you 
agree or disagree with it, that's the effect of what this 
legislation does.
    I'm pleased to see a Minnesota witness here, Commissioner 
Hahn. Do you have, how would you characterize the roads in the 
Superior Forest, I guess that's, in the Superior National 
Forest, are they in good repair, or not?
    Ms. Hahn. I would say that that would depend on who owned 
the roads.
    Mr. Vento. Well, I'm talking about the Forest Service 
roads.
    Ms. Hahn. Of the Forest Service roads, OK, because the 
State of Minnesota roads, we have an argument with. Again it 
would depend on what area you go to, I would like to point out 
that in the Superior National Forest, there's already 1.3 
million acres set aside for wilderness where there are no 
roads, that's already roadless area.
    Mr. Vento. Well, I don't think there ever have been very 
many roads in those areas, and the few that there were, we're 
still fighting about.
    Ms. Hahn. I'm sorry but we had a train route, there is 
still railroad----
    Mr. Vento. Yes, but what about the roads in the Superior 
National Forest, how many miles of roads are there in the 
Superior National Forest today?
    Ms. Hahn. I'm sorry I don't have that figure with me.
    Mr. Vento. Do you know anything about the condition of 
them?
    Ms. Hahn. I do just from driving on them on a daily basis.
    Mr. Vento. You don't have any official information on those 
roads in the Superior National Forest?
    Ms. Hahn. I would be more than happy to get it out here for 
you.
    Mr. Vento. Well, I think we can get it from the Forest 
Service. I was just interested in, you know, whether you had 
knowledge about the issue with regards to the moratorium? Do 
you have any information on the Chippewa National Forest?
    Ms. Hahn. No, and I am concentrating on the Superior. 
However, Koochiching County and Itasca are part of the counties 
that sent me out here. I guess our largest concern about this 
roadless area is the fact that our county is also on roads on 
those, in the national forest.
    Mr. Vento. Are they maintaining them?
    Ms. Hahn. The counties do maintain the roads, and we are 
building new roads for logging jobs. Our part of Minnesota is 
dependent on the three T's, timber, tourism and taconite.
    Mr. Vento. Well, tourism is a big part of the Forest 
Service budget, and the Forest Service, we actually have about 
three times the number of visitor days in the forest as 
tourists, for instance, in the National Park System. Something 
like between 800 and 900 million visitor days, or visits to the 
national forest. And it's pointed out here that they actually 
result in a contribution of $100 billion in dollars, that's 2.5 
million jobs, just in terms of recreation, in terms of the 
forest, so it's changing. If you looked that 25 years ago, 50 
years ago, it was much different. Don't you think that our 
policies need to adjust to deal with that?
    Ms. Hahn. I'm sorry to disagree with you but 25 years ago--
--
    Mr. Vento. I didn't hear what you said.
    Ms. Hahn. I'm sorry to disagree with you but 25 years ago 
tourism was as big as it is now.
    Mr. Vento. Yes.
    Ms. Hahn. In our area of Minnesota.
    Mr. Vento. Well, that's all right, you can disagree with 
it, but you can't disagree with the facts in terms of the 
overall forests, and maybe that the areas in Superior is a 
different circumstance, and in other areas, I don't know, but 
we do, I know that there have been more visitor days in the 
Boundary waters and has increased since 1978 by 60 percent.
    Ms. Hahn. And those visitor days are not having an impact 
of people outside the Boundary waters.
    Mr. Vento. Well, there is more people using it, I don't 
know if, you know, what the effect is.
    Ms. Hahn. If you cut the roads by a one-third in the 
Superior National Forest, it will not only have an effect on 
our forest industry but in fact will have an effect on our 
tourism industry.
    Mr. Vento. Well, I think that that's something to be looked 
at. I guess that's why we're having hearings. We're talking 
about a moratorium on road construction for a short period of 
time, and I think that there is a question of maintenance.
    Now, part of the Chief's, Service's, testimony is that 80 
percent of the people use about 20 percent of the roads. You 
disagree with that? Do you have any numbers that, you don't 
disagree with that?
    Ms. Hahn. I do not disagree with that----
    Mr. Vento. Maybe the Superior is a-typical or maybe 
Chippewa National Forest is a-typical.
    Ms. Hahn. I think that we have more hunters and fishermen 
up there than in some of the other areas. However, it still 
comes down to the basic fact that one of our main reasons for 
sending me here is the fact that there are county lands and 
state lands inside the Superior National Forest----
    Mr. Vento. I read your testimony with regards to that, and 
you know, as far as I know I don't know what that impact is, 
but I do not think there is an impact. Incidentally, you 
suggested that some people in Minnesota were going to have to 
travel 300 miles to get to St. Paul?
    Ms. Hahn. That is in fact true.
    Mr. Vento. Well, I don't know it isn't, Two Harbors isn't 
300 miles, is it?
    Ms. Hahn. I am one of the lucky ones. However, when you 
happen to be living in Hovland, Minnesota or by Grand Portage, 
Minnesota, you do have a 300 mile trip.
    Mr. Vento. Well, you could, I don't know, I think it's, I 
think that for most it's a lot closer than that.
    I appreciated your testimony, Mr. Holmer. You pointed out 
that, in fact that the roaded areas are more likely to be 
associated with fires, is that correct?
    Mr. Holmer. That's right. Chief Dombeck has indicated----
    Mr. Vento. Well, there are two points, my time is up, but 
two points: one is that the roaded areas are more likely to be 
an intrusion into forest health and to cause a decline in 
forest health, in and around the roaded areas; and second, they 
are more likely to be associated with fire. Now, of course, 
there is some suggestion that if this moratorium would 
interfere with fire-fighting, I think that is not correct. But 
the fact is that we do get more fires in and around roads, you 
get more noxious weeds, you get more problems with forest 
health. That's the testimony of the Chief----
    Mr. Holmer. That's correct.
    Mr. Vento. [continuing] and that's the documentation of the 
scientists. You know, this isn't something that I have created 
to be contrary with some of the witnesses, or with the bill. 
That is the scientific information, that's the statistics, 
that's what they tell you. Just like the statistics on 
recreation and tourism. I thank you for your testimony, Mr. 
Holmer, you've----
    Mr. Holmer. Thank you.
    Mr. Vento. [continuing] been helpful, and others I've taken 
into consideration the questions that you've raised, Ms. Hahn, 
with regards with state and county lands, how they'll be 
effected by this moratorium, the short moratorium.
    Mr. Peterson. Recognize the gentleman from Montana, Mr. 
Hill.
    Mr. Hill. Thank you, Mr. Chairman, Congressman Marlenee, 
thank you for coming. I appreciate it very much. How do you 
respond to the Forest Service claim that it is allowing public 
input by having these regional hearings?
    Mr. Marlenee. It's a fraud, Congressman. To allow true 
public hearings, you've got to have them in the area where they 
are effected in every regional forests. In the State of 
Montana, for instance, Region 1, there are 10 national forests, 
10 of them. The furthest forest district office is in South 
Dakota, some 700 miles away from the regional forest. Now it's 
easy to gather elitist in a center like Minneapolis or in a 
center like Mazula. They're the ones that will come down there 
from the organizations in an organized effort, and testify, and 
be at these hearings. But what about the wage-earner, the guy 
that's the shoe clerk, the mechanic, the fellow that's maybe a 
bank teller, and his hunting is affected in Montana, and the 
far eastern edge in South Dakota, or in Idaho, where there are 
two national forests that belong to Region 1. Is he going to be 
able to take the time and give his input? Of course not. And so 
they must have the hearings the Peterson bill provides.
    Mr. Hill. You heard Mr. Holmer comment that this moratorium 
is not going to reduce sportsmen access in any way. Would you 
agree with that statement, or would you disagree with that 
statement?
    Mr. Marlenee. I need to catch that again, I apologize.
    Mr. Hill. Mr. Holmer says that this moratorium is not going 
to reduce sportsmen access in any way, do you agree or disagree 
with that comment?
    Mr. Marlenee. Well, all you have to do is read their No. 1 
objective in their proposal, rulemaking objectives, ``roads 
will be removed where they are no longer needed and ecological 
values will be rehabilitated and restored in formerly roaded 
areas. These outcomes will be accomplished by aggressively 
decommissioning unneeded roads.'' Now first of all, the 
sportsmen have to have some input into what roads are going to 
be ``decommissioned,'' and that's a very innovate word 
developed within the bureaucracy. Somebody will get a merit-pay 
raise because of that innovation and that creativity, I'm sure. 
But the point is that the decommissioning of these roads and 
the rehabilitation that will take place is bound to have an 
impact on sportsmen and their access, there's no question about 
it.
    Mr. Hill. And they ought to have the right to comment on 
that, don't you think?
    Mr. Marlenee. They what?
    Mr. Hill. They ought to have the right to make comments?
    Mr. Marlenee. Right, they have every right to make 
comments.
    Mr. Hill. You mentioned in your testimony about pole gate 
barriers and other ways to close roads, what has been your 
personal experience with regard to that in Montana, or 
elsewhere?
    Mr. Marlenee. In one of the forests, I made the comment 
because already a vast number of miles of roads have been 
closed on national forests, maybe it's good, maybe it's bad, 
but nonetheless when you add that to new proposals, and 
additional closures, the public deserves the right to know how 
many miles have already been closed. Now my experience has been 
that forest, or that sportsmen, recreationists, berry pickers 
are running up against pole gates, barriers, ``No motorized 
vehicle,'' signs, and when they do, they're asking, ``What's 
going on here?'' Well the Forest Service has erected these.
    I asked one forester for the information. I went to a 
Senator, and said give me this information. The Forest Service 
said, ``Who wants to know?'' The Senator said, ``We do.'' It 
took them forever to come up with the information, but on that 
one forest, hundreds of miles of roads had been closed and well 
over 100, I'm thinking like a 120 pole gates and barriers had 
been put up in the last 10 years.
    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Peterson. The gentleman from Alaska, that was an issue 
you raised too wasn't it, would you like to again review in a 
little more detail what you would like to have added to the 
legislation?
    Mr. Davidge. Thank you, Mr. Chairman. I don't recall 
specifically raising that issue, but the point that I was 
making is the effectiveness of the Land Protection program, was 
that, a moratorium, if you will, in activity and acquisition 
while the planning process was taking place, until the unit 
plan was done, in this case, until you've completed your public 
participation, status quo is maintained.
    One of the things that I again want to highlight, in the 
implementation of the Land Protection program, we found that 
most agencies did not have a reasonable understanding of how to 
do secondary impact assessments, looking at social, economic, 
and particularly cultural impacts. The General Accounting 
Office has done a number of investigations and published 
reports on the cultural impacts of public policy without these 
kinds of unit-specific considerations.
    One of the criticisms that we received on the 
implementation of this program was that we were not given 
adequate notice. We directed that every landowner was given 
specific and individual notice. Certainly, in national forests, 
any national forest manager knows who the people are that are 
directly effected by these policies, and they should be given 
direct and individual notice as well. That's what I mean by 
full compliance with NEPA, and full compliance with APA, rather 
than just performing the minimum requirements which, I would 
say, the open house approach is doing.
    Mr. Peterson. As a public policy person had to make 
decisions, are you surprised with the, you know, the difference 
in all of our forests in America, I mean from Alaska to Maine, 
and from California to Pennsylvania, to have a national, aren't 
you surprised that we've come up with this sort of a national 
change or policy with not even a discussion with the regional 
foresters?
    Mr. Davidge. Mr. Chairman, I'm not surprised.
    Mr. Peterson. OK.
    Mr. Davidge. I've faced that challenge when I was with the 
Department of Interior, but one of the things that I've found, 
I'm probably one of the few people on this planet that has read 
every enabling act of every unit of the National Park System. 
One of the things that people don't remember is that most of 
these areas were created for specific purposes, or have 
specific amendments that allow acquisitions for specific 
purposes. With the implementation of the Land Protection 
program, the enabling acts, or the individual unit management 
plans had to be used as a guide in the implementation of these 
plans. That's why each unit plan was individual, but still had 
to meet some basic characteristics, which included 
participation, direct notice, those kinds of things. I'm not 
surprised of the diversity of the forests, certainly, I was 
never surprised at the diversity of the National Park System, 
or the Fish and Wildlife Service, but that's why it's so 
difficult to apply a broad-brush national policy, without unit-
specific planning. That's why you have unit-specific planning 
in the forest, every unit of the Federal estate has some level 
of management planning that are reviewed on a 5-year basis, 
that's why you do it, because you can't manage it from 
Washington, DC, you can't manage it from Seattle.
    Mr. Peterson. But too often we try to, don't we?
    Mr. Davidge. Yes, Mr. Chairman, because we're under 
pressure from our superiors to find a way to implement national 
strategies, but not only do they not work in natural resource 
management, they don't work in welfare programs, they don't 
work in housing programs. I visited 52 villages in Alaska, and 
I can tell you the history of Indian housing is terrible up 
there because the programs that are crafted in Washington, DC 
just don't work there.
    Mr. Peterson. I've been in public policy for quite a few 
years, and I know those who have resources and like to set 
public policy in whether it be education, or whatever the issue 
is, they much prefer dealing with one Federal Government and 
win one battle, than to win 50 battles with 50 states, and 
maybe hundreds or thousands of battles with all the individual 
counties or regions. But this is a very diverse country and I 
thank you for your testimony from Alaska.
    The gentleman from Pennsylvania, what have you learned, you 
said a little bit in your testimony, but what have you learned 
on how this will impact the ANF?
    Mr. Kiehl. The problem we have, we don't know how it's 
going to effect us. And to go--their meeting is clear up in 
Massachusetts I'm told. I mean, it's far enough to come down 
here and take time off for what I need to do. That's a problem, 
they don't even have a map of the roadless areas on the 
Allegheny National Forest. And the other thing is, you know, 
the Allegheny National Forest is very unique. Correct me if I'm 
wrong, but it is the most valuable national forest in the whole 
United States, it's one of the smallest, but it is the most 
valuable. But it is in very good shape, and contrary to what 
may be in other areas of the U.S. I know because my grandfather 
helped log it at the turn of the century. I can show pictures 
that all the hills were clear-cut. And now they're beautiful, 
very high-quality timber stands.
    And I beg to differ with Mr. Holmer here. The Allegheny 
National Forest has generated $105 million profit in the last 7 
years, 1990 to 1997. And of that, $26 million-plus has went to 
the local counties and school districts. We have returned that 
much money to the Treasury, OK. But we are being curtailed. We 
have an approved forest plan. We went through all the hurdles 
and all the input in 1986, it's scientifically based, the ASQ 
(Allowable Sale Quantity) of 94.5 million feet, they're not 
even going to get 16 million feet this year, you know. And I 
remember in 1986, the industry was roughly consuming 60 to 70 
million board feet. The Forest Service told us as an industry, 
``You need to get the industry to consume this 94.5 million 
feet.'' So we did, we geared up, myself and my two partners, 
there in 1988. We spent millions of dollars, were were in hock 
to our ears, OK.
    And to utilize this, I feel betrayed, not only as a 
citizen--not as a business-owner, but as a citizen, as a 
taxpayer, and this moratorium is saying 18 months isn't very 
long, it very much is. It is. We need to be harvesting timber 
to manage it properly, and the Forest Service has done a 
tremendous job. That's why we have the quality timber stands 
that we have in our area, because they've done a tremendous 
job, but they need to be allowed to do their job. But they 
can't take a broad-brush to it. What works out in California, 
does not work in Pennsylvania.
    Mr. Peterson. Thank you. Mr. Vento.
    Mr. Vento. Well, thanks, Mr. Chairman. I, you know, the 
issue is what is the road condition in the Mahogany or the 
other forest that you have----
    Mr. Kiehl. Allegheny.
    Mr. Vento. Allegheny in your area, what is the road, do you 
have any ghost roads there?
    Mr. Kiehl. Sure.
    Mr. Vento. When I was listening to my colleague talk about, 
my former colleague actually acknowledge Mr. Marlenee on the 
Committee, I'm from St. Paul incidentally, is that what you 
were referring to, people from St. Paul. In any case, sometimes 
we know as much as people from Medota Heights that are in the 
Sahara Club, or it's the Safari Club, well, pardon me.
    [Laughter.]
    Mr. Marlenee. I'll excuse you once.
    [Laughter.]
    Mr. Vento. OK, OK. Or even some of the Sierra Club, 
probably more in the Sierra Club than in the Safari Club, I 
might say.
    In any case, the issue of illegal roads and closing roads, 
you know, I remember my former staff member talking about, Dale 
Crane, talking about he tried when he was working for the 
Bureau, and how he tried to close some roads, and, you know, he 
eventually put up steel, he put up wood, they'd blow, finally 
it was dynamite that was used to keep it open. So there's a 
very determined group in terms of roads that are not legal.
    And I think one of the issues here, I mean, we're all 
talking about what the Forest Service do. The question is 
nobody's offering any solutions in terms of maintaining those 
roads. Nobody's talked about where's the revenue is going to 
come to do it. Obviously, the Forest Service is looking at, I 
mean, as the forester Chief said, he said, ``When you're in a 
hole and you want to get out,'' he said, ``put down the 
shovel.'' At least for, I understand the concern. I mean I 
think there are differences in terms of soil types. I was 
reading an article here where it found that the slump and slide 
rate is four times higher where you have a harvested forest, or 
managed forest, as opposed to where it's not being directly 
managed for forest harvest.
    I note that one of our witnesses referred today, said, 
``Roads are the No. 1 threat to water quality on the national 
forests. In addition, roads and logging are linked to increased 
landslides and flooding, threatening lives and property.'' I 
don't think anyone can deny that they, in other words, when 
roads aren't properly maintained and so forth, that you're 
going to have a lot more intrusion. I mean, everyone talks 
about it as if it's being done ideally, but here we've got a 
situation where the forest harvest is down. Local governments 
obviously want the 25 percent set-aside, and we got, we don't 
have the revenue to maintain the forest coming into the KV or 
any other funds to maintain the roads. They're built, they're 
put in and after that it's up to the Forest Service to 
maintain, 373,000, plus 60,000 of illegal roads, which are 
maybe even tougher to maintain.
    And of course, all within the forest but you've got this 
backlog of billions of dollars in terms of road maintenance and 
I don't see a solution that anyone's offering. I don't think 
anyone is talking about specifics, about how much road in the 
Allegheny is, what's the condition of the roads in the 
Allegheny, Mr. Kiehl.
    Mr. Peterson. Would the gentleman yield?
    Mr. Vento. I would yield to my colleague, sure.
    Mr. Peterson. Yes, well, we were talking about solutions 
and I was wondering if the gentleman from Minnesota would join 
me in this year's budget process to try to double the budget, 
instead of $109 million, make $218 million available to the 
Forest Service?
    Mr. Vento. Well, I think that I would be interested in 
increasing it if I thought that it was going to be for 
``reconstruction'' is the word that they sometimes use for 
closure, Mr. Marlenee, not ``decommissioning,'' that would be 
more direct. But reconstruction obviously is, in terms of 
trying to get in and solve some of the problems, or at least 
using a balance in terms of construction of new roads, and what 
we're going to do in terms of decommissioning. And I think 
that's the concern that many of us have, is that not going in 
to decommissioning in areas and having, rather than simply 
adding to the problem. But I think the problem that we have is 
that there's great reluctance to that.
    And the other question in terms of the 18 months, if that's 
too long, and the Allegheny, as I said, what's in the pipeline 
in terms of what's available that is not, there's not much in 
the pipeline in the Allegheny so you got a more, he's shaking 
his head no, let the record know, we don't have a visual 
presentation.
    Mr. Kiehl. No, there isn't in the pipeline----
    Mr. Vento. Yes, so there isn't enough in the pipeline to, 
so you have a special concern along those lines. And so it 
looks like, you know, there has to be some redress in terms of 
trying to deal with that if in fact there is going to be a 
hardship worked in that. Do you know what the condition of the 
road is in the Allegheny, in terms of how the Forest Service 
has rated them?
    Mr. Kiehl. I don't know their rating, no.
    Mr. Vento. Oh, but it seems to me that that's essential if 
you're going to come and talk, I mean to me, that's essential 
information.
    Mr. Kiehl. I know----
    Mr. Vento. Do you understand why I want that, why I asked 
that question, Mr. Kiehl?
    Mr. Kiehl. Yes.
    Mr. Vento. It's a reasonable question I think, and you 
really should know the answer to that because that's your 
forest, that's what your depending upon, that is the forest 
you're testifying to, isn't it principally?
    Mr. Kiehl. Yes.
    Mr. Vento. And so, I mean, it's absolutely essential to 
understand that. So, I mean, unless there's some understanding 
in terms of what that is, or if you disagree with their 
assessment, I mean that's possible, but I think most of this is 
done on an objective basis.
    Mr. Kiehl. I can tell you from a personal standpoint----
    Mr. Vento. Well, I think we got a little of that from Lake 
County, but you go ahead.
    Mr. Kiehl. OK. I can tell you when I buy a timber sale, OK, 
I have to pay to build the roads.
    Mr. Vento. Yes.
    Mr. Kiehl. All right, and I do it to the Forest Service 
specifications and I do it, and if I don't do it within what 
they feel that it can be done for, I burden the costs. So in 
other words, to give you an example, if they feel that it costs 
$100,000 to reconstruct, which is mostly all that we do in our 
area, our area is all roaded, OK, and if it costs me $120,000 
to do it, OK, I get tree credits for $100,000, but that $20,000 
I pay for.
    Mr. Vento. Yes.
    Mr. Kiehl. All right, now. Now listen, on top of that for 
every load of material, whether it's pulp wood or saw timber, I 
pay the Forest Service road maintenance, a dollar per thousand 
mile, and 50 cents a cord per mile for every load of material 
that I haul over the roads that I just paid to fix up. There's 
no subsidy. You know there's a misconception down here----
    Mr. Vento. Well----
    Mr. Kiehl. [continuing] let me finish----
    Mr. Vento. Yes.
    Mr. Kiehl. [continuing] there is a misconception, OK, there 
is no subsidy, all right at all. And the key is, for the Forest 
Service standpoint, I stand behind it. They get the roads the 
way they want them done, all right, and they get them done 
properly, all right.
    Mr. Vento. But anyway just reclaim my time, I understand 
that we could argue a long time on whether there's a subsidy 
but the issue is, at least at this point, what we're dealing 
with today is not that aspect of it----
    Mr. Kiehl. [continuing] you asked.
    Mr. Vento. [continuing] I think is another, but we're 
dealing with once the road is in and you've done your part. You 
harvested your timber. There's probably less revenue coming 
from the road at that point because you've done your hauling 
over it in terms of the allowable sales, and it's been, it's 
not in the pipeline now, it's cut, it's out. Now we got the 
road and it's, you know, 5 years after there's no revenue 
coming from the Congress to maintain it, to in fact, or to 
close it, which is important, who pays for that?
    In other words, there's a consideration here in terms of 
other values, in terms of recreation and other values that come 
into play, but the fact is that's why we got 433,000--or 
373,000, any way, that are legal that are not being made, the 
others ones obviously is just a matter of having adequate 
monitoring and policing activities is what it gets down to and 
that's tough enough. That's where we get into our guys with the 
bad attitude.
    But, I mean, that's where the issue here is, nobody is 
saying, ``Well, this is the solution, we're going to solve 
this,'' because this is wrecking, you know, this is actually 
causing economic devastation. When we had that problems with 
trails, we had it. We built a lot of trails through the 1930's 
with the CCC's, and a lot of those trails are not being 
maintained today, and what we've done is had volunteers come in 
and try to take over but it's not adequate.
    So it's just another case, it isn't just timber activity 
that has an infrastructure that's deteriorating. It's other 
aspects, but one closely related is, trails, and I'm sure 
there's statistics for that which obviously are a good concern. 
But this is the issue, you're all, it's easy to come in here 
and beat up on the Forest Service but nobody's presenting any 
solutions, that's got an answer to the question.
    Mr. Peterson. I will assure, though I'm only acting 
Chairman for the moment, I will assure the gentleman from 
Minnesota that I will give him an offer before this season is 
out, this budget season to measurably increase the Forest 
Service road budget and he can vote with me and help me get it 
passed.
    Mr. Vento. For maintenance and for closure and for 
reasonable----
    Mr. Peterson. We'll work it out, the Representative from 
Montana, Mr. Hill.
    Mr. Hill. Mr. Kiehl, I just want to stay with this point, 
because I think you were making a valid point. I think the 
gentleman from Minnesota kind of misses it, and that is that 
timber harvest subsidizes road maintenance, not just road 
construction. It does subsidize road construction, but it also 
subsidizes the road maintenance because you pay to maintain all 
of the roads that you use, both prior to being able to use 
those roads, as well as during the period of time that you use 
them, is that correct?
    Mr. Kiehl. That is very much correct.
    Mr. Hill. And so the fact that we're reducing timber sales 
is reducing the amount of money of that is available for road 
maintenance, is that correct?
    Mr. Kiehl. That's correct.
    Mr. Hill. And the Chief earlier pointed out that with $109 
million we're able to maintain half of the Forest Service 
roads, that if we maintained a reasonable level of timber 
sales, we could increase that from half to perhaps, and we 
don't know the number, because they don't know the number, 
they're telling us that they can maintain roads for $500 mile 
with a $109 million budget, but they're saying they need 
$26,000 a mile for the rest. Does it cost you $26,000 a mile to 
maintain Forest Service roads?
    Mr. Kiehl. I can build new roads for that.
    Mr. Hill. You can build a road for that, it doesn't take 
that kind of money, what does it cost you to maintain those 
roads would you say while you're using those roads for your 
logging purposes?
    Mr. Kiehl. In my previous job, I used to manage 29,000 
acres for Hammermill Paper Company, OK, and my budgeted, and 
this has been 10 years ago, but even so, if I graded the main 
roads once a year and kept the ditches open and kept the 
culverts open, it would cost $500 per mile, that's all the 
maintenance that I need to do in order to be able to come back. 
Now if you have constant use at all times a year, of course, 
the cost goes up but it no way goes near $26,000 per mile.
    Mr. Hill. Doesn't get to $26,500, does it?
    Mr. Kiehl. No way.
    Mr. Hill. Mr. Holmer, I'm just curious, has your group ever 
filed a formal statement with regard to a timber sale in 
support of it?
    Mr. Holmer. I don't recall that we have, we don't usually 
litigate or appeal timber sales, we tend to----
    Mr. Hill. Mr. Holmer, do you believe that the NEPA process 
requirements with regard to social and economic impacts are an 
important part of the process?
    Mr. Holmer. Yes.
    Mr. Hill. And do you believe that the process that is being 
implemented now with the moratorium, where we're having open 
houses complies with the provisions that require an evaluation 
of social and economic impacts?
    Mr. Holmer. I'm probably not the best person to judge that.
    Mr. Hill. OK, have you ever been in a Montana forest?
    Mr. Holmer. Yes, I have.
    Mr. Hill. Which one?
    Mr. Holmer. I've been to the Highlight Canyon on the 
Gallatan National Forest and also the Crazy Horse Mountains.
    Mr. Hill. Good. Can you identify for me in either of those 
two forests where flooding or landslides were directly 
associated with forest road constructions.
    Mr. Holmer. I don't have any instances to report from those 
forests, I know that----
    Mr. Hill. That's the one's I'm interested in. What 
percentage of the roads, of the 373,000 roads that are closed, 
what percentage of them, of the 373,000 miles of Forest Service 
roads, what percentage of those are closed today?
    Mr. Holmer. Well, at a Forest Service briefing I was told 
roughly 20 percent of the roads are closed at any one time, but 
it's not always the same 20 percent.
    Mr. Hill. And do you know approximately how many acres are 
impacted by that?
    Mr. Holmer. I don't.
    Mr. Hill. Mr. Dombeck in earlier testimony with regard to 
this, identified the Interior Columbia Basin Study as the 
principal area with which they obtained new science with regard 
to making the determination for the road moratorium, would you 
agree that that science has been valuable in this exercise?
    Mr. Holmer. Well, I really think it is and there is science 
from other regions of the country that also basically support 
the broad conclusion that roadless areas should be protected.
    Mr. Hill. Are you aware of the fact that in the Interior 
Columbia that it calls for mechanical management, aggressive 
mechanical management in areas that are now considered 
roadless?
    Mr. Holmer. Well I think we would disagree with that. I 
think in terms of priorities it would make more sense to focus 
on the managed areas----
    Mr. Hill. No, I'm just asking if you were aware of the fact 
that that is identified in the science----
    Mr. Holmer. Is that in the scientific assessment or is that 
in the draft alternative?
    Mr. Hill. It's in the scientific assessment.
    Mr. Holmer. I'd have to review that.
    Mr. Hill. Do you know what it costs per mile to maintain 
gravel Forest Service roads?
    Mr. Holmer. I've heard $500 per mile.
    Mr. Hill. OK, and do you know what it costs per mile to 
obliterate a Forest Service road?
    Mr. Holmer. I've heard that that can vary tremendously 
depending on the landscape, if it's a steep slope, and how far 
the closures going to go, if it's just a gate----
    Mr. Hill. Do you have any idea of the range?
    Mr. Holmer. I've heard anywhere from, you know, $1,000 put 
a gate, to $12,000.
    Mr. Hill. No, to obliterate the road?
    Mr. Holmer. Up to $12,000 a mile, I think.
    Mr. Hill. $12,000 per mile.
    Mr. Holmer. Again, I'm not a Forest Service road engineer, 
I'm just relaying what I had a briefing by a Forest Service 
road engineer.
    Mr. Hill. Can you identify any of the 104 sales that will 
be canceled as a consequence of this moratorium that were 
uneconomic, below-cost sales?
    Mr. Holmer. I have not seen the list.
    Mr. Hill. OK, thank you, Mr. Chairman.
    Mr. Peterson. Any further questions. I would like to thank 
the panel members for their traveling here and their good 
testimony, and their, just being a good sport to take the good 
and easy and tough questions together, so thank all of you for 
part of process today, and God speed.
    [Whereupon, at 1:35 p.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
       Statement of Hon. Mike Dombeck, Chief, USDA Forest Service

Madam Chairman and Members of the Subcommittee:
    Thank you for the opportunity to join you today to discuss 
the National Forest transportation system. What I have proposed 
is essentially a ``time-out'' on road building in roadless 
areas during which Congress, the Administration, and the 
American people can engage in a dialog about when and where 
roads will be built in our National Forests. We are going to 
develop a science-based forest transportation system that meets 
the needs of local people while minimizing, and reversing the 
adverse environmental effects erosion, landslides, and 
degradation of wildlife habitat and water quality roads often 
cause.
    Let me outline my key objectives in developing this new 
policy. My first objective is to provide Forest Service 
managers with new scientific and analytical tools to make 
better, more informed decisions about when, where, and if new 
roads should be constructed. Second, we need to move quickly to 
decommission unnecessary and unused roads, as well as unplanned 
and unauthorized ``ghost roads.'' Third, we intend to improve 
forest roads, where appropriate, to respond to changing 
demands, local communities' access needs, and the growing 
recreation use of the National Forest System.
    This policy review is critical so we can focus our limited 
resources on the roads most in need. Finally, we intend to 
develop a road policy that allows us to ``catch up'' on our 
enormous backlog in road maintenance and reconstruction while 
meeting management objectives and access needs.

Roads Leave a Lasting Impact

    The road network on the National Forest System is extensive 
and diverse. Many roads are essential for the active management 
of National Forest resources and provide many and varied 
benefits. They are critical to timber harvest, mineral 
extraction, livestock grazing and recreation access. They 
provide important access for fire control, law enforcement, 
search and rescue, wildlife habitat improvement, and research 
and monitoring. There is no question that the road network on 
our National Forest System serves, and will continue to serve, 
as a fundamental component for delivery of multiple use 
programs.
    The simple fact is that the road system we have today is 
tremendously larger than what we can afford. Current funding is 
not sufficient to maintain all roads to the safety and 
environmental standards to which they were built. For example, 
we can only maintain 40 percent of the 373,000 miles to 
designated standards.
    Building a road requires a short-term investment of 
revenue. Its maintenance over time, however, is a long-term 
financial commitment. The cost of delaying timely maintenance 
and reconstruction increases exponentially over time. For 
example, in Idaho, the road to Riverside Campground on the 
Targhee National Forest could have been chip-sealed a few years 
ago for about $22,000. Today it will cost more than $110,000. 
To reconstruct about five miles of Scout Mountain Road on the 
Caribou National Forest will cost $1.4 million. We could have 
preserved most of our investment by spending $100,000 five 
years ago.
    In addition to the 373,000 miles of inventoried forest 
system roads, the Forest Service estimates that there are 
approximately 60,000 miles of roads that have been created by 
repeated use--we call them ``ghost roads''--that are not 
managed or maintained by the agency as part of the forest road 
system.
    While forest roads provide many benefits, they can also 
cause serious environmental damage. While new developments in 
road building technology result in fewer negative environmental 
effects, the environmental effects from existing roads are more 
extensive than previously thought. Road construction may cause 
increased frequency of flooding and landslides, and increased 
stream sedimentation, with associated reductions in aquatic 
habitat productivity and water quality. Roads may also fragment 
and degrade habitat for some wildlife species. Research 
indicates that reading may begin or accelerate the invasion of 
exotic plant species that ultimately displace native species 
and diminish the productivity of the land.
    Public use of and demands on national forest resources have 
shifted considerably during the past 10 years. While there has 
been a decrease in timber harvesting and other commodity uses 
we have seen steadily increasing growth in the amount and type 
of recreation uses. Currently, more than 90 percent of the 
traffic using Forest Service roads is recreation-related. With 
this shift in public use has come changes in user expectations 
and access needs, requiring new approaches to decide which 
roads to close or leave open, and the appropriate standard and 
configuration of these roads.
Shifts in Resource Demands

    The Forest Service must thoroughly review its road 
management policy and develop a comprehensive science-based 
policy for the future. This policy must be based on the 
changing resource demands and public use, coupled with the need 
to ensure that decisions on road building and maintenance are 
grounded in the best scientific information available. With 
these policies and procedures firmly established, local 
managers can decide where and how individual roads should be 
managed working with local people. The Forest Service needs to 
balance scientific information, public needs, and funding 
levels when determining the size, purpose, and extent of the 
future forest road transportation system.
    An essential element of this comprehensive overhaul of 
forest road policy is to develop improved analytical tools for 
land managers and resource specialists. To that end, agency 
researchers and specialists will develop an improved analysis 
process based on science and public involvement that ensures 
the ecological, social, and economic impacts of proposed 
construction and reconstruction of National Forest System roads 
are objectively evaluated, and that public demand on National 
Forest System roads is fully considered in the context of 
current scientific information. This analytical process will 
undergo an independent technical and scientific peer review 
before adoption.
    This analytical process will not directly result in any 
land use changes that require amendments to land use plans for 
the National Forests. However, this process will be applied 
locally to determine where, when, and how roads will be 
constructed, reconstructed, or decommissioned.

Making Better Use with Limited Funds

    In the last two decades, public interest in, and scrutiny 
of, the forest road system have increased dramatically. At the 
same time, resource uses on the national forests have shifted. 
It is our obligation as stewards of the public trust to 
consider adjustments in the management of the forest road 
system to respond to these changes and to better serve present 
and future management objectives in a more efficient manner. 
The existing road system on National Forest System lands was 
largely funded through the timber program and constructed to 
develop areas for timber harvesting and, to a lesser extent, 
for the development of other resources. Over the last decade, 
the timber program has been reduced significantly, resulting in 
less money being generated for road reconstruction and 
maintenance. We do not expect timber harvest levels to return 
to pre-1990 levels because of our more broad-based approach to 
forest management. Therefore, the Forest Service must identify 
sustainable funding sources for maintaining the forest road 
system in an environmentally sensitive manner that best meets 
the needs of local communities, other users, and visitors to 
the National Forest System. In the President's fiscal year 1999 
budget we have begun to direct more funding to maintain and 
decommission roads. We will do so in a public forum where all 
interests can be heard.
    In the Federal Register of January 28, 1998, the Forest 
Service provided advance notice of its intention to overhaul 
its road policies, and to change how the road system is 
developed, used, maintained, and funded. As part of this 
notice, the Forest Service proposed to temporarily suspend road 
construction and reconstruction in most unroaded areas of the 
National Forest System. This proposed temporary suspension 
would expire upon the application of the new and improved 
analysis tools or 18 months, whichever is sooner. The Forest 
Service is seeking public comment on both the proposed interim 
rule to temporarily suspend road construction/reconstruction in 
unroaded areas and the way the Forest Service road system is 
developed, used, and funded.
    The deadline for public comment on the proposed interim 
rule was February 27, 1998. As a result of early public and 
Congressional comment, we intend to extend the comment period 
on the interim rule another 30 days. We also will hold a series 
of public forums across the nation to assure full public 
participation in the roads policy revision. As of February 20, 
1998, we have received 2,450 comments on both the interim rule 
and the Advance Notice of Proposed Rulemaking, as well as 
opinions on road management. I ask that copies of the two 
Federal Register notices be placed in the record along with my 
statement.

Effects of the Proposed Road Policy

    Under the proposed interim rule, a limited number of 
planned land management projects that depend on new road 
construction, such as timber sales, may not be implemented in 
the timeframe currently planned. During the interim period, 
some projects may proceed in an altered form, and some may be 
postponed until such time as the road assessment process is 
implemented. I want to emphasize that only new road 
construction or reconstruction within roadless areas is 
affected by our proposal. Other needed forest management 
activities, such as thinning, helicopter logging, and 
prescribed fire could continue so long as they do not require 
new road construction.
    It is difficult to estimate with precision the costs and 
benefits associated with deferring projects due to considerable 
variation in site-specific factors. For instance; some projects 
are in various stages of development and planning and analysis 
often take longer to complete than originally anticipated. Some 
project work can be shifted to other sites outside unroaded 
areas.
    Although the precise amounts are difficult to estimate, our 
initial analysis indicates that a minimal amount of timber 
volume offered would be affected, which may lead to a small 
reduction in payments to states. It is expected that timber 
sales in the Intermountain and Northern Regions of the National 
Forest System be affected more from the suspension than other 
geographic regions of the country, such as California, because 
of a higher reliance on unroaded areas for timber production in 
these regions.
    While the delay in some projects may have some adverse 
economic impact in the short term, these impacts are offset by 
the benefits gained from the temporary suspension of road 
construction and reconstruction in the long term. The 
environmental benefits gained will assure critically important 
water quality in the headwater streams that are found in many 
of the unroaded areas. The development of a new road analysis 
process also would allow proposed and future projects requiring 
road construction to reflect current scientific information and 
resource use trends. This will help managers and the public 
better understand the consequences of locating and building 
roads in unroaded areas.
    As to how this proposal can affect the payments to states 
program, you should be aware that in its 1999 budget, the 
Administration has proposed providing predictable, reliable 
payments to states based on a formula similar to one now used 
for counties under the Pacific Northwest Forest Plan. We 
believe it is far more preferable for counties to have 
predictable payments rather than being affected by fluctuations 
in timber demand and supply from our National Forests.

Summary

    Madam Chairman, the Forest Service shares your concern for 
a transportation system that meets the needs of rural American. 
The Forest Service recognizes the need for a science-based 
process that enables us to manage our transportation system in 
a manner that minimizes--and in some cases reverses--
environmental impacts that degrade wildlife habitat and water 
quality. Roads leave a lasting imprint on the landscape. What I 
have proposed is essentially a ``time-out'' on road building in 
many unroaded areas until Congress, the Administration, and the 
American people can engage in a constructive dialogue about 
when and where roads will be built in our National Forests. 
This hearing, together with the public comments on the proposed 
regulatory changes, is part of that dialogue.
    That concludes my testimony Madam Chairman. I will be 
pleased to answer any questions the Subcommittee may have.
                                ------                                


       Statement of Brent Atkin, President, Public Lands Council

    Thank you, Madam Chairman, for the opportunity to testify 
today.
    The U.S. Forest Service's January 28th proposal to suspend 
road construction activities in all roadless and other 
``special'' areas, while it spends 18 months analyzing and 
revising the National Forest System transportation regulations, 
looks to me like a thinly-veiled attempt to essentially create 
de facto wilderness areas outside of the process that Congress 
has established.
    By law, roadless area decisions are dealt with in the 
forest planning process and wilderness area designations have 
been clearly spelled out by Congress. Many states have reached 
agreements and established wilderness areas under the existing 
framework. There will be no incentives for local people to try 
and work through the existing processes to deal with local 
roadless area issues when this ``one size fits all'' policy 
from Washington becomes effective.
    Unfortunately, this proposal seems to be the latest example 
of this Administration's lack of interest in adhering to the 
statutory boundaries established by Congress. In my two years 
of service as President of the Public Lands Council, I have 
witnessed this ``administrative overreach'' several times: the 
Interior Department's 1994 Rangeland Reform regulations 
(several parts of which were enjoined by a Federal District 
Court as a result of a lawsuit by the Public Lands Council); 
the uproar caused by the President's creation of the Grand 
Staircase-Escalante National Monument and now this roadbuilding 
proposal.
    As a rancher who utilizes forage from Federal lands as part 
of my family's ranching operation, I find it difficult to 
understand how a top-down approach to Forest Service 
roadbuilding is going to benefit either the resources or the 
local people whose jobs depend on industries that use resources 
from Forest Service lands.
    What I do see happening for sure is that this action is 
going to generate more questions than answers which, in turn, 
will continue to add to the economic instability that we 
already have enough of. Until the Forest Service completes its 
review and issues new regulations about roads, I guess all we 
can do is speculate about how this will affect grazing, timber, 
mining and recreation Forest Service lands. I wonder how 
ranchers with Forest Service grazing permits in these new 
designated roadless areas are going to explain this proposal to 
their bankers?
    I can understand the desire of the Forest Service to ensure 
that its process for building and maintaining roads is based on 
the best science to ensure that roadbuilding is done in the 
least-damaging way, but their proposal seems to be putting the 
cart before the horse. If the Forest Service intends on 
evaluating all its lands to determine which lands should even 
have roads, it is turning the whole notion of multiple use on 
its head. Many multiple use activities, such as timber, 
grazing, recreation, hunting, and camping, are just going to 
require a certain amount of roads in order to facilitate the 
activity, a very common sense conclusion.
    However, if roads are deemed to be ``inappropriate'' in a 
given area, then many multiple use activities will just not be 
able to take place. This is not the process that Congress has 
established for the Forest Service to make multiple use 
decisions. The decision to build, or not build, roads should be 
based on the multiple use needs of the specific location.
    As it currently exists, this roadbuilding moratorium seems 
likely to have several negative impacts. Roadless areas with 
unnaturally high fuel loads will continue to be highly 
susceptible to fires; watershed restoration activities 
requiring access will not be able to occur; local economies 
dependent on access to forest resources will suffer more job 
losses; and it will undermine the ability of local foresters 
and communities to properly manage forests based on local 
conditions.
    The Forest Service should withdraw its interim rule that 
places a moratorium on roadbuilding. It is not a necessary 
prerequisite for the Forest Service to be able to revise its 
roadbuilding regulations, and seems clearly designed to 
circumvent not only the multiple use decisionmaking process, 
but also the wilderness area designation process established by 
Congress.
    If it does not withdraw the interim rule, at a minimum the 
Forest Service should eliminate the ``Special Areas'' 
categories (new 36 C.F.R. 212.13(a)(4) and (5)). This ``special 
areas'' authority would essentially allow Regional Foresters to 
prevent roadbuilding on every acre, not just roadless, of the 
National Forest System that has ``unique ecological 
characteristics or social values,'' which would result in yet 
more acres being off-limits to multiple use activities.
    Thank you, Madam Chairman, for the opportunity to testify 
today.
                                ------                                


       Statement of Hon. Mike Dombeck, Chief, USDA Forest Service

Madam Chairman and Members of the Subcommittee:
    Thank you for the opportunity to continue the discussion of 
the National Forest transportation system, and specifically, 
the views of the U.S. Department of Agriculture on H.R. 3297, a 
bill suspending the development of a ``roadless area policy'' 
on the National Forest System. The Department of Agriculture 
cannot support H.R. 3297.
    This bill is clearly a response to my proposed interim rule 
which, if adopted, would suspend temporarily road construction 
in National Forest System roadless areas. To reiterate my 
testimony two weeks ago before this Subcommittee, what I have 
proposed is essentially a ``time-out'' on road building in 
roadless areas during which Congress, the Administration, and 
the American people can engage in a dialogue about when, where 
and if new roads will or should be built in our National 
Forests.
    During the last hearing, the Subcommittee was concerned 
about the urgency which would cause me to take such a strong 
action, knowing that the action would be controversial.
    I do not make such decisions lightly. I want to assure the 
Subcommittee, Madam Chairman, that I have several very strong 
reasons for proposing the suspension. The first was basic 
common sense. Recently, a citizen wrote, ``Chief, when you find 
yourself in a hole, the first thing you should do is put down 
the shovel.'' We presently have over a $10 billion backlog in 
maintenance and reconstruction on our arterial and collector 
roads. That's a $10 billion hole. These roads are the most 
heavily used and represent only about 20 percent of our forest 
road system. We can only guess at what our maintenance and 
reconstruction needs are on the other 80 percent of the system!
    In addition, we are only presently maintaining about 40 
percent of our roads to the safety and environmental standards 
to which they were built. In 1991, we rated 93,600 miles of 
roads as driveable by passenger cars. By last year, that number 
had fallen to 86,000 miles. I state these facts because they 
represent the ``hole'' that we find ourselves in.
    Given the current situation, it simply does not make sense 
to construct new roads in roadless areas when we cannot take 
care of the road system we already have. Our proposal is 
designed to give us the time to develop new scientific tools 
that our managers can use to make more informed local decisions 
about when, and if, to construct new roads. So, we are putting 
down the new road shovel.
    In addition to the common sense reasons, there are 
compelling scientific reasons to call for a timeout of road 
construction in roadless areas. There is strong scientific 
evidence that demonstrates the social and environmental values 
of roadless areas. Recent information from the Columbia River 
Basin demonstrate these values.
    For example:

        <bullet> Only 7 percent of the degraded watersheds in the basin 
        are found within roadless areas.
        <bullet> About 60 percent of the best aquatic habitats were 
        found in roadless or very low road density areas.
    Beyond common sense and sound science, there is also a fundamental 
taxpayer perspective which is important to me. Many people, including 
some taxpayer organizations, have said, ``look, don't spend any more of 
our money building something you may not need and that you definitely 
can't afford to maintain.'' Our fiscal year 1999 budget proposes a $10 
million savings in road construction costs by temporarily taking a time 
out to just figure out how to best maintain and manage access on 
national forests within our limited budgets can save taxpayer dollars 
over the long term.
    Choosing to build roads in areas not currently roaded is a dividing 
issue in many communities. I chose to pull that controversy in from the 
field and off the shoulders of the Forest Supervisors. While I support 
local decisionmaking, when I see an issue dividing the local public 
from community to community throughout the nation it deserves a 
national approach. I take very seriously our commitment to work in a 
collaborative manner with others. I also take very seriously our 
professional obligation to advance proposals based on the best 
available science.
    Let me again outline my key objectives in developing this new 
policy. My first objective is to provide Forest Service managers with 
new scientific and analytical tools to make better, more informed 
decisions about when, where, and if new roads should be constructed. 
Second, we need to move quickly to decommission unnecessary and unused 
roads, as well as ``ghost roads.'' Third, we intend to improve forest 
roads, where appropriate, to respond to changing demands, local 
communities' access needs, and the growing recreation use of the 
National Forest System. While there may be some disagreement about how 
to achieve these goals, I believe that these objectives enjoy broad-
based support.
    Finally, I strongly believe that common sense, science, public 
accountability and fiscal responsibility all strongly support my 
decision to take a time out. This ``time-out'' is both logical and 
necessary.
    At the last hearing, I committed to share the data the Forest 
Service has generated on the effects of the suspension. I asked each 
Forest to provide data on projects requiring road construction and 
reconstruction on certain lands in the National Forest System. We have 
received the requested data from each Forest and this information is 
included in the attached.
    This data is a refinement of the previous data which appeared in 
the Federal Register. It shows that the planned timber sales within 
inventoried roadless areas affected by the suspension went down from a 
total of about 200 million board feet to about 100 million board feet. 
A 50 percent decrease from what we earlier assumed. In addition, we are 
still looking at other impacts of the suspension as to access the 
minerals and recreation. These numbers are still being validated with 
the regions.
    Madam Chairman, I am well aware that my proposal to provide this 
road construction ``time-out'' has engendered adverse response on the 
part of some elected officials, organizations and individuals, mostly 
because of the possible reductions in timber harvesting and the 
reductions in more roadbuilding that the harvests would require. 
However, it has also gained much support from the broader public which 
sees their wildlands, wildlife and water quality jeopardized by more 
road building. To give everyone more of a chance to comment, we have 
extended the public comment period on the proposed draft Interim Rule. 
We also have scheduled public meetings all across the country to allow 
more opportunity for people to provide us their comments in writing or 
orally on both the proposed interim rule and in response to the advance 
notice of proposed rulemaking for revising our National Forest System 
transportation policy.
    Between March 10 and March 26, the Forest Service is holding 25 
meetings in the nine Forest Service regions. Regional Foresters will 
attend some of these meetings, but given the short time frame and the 
number of meetings, they may not be able to attend all of these. 
However, Forest Supervisors and other key staff will be present to 
listen to public comments. These comments will be recorded and included 
in the public comment review. In addition, a small number of public 
meetings are being added to respond to requests by Members of Congress, 
such as a meeting in Missoula, Montana, Pennsylvania and the 
Southeastern United States.

H.R 3297

    Madam Chairman, Representative Peterson and Members of the 
Subcommittee, to the extent that H.R. 3297 is intended to ensure full 
opportunities for the public participation in developing a short-term 
and long-term roads policy and in determining whether we should 
temporarily suspend road construction in National Forest roadless 
areas, we are in agreement. My approach to resolving this does include 
a lot of public participation. The Administrative Procedure Act (APA) 
governs rulemaking. Subsequent to publication of the Advance Notice of 
Proposed Rulemaking (ANPR) and the draft Interim Rule, we have 
responded to the high level of interest in the proposal and to 
suggestions by you and other Members of Congress by extending the 
public comment period for the draft Interim Rule and by scheduling the 
public meetings for both the ANPR and draft Interim Rule. By following 
the requirements of APA, we have ensured public participation from the 
outset, especially by our choosing to publish an advance notice of 
proposed rulemaking rather than proceeding to a proposed rule that 
would comprehensively revise our roads policy.
    H.R. 3297 would prohibit the Department of Agriculture from 
adopting a suspension of road construction rule unless we hold public 
meetings on every National Forest System unit and Regional Foresters 
would be required to participate in each of these meetings in order to 
adopt a final rule. These requirements are excessive in that they would 
require 120 meetings, stretching out the rule making timetable for at 
least 6-12 months, and add a significant cost to the taxpayer. The APA 
rulemaking process provides a structured process for public comment and 
we are following this process carefully to allow people to voice fully 
all of their concerns.
    We do not believe that a public meeting on every National Forest is 
appropriate. The roads proposal is not an issue of great local public 
concern everywhere in the country. We do not believe it would be 
productive and cost effective to have that level of discussion 
everywhere. Again, we are holding 25 meetings to begin with and as the 
long-term roads policy develops, we will most likely hold more.
    The bill directs the Forest Service to suspend the continued 
development of a roadless area policy on public domain units and other 
units of the National Forest System pending adequate public 
participation and determinations that a roadless area policy will not 
adversely affect forest health. While we fully support forest health, 
we find that the conditions in the bill for final approval of an 
interim roads policy are not consistent with the requirements for any 
other resource management decision. For example, if section (2)(B) were 
requisite for all decisions it might prohibit a wide array of 
activities (timber harvests, road construction, campgrounds, special 
use permits) that at some point preclude other activities. We have 
strongly supported the multiple use concept in our management of the 
public lands, but multiple use does not mean all uses on all lands at 
the same time. There is no reason these unique standards, which are 
different from the criteria on which we must base all other decisions, 
should be applied to this one decision.
    We also find apparent inconsistencies between the stated goals of 
improving forest management and the conditions in this legislation. The 
road policy under this legislation would depend upon a Forest Service 
conclusion that the policy won't ``adversely affect (economically or 
otherwise)'' timber users, recreational users, State, county or local 
governments. This conclusion would have to be based solely on the 
public hearing, a practice which is contrary to all established 
practice and would likely require conclusions to match those of the 
most vocal minority or those who fear they have the most to lose by 
changing the status quo, rather than conclusions which reflect a 
balanced consideration of the facts and the interests of the taxpayers. 
We are also concerned that the conditions stated in section (2) are in 
conflict, which would hereafter permanently prevent any attempt to 
improve Forest Management.
    In light of these concerns, the Department of Agriculture cannot 
support H.R. 3297. The APA provides adequate flexibility to address 
public participation, we have moved to broaden the public participation 
opportunities. I would ask you to allow us to follow existing law in 
determining whether we will proceed to adopt a temporary road 
construction suspension in roadless areas. I pledge that we will 
seriously consider all comments in deciding how to proceed.
    Madam Chairman, that concludes my remarks. I would be pleased to 
answer any questions you may have.
                                 ______
                                 

   Statement of Hon. Ron Marlenee, Consultant, Governmental Affairs, 
                       Safari Club International

Chairman Chenoweth and members of the Subcommittee:
    Safari Club International, as an organization representing 
a broad spectrum of sportsmen, supports the intent on 
Congressman Peterson's bill.
    I appear here today as the consultant for Governmental 
Affairs for Safari Club International. In my 16 years in 
Congress I served on the committees responsible for forest 
management in both the Agriculture Committee and the Resources 
Committee. I have seen good management and I have observed bad 
management. I have seen good proposals and bad proposals. The 
proposal to unilaterally close roads is a bad proposal for 
sportsmen and other recreational users. The proposal is so bad 
that it must have the dedicated professionals in the Forest 
Service shaking their head.
    Because access on public lands is important to good game 
management and to sportsmen, we have to question if the 
proposal to eliminate access on public land is a political 
decision.
    We have to question what happened to validity of the Forest 
Management Plans that everyone participated in and that the 
taxpayers spent hundreds of millions of dollars on.
    We have to ask if the Forest Service is repudiating the 
credibility and credentials of its personnel and the validity 
of its own findings. These were the professionals who evaluated 
watersheds, wildlife sensitive areas, recreational needs and 
validity of roadless and wilderness designations. The Forest 
Service does all of this prior to building a road or even 
establishing a trail.
    We as sportsmen question the intent of a suddenly conceived 
or politically instigated concept that the bureaucracy must 
invoke a moratorium and involve themselves in a new round of 
evaluations of existing access to property owned by the general 
public.
    If the Forest Service must persist in this duplicative 
effort, then sportsmen should have the opportunity to 
participate in hearings on every forest, just H.R. 3297 calls 
for. When ill feelings already exists about being defined 
access, to deny the opportunity for input is an insult to 
sportsmen, the elderly, the handicapped and the family oriented 
recreationist. We want to insure that this new effort does not 
further erode an already diminishing access to recreational 
opportunity on public lands.
    Increasingly sportsmen are coming up against pole gates, 
gates, barriers and no motorized vehicles signs when they 
arrive at the edge of public property. They deserve to know how 
many miles have already been closed or lost before the Forest 
Service closes more.
    We would suggest that this Committee amend the bill to 
require the Forest Service to provide data the local level on 
how many miles of roads have been closed in the past ten years 
and how many poles gates and barriers have been put up in the 
past ten years.
    In an effort to justify further road closures the Forest 
Service implies that hunting in the forest system is having 
negative impact on wildlife. They contend that access has led 
to ``increased pressure on wildlife species from hunters and 
fishers.'' My experience has been that the Forest Service 
consults extensively with state wildlife agencies and that the 
jurisdiction of wildlife and hunting is primarily a state right 
and responsibility. Because the Forest Service allegation 
appears in their public document, because it impugns the role 
of hunting in conservation and because it denigrates the 
capability of state wildlife management, I would suggest this 
Committee require the Forest Service to name even one state 
wildlife agency that is not fulfilling their obligations. We 
know none and resent the fact that this ill thought out 
statement is being used to justify closures considerations that 
could be harmful to sportsmen and to wildlife management.
    The reason SCI is alarmed is that the public lands of the 
Forest Service are a destination for hunters in our country. 
Over 16 million days of hunting occurs annually in the National 
Forest. For many of these hunters and sportsmen the only 
opportunity to hunt is on public land. Safari Club 
International is committed to insuring access in the forest for 
this group of sportsmen. We are gratified to have worked with 
both Federal public land managers and State Fish and Game 
officials. We hope we can do so again in an attempt to find 
reasonable solutions.
                                ------                                


Statement of Steve Holmer, Campaign Coordinator, Western Ancient Forest 
                                Campaign

    The USDA Forest Service's proposed roadbuilding moratorium 
is a good first step towards improving management of National 
Forest roadless areas, but it falls short of President 
Clinton's statement that ``These unspoiled places must be 
managed through science, not politics.''
    Roadless areas are critically important bow to people and 
wildlife. They provide clean drinking water, opportunities for 
recreation, wildlife habitat, and spawning grounds for fish. 
Many communities depend on the clean water as well as the 
recreation and tourism from unroaded forest areas. Recent 
studies in the Northwest, Sierra Nevada, Columbia Basin and 
Southern Appalachians have documented the ecological importance 
of these pristine areas. and the need for their protection.
    Taxpayer subsidies for timber roads facilitate the logging 
of roadless areas which would otherwise be uneconomical to log, 
thus adding to the red ink from National Forest timber sales. 
Those losses totalled $502 million in 1996, according to 
economist Randall O'Toole. And with a $10.5 billion backlog of 
needed repairs and maintenance on the 433,000 mile forest road 
system, only 40 percent of the roads are being properly 
maintained. It doesn't make sense to continue expanding a road 
system that we cannot currently maintain.
    Would the roads moratorium prohibit forest health 
treatments? Recent scientific studies to do not support either 
the need for treating roadless areas or the effectiveness of 
logging to reduce fire risk. The Columbia Basin Scientific 
Assessment concluded that roadless areas, not managed areas, 
are of the highest ecological integrity. According to 
Undersecretary of Agriculture Jim Lyons, ``Roads are the #1 
threat to water quality on the National Forests.'' In addition, 
roads and logging are linked to increased landslides and 
flooding threatening lives and property. The Sierra Nevada 
Ecosystem Project concluded that logging has actually increased 
fire risk by leaving flammable brush and changing the 
microclimate.
    Would the moratorium deny access to our forests No. There 
is already an extensive network of 433,000 miles of roads plus 
another 29,000 miles of county, state and Federal highways 
crisscrossing the National Forests. The Forest Service has 
indicated that 80 percent of all National Forest traffic is on 
20 percent of the road system.
    Would the moratorium invalidate the Forest Planning 
process? Regrettably, forest plan revisions have so far not 
adequately protected roadless areas. Two recently revised 
Forest Plans on the Black Hills NF and Rio Grande NF did not 
propose to protect any roadless lands.
    A recent poll showed that 77 percent of Northwest voters 
believe that protecting pristine forest as wilderness is an 
effective means for safeguarding clean drinking water, salmon 
habitat and Ancient Forests. The roads moratorium is a step in 
the right direction, but the proposed Forest Service rule would 
exempt the Tongass National Forest, the forests under the 
Northwest Forest Plan, forests that have revised their plans, 
and many roadless areas of less than 5,000 acres.
    A policy for roadless area management should end logging 
and roadbuilding in all inventoried roadless areas as well as 
in roadless areas of smaller size identified through an 
independent scientific assessment. Good stewardship of our 
National Forests requires that these last remaining wild places 
should be fully and permanently protected.

Comments on H.R. 3297

    The Western Ancient Forest Campaign opposes H.R. 3297 
because it would unnecessarily delay the implementation of the 
proposed roadbuilding moratorium. The bill requires 156 public 
hearings attended by the Chief or Regional Forester plus the 
creation of 156 separate analysis. This delay will cause 
substantial environmental harm from numerous timber sales now 
planned in National Forest roadless areas. I would like to 
enter America's Wildlands at Risk, which documents fifty timber 
sales now threatening roadless areas, into the official hearing 
record.
    We were satisfied with the moratorium's original 30-day 
public comment period because extensive public debate has taken 
place on the issue of timber roads over the past two years and 
our position of roadless area protection is well established. 
The additional 30 day comment period and twenty-five open 
houses around the nation are giving interested citizens more 
than sufficient opportunity to register their concerns. At the 
recent open house in Anchorage Alaska, sixty citizens chose to 
participate and submit comments. The agency allowed those 
present an overview of the comments received and fifty-nine of 
those comments were in favor of the proposed moratorium.
    H.R. 3297 requires the Forest Service to determine that the 
moratorium will not adversely affect forest health. The best 
available science indicates the moratorium will help improve 
forest health by eliminating an activity that has been 
demonstrated to degrade watersheds with erosion and sediment, 
fragment wildlife habitat, and increase fire risks.
    Past forest management that emphasized roadbuilding, 
logging, fire-suppression and grazing has caused substantial 
degradation of managed areas and it is in these areas that 
genuine restoration efforts should be undertaken, not in the 
roadless areas. According to Chief Dombeck, 87 percent of the 
areas at high risk of wildfire are in the managed areas, not 
the roadless areas.
    In closing, while the stated intent of this legislation to 
increase public participation is laudable, the bill's 
provisions are excessive in this case. It is encouraging that 
the original co-sponsors of this bill, who universally 
supported the Salvage Logging Rider which suspended the 
public's right of appeal and judicial review, have reversed 
course and are now supporting public involvement in forest 
management.
    Thank you for this opportunity to testify.


    [GRAPHIC] [TIFF OMITTED] 47305.001
    
    [GRAPHIC] [TIFF OMITTED] 47305.002
    
    [GRAPHIC] [TIFF OMITTED] 47305.003
    
    [GRAPHIC] [TIFF OMITTED] 47305.004
    
    [GRAPHIC] [TIFF OMITTED] 47305.005
    
    [GRAPHIC] [TIFF OMITTED] 47305.006
    
    [GRAPHIC] [TIFF OMITTED] 47305.007
    
    [GRAPHIC] [TIFF OMITTED] 47305.008
    
    [GRAPHIC] [TIFF OMITTED] 47305.009
    
    [GRAPHIC] [TIFF OMITTED] 47305.010
    
    [GRAPHIC] [TIFF OMITTED] 47305.011
    
    [GRAPHIC] [TIFF OMITTED] 47305.012
    
    [GRAPHIC] [TIFF OMITTED] 47305.013
    
    [GRAPHIC] [TIFF OMITTED] 47305.014
    
    [GRAPHIC] [TIFF OMITTED] 47305.015
    
    [GRAPHIC] [TIFF OMITTED] 47305.016
    
    [GRAPHIC] [TIFF OMITTED] 47305.017
    
    [GRAPHIC] [TIFF OMITTED] 47305.018
    
    [GRAPHIC] [TIFF OMITTED] 47305.019
    
    [GRAPHIC] [TIFF OMITTED] 47305.020
    
    [GRAPHIC] [TIFF OMITTED] 47305.021
    
    [GRAPHIC] [TIFF OMITTED] 47305.022
    
    [GRAPHIC] [TIFF OMITTED] 47305.023
    
    [GRAPHIC] [TIFF OMITTED] 47305.024
    
    [GRAPHIC] [TIFF OMITTED] 47305.025
    
    [GRAPHIC] [TIFF OMITTED] 47305.026
    
    [GRAPHIC] [TIFF OMITTED] 47305.027
    
    [GRAPHIC] [TIFF OMITTED] 47305.028
    
    [GRAPHIC] [TIFF OMITTED] 47305.029
    
    [GRAPHIC] [TIFF OMITTED] 47305.030
    
    [GRAPHIC] [TIFF OMITTED] 47305.031
    
    [GRAPHIC] [TIFF OMITTED] 47305.032
    
    [GRAPHIC] [TIFF OMITTED] 47305.033
    
    [GRAPHIC] [TIFF OMITTED] 47305.034
    
    [GRAPHIC] [TIFF OMITTED] 47305.035
    
    [GRAPHIC] [TIFF OMITTED] 47305.036
    
    [GRAPHIC] [TIFF OMITTED] 47305.037
    
    [GRAPHIC] [TIFF OMITTED] 47305.038
    
    [GRAPHIC] [TIFF OMITTED] 47305.039
    
    [GRAPHIC] [TIFF OMITTED] 47305.040
    
    [GRAPHIC] [TIFF OMITTED] 47305.041
    
    [GRAPHIC] [TIFF OMITTED] 47305.042
    
    [GRAPHIC] [TIFF OMITTED] 47305.043
    
    [GRAPHIC] [TIFF OMITTED] 47305.044
    
    [GRAPHIC] [TIFF OMITTED] 47305.045
    
    [GRAPHIC] [TIFF OMITTED] 47305.046
    
    [GRAPHIC] [TIFF OMITTED] 47305.047
    
    [GRAPHIC] [TIFF OMITTED] 47305.048
    
    [GRAPHIC] [TIFF OMITTED] 47305.049
    
    [GRAPHIC] [TIFF OMITTED] 47305.050
    
    [GRAPHIC] [TIFF OMITTED] 47305.051
    
    [GRAPHIC] [TIFF OMITTED] 47305.052
    
    [GRAPHIC] [TIFF OMITTED] 47305.053
    
    [GRAPHIC] [TIFF OMITTED] 47305.054
    
    [GRAPHIC] [TIFF OMITTED] 47305.055
    
    [GRAPHIC] [TIFF OMITTED] 47305.056
    
    [GRAPHIC] [TIFF OMITTED] 47305.057
    
    [GRAPHIC] [TIFF OMITTED] 47305.058
    
    [GRAPHIC] [TIFF OMITTED] 47305.059
    
    [GRAPHIC] [TIFF OMITTED] 47305.060
    
    [GRAPHIC] [TIFF OMITTED] 47305.061
    
    [GRAPHIC] [TIFF OMITTED] 47305.062
    
    [GRAPHIC] [TIFF OMITTED] 47305.063
    
    [GRAPHIC] [TIFF OMITTED] 47305.064
    
    [GRAPHIC] [TIFF OMITTED] 47305.065
    
    [GRAPHIC] [TIFF OMITTED] 47305.066
    
    [GRAPHIC] [TIFF OMITTED] 47305.067
    
    [GRAPHIC] [TIFF OMITTED] 47305.068
    
    [GRAPHIC] [TIFF OMITTED] 47305.069
    
    [GRAPHIC] [TIFF OMITTED] 47305.070
    
    [GRAPHIC] [TIFF OMITTED] 47305.071
    
    [GRAPHIC] [TIFF OMITTED] 47305.072
    
    [GRAPHIC] [TIFF OMITTED] 47305.073
    
    [GRAPHIC] [TIFF OMITTED] 47305.074
    
    [GRAPHIC] [TIFF OMITTED] 47305.075
    
    [GRAPHIC] [TIFF OMITTED] 47305.076
    
    [GRAPHIC] [TIFF OMITTED] 47305.077
    
    [GRAPHIC] [TIFF OMITTED] 47305.078
    
    [GRAPHIC] [TIFF OMITTED] 47305.079
    
    [GRAPHIC] [TIFF OMITTED] 47305.080
    
    [GRAPHIC] [TIFF OMITTED] 47305.081
    
    [GRAPHIC] [TIFF OMITTED] 47305.082
    
    [GRAPHIC] [TIFF OMITTED] 47305.083
    
    [GRAPHIC] [TIFF OMITTED] 47305.084
    
    [GRAPHIC] [TIFF OMITTED] 47305.085
    
    [GRAPHIC] [TIFF OMITTED] 47305.086
    
    [GRAPHIC] [TIFF OMITTED] 47305.087
    
    [GRAPHIC] [TIFF OMITTED] 47305.088
    
    [GRAPHIC] [TIFF OMITTED] 47305.089
    
    [GRAPHIC] [TIFF OMITTED] 47305.090
    
    [GRAPHIC] [TIFF OMITTED] 47305.091
    
    [GRAPHIC] [TIFF OMITTED] 47305.092
    
    [GRAPHIC] [TIFF OMITTED] 47305.093
    
    [GRAPHIC] [TIFF OMITTED] 47305.094
    
    [GRAPHIC] [TIFF OMITTED] 47305.095
    
    [GRAPHIC] [TIFF OMITTED] 47305.096
    
    [GRAPHIC] [TIFF OMITTED] 47305.097
    
    [GRAPHIC] [TIFF OMITTED] 47305.098
    
    [GRAPHIC] [TIFF OMITTED] 47305.099
    
    [GRAPHIC] [TIFF OMITTED] 47305.100
    
    [GRAPHIC] [TIFF OMITTED] 47305.101
    
    [GRAPHIC] [TIFF OMITTED] 47305.102
    
    [GRAPHIC] [TIFF OMITTED] 47305.103
    
    [GRAPHIC] [TIFF OMITTED] 47305.104
    
    [GRAPHIC] [TIFF OMITTED] 47305.105
    
    [GRAPHIC] [TIFF OMITTED] 47305.106
    
    [GRAPHIC] [TIFF OMITTED] 47305.107
    
    [GRAPHIC] [TIFF OMITTED] 47305.108
    
    [GRAPHIC] [TIFF OMITTED] 47305.109
    
    [GRAPHIC] [TIFF OMITTED] 47305.110
    
    [GRAPHIC] [TIFF OMITTED] 47305.111
    
    [GRAPHIC] [TIFF OMITTED] 47305.112
    
    [GRAPHIC] [TIFF OMITTED] 47305.113
    
    [GRAPHIC] [TIFF OMITTED] 47305.114
    
    [GRAPHIC] [TIFF OMITTED] 47305.115
    
    [GRAPHIC] [TIFF OMITTED] 47305.116
    
    [GRAPHIC] [TIFF OMITTED] 47305.117
    
    [GRAPHIC] [TIFF OMITTED] 47305.118
    
    [GRAPHIC] [TIFF OMITTED] 47305.119
    
    [GRAPHIC] [TIFF OMITTED] 47305.120
    
    [GRAPHIC] [TIFF OMITTED] 47305.121
    
    [GRAPHIC] [TIFF OMITTED] 47305.122
    
    [GRAPHIC] [TIFF OMITTED] 47305.123
    
    [GRAPHIC] [TIFF OMITTED] 47305.124
    
    [GRAPHIC] [TIFF OMITTED] 47305.125
    
    [GRAPHIC] [TIFF OMITTED] 47305.126
    
    [GRAPHIC] [TIFF OMITTED] 47305.127
    
    [GRAPHIC] [TIFF OMITTED] 47305.128
    
    [GRAPHIC] [TIFF OMITTED] 47305.129
    
    [GRAPHIC] [TIFF OMITTED] 47305.130
    
    [GRAPHIC] [TIFF OMITTED] 47305.131
    
    [GRAPHIC] [TIFF OMITTED] 47305.132
    
    [GRAPHIC] [TIFF OMITTED] 47305.133
    
    [GRAPHIC] [TIFF OMITTED] 47305.134
    
    [GRAPHIC] [TIFF OMITTED] 47305.135
    
    [GRAPHIC] [TIFF OMITTED] 47305.136
    
    [GRAPHIC] [TIFF OMITTED] 47305.137
    
    [GRAPHIC] [TIFF OMITTED] 47305.138
    
    [GRAPHIC] [TIFF OMITTED] 47305.139
    
    [GRAPHIC] [TIFF OMITTED] 47305.140
    
    [GRAPHIC] [TIFF OMITTED] 47305.141
    
    [GRAPHIC] [TIFF OMITTED] 47305.142
    
    [GRAPHIC] [TIFF OMITTED] 47305.143
    
    [GRAPHIC] [TIFF OMITTED] 47305.144
    
    [GRAPHIC] [TIFF OMITTED] 47305.145
    
    [GRAPHIC] [TIFF OMITTED] 47305.146
    
    [GRAPHIC] [TIFF OMITTED] 47305.147
    
    [GRAPHIC] [TIFF OMITTED] 47305.148
    
    [GRAPHIC] [TIFF OMITTED] 47305.149
    
    [GRAPHIC] [TIFF OMITTED] 47305.150
    
    [GRAPHIC] [TIFF OMITTED] 47305.151
    
    [GRAPHIC] [TIFF OMITTED] 47305.152
    
    [GRAPHIC] [TIFF OMITTED] 47305.153
    
    [GRAPHIC] [TIFF OMITTED] 47305.154
    
    [GRAPHIC] [TIFF OMITTED] 47305.155
    
    [GRAPHIC] [TIFF OMITTED] 47305.156
    
    [GRAPHIC] [TIFF OMITTED] 47305.157
    
    [GRAPHIC] [TIFF OMITTED] 47305.158
    
    [GRAPHIC] [TIFF OMITTED] 47305.159
    
    [GRAPHIC] [TIFF OMITTED] 47305.160
    
    [GRAPHIC] [TIFF OMITTED] 47305.161
    
    [GRAPHIC] [TIFF OMITTED] 47305.162
    
    [GRAPHIC] [TIFF OMITTED] 47305.163
    
    [GRAPHIC] [TIFF OMITTED] 47305.164
    
    [GRAPHIC] [TIFF OMITTED] 47305.165
    
    [GRAPHIC] [TIFF OMITTED] 47305.166
    
    [GRAPHIC] [TIFF OMITTED] 47305.167
    
    [GRAPHIC] [TIFF OMITTED] 47305.168
    
    [GRAPHIC] [TIFF OMITTED] 47305.169
    
    [GRAPHIC] [TIFF OMITTED] 47305.170
    
    [GRAPHIC] [TIFF OMITTED] 47305.171
    
    [GRAPHIC] [TIFF OMITTED] 47305.172
    
    [GRAPHIC] [TIFF OMITTED] 47305.173
    
    [GRAPHIC] [TIFF OMITTED] 47305.174
    
    [GRAPHIC] [TIFF OMITTED] 47305.175
    
    [GRAPHIC] [TIFF OMITTED] 47305.176
    
    [GRAPHIC] [TIFF OMITTED] 47305.177
    
    [GRAPHIC] [TIFF OMITTED] 47305.178
    
    [GRAPHIC] [TIFF OMITTED] 47305.179
    
    [GRAPHIC] [TIFF OMITTED] 47305.180
    
    [GRAPHIC] [TIFF OMITTED] 47305.181
    
    [GRAPHIC] [TIFF OMITTED] 47305.182
    
    [GRAPHIC] [TIFF OMITTED] 47305.183
    
    [GRAPHIC] [TIFF OMITTED] 47305.184
    
    [GRAPHIC] [TIFF OMITTED] 47305.185
    
    [GRAPHIC] [TIFF OMITTED] 47305.186
    
    [GRAPHIC] [TIFF OMITTED] 47305.187
    
    [GRAPHIC] [TIFF OMITTED] 47305.188
    
    [GRAPHIC] [TIFF OMITTED] 47305.189
    
    [GRAPHIC] [TIFF OMITTED] 47305.190
    
    [GRAPHIC] [TIFF OMITTED] 47305.191
    

</pre></body></html>
